<html>
<title> - OVERSIGHT ON TRANSPORTATION SECURITY</title>
<body><pre>[Senate Hearing 108-990]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-990
 

                  OVERSIGHT ON TRANSPORTATION SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and
                             Transportation


                        U.S. GOVERNMENT PRINTING OFFICE

91-310 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on September 9, 2003................................     1
Statement of Senator Boxer.......................................   107
Statement of Senator Breaux......................................   104
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................     5
Statement of Senator Lott........................................     4
Statement of Senator McCain......................................     1
Statement of Senator Snowe.......................................   100

                               Witnesses

Bonner, Hon. Robert C., Commissioner, Customs and Border
  Protection, U.S. Department of Homeland Security...............    16
    Prepared statement...........................................    19
Collins, Admiral Thomas H., Commandant, Department of Homeland
  Security, U.S. Coast Guard.....................................    11
    Prepared statement...........................................    13
Guerrero, Peter, Director, Physical Infrastructure, U.S. General
  Accounting Office; accompanied by Gerald L. Dillingham,
  Director, Civil Aviation Issues, and Margaret Wrightson,
  Director, Homeland Security and Justice Issues.................    34
    Prepared statement of Peter Guerrero.........................    37
    Prepared statement of Margaret Wrightson.....................    61
    Prepared statement of Gerald L. Dillingham...................    68
Loy, Admiral James M., Administrator, Transportation Security
  Administration, U.S. Department of Homeland Security...........    21
    Prepared statement...........................................    26
Shane, Jeffrey N., Under Secretary for Policy, U.S. Department of
  Transportation.................................................     7
    Prepared statement...........................................     8

                                Appendix

Burns, Hon. Conrad, U.S. Senator from Montana, prepared statement   111
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared
  statement......................................................   111
Response to written questions submitted to Admiral Thomas H.
  Collins........................................................   116
Response to written questions submitted to Gerald L. Dillingham..   127
Response to written questions submitted to Peter Guerrero........   120
Response to written questions submitted by Hon. Ernest F.
  Hollings to Admiral James M. Loy...............................   120
Response to written questions submitted by Hon. Frank R.
  Lautenberg to Gerald L. Dillingham and Margaret Wrightson......   124
Response to written questions submitted by Hon. John McCain to
  Margaret Wrightson.............................................   132
Written questions submitted by Hon. Ron Wyden to Admiral James M.
  Loy............................................................   122
Written questions submitted by Hon. Frank R. Lautenberg to
  Admiral James M. Loy, Hon. Robert C. Bonner, Peter Guerrero,
  Jeffrey N. Shane and Admiral Thomas H. Collins.................   124
Response to written questions submitted to Jeffrey N. Shane......   112

 
                  OVERSIGHT ON TRANSPORTATION SECURITY

                              ----------


                       TUESDAY, SEPTEMBER 9, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room
SR-253, Russell Senate Office Building, Hon. John McCain,
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN,
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. As we approach the second
anniversary of the terrorist attacks on the United States, it's
appropriate that we again focus our attention on transportation
security. Since that fateful day, our Nation has been fighting
the war on terrorism, whether it's our security abroad or at
home. We can't afford to lapse into complacency as we grow
accustomed to the so-called new kind of normal. Much has been
accomplished over the last 2 years, and I think many would
agree that transportation security is at its highest level
ever, particularly aviation security. However, we need to
remain vigilant across all modes of transportation, for the
threat to our country has not waned. If we're serious about
countering terrorist threats, and we are, we need to have
confidence in our security efforts across all modes of
transportation, and that requires our continued attention to
instituting or upgrading sound and reasoned security
initiatives.
    Today's hearing is intended to provide both a forum foro
know is, reviewing what has occurred over the last 2 years and
to determine what remains to be done to strengthen
transportation security, and how we can do it. With respect to
aviation security, we must ensure that the accomplishments of
the Transportation Security Administration are not lost.
    Over the last 6 months, the TSA has reduced its screener
workforce by 6,000 due to budgetary and appropriations
pressures. While there has been a lot of discussion in the
press about the impact of these reductions on waiting times at
checkpoints, the real question we need to know is, what is the
impact on security? A screener corps that is overworked and
stretched too thin is simply not going to be able to carry out
the job we're relying on them to do.
    With respect to ground transportation, we need to make sure
that the independent actions initiated so far by TSA, the DOT,
and industry are followed up with a systematic program of
security enhancements based on each mode's particular needs.
Clearly, there's need to enhance security on our highway and
transit networks, yet both are intentionally open and easily
accessible and, therefore, more difficult to harden against
terrorist attacks. Railroads and pipelines, for their extensive
unprotected rights of way, also present unique challenges.
    Further, we need to make sure that safety and security
efforts at DOT and the Department of Homeland Security are
adequately coordinated, since safety and security so often
overlap.
    Maritime security, because of the immense volume of trade
that must move through our Nation's ports, remains a daunting
task. While the Administration has taken action to implement
the many important requirements of the Maritime Security Act of
2002, many in the maritime community still wonder who is in
charge. They're confused by what, in some cases, appears to be
competing requirements of the various agencies claiming
responsibility for maritime security. Such confusion, not
unique to the maritime industry, is compounded by the lack of
agreements between the various agencies and departments
responsible for transportation security. Transportation
security is far too important to be placed in limbo due to
needless agency turf battles. I hope our witnesses today can
finally clarify the roles and relationships of the agencies
they represent.
    Our country was the victim of a terrible crime. Its after-
effects will continue to be felt. We must be diligent in
protecting our country, but always be cognizant of the burdens
we're placing on our citizens and industries.
    I thank our witnesses for being here and welcome their
insights into transportation security.
    Senator Hollings?

             STATEMENT OF HON. ERNEST F. HOLLINGS,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman, for
the hearing.
    I'll ask that my prepared statement be included.
    The Chairman. Without objection.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings,
                    U.S. Senator from South Carolina
    September 11 changed our world forever. It has changed our travel
patterns, it has changed the way we balance civil liberties against
security requirements, and ultimately it has changed the focus of our
government. Terrorism is a war, and it is a war that is perpetrated
against innocent civilians, so the stakes are extremely high, and
failure could have catastrophic effects, not only on the lives of
innocent civilians, but also on the economic health arid welfare of our
nation. Sunday night the President announced the Administration wants
an additional $87 billion to fight terrorism in Iraq, bringing the
total amount spent in Iraq to $150 billion. This amount represents
close to 5 times the amount of money that the President proposed to
spend on our homeland security this year. We must be able to fight this
war on two fronts--in Iraq and at home.
    I personally was reluctant to create a Department of Homeland
Security to address the issues confronting us because of the horrific
terrorists attacks. In fact, I was concerned that bureaucratic
reshuffling, without prior planning, would detract from our ability to
prepare and respond to threats of terrorism. However, we are stuck with
what we have, and the Administration must take the steps necessary to
help this bureaucracy work. Underfunding key transportation security
initiatives, and I know you all have to deal with OMB and the White
House for your budgets, is not a choice we can afford. I still am very
concerned that your agencies have a long way to go before you can claim
coordinated integration and that petty bureaucracies have been
overcome, and while we have some good people working on the problems, I
think that the Administration has not dedicated the necessary resources
to help you do the job. For example, we are busy taking pictures of the
President in front of the Coast Guard at the vitally important Port of
Philadelphia, yet we are not providing the port security funds for
Philadelphia to comply with its federally approved security plan. In
fact we are not even providing funding for the Coast Guard to review
the security plan. This year, the President's budget had not one penny
explicitly provided to help ports comply with the Federal mandates for
port security. When we passed the Maritime Transportation Security Act,
the Senate insisted on a user fee. Unfortunately in order to gain
passage of the bill we relented and we passed the bill without a user
fee because I was convinced by some that this was important and would
be supported by the Administration. Well the Administration was too
busy focusing on the tax cut to provide more than meaningful glance at
port security, and I have not been able to get votes needed to ensure
this funding.
    However, that is water under the bridge, and we need to move
forward and make sure that we provide the citizens of the United States
a secure transportation system. We saw after 9/11 that without an
enhanced security system, people would not get back onto planes. We had
to bail out the airline industry twice and invest billions. People all
over the United States are concerned about the issue of transportation
security. but as a nation we should be able to provide them the
security they deserve, and they should not have to be concerned about
getting on an airplane or riding Amtrak or traveling through the
Holland Tunnel from New Jersey into Manhattan.
    Our witnesses sit here today having done a remarkable job with what
they have been provided. For instance, over the past year and a half,
almost all of reports suggest that under the guidance of Admiral Loy,
aviation security has improved dramatically that the screening
workforce is well trained and doing a good job. But, and this is where
we have problems--funding remains critical. You can not take the
aggressive steps needed for cargo security, for research on new
explosive detection systems, and for training of Federal Air Marshals
without the money. You can not run an agency when Congress is putting
in artificial staffing caps, forcing you to ``right size'' the screener
workforce that will result in longer lines at the airports. That makes
no sense. I know you have to do what you are told and we both
understand that.
    We have a long way to go at our seaports. Although the Coast Guard
has stepped up to its new responsibilities for homeland security with
its usual vigor and ``can do'' attitude, I have some very serious
concerns that you are not able to implement the new Maritime Security
Transportation Act to secure our ports. For instance, the Act mandated
that certain large commercial vessels carry transponders to allow us to
monitor their movements, to help ensure that an oil tanker was not
hijacked and run into one of the many nuclear reactors located on our
navigable waterways, yet the President's budget included only $1
million to actually purchase the towers and equipment necessary to
start monitoring the cruise ships and oil tankers that already are
carrying identification equipment, and because of the insistence of the
OMB, they proposed delaying this project until 2007. This is not right.
While I am pleased that the Coast Guard receives an increase in your
budget, I would say that this increase is long overdue, and yet it is
still unclear if this increase is enough to ensure that all of the
Coast Guard's security and non-security missions are adequately funded.
    In general, I have real concerns about the whole surface
transportation security issue as well. We need to do more in this area.
The rail system traverses the entire nation, and our passenger rail
service operates through and under many of the most important
structures in the nation. We need to have a plan, and we need to follow
through with the necessary resources to secure this system, as well as
our other surface modes which move 800,000 shipments of hazardous
materials annually.
    None of us want to shortchange transportation security. The
Administration has got to let you do your job and provide the resources
necessary to build a security system, like the one the Israeli's used--
the onion, with layers and layers of protections. I look forward to the
statements of the witnesses.

    Senator Hollings. And I was a little tardy because I was
trying to figure out the exact figures. And I want the
witnesses to correct what I have here, from the best staff in
the U.S. Senate.
    [Laughter.]
    Senator Hollings. Airports. These are the figures, for,
that we need, according to our figures and everything else of
that kind. GAO, for example--and we've got the report in front
of us--is $5 billion more. We need to get the equipment for the
baggage check and the additional redesign and everything else
like that, a $5 billion amount. Tell me why that's right or
wrong.
    Ports, seven and a half billion. We told all the ports, Mr.
Chairman, to prepare plans and everything else. Now they've
submitted them, and everything else of that kind, and to flesh
out those ports plans, seven and a half billion dollars. The
Coast Guard needs an additional $500-million-point-five.
Admiral Collins, tell me if we need more. I know at one time,
the overall was about $7 billion for the Coast Guard. We've
been putting some in there. I want to make sure the AIS towers
are covered in the extra cost, and even craft, if we need them.
That was a low figure. I was trying to get it up higher, and
that's why I was late. Rail security, $3 billion, for Amtrak
and for the tunnels and what have you. The highways and
transit, the states say $2 billion is needed there. And Mr.
Bonner, Customs, I understand for cargo security the need is
about $2 billion.
    So overall, you add up the airports, the ports, the Coast
Guard, the rail security, the highways and transit, the Customs
and cargo security, $20 billion. Now, we've got $87 billion for
Iraq, Senator Lautenberg. I'm more for $87 billion for the
United States this morning.
    Getting right to the point, getting $87 billion for the
U.S., let me tell you how that works, Mr. Chairman. They expect
that to be cut back, probably, to $77 billion. You know how
we've got to try to act like we've really reviewed it in detail
and done our jobs, so we'll cut that back to $77 billion. The
$20 billion for the transportation needs here will cut us back
to some $50 billion, and we'll hold that $20 billion until next
year's campaign and then Karl Rove will dish it out. So
whatever we can get, don't expect to get it here this year, and
don't expect to get it before March or April of next year, but,
in the campaign, $20 billion will go around all over the durn
countryside.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for that optimistic overview----
    [Laughter.]
    The Chairman.--Senator Hollings.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT,
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman, for having this
hearing.
    Certainly, it's appropriate, as we mark the two-year
anniversary of 9/11/2001, we need to take a look at our
transportation security. And you have undertaken a daunting and
awesome task, and I think you should be commended, all of you
here at the table, for the work that you've done and for the
effort that's still underway. Obviously, we've not done
everything we need to do, and we haven't always done it to
perfection. But Congress mandated a real challenge for you
after the events of 9/11. We basically told you to completely
overhaul security and aviation, and you went after it, and you
got it done. And now, sometimes when you do things in haste or
under mandate from Congress, you don't get it all right, so we
need to take a look at where we are and what additional funds
you need or what additional authority you might need or what we
need to do to change that.
    In the FAA Federal Aviation Reauthorization Conference
Report, we did try to do a number of things that would help TSA
with its burdens. We need to continue to do more. We've had,
obviously, some things, some responsibility for the costs
assigned in the wrong place. We'd like to get that more fairly
and equitably assigned in the industry and with the government.
I am concerned about AIP funds that have been diverted from the
airport improvements over into the security area on a temporary
basis. That was something we had to do, but I hope that
certainly we don't plan on continuing that.
    Under the persistence of Senator Hutchison, of course,
we've had the cargo security bill passed. We need to continue
to look very seriously at port and maritime security. Being
from a state that's got a river along one side and the Gulf of
Mexico on the other, and the ports of Pascagoula, Gulf Port,
Bienville, and even New Orleans right in the area, I continue
to worry about how secure they are. Coast Guard has an
important role in that area, and we're working to add
additional cutters, aircraft, command and control, and, of
course, the Deepwater program, but I think we need to continue
to ask ourselves just how secure we are.
    So I'll look forward to your testimony, and I'll have some
questions based on my statement.
    Thank you, Senator McCain.
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    And I welcome all the witnesses here, who have a
significant task. Some of it is to--that task is to prove to
Congress that we can get done what we'd like to get done with
less and less funding to do it than is anticipated.
    This hearing, on the eve of the second anniversary of 9/11,
is a very important one, and I wish I could tell my
constituents, many of whom lost loved ones that terrible day
nearly 2 years ago, that they're much safer now than they were
then. But I can't say it with certainty. I'm not sure that what
we've offered thus far has done the job.
    There was a disconcerting article in Sunday's Washington
Post, entitled ``Government's Hobbled Giant,'' that talked
about the slow start, confusion, and low morale at the
Department of Homeland Security. The President initially
resisted creating DHS, and I have to wonder if he's fully
committed to giving the Department the resources it needs to do
the job that it must do, especially with regard to securing our
transportation network.
    Inexplicably, the Administration moved to cut the number of
airport baggage screeners and law enforcement officers, at a
time when the threat level was being raised. Inexplicably, the
Administration proposed to cut funding for the Federal Air
Marshal Program, just one day after citing specific terrorist
threats to commercial air travel. Inexplicably, the
Administration still fails to adequately fund port security,
which remains highly vulnerable. Terrorists have tried to
smuggle all sorts of weapons and even themselves inside
shipping containers, and only a fraction of which are getting
inspected. Inexplicably, the Administration remains obsessed
with contracting out safety and security functions of the
government, like air traffic control, with seeming disregard
for the consequences it will have on our safety. And, all the
while, the President stirs the hornet's nest by saying things
like, ``Bring them on.''
    Since the last time we held a hearing on transportation
security, there have been a number of breaches, some of which
have taken place in or near New Jersey. For example, an arms
dealer was caught trying to smuggle a shoulder-fired surface-
to-air missile into our ports for terrorists to use on our own
soil. Now, that investigation--and thank goodness it was
successful--this man was importing shoulder weapons, shoulder-
launched weapons, from St. Petersburg to Baltimore, just like
you might ship--who knows what?--caviar or something like that.
And he had studied it well and thoroughly enough that he knew
that that was a route that could probably succeed. I don't know
whether we have 18 months to uncover some of these plots
against us.
    In another instance, three young men floated in a raft
across Jamaica Bay and wandered onto the runway at JFK Airport
and almost had to knock on the door of the police headquarters
to be discovered. This happened just shortly after the
Transportation Security Administration cut the number of law
enforcement officers working at airports, went down from 64 to
19 at the three major airports in the New York/New Jersey
region. It's time to disavow security on the cheap.
    On Sunday night, the President finally, Senator Hollings,
talked about a preliminary cost for the War in Iraq. You
wouldn't bet the family farm that that's going to be the final
number, I'll bet. And now we need to know what kind of costs
it's going to take to keep Americans safe here at home.
    While we have some improvements--and I congratulate those
of you who have worked so diligently to try and organize this
huge task force and to get the people in place--in the right
places at the right time. So we've made some improvements with
regard to transportation border security. And I'm sure that our
witnesses will tell us about what we have to do to get where
we'd like to finally be.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    I want to welcome the witnesses again, and I thank you for
appearing today.
    And we'd begin with you, Mr. Shane. Thank you very much for
being here.

STATEMENT OF JEFFREY N. SHANE, UNDER SECRETARY FOR POLICY, U.S.
                  DEPARTMENT OF TRANSPORTATION

    Mr. Shane. Thanks very much, Mr. Chairman, Members of the
Committee. We appreciate very much the Committee's decision to
hold this important hearing on a very important issue.
    In the two years since that most monstrous crime ever
perpetrated on America was committed, we've made enormous
strides in the transportation security area. Secretary Mineta
said, earlier this year, that creating the Transportation
Security Administration was by far the toughest, most
challenging, and most satisfying endeavor he had ever
undertaken. We all owe a great deal of thanks to Secretary
Mineta, to our former Deputy Secretary Michael Jackson, and
certainly to my good friend, Jim Loy, now the Transportation
Security Administrator, for their unwavering commitment to this
country and the superb work they did in creating TSA. Because
of their efforts and those of thousands of others, the
Department met every congressional deadline on time and, in the
process, transformed the security of our aviation system within
the span of just a few short months.
    Mr. Chairman, I have a longer prepared statement. What I'd
like to do, in the interest of time, is compress that and ask
that the full statement be put into the record.
    The Chairman. All prepared statements will be made part of
the record, and thank you.
    Mr. Shane. Thank you very much.
    While much of the focus since September 11 has been on
aviation security, the Department has also been doing a great
deal of work with our DHS counterparts in assessing the
vulnerabilities and improving the security of our other modes
of transportation. For example, the Maritime Administration has
worked closely with the United States Coast Guard and TSA to
evaluate security at our Nation's ports and to disseminate two
rounds of port security grants facilitating $262 million in
security upgrades. The Federal Transit Administration has also
shared its expertise by funding $30 million in vulnerability
assessments and the security training of transit operators
across the country. Additionally, our Research and Special
Programs Administration has worked closely with TSA to ensure
that the transportation of hazardous materials fulfills both
safety and security requirements. Finally, I've served,
personally, as a Co-Chairman, together with Doug Browning, the
Deputy Commissioner of Customs, a Co-Chairman of the Executive
Steering Committee that oversees the Operation Safe Commerce
Program. $58 million in Operation Safe Commerce grants was
recently awarded to the three participating load-center ports.
That's Los Angeles/Long Beach, Seattle/Tacoma, and New York/New
Jersey. Through those grants, we are creating an essential test
bed for new technologies designed to provide greater security
for freight containers as they move on inter-modal journals
through global commerce.
    Since last March, of course, the primary responsibility for
maintaining transportation security has been vested in the
Department of Homeland Security. Two key elements of the DHS
structure, DHS and the Coast Guard, came out of the Department
of Transportation, and they remain key players, of course, in
providing for the Nation's transportation security. The close
ties that we have, at DOT, to TSA and the Coast Guard have
helped us to establish extremely close links throughout DHS,
and we continue to working closely with our former colleagues,
supporting them in every step of the way as they defend our
Nation's homeland.
    We have taken a great many steps to ensure that this close
working relationship continues into the future, as well. For
example, just prior to the creation of DHS, our Federal
Aviation Administration and TSA signed a memorandum of
agreement specifying in detail the specific role that each
agency would play in overseeing the safety and security of our
aviation system. We have signed memoranda of agreement in some
other areas, as well, and we will continue to evaluate the need
for additional agreements as we gain more experience. In
addition, we have supplemented these formal MOAs with regular
discussions at various levels between DOT and DHS on the full
range of transportation security issues.
    Finally, a key step we have taken is to designate a single
point of contact for DHS and other agencies to access
information about the transportation system, to tap into the
network of contacts we have with our transportation
stakeholders at DOT, and to learn from our technical expertise
in dealing with complex issues, like the transport of hazardous
materials. Our Office of Intelligence and Security has been
designated as this formal point of contact and has played a key
role in helping DOT support DHS on a number of critical issues
in recent months.
    Mr. Chairman, recent GAO reports have documented that
significant challenges remain in transportation security, and
suggest that more coordination between TSA and DOT is needed.
The Department's Office of Intelligence and Security is
providing that coordination while also representing DOT on over
40 security policy working groups.
    The key asset that DOT brings to the security table is our
involvement in the operation of transportation systems. The
blackout that occurred last month provided a good example of
the Department of Transportation's unique ability to assess the
state of the transportation sector in multiple cities and in a
very short time. We did it through our real-time communications
network, with state, local and industry stakeholders. This
information proved critical to DHS and other Federal
decisionmakers throughout the incident.
    Remember that our modal administrations have decades of
experience in responding to all kinds of emergencies--floods,
hurricanes, blizzards, hazardous materials spills, and, yes,
blackouts. This operational expertise will remain an essential
ingredient in our Nation's emergency response capability.
    Thank you very much for the opportunity to appear here, and
I certainly look forward to answering your questions at the
appropriate time.
    [The prepared statement of Mr. Shane follows:]

  Prepared Statement of Jeffrey N. Shane, Under Secretary for Policy,
                   U.S. Department of Transportation
    It is a pleasure to be here today to discuss transportation
security issues. For nearly two years, since that awful day when
Secretary Mineta was compelled to ground all aircraft over the United
States for the first time in history, the U.S. Department of
Transportation has been working with the Department of Homeland
Security to make our transportation system more secure. We applaud the
Committee for holding this hearing, and look forward to continuing to
work with you on these critical issues. The monstrous crime perpetrated
on America on September 11 crystallized for all of us the importance of
enhancing security across our transportation system, and while we have
accomplished a great deal since that day, much more can be done.
    As we discuss transportation security issues, it is also important,
of course, to consider the substantial contribution that the
transportation sector makes to our Nation's economy. For example,
transportation-related industries currently account for approximately
11 percent of the Nation's GDP and 8 percent of our workforce.
Transportation infrastructure and services enable our citizens to get
to work or school, visit family, take vacations, and manage their
businesses by moving materials, supplies, and products around the world
as efficiently as possible, whether domestically or internationally.
For all of these reasons, the importance of transportation to America's
economic and social well-being cannot be overstated, and that is why
maintaining the highest levels of security throughout the system is so
critical to our prosperity as a Nation.
Past Accomplishments
    Secretary Mineta said earlier this year, when the Transportation
Security Administration (TSA) and U.S. Coast Guard were transferred to
the new Department of Homeland Security, that creating TSA was by far
the toughest, most challenging, and most satisfying endeavor he had
ever undertaken. ``Starting from a blank sheet of paper on November 19,
2001,'' Secretary Mineta said, ``we created an agency of more than
60,000 employees that is truly fulfilling its goal of protecting
Americans as they travel across our country, and beyond.'' We all owe a
great deal to Secretary Mineta, to former Deputy Secretary Michael
Jackson, and certainly to my good friend TSA Administrator Admiral Jim
Loy for their unwavering commitment to this country and the superb work
they did in creating TSA. Because of their efforts and those of
thousands of others, the Department met every congressional deadline on
time, and in the process transformed the security of our aviation
system within the span of just a few short months.
    While much of the focus since September 11 has been on aviation
security, and rightfully so, the Department has also been doing a great
deal of work with our DHS counterparts in assessing the vulnerabilities
and improving the security in our other modes of transportation. For
example, the Maritime Administration has worked closely with the Coast
Guard and TSA to evaluate security at our Nation's ports and to
disseminate two rounds of port security grants, facilitating $262
million in security upgrades as a result. The Federal Transit
Administration has also shared its expertise by conducting $30 million
in vulnerability assessments and security training of transit operators
across the country. Additionally, the Research and Special Programs
Administration has worked closely with TSA to ensure that the
transportation of hazardous materials fulfills both safety and security
requirements.
    Finally, I have served personally as a co-chairman of the Executive
Steering Committee that oversees the Operation Safe Commerce program.
Fifty-eight million dollars in Operation Safe Commerce grants have
recently been awarded to the three participating load center ports--Los
Angeles/Long Beach, Seattle/Tacoma, and New York/New Jersey. Through
these grants we are creating an essential test bed for new technologies
designed to provide greater security for freight containers as they
move on intermodal journeys through global commerce. Working closely
with other federal agencies, these efforts across all other modes of
transportation are designed to create a comprehensive system of
measures that will provide far greater security across the entire
international supply chain than anything we have known before.
Transition to DHS
    Today, of course, the primary responsibility for maintaining
transportation security lies with the Department of Homeland Security.
Formed in March of this year, this new Department has allowed formerly
diverse security functions spread across the government to come
together in a unified structure. Two key pieces of the DHS structure--
TSA and the Coast Guard--moved from the Department of Transportation to
DHS and continue to play major roles in providing for the Nation's
transportation security. The close ties that we have to these two
agencies have helped us to establish extremely close links throughout
DHS, and we continue working closely with our former colleagues,
supporting them every step of the way as they defend our Nation's
homeland.
    We have taken numerous actions to ensure that this close working
relationship continues into the future as well. For example, just prior
to the creation of DHS, the Federal Aviation Administration and TSA
signed a memorandum of agreement specifying in detail the specific role
that each agency would play in overseeing the safety and security of
our aviation system. Aviation poses unique challenges, of course, not
only because it was used to carry out the September 11 attacks, but
also because of the FAA's continuing responsibilities for managing the
air traffic control system, and thus helping to secure our airways in
times of crisis. Because of these considerations, we believed that it
was very important to have a written agreement between DOT and DHS
outlining exactly what each Department would be responsible for once
TSA moved to the new department, and what we could expect from one
another.
    We have signed memoranda of agreement in some other areas as well,
and will continue to evaluate the need for additional agreements as the
need arises. Now that DHS is fully established we will be in a better
position to determine what role each of our departments will play in
providing security for the other modes of transportation. In addition,
we have supplemented these formal MOAs with regular discussions, at
various levels, between DOT and DHS on the full range of transportation
security issues. One of the things we have done during this transition
period to help manage our relationship is a regular meeting that I
conduct with senior TSA staff on a bi-weekly basis. These meetings give
us the opportunity to coordinate our activities, identify potential
issues or problem areas, and ensure that we are providing all the
support we can to help TSA in securing our Nation's transportation
system.
    Finally, another step we have taken is to designate a single point
of contact for DHS and other agencies to access information about the
transportation system, tap into the network of contacts we have with
our stakeholders, or learn from our technical expertise in dealing with
complex issues like the transport of hazardous materials. Our Office of
Intelligence and Security has been designated as this formal point of
contact and has played a key role in helping DOT support DHS on a
number of critical issues in recent months. A good example of the
benefit of this single point of contact was our experience with the
recent suspension of the Transit Without Visa (TWOV) program in
response to credible intelligence that terrorists intended to take
advantage of this program to carry out additional attacks on the United
States. DOT's Office of Intelligence and Security ensured that DHS had
the information it needed to determine what the impact of that shutdown
would be and helped it deal with the airline industry to ensure a
smooth shutdown of the program.
Future Challenges and DOT's Role in Security
    While some assume that security simply moved to DHS when TSA and
the Coast Guard departed earlier this year, there is no question that
DOT can continue to make important contributions to the development and
implementation of transportation security policy. Recent GAO reports
have documented that significant challenges remain in transportation
security, and suggest that more coordination between TSA and DOT is
needed. The Department's Office of Intelligence and Security provides
that coordination service to the Secretary, while also representing the
Department on over forty security policy working groups.
    The Department of Transportation's mission is to ensure safety,
mobility and the economic viability of the transportation system.
Security is a fundamental element of each of these three key mission
areas. To effectively integrate security into transportation decision-
making, five enduring functions remain within DOT. They are: security
policy development; transportation system design; intelligence;
operations; and readiness, including plans and exercises.
    One other important role that the Department can play is in regards
to the operation of transportation systems. The blackout that occurred
last month proved a good example of the Department of Transportation's
unique ability to quickly assess the state of the transportation sector
in multiple cities. This was done through our real-time communications
network with state, local and industry stakeholders. This information
proved crucial to DHS and other federal decision-makers as the crisis
rapidly unfolded.
    Finally, there is one additional reason why DOT must be at the
table during security emergencies. Our modal administrations have
decades of experience in responding to all kinds of emergencies--
floods, hurricanes, blizzards, blackouts and hazardous material spills.
This operational expertise will remain an essential ingredient in our
Nation's emergency response capability, and this ``all hazard''
approach is consistent with the National Response Plan currently under
development.
    In this post-September 11 world, security has become a prerequisite
to the development of an effective transportation system. Just think,
for example, about how many fewer people might be flying today were it
not for the decisive steps that were taken in the months after
September 11 to tighten security throughout our Nation's aviation
system. The Department of Transportation continues to support the
development of intelligent security policies. If it is not secure, then
it is not safe and will not be good for our economy.
    Thank you very much for the opportunity to appear here today. I
look forward to answering your questions.

    Senator Lott [presiding]. In Senator McCain's absence,
Senator Hollings and I will just keep the testimony moving. So
I believe Admiral Thomas H. Collins, Commandant of the U.S.
Coast Guard, we'll be delighted to hear from you.

            STATEMENT OF ADMIRAL THOMAS H. COLLINS,

          COMMANDANT, DEPARTMENT OF HOMELAND SECURITY,

                        U.S. COAST GUARD

    Admiral Collins. Thank you, Senator, distinguished Members
of the Committee. I appreciate the opportunity to discuss our
accomplishments in improving maritime security since September
11, 2001, and additional measures we need to further promote
our maritime security.
    I am very, very pleased to share the panel with my
colleagues from Department of Homeland Security and Department
of Transportation. I'm also grateful for the review and insight
provided by the General Accounting Office, and look forward to
their continuing recommendations to enhance our maritime safety
program initiatives.
    Now, working within the Department of Homeland Security,
the Coast Guard's plan to reduce maritime security risks
involves building capacity, capability, partnerships in four
distinct but interrelated areas. The first is enhancing what we
call ``maritime domain awareness''; second, creating and
overseeing a maritime security regime for this nation; three,
increasing our operational presence and enhancing deterrence;
and, four, improving our response posture as an organization.
And I'd like to briefly highlight some of the select few
accomplishments in each of these areas.
    First, maritime domain awareness. We define that as
having--ideally, the ultimate state--as having comprehensive
information, intelligence, and knowledge of all relevant
entities and activities in the maritime domain that would or
can impact America's safety, security environment, and the
economy. We've been very, very busy in this area enhancing our
ability to move toward that end state. Now, we've established a
formal intel program in our organization. We have improved our
command-control communications capability, connectivity, and
interoperability. We're requiring vessels entering our ports to
provide 96-hour advanced notice of arrival, and then tracking
and screening vessel arrivals--people, cargo, and vessels.
We've established field intelligence support teams and
increasing our collection and analysis capability, and
aggressively pursuing systems that will give us greater
visibility in the maritime environment, namely integrated
Deepwater systems and Rescue 21 projects.
    In the second area, maritime security regime, we are very,
very pleased with the progress that we have made in
implementing the terms and conditions of the Maritime
Transportation Security Act of 2002. In a parallel effort, we
have driven through IMO, a brand new international security
regime for international ports and ships, in about a year's
time-frame. I think that's quite an accomplishment. And we've
issued interim rules in July 1, 2003, to implement MTSA and are
on target to provide the final rules in October of this year.
    We've also completed 13 port security assessments, of a
total of 55, and by the end of calendar year 2004 we will
complete those formal port security assessments through the 55
ports. And we've increased information sharing, at the
national, state, and local level, with industry.
    The third area, operational presence. With the help of
Congress and the support of the President and our Secretary, we
have increased the capacity and the capability of the Coast
Guard to have a increasing presence in our ports and waterways.
We've created four maritime safety and security teams. Two more
will be in place this fall, six more in the fiscal 2004 budget,
for a total of 12. We've provided armed security boardings and
onboard escorts of high-interest vessels, and enhanced our
control of vessels, with escorts and sea marshals. And we've
added new patrol boats and people to our inventory.
    In the fourth area, our response posture, we're
reconstituting the chemical, biological, and radiological
dispersal program within our service and enhancing the strike-
team capabilities that we maintain.
    Now, these security measures in these four areas we've
instituted so far have had no significant adverse impact on
maritime commerce. That said, the regulatory impact of MTSA on
the maritime industry will be significant, affecting over
10,000 domestic vessels and 20,000 foreign vessels, 5,000
maritime transportation facilities, and 40 offshore platforms.
And the timeline for implementing the new requirement is
exceptionally short. The regulation would be fully implemented
by July 1, 2004. We estimate the cost to industry to be $1.5
billion in the first year and $7.3 billion over the next 10
years.
    We are making good use of the resources we received in
Fiscal Year 2002 and 2003, and the planned resources for Fiscal
Year 2004. We have had outstanding support from the
Administration and from Congress in this regard. A lot has been
accomplished, but we still have a long way to go.
    We're working diligently to increase maritime security by
building a layered defense approach to maritime security by
recapitalizing our Deepwater assets, by identifying and
addressing vulnerabilities revealed by port security
assessments, by putting a comprehensive planning and exercise
scheme in place throughout the country, and monitoring foreign
compliance with plan certification, as required by MTSA.
    Mr. Chairman, we have a solid plan for maritime security,
and we are executing it. All of our efforts, again, are
designed to build the necessary authorities, the necessary
capability, the necessary capacity, and the necessary
partnerships to mitigate maritime security risks to our Nation.
To achieve these goals, we need support for our 2004 budget,
continuing a phased approach to building out these capability
and capacity. We need support for our 2004 authorization bill.
It provides necessary authority we need to protect our vital
infrastructure and respond quickly, if necessary, and it adds
ability for us to enforce laws ashore in proximity to the
waterfront.
    Thank you for the opportunity to testify before you today,
and I'm happy to answer questions at the appropriate juncture.
Thank you.
    [The prepared statement of Admiral Collins follows:]

Prepared Statement of Admiral Thomas H. Collins, Commandant, Department
                 of Homeland Security, U.S. Coast Guard
    Good morning Mr. Chairman and distinguished Members of the
Committee. It is my pleasure to be here today to discuss the Coast
Guard's accomplishments in improving maritime transportation security
since the terrorist attacks of September 11, 2001, the impact of those
accomplishments on maritime commerce, and the additional measures that
may be needed to further promote maritime transportation security.
    The attacks of September 11, 2001, have required the United States
and the world to recognize how vulnerable our international systems of
transportation and trade are to those who intend to do us harm. A
terrorist incident against our marine transportation system would have
a serious and long-lasting negative impact on global shipping,
international trade, and the world economy. Our ports and waterways
also have significant strategic military value. Valuable and vulnerable
. . . these factors make protection of our marine transportation system
a high priority in the U.S. Maritime Homeland Security Strategy.
Accomplishments
    Working in concert with the Department of Homeland Security and its
agencies, we developed a strategic approach to maritime security that
places a premium on identifying and intercepting threats well before
they reach U.S. shores. We will do this by conducting layered, multi-
agency, maritime security operations; strengthening the port security
posture of our strategic economic and military ports; building on
current international cooperative security efforts; and making risk-
based decisions. These key elements form the basis of the Maritime
Homeland Security Strategy, closely aligning with the President's
National Strategy for Homeland Security. This is a sound strategy that
reduces maritime security risks through: (1) increasing our maritime
domain awareness; (2) implementing preventative measures to detect and
deter; (3) securing our borders and protecting vital infrastructure;
and (4) preparing to respond quickly if necessary.
    Since the attacks of September 11, 2001, the Coast Guard has
instituted measures to increase maritime domain awareness--a
combination of intelligence, surveillance, and operational information
to build as complete a picture as possible to the threats and
vulnerabilities in the maritime realm. Within 30 days of the attacks,
we amended our regulations to require ocean-going vessels approaching
U.S. to provide advance notice 96 hours prior to arrival at U.S. ports.
We also centralized reporting from individual Captains of the Port to a
single location to enable better coordination and analysis of
information and more rapid dissemination to other agencies. The Coast
Guard Intelligence Coordination Center, co-located with the Office of
Naval Intelligence at the National Maritime Intelligence Center in
Suitland, Maryland, established COASTWATCH, a process that analyzes
these notice of arrival reports using law enforcement and intelligence
information and reporting vessels of interest so that Coast Guard and
other agencies could appropriately respond to board those vessels
before they reached port, if necessary. The Coast Guard continues this
practice today and has improved electronic sharing of notice of arrival
reports and accompanying intelligence information with Bureau of
Customs and Border Protection (CBP), Transportation Security
Administration (TSA), Information Analysis and Infrastructure
Protections (IAIP) Directorate, Department of Defense, and other
components of the Intelligence Community.
    Recognizing the criticality of intelligence in achieving maritime
domain awareness, we have taken several key steps to grow our
intelligence program. Last year we elevated the Director of
Intelligence to an Assistant Commandant level to align with the
importance I place on intelligence to support Coast Guard operations.
Additionally, we are in the process of completing the measures required
to fully implement the December 2001 legislation adding the
intelligence element of the Coast Guard to the U.S. Intelligence
Community. Our primary focus on this point has been to meet the
stringent legal and oversight requirements that accompany Intelligence
Community membership as we begin to build better collection and
analytical capabilities. We are able to provide more information on
this initiative in a classified briefing. Within the last 6 months, the
Coast Guard has transformed the existing Atlantic and Pacific Area
intelligence staffs into Maritime Intelligence Fusion Centers Atlantic
and Pacific. This change increased collection and analytical
capabilities to enhance all-source fusion of intelligence and
information and to improve the timeliness and quality of theater level
intelligence support to Coast Guard operational forces. The new
Maritime Intelligence Fusion Centers also ensure rapid reporting of
information gathered by Coast Guard forces into the IAIP Directorate
and Intelligence Community at the national level. We have established
Field Intelligence Support Teams, consisting of Coast Guard
intelligence analysts and Coast Guard special agents, to provide
tactical intelligence support to Coast Guard Captains of the Port
through collection and reporting of suspicious or criminal activity in
the port areas, to share information with other agencies at the local
level, and to rapidly disseminate intelligence to the Captain of the
Port and other local commanders.
    The regulations which implement the Maritime Transportation
Security Act of 2002 (MTSA) require certain vessels to install an
Automatic Identification System (AIS) by the end of 2004, and the Coast
Guard will install AIS capabilities at each Vessel Traffic Service
location nationwide with the long-term goal of National AIS coverage.
Additionally, the Coast Guard has completed port security assessments
at 13 of the 55 most significant military and economic ports in the
United States and will complete the assessments of all 55 ports by the
end of calendar year 2004. These assessments are unique because they
capture information from local law enforcement sources not previously
shared with intelligence, thus making them more comprehensive. Finally,
the Coast Guard continues to coordinate maritime security information
sharing, consistent with the MTSA requirements, at the national level
with other agencies, and at the local level with federal, state and
local entities and with industry. Because the maritime industry has not
organized itself to receive and send information regarding threats and
vulnerabilities to maritime critical infrastructure as discussed in PDD
63, the Coast Guard formed a maritime information sharing process to
share threat information with the maritime industry and to receive
reports of suspicious activities from them.
    Terrorist activities and threats, coupled with our own acknowledged
vulnerabilities, prompted unprecedented multi-lateral security
activities over the past two years. The United States, working in
concert with our trading partners, adopted a landmark international
maritime security regime through the International Maritime
Organization. This approach minimized the potential for a proliferation
of national, unilateral security requirements that could impair
maritime commerce, while at the same time ensured that meaningful
security measures will be consistently implemented on a global scale.
More specifically, on December 13, 2002, over 100 nations at IMO
adopted amendments to the International Convention for the Safety of
Life at Sea (SOLAS) and an International Ship and Port Facility
Security (ISPS) Code. On November 25, 2002, President Bush signed the
MTSA. In passing the MTSA, Congress expressly found that it is in the
best interest of the United States to implement the security system
developed by IMO because it contains the essential elements for
enhancing maritime security. Both of these important instruments--the
SOLAS security amendments and the MTSA--are major steps in addressing
maritime security, and together they form the cornerstone of the
nation's maritime homeland security strategy.
    In coordination with the Transportation Security Administration,
Maritime Administration, and Bureau of Customs and Border Protection,
the Coast Guard, as the lead Federal Agency for maritime security,
published regulations on July 1, 2003 to implement the core security
requirements of the MTSA consistent with the SOLAS amendments and the
ISPS Code. And these regulations are essential to promote our national
strategy of preventing terrorist attacks in the United States, to
reduce our vulnerability to terrorism, and to minimize the damage and
permit quick recovery from any attacks that might occur. The regulatory
impact on the maritime industry will be significant--affecting over
10,000 domestic vessels, 20,000 foreign vessels, 5,000 marine
transportation related facilities and 40 critical offshore platforms--
and the timeline for implementing the new robust maritime security
requirements is exceptionally short--the regulations will be fully
implemented by July 1, 2004.
    Among other requirements, the regulations compel regulated vessels
and facilities to conduct security assessments and to develop detailed
security plans that address vulnerabilities revealed by those
assessments. The regulations contain requirements for the designation
and competency of security personnel, including standards for training,
drills, and exercises. The regulations further delegate authority to
Captains of the Port to conduct Area Maritime Security Assessments and
to develop Area Maritime Security Plans for their respective port
areas. This ``family of plans'' approach establishes a layered system
of protection that involves all maritime stakeholders and will be
consistent with National Maritime Transportation Security Plan being
developed in cooperation with the Transportation Security
Administration, the Bureau of Customs and Border Protection, and other
agencies.
    For vessels subject to the SOLAS amendments and the ISPS Code, the
Coast Guard is implementing strong Port State Control measures to
aggressively ensure foreign vessels have approved plans and have
implemented adequate security standards. The measures include tracking
performance of all owners, operators, flag administrations, recognized
security organizations, charterers, and port facilities. Noncompliance
will subject the vessel to a range of control measures, which could
include denial of entry into port or significant delay. This aggressive
Port State Control regime will be coupled with the Coast Guard's
Foreign Country Security Audit program that will assess both the
effectiveness of anti-terrorism measures in foreign ports and the
foreign flag administration's implementation of the SOLAS amendments
and the ISPS Code.
    In addition to adopting the landmark SOLAS amendments and
publishing comprehensive regulations implementing MTSA, the Coast Guard
has successfully implemented other measures to increase maritime
homeland security. The Coast Guard has increased port security in the
nation's most important economic and military ports through the use of:

  <bullet> more patrols by aircraft, ships, and boats;

  <bullet> more escorts of passenger ships;

  <bullet> armed security boardings;

  <bullet> and onboard escort of high interest vessels (vessels with
        cargoes, crewmembers or other characteristics that warrant
        closer examination, arriving at or departing from U.S. ports)

  <bullet> the creation and enforcement of hundreds of security zones
        in and around critical infrastructure;

  <bullet> and the establishment of six Marine Safety and Security
        Teams (MSSTs) (a highly specialized quick response force
        capable of rapid, nationwide deployment via air, ground or sea
        transportation in response to changing conditions and evolving
        Maritime Homeland Security mission requirements.

    Additionally, our Strike Teams, which were instrumental in response
to the Anthrax attacks at the Hart Senate Office building, are being
trained to respond to a CBR attack. We have also begun recapitalization
of our Deepwater assets. Homeland Security necessitates pushing
America's maritime boarders outward, away from the ports and waterways,
so integrated, maritime operations can be implemented. Deepwater
provides this capability while developing a far more robust and
effective MDA system.
    We also have not acted alone. At the field level, Coast Guard
Investigative Service agents and Field Intelligence Support Teams
directly liaise with their TSA, CBP, and ICE peers to collect and share
operational intelligence. Coast Guard and TSA personnel are working
together with the Port of Miami to facilitate cruise ship passenger and
baggage screening. At the policy development level, an Underwater Port
Security Working Group comprising representatives of the Coast Guard,
TSA and the U.S. Navy has been established to implement promising
technologies to mitigate underwater homeland security threats.
Additionally, a Radiological Dispersal Device/Improvised Nuclear Device
Working Group, consisting of representatives from 16 government
agencies and departments, has been established for deterrence and
detection of nuclear smuggling into or within the United States. These
are just a few examples of how we have actively sought out and
leveraged inter-agency partnership to provide a defense in depth.
Effect on Commerce
    The Coast Guard is sensitive to the impact that increased security
may have on commerce. The wide variety of security measures implemented
to date has had no significant adverse impacts on the flow of maritime
commerce. That said, we note that the cost to industry of the MTSA
implementing regulations is estimated to be $1.5 billion in the first
year and $7.3 billion over the next 10 years. While we clearly
understand that the cost of these security regulations to the maritime
industry is not insignificant, a terrorist incident against our marine
transportation system would have a devastating and long-lasting impact
on global shipping, international trade, and the world economy. As part
of a recent port security training exercise, a maritime terrorist act
was estimated to cost up to $58 billion in economic loss to the United
States. Thus, the cost is outweighed by the mitigation of risk to the
industry. We have, however, developed the security regulations to be
performance-based, providing the majority of owners and operators with
the ability to implement the most cost-effective operational controls,
rather than more costly physical improvement alternatives. The Coast
Guard will be vigilant in its Maritime Homeland Security mission and
will remain sensitive to the impact of security measures on maritime
commerce.
Additional Measures
    We do note that, since September 11, 2001, we have increased our
uniformed presence ashore at waterfront facilities and critical
infrastructure adjacent to the marine environment. Immediately after
September 11, 2001, however, we identified a gap in our authority
ashore and developed a proposal to close that gap. Although, the Coast
Guard is at all times an armed force and has broad authority to protect
waterfront facilities and other shore installations under a number of
statutes, such as the Maritime Transportation Security Act, the Ports
and Waterways Safety Act, and the Espionage/Magnuson Act, we lack
express authority to arrest a person who commits a Federal offense on
shore and to carry a firearm ashore in the performance of official law
enforcement duties. Clarifying this authority remains a top legislative
priority for the Coast Guard, and we greatly appreciate the inclusion
of legislation addressing this matter in the pending Coast Guard
Authorization bill, S. 733. This authority is not included in the House
version of the bill and H.R. 2443, and we appreciate the Senate's
support in including this provision at conference.
    The United States Coast Guard has and will continue to take a
leadership role in coordinating the multi-agency, public, and private,
national and international maritime security effort as part of the
Department of Homeland Security's larger national Transportation System
Security Plan. The men and women of the Coast Guard are committed to
the continuing protection of our nations. Thank you for the opportunity
to testify before you today. I will be happy to answer any questions
you may have.

    Senator Lott. Now, let's see, Mr. Bonner, thank you very
much--Commissioner of Customs and Border Protection. If you
would go ahead.

 STATEMENT OF HON. ROBERT C. BONNER, COMMISSIONER, CUSTOMS AND
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bonner. Thank you, Senator Lott and Senator Hollings,
other distinguished Members of the Committee. I want to thank
you and the Chairman for the opportunity to discuss what U.S.
Customs, now U.S. Customs and Border Protection, has been doing
since 9/11 to protect the American people and to better secure
our borders, the borders of our country and all of our ports of
entry into our country, through which, as you know, all people
and vehicles and goods must pass.
    First of all, I want to say I'm very delighted to be on
this panel with my colleagues, Admiral Loy and Admiral Collins,
as well as Under Secretary Shane and others. And suffice to say
that Customs and Border Protection has been and continues to
coordinate on many issues with the Coast Guard and with TSA,
and that coordination has been and will be facilitated by the
fact that all three of these significant agencies of the
Department of Homeland Security are now in one department, the
Department of Homeland Security.
    Let me say it's--you know, it's an understatement to say
that before the terrorist attacks at our border, and
particularly our transportation systems were designed not for
security but for the rapid movement of people and commerce. And
it has been our challenge, collective challenge, since 9/11 to
essentially retrofit the global system of commerce to protect
the American people from terrorism and yet to do that in a way
that it does not unduly impede and, where possible, actually
facilitates a more efficient flow of legitimate trade and
people.
    I want to just take a moment to talk about U.S. Customs and
Border Protection, for just a brief moment, because it is a new
agency that was formed on March 1 of this year by merging most
of U.S. Customs with the immigration inspectors and the border
patrol from the former INS and the agriculture inspectors from
the Department of Agriculture.
    Now, since March 1 of this year, for the first time in our
country's history, there is one agency responsible for managing
and securing the U.S. border and all of the 300-plus ports of
entry into the United States. And by unifying the border
agencies, we are more effective, certainly, than we were before
March 1, before the Department of Homeland Security was
created, when we were fragmented, literally fragmented. The
border management and security effort was fragmented between
four different agencies and three different departments of
government--Immigration, Customs, Agriculture Inspectors, and
Border Patrol.
    The unification of Customs and Border Protection was
vehemently demonstrated at Dulles International Airport last
week, when Secretary Ridge introduced the new CBP officer
position, or Customs and Border Protection inspectional officer
position, and the new Customs and Border Protection uniform--
one uniform for all Customs and Border Protection inspectors,
the inspectional work force, at all of our ports of entry--as
well as one new Customs and Border Protection inspectional
officer, rather than the legacy Customs inspectors, Immigration
and Agriculture inspectors. And we'll start with the new CBP
officer by training a new cadre of front-line inspectors,
Customs and Border Protection officers, to handle essentially
all primary and secondary inspections for all purposes. And
we'll also be deploying some agriculture specialists to perform
the specialized agriculture specialty inspection functions.
    Now, let me turn to the securing of our border, because
securing of our border involves something more than just our
physical border, either land border or seaports or
international airports. It includes the notion of extended
border, of a defense and depth strategy where Secretary Ridge
has sometimes called it a ``smart border.'' And that means we
want our border to be the last line of defense for the American
people, not the first line of defense. And our strategic
approach to secure the flow of cargo and people is
multilayered, and it starts in many places. It starts as far
away, by the way, as Central Asia where Customs and Border
Protection personnel are working with our foreign partners to
interdict special nuclear materials at or near their source. It
extends, certainly, to the foreign loading docks and the more
secure supply chains of our customs and trade partners in the
Customs-Trade Partnership Against Terrorism. And it extends
literally to the terminals of foreign ports, where we are--
under the Container Security Initiative, which we have in
place, where Customs and Border Protection officers are working
with their foreign counterparts to target and inspect high-risk
containers before they go onboard vessels headed for the United
States.
    These extended border efforts are key components of Customs
and Border Protection's multilayered strategy for securing our
border, yet also, at the same time, facilitating the more
efficient flow of legitimate goods and people into our country.
And it's important to note, if I could, that these programs
have been implemented--and they've been implemented, every
program I just mentioned, since September 11, 2001. CSI is now
operational in 16 foreign seaports around the world, and we're
continuing to expand it. And, that said, we have much work to
do to get CSI fully operational.
    And with respect to the Customs-Trade Partnership Against
Terrorism, over 4,000 companies are enrolled in C-TPAT, most
major U.S. importers, but also major air, sea, rail, and
trucking carriers, as well as domestic port and terminal
operators. And we have opened C-TPAT to foreign manufacturers
for the first time last month.
    Now, I just want to touch on one other thing before I
close, and that is what we're doing at the U.S. ports of entry
to protect the American people and prevent terrorists and
terrorist weapons from entering the country. And that's our
priority mission at Customs and Border Protection, preventing
terrorists and terrorist weapons from entering the United
States.
    First of all, we use risk-management techniques to identify
and screen the relatively few high-risk cargo containers of the
millions--actually, if you take sea containers, almost 7
million containers that come into the U.S. annually. But, that
said, in the last 2 years--if we go back 2 years ago, only 9
percent of all rail containers were inspected when they crossed
the border into the U.S. That figure is now 22.6 percent. Two
years ago, we inspected only 2 percent of the sea containers
coming into the U.S. We now inspect 5.2 percent. The truck
inspections have increased from 10.3 to 15.1 percent over the
last 2 years. And, overall, if you look at all containers, no
matter what the mode is, entering the United States, the
Customs and Border Protection is inspecting, currently,
approximately 12.1 percent of all cargo containers entering the
United States. And that's up from about 7.6 percent 2 years
ago.
    But we're doing it not just on a random basis, but we're
doing it on a targeted basis based upon advanced information we
have to identify the high-risk containers, because that's the
key. And we've gotten this advance information through such
things as the 24-hour rule, which we have implemented, to get
advance information about cargo containers before they arrive
in the United States; in fact, 24 hours before they leave the
foreign ports destined for the United States. And we're doing
that through getting advance passenger information about all
people flying into the United States, as well as under the
proposed Trade Act of 2002 regulations, which will require
advance information with respect to all shipments, irrespective
of the mode of transportation--rail, air, truck. And it's
through effective targeting that we can and we are meeting our
goal of inspecting 100 percent--because that's our goal--of all
of the high-risk cargo and people while, at the same time,
allowing legitimate commerce and passengers to proceed
unimpeded.
    And our inspection rates have gone up, because, among other
things, we have been able to deploy more sophisticated
detection equipment, like large-scale X-ray machines. I know,
Senator Hollings, you've seen some of these at the Port of
Charleston. But we've increased the number of large-scale X-ray
machines that can screen whole containers. From about 45 on 9/
11 of 2001, we now have increased that by 200 percent; we have
135 of these large-scale containers, and they are deployed at
our northern border major crossing points, commercial entry
points, and at our seaports, and they weren't on September 11,
2001.
    So let me just say, in closing, that Customs and Border
Protection has moved aggressively to secure the flow of trade
and commerce into our country, and people into our country. And
it's done it at our physical border, and it's done it beyond
our physical borders, working both with foreign governments and
the private sector. And it has done that without materially
slowing down the flow of legitimate commerce and trade.
    We're, by no means, finished yet, but I can say that
America is safer and our borders are more secure, substantially
more secure, than they were on 9/11/2001. And I look forward to
working with Secretary Ridge, Under Secretary Hutchinson,
Admiral Collins, Admiral Loy, and with this Committee to
continue our project of securing America from international
terrorism.
    Thank you.
    [The prepared statement of Mr. Bonner follows:]

      Prepared Statement of Hon. Robert C. Bonner, Commissioner,
  Customs and Border Protection, U.S. Department of Homeland Security
    Chairman McCain, Senator Hollings, Members of the Committee: Thank
you for the opportunity to testify today to discuss what U.S. Customs
and Border Protection has been doing since September 11, 2001 to
protect the American people, and to better secure the borders of our
Nation and its ports of entry, through which all people, vehicles and
goods must enter. This includes the systems by which people and goods
move into and out of our country.
    First, I want to say how delighted I am to be here with Admiral Loy
and Admiral Collins. CBP has coordinated on many issues with the Coast
Guard and with TSA, as this coordination has been facilitated by the
fact that all three agencies are now within the Department of Homeland
Security. Indeed, TSA and CBP are agencies within the Border and
Transportation Security (BTS) Directorate of the Department, which,
under the leadership of Under Secretary Asa Hutchinson, has assisted
greatly in our coordination efforts.
    It is an understatement to say that, in the days before the
terrorist attacks, our border systems were designed, not for security,
but for the rapid movement of people and commerce. It has been our
challenge since September 11 to ``retrofit'' this global system of
commerce to protect the American people from terrorism--and do it in a
way that does not impede, and indeed, where possible, facilitates, the
efficient flow of legitimate people and goods so vital to our economy,
and the economy of the world.
CBP Transition
    Before I go further, however, I want to spend a few moments talking
about U.S. Customs and Border Protection--or ``CBP.'' As I am sure all
of you know, CBP was formed on March 1, 2003 through the merger of most
of the U.S. Customs Service with the immigration inspectors and U.S.
Border Patrol of the former INS and the agricultural border inspectors
of the USDA. Although under the Homeland Security Act and the
Department's Reorganization Plan, CBP is the successor agency to U.S.
Customs, CBP is very much a new agency within the Department of
Homeland Security. Now, for the first time in our Nation's history,
there is a single U.S. border agency, CBP--responsible for managing and
securing the entire U.S. border, that is, all of the 300 plus ports of
entry, and between the ports of entry. And, through the unifying of
customs, immigration, and agriculture functions at the border, under
one unified chain of command, we are more effective than we were before
March 1, when we were fragmented into 3 agencies in 3 different
departments of government.
    This was most vividly demonstrated last week, when Secretary Ridge,
Under Secretary Hutchinson, and I were at Dulles Airport, introducing
the new ``CBP Officer''--with a new CBP Officer's uniform and DHS/CBP
patch--to the American people. Starting this October, we will no longer
be training legacy ``immigration'' or ``customs'' inspectors. We will
be training a new cadre of ``CBP Officers,'' who will be equipped and
trained to handle all CBP primary and secondary inspections, for all
purposes in the passenger environment. These CBP Officers will also
perform all primary inspection functions in the cargo environment,
although we will also be deploying CBP Agriculture Specialists to
perform more specialized agricultural secondary inspection functions.
    And current legacy immigration and customs inspectors have already
begun cross-training. So, we're not waiting for the new ``CBP
Officers'' to graduate from FLETC to begin creating ``one face at the
border.'' We have already begun to roll out unified CBP primary
inspections at our international airports, and we are merging our
specialized immigration and customs anti-terrorism secondary and
passenger analytical targeting units. In short, we are moving out
quickly to achieve the President's and the Secretary's goal of ``One
Face at the Border,'' that is one unified, flexible, and effective
agency to manage and control our Nation's borders.
    This merger has allowed us to think comprehensively about how we
better secure, manage and facilitate the movement of people and
commerce into and out of our country. No longer is our government
fragmented--with one agency thinking about the movement of people,
another thinking about cargo, and still another thinking about
agriculture protection. It's one agency focusing on the whole picture
at our borders.
``Beyond the Border'' Initiatives
    And in our view, that picture does not begin at our land border or
the U.S. water's edge. We view our border as the last line of defense
for the American people, not the first line. Our effort to secure the
flow of people and cargo is many layered, and starts in many places--in
Central Asia, where CBP personnel are working with foreign partners to
interdict WMD material at its source. At the factory floors and in the
secure supply chains of our partners in the Customs-Trade Partnership
Against Terrorism, or C-TPAT. At the docks of our Container Security
Initiative, or CSI, ports around the world, where CBP officers are
working with our foreign counterparts to target and inspect high-risk
containers before they are shipped to the United States. In Canada and
Mexico, with the people and companies we vet through the FAST, NEXUS,
and SENTRI programs. To ensure that our foreign counterparts have the
right skills and capabilities to cooperate successfully, we also
provide training and technical assistance when needed.
    And we also apply the ``beyond the border'' concept to targeting
and interdicting high-risk people before they head to the United
States. In fact, just a couple of weeks ago, CBP targeted two
passengers traveling from Paris to Chicago who used a route typical of
an individual trying to enter the U.S. with fraudulent documents.
Because we were able to target these people before they got on the
plane in Paris, we were able to enlist the air carrier to deny boarding
to these individuals--who were a threat as the documents they were
using were fraudulent.
    These ``beyond the border'' efforts are key pieces of CBP's layered
strategy for protecting the American people from terrorism, while
facilitating the efficient flow of legitimate people and goods into our
country. These programs are being implemented and have been effective.
In the short life of CSI, we have already worked with our foreign
partners to intercept and seize shipments that posed a potential threat
to the American people--including machine guns, gas masks, and other
military equipment that would clearly be on Al Qaeda's shopping list.
And CSI is now operational in 16 seaports around the world--in Europe,
Asia and Canada. Once all the ports in Phases 1 and 2 of CSI become
operational, approximately 80 percent of the 7 million maritime
containers heading for the United States annually will be under the CSI
blanket. That said, we still have much work to do to get CSI fully
operational.
    It is also important to view CSI in the context of CBP's layered-
defense strategy. Just as important is our effort to secure the supply
chain through C-TPAT. Currently, over 4,000 companies are enrolled in
C-TPAT--not only U.S. importers, but also all the major air, sea, rail,
and trucking carriers, a large number of brokers and forwarders, and
domestic ports and terminal operators. And on August 18, we opened C-
TPAT for the first time to foreign manufacturers--first those based in
Mexico, to facilitate their participation in the FAST program, and then
to a select group of manufacturers based in other parts of the world.
    While CSI protects one means of moving goods into the country at a
particular place--the foreign seaport--C-TPAT protects the entire
supply chain, including goods moving across our land border by truck or
rail and both sea and air cargo. Our C-TPAT partners are making great
strides to secure every link in their supply chains. And, we are
working with our C-TPAT partners to redesign the containers
themselves--adding sophisticated technology to make them ``smarter,''
more secure, and tamper-evident. In short, we are in the process of
revolutionizing and retrofitting global trade to face the 21st Century
terrorist threat.
    And, we are validating that the security measures have been taken.
We've launched a program to send teams of CBP Supply Chain Specialists
around the world to verify that our C-TPAT partners, their suppliers,
and logistics vendors are doing what they say they are doing.
    I've spent a great deal of time focusing on what we are doing
``beyond the border.'' But before I close, I should touch on what we
are doing at U.S. ports of entry to protect the American people and
prevent terrorists and terrorist weapons from entering the United
States.
    First, let me speak to the numbers. Two years ago, when I took over
as Commissioner of Customs, 7.6 percent of all containers entering the
United States--by land, sea, or rail--were inspected by Customs. That
figure is now up to 12.1 percent, and it is rising. Two years ago, only
9 percent of all rail containers were inspected. That figure is now
22.6 percent. Sea container inspections have increased from 2 percent
to 5.2 percent. And truck inspections have increased from 10.3 percent
to 15.1 percent. These are impressive numbers, and, where necessary, I
am pushing to increase CBP's capacity to rapidly inspect containers
without slowing legitimate trade.
Advance Information and Technology
    I should point out there is no reason to increase the inspections
blindly--or just for the sake of having higher inspection statistics.
Quite frankly, it would be counterproductive and damaging to the U.S.
economy to inspect 100 percent of the 7 million sea containers or the
11 million trucks that arrive in the United States every year. We must
use some risk management techniques to identify and screen the
relatively few high-risk shipments out of the millions of virtually no-
risk shipments.
    Through regulations such as the 24 Hour Rule, those requiring
advanced passenger information, and the proposed rules under the Trade
Act of 2002 which require advance information on all shipments, I am
pushing to improve our ability to focus our efforts on the high-risk
shipments. We are also working with the Intelligence Community and
others to improve our targeting rules and systems. It is through
effective targeting that we meet our goal of inspecting 100 percent of
high-risk people and cargo, while allowing legitimate commerce and
passengers to proceed unimpeded.
    We are also increasing our inspection rates through the rapid
deployment of radiation detection technology, as well as large-scale X-
ray type imaging systems. In the almost two years since I became
Commissioner of Customs, CBP has deployed this equipment to every major
U.S. port of entry. This has dramatically increased our ability to
inspect high-risk containers, but it has done so in a way that does not
interrupt the flow of legitimate commerce.
    In closing, CBP has moved aggressively to secure the flow of people
and commerce into our country. It has done this at our physical border,
and beyond our border--working both with foreign governments and the
private sector. And it has done this without materially slowing the
flow of legitimate travel and commerce. Are we finished yet? No. Are we
working to make America even more safe? Yes. And I look forward to
working with Secretary Ridge, Under Secretary Hutchinson, Admiral Loy,
and Admiral Collins--as well as this Committee--to continue our project
of securing America from terrorism.

    Senator Lott. Admiral Loy?

       STATEMENT OF ADMIRAL JAMES M. LOY, ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Admiral Loy. Good morning, Senator Lott, Senator Hollings,
Committee Members. I'm pleased to have this opportunity to
appear before you and report on TSA's progress and plans for
improving security in the Nation's transportation system and to
discuss the recommendations that we have all seen in the
reports from the General Accounting Office.
    I, too, enjoy the opportunity to sit at this table with Tom
Collins and Rob Bonner and Jeff Shane. These folks work daily,
weekly, monthly with all of us at TSA in the efforts to secure
the transportation system. It is always a personal pleasure to
work with them then and to be with them here today and report
back to this Committee.
    Under the leadership of Secretary Ridge and Under Secretary
Hutchinson, we have forged working partnerships throughout the
Department. We continue to work closely with the operating
administrations in the Department of Transportation, especially
TSA does. They provide another vital link with the
transportation providers, and we communicate daily to share
expertise, to ensure that we make the best use of each
organization's resources and opportunities in our mutual reach
to the stakeholders throughout the transportation system.
    As we near the second anniversary of the terrorist attacks
on our country that forever changed our sense of security in
today's world, I feel confident in assuring you and the
American people that the civil aviation sector and the larger
transportation sector is more secure today than it has ever
been, and it will continue to become even more secure as we
mature our complementary systems of systems.
    Today, I'd like to take just a moment to review some of the
major strides that we've made in aviation security and our
action plan for making further improvements. TSA is working
with the other DHS agencies and DOT operating administrations
to develop security standards and initiatives to create a more
uniform level of security across all transportation modes;
again, as both my colleagues, in advance, have said, without
impeding travel or commerce, which has, for all intents and
purposes, become one of those inalienable rights that the
Founding Fathers were talking about but didn't perhaps say it
so clearly.
    First, let me respond to a concern this Committee voiced
the last time I testified. It's off the mission point, but, I
think, very germane to this brand new agency that was created
by the Congress.
    The Chairman, on that occasion, challenged me,
specifically, to pay particular attention to financial
management and contract oversight. NCS Pearson stories were in
the air, and you suggested the reputation of a brand new agency
could get labeled very quickly in one direction or the other.
And the Pearson audit will run its course very shortly, and we
will deal with it as we have to. And we'll finally put that
saga behind us.
    But, in the meantime, we've taken that challenge from this
Committee very seriously. We've hired an excellent team of
acquisition professionals and have designed first-class systems
of program management. Investment review boards, constant
contract oversight, is the routine of the day at TSA. And I can
show the Committee, and will be happy to, dozens of major
contracts, on time and on budget. The TSA was just notified of
our clean-audit status just this last month, with every
expectation that we'll hold onto that status as the Fiscal Year
closes. That is virtually unheard of for a brand new agency,
especially one that inherited some very serious property issues
at our inception.
    But I'm proud of what we accomplished in this area, and I
want the Committee to know that one of our strategic goals is
organizational effectiveness, and we took seriously your
commentary as we continue to take seriously our mission-related
ones, as well.
    Mr. Chairman, I, too, will submit my written testimony for
the record and discuss our short but productive history from a
couple of charts, and the Members each have copies in front of
them.
    The first one shows a system of systems that we've built as
the foundation of security at our airports. We've looked hard
for the silver bullet and found that none existed. And our
default plan has become, as you've heard from the other
speakers so far, a concept where we had to build a system of
systems to build the adequate approach to aviation security.
And the concepts and specific programs you see depicted as
concentric ellipses on this chart begin out there when we're
gathering information, and end literally in the cockpit of each
passenger-carrying airliner in this country.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We leveraged these systems with CAPPS I, a system that we
have in place at the moment that we want very much to replace
with CAPPS II. Each is really a scalable dynamic that is keyed
to the alert conditions system run by the Department of
Homeland Security. But our notion is simply to take advantage
of the law of aggregate numbers by sequencing these systems'
elements as a series of obstacles any terrorist would have to
clear in order to accomplish his objective. Each of these
elements has been carefully developed with attention both to
security and customer service and minimum impact on the flow of
commerce. I'm happy to try to answer questions on any of these
elements in the Q&A, but they each have prompted wide
commentary as they have come into practice, and they were built
and put into the system each for very, very good reasons.
    The second chart is more notional as it defines the shift
that is actually taking place between almost exclusive
concentration on aviation security to developing what we need
to develop for the rest of the national transportation system.
It is a corresponding array of tools or concerns more
appropriate to the rest of that system, and it recognizes two
simple realities. First, most of our attention, to be sure,
energy and resources, have been focused on aviation these past
2 years. And, second, we've learned many lessons as a result,
and many of the lessons learned in that work will allow us to
take a threat-based risk-managed approach for the rest of the
transportation system that will capitalize on industry
ownership and a regulatory-compliance approach by TSA. There
will be no need for hundreds of TSA operators like we see at
airports; rather, an adequate cadre of policy analysts and a
solid group of trained compliance inspectors will be what's
necessary to ensure accountability in this system.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The last chart depicts work accomplished and work still to
be done. If I can look at it just for a second with you, I
would like to offer some commentary on what we're trying to do
here.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If you look at just the face, the upper face, of this cube,
a classic Rubik's cube of attempting to develop the
transportation system security plan, you can see, aggregated
down the lefthand side, what I feel are the six main elements
of our national transportation system. A lot of attention has
been given to air up front. Rail, maritime, highway, transit,
and pipeline deserve attention such that none of them are
perceived by the bad guys as a weak link in that system.
    If you look across the base of that upper level, whether
we're talking about cargo or people, in the form of passengers
or crew, or infrastructure security or the notion of response
preparedness, the face of that cube is really about
understanding the entirety of the national transportation
system. And in today's parlance of computer technology, if we
click on the face of any one of those upper-level white
squares, a couple of blue ones, and a green one, we should be
able to look at the intersection between, for example, maritime
and cargo, and grapple with what's going on among all the
agencies in the Federal Government, in the industry, at state
and local levels, and truly in terms of our global partnerships
around the world. Out of that should come our sense of
vulnerability assessments, of standard-setting, of mitigation
strategies, and of some notion of compliance at the other end
of the day so that we can report back to this Committee as to
how well those things are going across the full face of the
transportation sector.
    The challenging reality is that the complexity of this
chart depicting our approach for just the transportation-
security piece is just that, one puzzle piece in the construct
Secretary Ridge and now Under Secretary Libutti, are building
to represent the approach to the entire homeland security
challenge. Today, we're here to chat with this Committee about
the transportation piece.
    Mr. Chairman, analysts can point to a veritable obstacle
course of challenges to building a comprehensive system of
security across all the modes. And while I recognize and
respect the difficulty of these challenges, I remain
optimistic. We can look, and must look, very positively on the
dramatic change in landscape in only the past 2 years. We have
learned a lot. We have done a lot.
    Mr. Chairman, as my colleagues at this table will attest,
this is very hard work. I am blessed at TSA, as I know they
are, with people who come to work for us because they were
committed to our cause. Everything we've done, we've done with
the whole world watching. And I appreciate the intellectual
challenges offered by every Member of this Committee at one
time or another over the course of the last year. Each time
I've visited or talked to you on the phone, I am prodded in my
agency to do something better.
    Senator Wyden, Senator Dorgan properly challenge us to be
satisfied only when we're doing the right things about civil
liberties in our CAPPS II project. Senator Hutchison and I have
talked long and hard about air cargo and about a registered
traveler program. Senator Hollings and I have been discussing
port security for 10 years. Senator Burns has made it crystal
clear to me where he stands on arming pilots. And I could go on
with virtually every Member of this Committee. We are better
off as a nation because we challenge each other.
    And I want to leave a word of thanks to each of you for
your interest and your drive, personally, on these enormously
important issues. As Tom said, as Rob said, we have
accomplished a lot; we have a lot yet to do.
    I'll happily answer your questions when the time is
appropriate.
    [The prepared statement of Admiral Loy follows:]

      Prepared Statement of Admiral James M. Loy, Administrator,
  Transportation Security Administration, U.S. Department of Homeland
                                Security
    Good morning Mr. Chairman, Senator Hollings, and Members of the
Committee. I am pleased to have this opportunity to appear before you
today to report on the Transportation Security Administration's (TSA)
progress and plans for improving security in the Nation's
transportation system and discuss the recommendations of the General
Accounting Office (GAO).
    Under the leadership of Secretary Ridge and Under Secretary
Hutchinson, we have forged working partnerships with other Department
of Homeland Security (DHS) organizations. We continue to work closely
with the operating administrations of the Department of Transportation
(DOT). They provide another vital link with transportation providers,
and we communicate daily to share expertise, to ensure that we make the
best use of each organization's resources and opportunities.
    As we near the second anniversary of the terrorist attacks on our
Nation that forever changed our sense of security in today's world, I
feel confident in assuring you and the American people that the civil
aviation sector and the larger transportation sector is more secure
today than it has ever been and it will continue to become even more
secure as we mature our complementary ``systems of systems.''
    Today, I would like to review some of the major strides that we
have made in aviation security and our action plan for making further
improvements. TSA is working with other DHS agencies and DOT operating
administrations to develop security standards and initiatives to create
a more uniform level of security across all transportation modes
without impeding travel or commerce
    Civil Aviation Security. First, the flow of intelligence on
terrorists, their methods and their plans, has greatly improved our
understanding of the threats that we face and helped us focus our
resources on meeting those threats. There have been countless times
when information shared with airports or airlines has alerted them to
threats and encouraged enhanced security on their part.
    TSA and the Federal Aviation Administration (FAA) have helped fund
many local airport projects to improve perimeter security, such as
construction of perimeter access roads, installation of access control
systems, electronic surveillance and intrusion detection systems, and
security fencing. The realization of and the response to the threat
from Man Portable Air Defense Systems (MANPADS) is part of our concern
and focus on improved perimeter security, an element of the security
plan required for each airport.
    One local initiative demonstrates how quickly interagency
cooperation can be marshaled to fill security gaps when they are
discovered. When perimeter security was breached at New York's JFK
Airport, the Port Authority of New York and New Jersey rapidly
orchestrated an effective plan to enhance the protection of the remote
runways of their facility.\1\ A new level of perimeter security is now
in place that involves people, technology, and innovation. It is also
an example of the products that skilled security planners can develop
locally, without an impetus from a Federal agency. Our own TSA security
inspectors, FAA's Air Traffic Service, the Port Authority Police, the
NYPD Boat Patrol, and the U.S. Coast Guard have joined forces to create
a cooperative arrangement that will result in tighter perimeter
security including the waterside runways of that airport.
---------------------------------------------------------------------------
    \1\ Among the new measures that the Port Authority has instituted
are increased perimeter patrols, posting police or security guards in
marked patrol cars in unfenced boundary areas during nighttime hours,
and directing other mobile patrol units to regularly monitor perimeter
activity.
---------------------------------------------------------------------------
    Every passenger entering the sterile areas of an airport is
screened by a highly trained force of TSA screeners.\2\ Our screeners
receive a minimum of 40 hours of classroom training, and 60 hours of
on-the-job training. They are subject to periodic proficiency
assessments and unannounced training. They are made aware of new
threats and methods of concealment. We have also greatly improved the
technology used at screening checkpoints and have improved our
capability to detect weapons, explosives, and other prohibited items.
The combination of our screening force using enhanced technology has
resulted in almost 800 arrests at screening checkpoints and the
interception of over 4 million prohibited items since the November 19,
2002 deadline to have TSA screeners at all commercial airports.
Deploying our screeners at almost 450 commercial airports around the
country less than a year after our establishment was a remarkable feat.
Similarly, by December 31, 2002, we met the congressional deadline in
the Aviation and Transportation Security Act to screen all checked
baggage.\3\ In large part this was met with explosives detection and
explosives trace detection equipment. In some locations during peak
periods we screen some bags with a variety of congressionally approved
alternative methods.\4\
---------------------------------------------------------------------------
    \2\ TSA is also operating a pilot program at five airports using
private screeners that must meet all TSA eligibility, training, and
performance requirements and must receive pay and other benefits equal
to those of TSA screeners.
    \3\ Prior to 9/11, an estimated 5 percent of checked baggage was
screened. Now, all checked baggage is screened.
    \4\ As required by Section 425 of the Homeland Security Act, P.L.
107-296, we are providing the Committee with a classified report every
month on our progress on performing electronic screening at all
airports by December 31, 2003. As noted in the unclassified segment of
the report, we project that at 5 airports it will not be physically
possible to provide for electronic screening of all checked baggage by
December 31, 2003.
---------------------------------------------------------------------------
    We expanded the Federal Air Marshal Service (FAMS) from dozens of
agents before 9/11 to thousands of highly trained law enforcement
officers, flying the skies on high-risk flights. As you know, the FAMs
will be transferred to the Bureau of Immigration and Customs
Enforcement (BICE). This will create a ``surge capacity'' to
effectively deal with specific threats by cross-training FAMs and BICE
agents to help disrupt aviation security threats.
    Under FAA rules, all commercial passenger aircraft that fly in the
U.S. now have reinforced cockpit doors, making it highly unlikely that
terrorists could successfully storm the cockpit.\5\ The ``Crew Training
Common Strategy'' (commonly referred to as the ``Common Strategy''),
was originally developed by FAA to address hijacking threats. It was
restructured immediately after 9/11, and TSA and FAA are currently
engaged in a further revision to the Common Strategy to address the
threats posed by suicide terrorists. Pilots are now trained to not open
the flight deck door, and if terrorists should somehow breach the
reinforced flight deck door, they would meet with a flight deck crew
determined to protect the flight deck at all costs. An increasing
number of pilots are armed and trained to use lethal force against an
intruder on the flight deck.
---------------------------------------------------------------------------
    \5\ In a widely reported statement, a spokesman for The Boeing
Company, which has produced thousands of flight deck door conversion
kits, related that the new door withstands bullets and small explosives
and can resist a force equivalent to an NFL linebacker hitting it at
Olympic sprinter speed.
---------------------------------------------------------------------------
    TSA has increased cooperation with our international partners at
airports overseas and with air carriers that fly into and out of the
United States. We have required thousands of criminal history records
checks for U.S. airport workers needing unescorted access to secure
areas of the airport and we are working on improving the access process
as part of our overall airport security program.
    I am proud of the contributions that TSA and its employees have
made to our country. It is with great sadness that I report to you that
one of our screeners, Sgt. Jaror C. Puello, was recently killed in
action while serving in Iraq. Sgt. Puello was a TSA screener at Newark
International Airport in New Jersey. Sgt. Puello saved the life of a
member of his platoon from a speeding truck but lost his life in the
effort. Sgt. Puello leaves behind a wife and three children. Sgt.
Puello served this country proudly, in his job with TSA, and in his
service to the Army. Many other TSA personnel serve in the Reserves and
National Guard and have been called up to active duty.
    During the past several months, the media has reported on
improvised explosive devices secreted in ordinary items that passengers
might carry onto an airplane, continued attempts by terrorists to
perfect the shoe bomb apparatus employed, unsuccessfully, by convicted
terrorist Richard Reid in December, 2001, and of course the recently
reported sting operation concerning an attempt to smuggle a shoulder
launched anti-aircraft missile into the United States, although no live
missile was involved. These threats are a stark reminder that we must
hold our focus on security. The number of prohibited items that TSA
screeners continue to intercept from passengers is still large and does
not show a downward trend. In May, June, and July of this year the
total number of prohibited items that our screeners intercepted
increased from 515,792, to 597,310, to 640,891, respectively. The
number of intercepted firearms increased from 50, to 67, to 89, but
these numbers are down from last year's levels.
    Since I last appeared before this Committee I have been able to
sign the first Letters of Intent (LOIs) that TSA has issued to
airports. These LOIs will provide for the installation of efficient
checked baggage systems that are integrated with explosives detection
systems, thus reducing unacceptable clutter in the terminal buildings
and efficiently moving passengers and checked baggage through the
conveyor systems. TSA has established and is applying prioritization
criteria to allocate appropriated funds amongst airports through the
LOI program. I issued the first series of LOIs to Dallas-Fort Worth
International Airport, Boston-Logan International Airport and Seattle-
Tacoma International Airport. I awarded another set for McCarran
International Airport in Las Vegas, Denver International Airport, and
Los Angeles International Airport and Ontario International Airport in
California. These six LOIs, covering 7 airports, represent a Federal
commitment of approximately $670 million over the next four budget
cycles.
    We take the threat of MANPADS extremely seriously and continue to
perform vulnerability assessments on our airports even as both DHS,
through its Science and Technology Directorate, and the Defense
Department accelerate their review of technology to find the right way
to protect commercial airliners from this threat. Protecting civil
aviation from MANPADS remains a multi-faceted undertaking. As noted
recently by the Congressional Research Service,\6\ effective
countermeasures include ``improvements or modifications to commercial
aircraft, changes to pilot training and air traffic control procedures,
and improvements to airport and local security.'' \7\ This includes
enhanced perimeter security, particularly if a threat is made known to
us via the intelligence information that we receive from a variety of
sources. Other components to protect civil aviation from MANPADS are
non-proliferation efforts and border and customs enforcement, all key
areas that DHS, State Department, the Defense Department, and many
other agencies, continue to press forward on. I want to emphasize,
however, that there is no credible intelligence that MANPADS are in the
hands of terrorists in this country.
---------------------------------------------------------------------------
    \6\ See, Homeland Security: Protecting Airliners from Terrorist
Missiles, Updated March 25, 2003, CRS Report RL31741
    \7\ Id, at CRS-3
---------------------------------------------------------------------------
    We know that we cannot solve all security concerns solely with the
power of a strong security workforce. We must be able to develop and
deploy new technology to make our screening operations more efficient,
less time consuming and costly, and to be able to look beyond the
horizon to adapt to new emerging threats. Led in large part by our
Transportation Security Laboratory (TSL), TSA is attempting to do just
that.
    The certification, purchase, manufacture, and installation of some
1,000 explosives detection systems and 5,300 explosives trace detection
machines at more than 400 airports throughout the country in such a
short time after TSA was created met an aggressive congressional
deadline. Now we are working on faster machines that have a smaller
footprint and can find even more minute amounts of explosives. We are
improving the efficiency of the current machines even as we move
forward with research on the next generation of screening equipment.
TSL is looking at new applications of X-ray, electro-magnetic, and
nuclear technologies to better probe sealed containers for materials
that pose a threat. We are testing two Trace Detection Portals that
analyze the air for explosives as passengers pass through them.
    I know that this Committee is very interested in blast resistant
cargo containers, to hold either cargo or luggage and contain an
explosion. The issues we face with devices now available in the
marketplace involve weight, cost, and durability. TSA, through TSL, is
working on improving this technology for use on wide body aircraft.
    In February, I heard the advice of Senator McCain and others loud
and clear concerning the importance of good acquisition management and
contract oversight. I have initiated a contract oversight strategy that
includes significant support from the Defense Contract Management
Agency, Defense Contract Audit Agency, and multiple independent third
party contractors. TSA has developed a sound investment review process
that mirrors the DHS review process. A lot of press has surrounded our
contract last year with NCS Pearson, and we will follow the auditor
conclusions carefully to ensure we got our money's worth.
    Our rightsizing effort continues as we work to find the balance
between airport and air carrier needs, and staffing requirements for
TSA passenger and baggage screeners. After we ramped up to meet the
deadlines for federalizing passenger and baggage screening, we had
learned much about our staffing requirements. As we analyzed our
staffing model it was clear that there were airports where we had an
imbalance in staffing. In some airports this meant we had too many
screeners for the passenger load at those locations. At others,
particularly those in large metropolitan areas, we had too few
screeners. In many locations it became clear that a part-time workforce
segment makes sense, given the peaks and valleys of scheduled air
carrier service. As a result, and in keeping with our budget
limitations, I made a decision to reduce the number of screeners by
3,000 by May 31, 2003, and by an additional 3,000 by September 30th of
this year. We have reached these targets. Where we required additional
part-time staffing at airports we have opened assessment centers for
individuals to apply for these positions.
    In light of the fact that TSA met this difficult target of reducing
the workforce by 6,000 screeners before the end of this fiscal year, I
ask this Committee's understanding of our need to pause and stabilize
the screener workforce during the next 3 to 6 months. This will permit
TSA to complete the conversion process of many screeners from full-time
to part-time status as we reshape the workforce. It will also allow us
to complete the immediate requirements to hire additional part-time
employees to maintain our current levels of screener workforce and to
balance the full-time equivalence (FTE) allocations at the various
airports throughout the country.
    Cargo security on passenger aircraft remains a matter of concern
for this Committee and for all of us engaged in the area of
transportation security. I am firmly convinced that our air cargo
security strategic plan is on the right track. Proposals to require the
physical inspection of every piece of cargo shipped on passenger
aircraft without a risk-based targeting strategy are no more practical
than similar calls to physically inspect each of the more than 6
million containers that enter the United States each year through our
seaports. Proposals of this sort would simply prevent any cargo from
being carried onboard passenger aircraft. Rather, we have focused our
efforts on three key components in ensuring the security of air cargo.
    First, we use a threat-based, risk-management approach. All cargo
should be information screened for a determination of the threat and
the risk that it poses; moving forward, certain cargo deemed suspicious
or high-risk needs to be subjected to heightened security screening
under the TSA approach. Part of this process involves banning cargo
from unknown shippers, and greatly strengthening the Known Shipper
program. Participation in the Known Shipper program is now more
rigorous, and all parts of the air cargo supply chain, especially air
passenger carriers, all-cargo carriers, and freight forwarders have
been given added responsibility for verifying a customer's status in
the Known Shipper program. TSA performs inspections of these links in
the supply chain to ensure compliance. TSA is also moving forward with
the Known Shipper Database and automated Indirect Air Carrier
certification/recertification. TSA plans on the full deployment of this
database in FY 04.
    The second component of our strategic approach to air cargo
security involves the use of information analysis to assist in pre-
screening cargo. Using information external to TSA, we gather
information on whether cargo is of a suspicious origin, warranting
additional scrutiny. TSA is already working with BCBP and its National
Targeting Center on pre-screening water borne cargo, and will be
working closely with BCBP in the development of a similar system for
air cargo. Again, we plan to develop and begin deployment of our
targeting efforts in FY 04.
    The third component in our air cargo security strategic plan
involves the development of technology to aid in screening and
inspecting air cargo. Our goal is to subject higher-risk shipments to
heightened security screening, but TSA will need a toolbox of
inspection technologies, as no one technology can be applied in all
operating environments. A combination of EDS, ETD, X-ray, canine, and
perhaps even some emerging technologies will need to be made available
to the field. We will have to overcome a number of hurdles to be able
to inspect cargo efficiently by remote means without damaging the
contents or unnecessarily delaying shipment. This research and
development effort must be supported.
    Air cargo security, just like security for all other aspects of the
transportation system, is a partnership. The air cargo industry must
participate with us in a collaborative effort and must be able to bear
its fair share of the costs. I am grateful for the cooperation that TSA
has received from the industry through its participation in cargo
working groups, an off-shoot of the Aviation Security Advisory
Committee. We expect to receive air cargo security recommendations from
these working groups in just a few weeks.
    Our continuing efforts to improve aviation security inevitably
focus on greater information about people who have access to various
aspects of the aviation system. That is why our plans to create uniform
credentials for workers in the transportation industry are so critical.
I am pleased with the continued support that this Committee has given
to our Transportation Worker Identification Credential (TWIC) program.
TWIC may establish a systemwide credential which, if necessary, has the
potential to be used across transportation modes for personnel
requiring unescorted physical and/or logical access to secure areas of
the transportation system. TWIC will consider multiple access control
points to a transportation facility through a variety of transportation
vectors. Using funds already appropriated by Congress, we now have a
technology evaluation underway at two sites. One is on the East Coast
covering the Philadelphia-Delaware River area and the other is on the
West Coast in the Los Angeles and Long Beach area. The information that
we glean from these technology evaluations will enable us to make key
decisions about further development of this program.
    Of course, our most visible mission since September 11 has been to
keep terrorists off commercial airliners. Our plan to move forward with
development, testing, and implementation of the second-generation
Computer Assisted Passenger Prescreening System (CAPPS II) is critical
to a robust aviation security system. As part of its ongoing dialogue
with the public on CAPPS II and related issues, DHS has issued a
revised Interim Final Privacy Notice, which provides information
regarding CAPPS II, including the type of data that the system will
review, and how the data will be used. As always, public comment on the
Notice is requested. The closing date for submission of comments is
September 30. CAPPS II will be a threat-based system under the direct
control of the government and will represent a major improvement over
the decentralized, airline-controlled system currently in place. Mr.
Chairman, I pledge to continue to work with this Committee to assure
you and the Members of this Committee that our development of CAPPS II
will enhance security without compromising important privacy rights.
    We are also developing the parameters for a pilot program to test
key elements of the Registered Traveler program, including background
checks, positive identification, and new checkpoint operations. We
intend to test these concepts at several airports later this year. Our
airline partners have expressed strong interest in working with us.
    We have implemented the Federal Flight Deck Officer (FFDO) program.
We held the first training class this past April and we trained,
deputized, and deployed our first group of volunteer pilots serving as
Federal Flight Deck Officers. We closely reevaluated the training, and
indeed, the entire program, and we have revamped both. In close
cooperation with organizations representing many airline pilots such as
the Air Line Pilots Association (ALPA) and the Coalition of Airline
Pilots Associations (CAPA), we have begun full-scale training of
volunteer pilots. The FFDOs that are currently flying have now flown
several thousand flights, quietly providing another layer of security
in our system of systems. As more FFDOs are deputized, this number will
rise into the tens of thousands of flights.
    We will transfer FFDO training on September 8, 2003 from the
Federal Law Enforcement Training Center (FLETC) at Glynco, Georgia, to
the new permanent site at FLETC's training facility in Artesia, New
Mexico. FLETC Glynco was operating over capacity, largely as a result
of the added requirements for law enforcement training following
September 11. The Artesia facility offers the capability to double the
student throughput each week and we plan to do so starting in January
2004. FLETC Artesia is also the home of the basic training program of
the FAMS, and thus, has training facilities specifically geared to the
unique environment and circumstances present on an aircraft. FLETC
Artesia has three environmentally controlled commercial passenger jets
on hardstands available for use as tactical training simulators, and
ample indoor and outdoor shooting ranges. A delegation of pilots and
TSA staff has visited the site and was unanimous in its praise of
Artesia as a better option. I intend to use dispersed private sector
facilities for the regional semi-annual recertification training
required of FFDOs.
    TSA's actions to enhance aviation security are not limited to
commercial aviation. We have made great strides in the last two years
in improving security for the General Aviation (GA) community. This is
a substantial undertaking, as there are approximately 220,000 GA
aircraft in the United States, responsible for 77 percent of all air
traffic, and more than 18,000 landing areas throughout the Nation. In
addition to the GA initiatives I reported upon last February, TSA has
several other initiatives underway that will continue to improve
security in this critical arena. We are working collaboratively with
key stakeholders in the GA community to develop and disseminate
appropriate security guidelines for the thousands of public and private
use GA airports and heliports. TSA is also preparing to launch a GA
vulnerability assessment as part of it overall risk management program.
We are looking at more in-depth background checks for GA pilots. This
would assist in issuing waivers to certain restricted airspace to
cleared individuals such as corporate pilots. Finally, we are reviewing
some of the restrictions in current Notices to Airmen (NOTAM) to
determine their lasting security value. We will engage in appropriate
rulemaking to make permanent those restrictions that add real security
value.
    I want to also bring to your attention the innovative methods we
are using to enhance security and provide outstanding customer service.
In cooperation with a host of Federal, State, and local agencies, TSA
is exploring a variety of methods to smooth the transition of travelers
through our transportation system. The first of these intermodal pilot
projects, dubbed ``Synergy Projects'', was initiated in Miami, Florida
earlier this year where we have tested integrating the seamless
transfer of the baggage of cruise ship passengers from one mode of
transportation to another. We have also cooperatively supported a
Canadian Government initiative in Vancouver, British Columbia. In
conjunction with Royal Caribbean Cruise Lines and Air Canada, this
program maintains the security standards of U.S.--U.S. domestic baggage
movements. As the success of these initial Synergy Projects becomes
better known, other regions of the country are initiating their own
proposals to maintain the security of the Nation's transportation
system while facilitating the smooth transfer of passengers and their
baggage between transportation modes.
    As part of the Department's Border and Transportation Directorate,
one of our top priorities this year is the development of a
comprehensive, coordinated security strategy for the transportation
system. To accomplish this, TSA is coordinating the development of a
National Transportation System Security Plan (NTSSP). The plan will
provide guidance for national-level plans for all transportation modes
and will be developed with the collaboration of many partners,
including other DHS components such as the Information Analysis and
Infrastructure Protection Directorate and the Coast Guard, the
Department of Transportation (DOT) modal operating administrations,
other Federal Government agencies and private interests. A wide range
of perspectives, disciplines, and constituencies will be involved in
the Plan's development to ensure the guidance is comprehensive,
credible, and executable.
    GAO has recommended that DHS and DOT establish a mechanism, such as
a memorandum of agreement, to clarify and delineate TSA and DOT roles
and responsibilities. We cooperate extensively with DOT and the modal
administrations, and value the degree of cooperation that we receive as
we work together to secure the transportation systems. We will continue
to assess the need for MOAs for the future.
    GAO's recommendation for a risk-management approach has been
adopted by TSA as a cornerstone for its development of security
strategies. Using risk analysis and working under the guidance of the
IAIP Directorate, we hope to ascertain the threats, probabilities, and
consequences of attacks on the different transportation systems. While
security measures will continue to be developed to reflect the many
different types of transportation operations, a certain level of
consistency must be established across the systems to ensure that risk
is not driven from one mode to another that is perceived less secure.
    As they are determined necessary, TSA will develop standards for
security that are both cost-effective and non-duplicative. Recognizing
that transportation is global in nature, to the greatest extent
possible, national standards should be compatible with international
standards.
    TSA standards will be largely administered and implemented through
operating administrations and private sector organizations when
practical. Stakeholders will have multiple opportunities to provide
input into the development of standards. TSA standards will be
performance-based, allowing operators to determine how to best achieve
a required level of security. As appropriate, standards will be threat-
based and tied to the Homeland Security Alert Level.
    Just last week Secretary Ridge announced plans to centralize
terrorism and emergency preparedness grant programs within a single
office, providing a since point of access for obtaining critical
funding. This will ensure that one focal point in the Department is
available for potential grantees to tap into the resources and
information they need, from applying for funds to protect critical
infrastructure to receiving guidance and expertise for first
responders. This will allow DHS to provide more consistent grant
guidance, coordination, and oversight.
    TSA has already distributed substantial funding assistance for
maritime and land security projects and will be working closely with
other DHS agencies to provide a smooth transition of grant programs
under the Secretary's new plan.
    For port security assessments and enhancements, TSA issued (under
DOT in cooperation with MARAD and the Coast Guard) $92 million in FY 02
funds to 79 grantees for 143 projects. In June 2003, again with the
teamwork of the Coast Guard and MARAD, TSA awarded $170 million in FY
03 funds to 199 grantees for 392 projects. TSA is currently completing
the selection process for $20 million in port incident response
exercise contracts and is beginning the evaluation process for an
additional $105 million in port security enhancement grants.
    With the assistance of FMCSA and the Federal Transit
Administration, TSA selected and recently announced the award of 60
grants for 67 bus security projects totaling $20 million. These grants
will enhance driver protection, passenger and baggage screening, and
monitoring and communications technologies for over-the-road buses.
    Working with DOT and other DHS and Federal agencies, TSA is
managing the Operation Safe Commerce (OSC) project. OSC will provide
cooperative agreements to identify security weaknesses in the supply
chain and fund business-driven pilot projects to enhance container
security throughout the supply chain. Utilizing FY 02 and FY 03
funding, TSA awarded funding for 18 projects totaling $58 million to
the three largest container load centers in the U.S.--the ports of Los
Angeles/Long Beach, Seattle/Tacoma, and New York/New Jersey. Together
with the Bureau of Customs and Border Protection, TSA is also co-
chairing the Container Working Group, which has recommended potential
security technologies and procedures that are being operationally
tested in OSC.
    To address one of the critical issues in the area of rail hazardous
materials security policy, TSA held a workshop to explore the role of
placards and their effects on the security of hazardous materials
shipments by rail. TSA brought together experts from the response
community and railroad community as well as government agencies to
discuss security and safety impacts on the treatment of placards for
hazardous material shipments by rail.
    Last May, GAO's report ``Rail Safety and Security--Some Actions
Already Taken to Enhance Rail Security, but Risk-based Plan Needed,''
noted that TSA has not yet developed a risk-based security plan to
address rail security. TSA concurs with GAO's recommendation, and is
working under the guidance of the IAIP Directorate and with the
Department of Transportation to develop a risk-based plan that
specifically addresses the security of the Nation's rail
infrastructure. This plan will make maximum use of the railroad
industry's Terrorism Risk Analysis and Security Management Plan, which
is being reviewed consistent with national interests and security
goals.
    TSA has also provided comments to Amtrak on its Security Investment
Plan. Given the vast infrastructure of the passenger rail system,
security enhancements should be based on thorough risk assessment and
cost-benefit analysis. Close coordination between Amtrak, the Federal
Railroad Administration, and TSA is critical as we move forward.
    Good intelligence is an important tool for combating terrorism in
all modes of transportation. In close coordination with the IAIP
Directorate's Intelligence Analysis section, TSA's Transportation
Security Intelligence Service (TSIS) receives, assesses, and
distributes intelligence related to threats to transportation, and
operates an around-the-clock intelligence watch tied to all national
intelligence and law enforcement intelligence programs. It maintains
direct connections with TSA's field operations and the security centers
of major transportation stakeholders. It tracks intelligence and modal
operations developments continuously. Staffed by experienced senior
intelligence analysts, the intelligence watch is authorized to alert
all appropriate entities to indications of a threat. As part of DHS,
TSA is working to integrate its intelligence analysis and products with
other intelligence components of DHS while continuing to support its
transportation customer base with analysis on transportation security
and intelligence.
    TSA shares transportation security intelligence directly with the
Association of American Railroads (AAR) Operation Center in a manner
similar to intelligence sharing for aviation security. To enhance
cogent intelligence analysis, industry leaders recently provided
briefings on land and maritime transportation to intelligence analysts
from the TSIS, the Central Intelligence Agency, the U.S. Coast Guard,
DHS's Information Analysis and Infrastructure Protection Directorate,
the Northern Command, and the Defense Intelligence Agency through the
auspices of TSA. We are also coordinating sponsorship of security
clearances and secure communications for security personnel in the
transportation industry.
Implementation of the Maritime Transportation Security Act
    Leveraging work already undertaken by private industry and within
the Federal Government, TSA is collaborating closely with the Coast
Guard and the Bureau of Customs and Border Protection to enable DHS to
meet the many requirements set forth in the Maritime Transportation
Security Act of 2002. For example, in July, the Coast Guard published
interim final maritime security regulations to require vessel and
facility owners to complete security assessments, develop security
plans, and implement security measures and procedures. The regulations
will also implement Automatic Identification System (AIS) requirements
for certain vessels, as required by MTSA.
    These regulations were developed in a collaborative process that
involved both TSA and CBP, and are a good example of the benefits of
creating the Department of Homeland Security and bringing the Federal
Government agencies with complementary missions under one roof. TSA is
coordinating with the Coast Guard and the IAIP Directorate to develop a
vulnerability assessment tool that may be used by vessel and facility
operators to help them meet their obligations under those rules. TSA is
also working with the Coast Guard to ensure that the National Maritime
Security Plan and the Area Maritime Security Plans are consistent with
the National Transportation System Security Plan. TSA will also provide
assistance to the Coast Guard and BCBP in conducting foreign port
assessments and notifying foreign authorities when ports are not in
compliance.
    To meet the remaining statutory requirements for which DHS is
responsible under MTSA, TSA, BCBP and the Coast Guard are also
collaborating closely in the arena of developing performance standards
for containerized cargo, secure systems of transportation, and
transportation security cards. I am pleased to report that a good
portion of the preliminary work necessary to meet these requirements
has already been done through the interagency container working group,
and programs like Operation Safe Commerce, the Customs Trade
Partnership Against Terrorism (C-TPAT), the Container Security
Initiative (CSI) and the Transportation Worker Identification Card
(TWIC). We are continuing to work closely with BCBP, the Coast Guard,
IAIP and other Federal agencies like the Department of Transportation
to identify gaps that need to be addressed in these arenas, and will
continue to collaborate closely with those partners in identifying how
those gaps should be filled.
Conclusion
    Analysts can point to a veritable obstacle course of challenges to
preparing a comprehensive system of security across the modes. While I
recognize and respect the difficulty of meeting these challenges, I am
optimistic in that TSA also has many compensating strengths to draw
upon. We can look very positively upon the dramatic change in landscape
in only two years. We have all learned a great deal very quickly. Also,
the enormity of our transportation network and its workers means that
we have alert eyes and ears throughout America, along thousands of
miles of rail track, at every airport, behind the wheels of trucks and
motorcoaches on our highways, throughout our transit stations and
systems, and at our ports and loading docks. We also have remarkable,
almost instantaneous communications tools to help us reach out as well
as share information. Just as important, as this Committee knows so
well, the transportation community has decades of success in
engineering solutions to national challenges, such as improving
transportation safety, building and maintaining vast transportation
systems, and harnessing technology to help them operate more
efficiently.
    We can only surmount the very real threats to our security by
working as a team. You have my assurance that TSA will reach out to all
elements of the transportation and security communities, public and
private, as we move forward. Thank you for the opportunity to testify
before you today. I will be happy to answer any questions you may have.

    Senator Hutchison [presiding]. Thank you very much, Admiral
Loy.
    Mr. Guerrero, welcome.

        STATEMENT OF PETER GUERRERO, DIRECTOR, PHYSICAL

        INFRASTRUCTURE, U.S. GENERAL ACCOUNTING OFFICE;

         ACCOMPANIED BY GERALD L. DILLINGHAM, DIRECTOR,

         CIVIL AVIATION ISSUES, AND MARGARET WRIGHTSON,

         DIRECTOR, HOMELAND SECURITY AND JUSTICE ISSUES

    Mr. Guerrero. Thank you.
    Mrs. Hutchison, Mr. Hollings, and Members of the Committee,
I appreciate the opportunity to testify today on the security
of the Nation's transportation system. With me, to my left, is
Gerald Dillingham, and, to his left, Margaret Wrightson, who
have both extensive experience in the areas of aviation and
port security, respectively. My remarks summarize our
statements that we have submitted for the record.
    The economic well-being of the United States is critically
dependent on the flow of people and goods through the
transportation system. The terrorist attacks 2 years ago
illustrated the vulnerabilities of that system.
    Today, I will discuss the challenges we face in securing
the Nation's transportation system, the actions taken by
stakeholders to enhance security since September 11, and where
we go from here. My comments are based on GAO's work on
security issues, including our recent report on transportation
security that we prepared for this Committee and several other
Members.
    Securing the transportation system is fraught with
challenges. The first challenge is the sheer size of the
transportation system itself. Our transportation infrastructure
crisscrosses the Nation and extends beyond our borders to move
millions of passengers and tons of freight each day. We have
developed a map to illustrate this point. Each of you has
before you that map. It's a small posterboard with several
overlays attached to it, and we have here, for the audience, a
larger board.
    The first layer of the map shows the transit systems in
metropolitan areas. If you then--that's the white base of the
board--and then if you take the first overlay and flip that
down for--the second layer shows U.S. ports. The next overlay
will show the major airports in this country. The next layer
shows the national highway system. The next layer shows large
pipelines. And the final layer shows the location of Class I
railroads.
    When all these layers are put on top of one another, it
shows the extreme complexity, extensiveness interconnectivity
of the transportation system. It shows how that an incident in
one mode of the system can have ripple effects throughout not
only the entire system, but also our economy.
    The second challenge is funding future security
enhancements in an environment where both industry and
government are hurting. Throughout our work, transportation
stakeholders have repeatedly noted that adequate funding is the
most pressing challenge to securing the Nation's transportation
system. While some security improvements are relatively
inexpensive, such as launching employee awareness campaigns,
most require substantial funding. The total cost of enhancing
the security over the entire transportation system is unknown.
However, given its size, it could amount to hundreds of
billions of dollars. The current economic environment makes
this a difficult time for private industry, state and local
governments, and the Federal Government to make these needed
security investments. The sluggish economy has weakened the
transportation industry's financial condition by decreasing
ridership and revenues. Additionally, many states and the
Federal Government are facing very large budget shortfalls.
    Every time the national threat level is elevated,
transportation stakeholders must provide heightened security.
This drains resources from other needs, maintenance is
deferred, service expansion plans are put on hold, and
employees are diverted from regular duties. While the Federal
Government has provided funding for transportation security
since September 11, demand has far outstripped amounts made
available. Given the high price tag of security enhancements
and the limited resources to fund such enhancements, it's
critical that government and industry use a risk-management
approach to ensure that private and government resources are
directed to the highest priorities.
    Despite these challenges, numerous actions have been taken
to enhance transportation security since September 11. Many
transportation operators have conducted security assessments,
undertaken emergency drills, and developed plans. State and
local governments, which play a critical role in securing the
system, because they own a large portion of the transportation
network and also because they serve as first responders, have
also acted to improve the security of the transportation
system.
    Numerous agencies at the Federal level have also been
involved. Notably, agencies within the Departments of Homeland
Security and Transportation have played major efforts in this
regard. For example, the Federal Transit Administration in the
Department of Transportation has provided grants for emergency
drills, security assessments, and training. TSA has met
numerous challenges--challenging mandates, really, to aviation
security, has hired and deployed an extensive workforce of over
60,000, including passenger and baggage screeners and Federal
air marshals. In addition, TSA is working on a number of
additional efforts to secure other modes of transportation,
such as using a transportation workers identification card
program, which would establish a uniform national standard for
the secure identification of the 12 million transportation
workers.
    The Coast Guard, Bureau of Customs and Border and
Protection, and the Maritime Administration have also launched
a number of initiatives to improve port security and have made
important strides in implementing the security provisions of
the Maritime Transportation Security Act.
    As all of these stakeholders move forward with their
security efforts, it will be critically important that their
roles and responsibilities are clearly defined and coordinated.
Lack of coordination can lead to problems, such as confusion,
duplication, and gaps in preparedness. Moreover, lack of
coordination can strain intergovernmental relations, drain
resources, and raise the potential for problems in responding
to acts of terrorism. Therefore, we have recommended that the
Department of Homeland Security and the Department of
Transportation use a mechanism, such as a memorandum of
agreement, to clearly delineate and coordinate their respective
roles and responsibilities.
    While transportation security has increased since September
11, significant challenges still remain. The remaining work
will be challenging and will likely prove as difficult to
tackle as the issues addressed over the past 2 years. For
example, although securing the aviation system has received
considerable attention and funding over the past 2 years,
vulnerabilities still remain. These vulnerabilities remain in
the areas of airport perimeter, air cargo, and general aviation
security, to just cite three examples. Additional strategies to
further secure the maritime and land transportation modes,
which typically, as we heard today, have open access designed
so that they can facilitate commerce and the flow of
passengers, must be developed and deployed. As solutions and
strategies are developed, their impact on mobility and commerce
must also be considered. It will be important to strike the
right balance between increasing security and protecting
economic vitality and mobility. Meeting these continuing as
well as emerging challenges is made more difficult as the
Federal Government reorganizes to address these challenges.
    The lead player, the Department of Homeland Security, will
inevitably encounter funding, human capital, and other
organizational challenges typically faced by new organizations,
all of which could affect its ability to administer and
implement security programs. During this transformation period,
coordination among and congressional oversight of key Federal
agencies is critical.
    In conclusion, securing the transportation system is not an
easy or short-term task. Many challenges must be overcome.
Transportation stakeholders have worked to strengthen the
security of all modes of transportation since September 11.
However, much more work remains to be done. It will take a
collective and coordinated effort of all transportation
stakeholders to meet the continuing challenges and enhance the
security of the transportation system. We look forward to
working with the Committee in meeting these challenges.
    This concludes my prepared statement. We'd be pleased to
answer any questions.
    [The prepared statements of Mr. Guerrero follows:]

Prepared Statement of Peter Guerrero, Director, Physical Infrastructure
            Issues, United States General Accounting Office

           Federal Action Needed to Enhance Security Efforts

    Mr. Chairman and Members of the Committee:

    We appreciate the opportunity to provide testimony on the security
of our Nation's transportation system. Almost 2 years have passed since
the attacks of September 11, 2001, demonstrated the vulnerabilities of
the Nation's transportation system to the terrorist threat. Although
most of the early attention following the September 11 attacks focused
on aviation security, emphasis on the other modes of transportation has
since grown as concerns are voiced about possible vulnerabilities, such
as attempts to introduce weapons of mass destruction into this country
through ports or launch chemical attacks on mass transit systems. The
entire transportation industry has remained on a heightened state of
alert since the attacks.
    My testimony today examines (1) challenges in securing the Nation's
transportation system; (2) actions transportation operators,\1\ as well
as state and local governments, have taken since September 11 to
enhance security; (3) the Federal role in securing the transportation
system and actions the Federal Government has taken to enhance
transportation security since September 11; and (4) future actions that
are needed to further enhance the security of the Nation's
transportation system. My comments are based on our recent report \2\
on the security of the transportation system that we prepared for
several Members of this Committee as well as a body of our work
undertaken since September 11 on homeland security and combating
terrorism.\3\
---------------------------------------------------------------------------
    \1\ Transportation operators may be private, public, or quasi-
public entities that provide transportation services.
    \2\ U.S. General Accounting Office, Transportation Security:
Federal Action Needed to Help Address Security Challenges, GAO-03-843
(Washington, D.C.: June 30, 2003). For this report, we analyzed the
Federal Bureau of Investigation's threat assessment and the
administration's security strategies, the Transportation Security
Administration (TSA) and the Department of Transportation (DOT)
security-related documents and reports, and relevant statutes and
regulations. In addition, we interviewed officials from DOT, the
National Railroad Passenger Corporation (Amtrak), and TSA as well as
representatives from numerous transportation industry associations and
transportation security experts. We selected transportation industry
and state and local government associations that represent the
different modes of transportation and levels of government. We selected
transportation security experts on the basis of their knowledge and
expertise and reputation as being experts in the transportation
security arena. We also consulted with the National Academy of Sciences
in identifying appropriate transportation security experts. Finally, we
reviewed our past reports on homeland, port, transit, and aviation
security and other research on terrorism and transportation security.
We conducted our work from February 2003 through May 2003, in
accordance with generally accepted government auditing standards.
    \3\ See Related GAO Products at the end of this testimony.
---------------------------------------------------------------------------
Summary
    Transportation stakeholders face numerous challenges in securing
the Nation's transportation system. Some of these challenges are common
to all modes of transportation; other challenges are specific to
aviation, maritime, or land transportation modes. Common security
challenges include the extensiveness of the transportation system, the
interconnectivity of the system, funding limitations, and the number of
stakeholders involved in transportation security. For example, the
transportation system includes about 3.9 million miles of roads, over
100,000 miles of rail, almost 600,000 bridges, over 300 ports, 2.2
million miles of pipelines, 500 train stations, and over 5,000 public-
use airports. The size of the system simultaneously provides a
substantial number of potential targets for terrorists and makes it
difficult to secure. Additionally, the number of stakeholders--
including over 20 Federal entities, state and local governments, and
hundreds of thousands of private businesses--can lead to coordination,
communication, and consensus-building challenges. Further exacerbating
these challenges are the financial pressures confronting transportation
stakeholders. For example, the sluggish economy has weakened the
transportation industry's financial condition by decreasing ridership
and revenues. The Federal Government has provided additional funding
for transportation security since September 11, but demand has far
outstripped the additional amounts made available. The aviation,
maritime, and land transportation modes also face particular challenges
in enhancing security. For instance, maritime and land transportation
systems generally have open access designs so that users can enter the
systems at multiple points; however, this openness leaves them
vulnerable because transportation operators cannot monitor or control
who enters or leaves the systems.
    Despite these challenges, transportation operators and state and
local governments have implemented numerous actions to enhance security
since September 11. Although security was always a priority, the
terrorist attacks elevated the importance and urgency of security.
According to representatives from a number of industry associations we
interviewed, transportation operators have implemented new security
measures or increased the frequency or intensity of existing
activities. For example, many transportation operators conducted risk
or security assessments, undertook emergency drills, and developed
security plans. State and local governments, which play a critical role
in securing the system because they own a large portion of the
transportation system as well as serve as first responders to incidents
involving transportation assets, have also acted to improve the
security of the transportation system. Some examples of their actions
since September 11 include deploying additional law enforcement
personnel and participating in emergency drills with the transportation
industry.
    The roles of Federal Government agencies in securing the Nation's
transportation system are in transition. Prior to September 11, DOT had
primary responsibility for the security of the transportation system.
In the wake of September 11, Congress created TSA and gave it
responsibility for the security of all modes of transportation. During
TSA's first year of existence, its primary focus was on aviation
security. While TSA was focusing on aviation security, DOT modal
administrations \4\ launched various initiatives to enhance the
security of the maritime and land transportation modes. For example,
the Federal Transit Administration (FTA) launched a multipart security
initiative to enhance transit security, which included grants for
emergency drills, security assessments, and training. TSA has started
to assert a greater role in securing the maritime and land
transportation modes and is launching a number of new security
initiatives. For example, TSA is planning to issue security standards
for all modes of transportation. However, a number of representatives
from transportation industry and state and local government
associations that we contacted expressed concerns about not being
adequately involved in TSA's decision-making, such as the development
of security standards. DOT modal administrations are also continuing
their transportation security efforts. For example, the Federal Highway
Administration (FHWA) is coordinating a series of workshops this year
on emergency response and preparedness for state departments of
transportation and other agencies. The roles and responsibilities of
TSA and DOT in transportation security have yet to be clearly
delineated, which creates the potential for duplicating and/or
conflicting efforts as both entities move forward with their security
efforts.
---------------------------------------------------------------------------
    \4\ DOT's modal administrations are the departmental units
responsible for the different modes of transportation, such as the
Federal Railroad Administration or the Federal Highway Administration.
---------------------------------------------------------------------------
    Transportation security experts and representatives from
transportation industry and state and local government associations
that we spoke with identified a number of actions that they said should
be implemented to enhance the security of the Nation's transportation
system. In general, they believe that the transportation system is
generally more secure today than it was prior to September 11; however,
all 1noted that more work is needed to improve the security of the
system. Transportation security experts and representatives from
transportation industry and state and local government associations
identified a number of future actions needed and stated that the
identified actions are primarily the responsibility of the Federal
Government. For instance, representatives from industry and state and
local government associations told us that clarifying Federal roles and
coordinating Federal efforts are important because association members
are not clear about which agency to contact for their various security
concerns and which agency has oversight for certain issues. Some
representatives from the transportation industry and state and local
government associations also noted that they have received conflicting
messages from the different Federal entities.
    In our June report, we recommended that the Secretary of Homeland
Security and the Secretary of Transportation develop mechanisms, such
as a memorandum of agreement, to clearly define the roles and
responsibilities of TSA and DOT in transportation security matters.\5\
DOT and DHS generally agreed with the report's findings; however, they
disagreed with the conclusions and recommendation that their roles and
responsibilities in transportation security matters need to be
clarified. On the basis of our discussions with transportation security
stakeholders, we continue to believe our recommendation would help
address transportation security challenges. For example,
representatives from several associations stated that their members
were unclear as to which agency to contact for their various security
concerns and which agency has oversight for certain issues.
Furthermore, both DOT and TSA are moving forward with their security
efforts, and both entities have statutory responsibilities for
transportation security. Therefore, we retained our recommendation that
DOT and DHS clarify and delineate their roles and responsibilities in
security matters and communicate this information to stakeholders.
---------------------------------------------------------------------------
    \5\ GAO-03-843.
---------------------------------------------------------------------------
Background
    The nation's transportation system is a vast, interconnected
network of diverse modes. Key modes of transportation include aviation;
highways; motor carrier (i.e., trucking); motor coach (i.e., intercity
bus); maritime; pipeline; rail (passenger and freight); and transit
(e.g., buses, subways, ferry boats, and light rail). The transportation
modes work in harmony to facilitate mobility through an extensive
network of infrastructure and operators, as well as through the
vehicles and vessels that permit passengers and freight to move within
the system. For example, the Nation's transportation system moves over
30 million tons of freight and provides approximately 1.1 billion
passenger trips each day. The diversity and size of the transportation
system make it vital to our economy and national security, including
military mobilization and deployment.
    Private industry, state and local governments, and the Federal
Government all have roles and responsibilities in securing the
transportation system. Private industry owns and operates a large share
of the transportation system. For example, almost 2,000 pipeline
companies and 571 railroad companies own and operate the pipeline and
freight railroad systems, respectively. Additionally, 83 passenger air
carriers and 640,000 interstate motor coach and motor carrier companies
operate in the United States.
    State and local governments also own significant portions of the
highways, transit systems, and airports in the country. For example,
state and local governments own over 90 percent of the total mileage of
highways. State and local governments also administer and implement
regulations for different sectors of the transportation system and
provide protective and emergency response services through various
agencies. Although the Federal Government owns a limited share of the
transportation system, it issues regulations, establishes policies,
provides funding, and/or sets standards for the different modes of
transportation. The Federal Government uses a variety of policy tools,
including grants, loan guarantees, tax incentives, regulations, and
partnerships, to motivate or mandate state and local governments or the
private sector to help address security concerns.
    Prior to September 11, DOT was the primary Federal entity involved
in transportation security matters. However, in response to the attacks
on September 11, Congress passed the Aviation and Transportation
Security Act (ATSA), which created TSA within DOT and defined its
primary responsibility as ensuring security in all modes of
transportation.\6\ The act also gives TSA regulatory authority over all
transportation modes. Since its creation in November 2001, TSA has
focused primarily on meeting the aviation security deadlines contained
in ATSA. With the passage of the Homeland Security Act on November 25,
2002, TSA, along with over 20 other agencies, was transferred to the
new Department of Homeland Security (DHS).\7\
---------------------------------------------------------------------------
    \6\ P.L. No. 107-71, 115 Stat. 597 (2001).
    \7\ P.L. No. 107-296, 116 Stat. 2135 (2002).
---------------------------------------------------------------------------
The Transportation System as a Whole Faces Numerous Challenges
    The United States maintains the world's largest and most complex
national transportation system. Improving the security of such a system
is fraught with challenges for both public and private entities. To
provide safe transportation for the nation, these entities must
overcome issues common to all modes of transportation as well as issues
specific to the individual modes of transportation.
All Modes of Transportation Face Common Challenges
    Although each mode of transportation is unique, they all face some
common challenges in trying to enhance security. Common challenges stem
from the extensiveness of the transportation system, the
interconnectivity of the system, funding security improvements, and the
number of stakeholders involved in transportation security.
Size and Diversity of Transportation Modes Create Security Challenges

    The size of the transportation system makes it difficult to
adequately secure. The transportation system's extensive infrastructure
crisscrosses the Nation and extends beyond our borders to move millions
of passengers and tons of freight each day. The extensiveness of the
infrastructure as well as the sheer volume of freight and passengers
moved through the system creates an infinite number of targets for
terrorists. Furthermore, as industry representatives and transportation
security experts repeatedly noted, the extensiveness of the
infrastructure makes equal protection for all assets impossible.
    Protecting transportation assets from attack is made more difficult
because of the tremendous variety of transportation operators. Some are
multibillion-dollar enterprises, and others have very limited
facilities and very little traffic. Some are public agencies, such as
state departments of transportation, and some are private businesses.
Some transportation operators carry passengers, and others haul
freight. Additionally, the type of freight moved through the different
modes is similarly varied. For example, the maritime, motor carrier,
and rail operators haul freight as diverse as dry bulk (grain) and
hazardous materials.
Interconnectivity and Interdependency Also Present Challenges

    Additional challenges are created by the interconnectivity and
interdependency among the transportation modes and between the
transportation sector and nearly every other sector of the economy. The
transportation system is interconnected or intermodal because
passengers and freight can use multiple modes of transportation to
reach a destination. For example, from its point of origin to its
destination, a piece of freight, such as a shipping container, can move
from ship to train to truck. (See fig. 1.) The interconnective nature
of the transportation system creates several security challenges.
First, the effects of events directed at one mode of transportation can
ripple throughout the entire system. For example, when the port workers
in California, Oregon, and Washington went on strike in 2002, the
railroads saw their intermodal traffic decline by almost 30 percent
during the first week of the strike, compared with the year before.
Second, the interconnecting modes can contaminate each other--that is,
if a particular mode experiences a security breach, the breach could
affect other modes.\8\ An example of this would be if a shipping
container that held a weapon of mass destruction arrived at a U.S. port
where it was placed on a truck or train. In this case, although the
original security breach occurred in the port, the rail or trucking
industry would be affected as well. Thus, even if operators within one
mode established high levels of security they could be affected because
of the security efforts, or lack thereof, of the other modes. Third,
intermodal facilities where a number of modes connect and interact--
such as ports--are potential targets for attack because of the presence
of passengers, freight, employees, and equipment at these facilities.
---------------------------------------------------------------------------
    \8\ Similarly, there are opportunities for cross contamination
within the same mode. For example, a bag containing an explosive device
could be placed on one airline and then transferred to another airline
where it explodes.
---------------------------------------------------------------------------
Figure 1: Illustration of Possible Freight Movements within the
        Transportation System
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO.

    Interdependencies also exist between transportation and nearly
every other sector of the economy. Consequently, an event that affects
the transportation sector can have serious impacts on other industries.
For example, when the war in Afghanistan began in October 2001, the
rail industry restricted the movement of many hazardous materials,
including chlorine, because of a heightened threat of a terrorist
attack. However, within days, many major water treatment facilities
reported that they were running out of chlorine, which they use to
treat drinking water, and would have to shut down operations if
chlorine deliveries were not immediately resumed.
The Number of Stakeholders Creates Challenges

    Securing the transportation system is made more difficult because
of the number of stakeholders involved. As illustrated in figure 2,
numerous entities at the federal, state, and local levels, including
over 20 Federal entities and thousands of private sector businesses,
play a key role in transportation security. For example, the
Departments of Energy, Transportation, and Homeland Security; state
governments; and about 2,000 pipeline operators are all responsible for
securing the pipeline system. The number of stakeholders involved in
transportation security can lead to communication challenges,
duplication, and conflicting guidance. Representatives from several
state and local government and industry associations told us that their
members are receiving different messages from the various Federal
agencies involved in transportation security. For instance, one
industry representative noted that both TSA and DOT asked the industry
to implement additional security measures when the Nation's threat
condition was elevated to orange at the beginning of the Iraq War; \9\
however, TSA and DOT were not consistent in what they wanted done--that
is, they were asking for different security measures. Moreover, many
representatives commented that the Federal Government needs to better
coordinate its security efforts. These representatives noted that
dealing with multiple agencies on the same issues and topics is
frustrating and time consuming for the transportation sector.
---------------------------------------------------------------------------
    \9\ DHS created the Homeland Security Advisory System. The system
has five threat conditions--ranging from low to severe--representing
different levels of risk for terrorist attacks.
---------------------------------------------------------------------------
Figure 2: Key Stakeholders in Transportation Security
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source. GAO.
    <SUP>a</SUP> ``Other'' includes private, public, or quasi-public
entities.

    The number of stakeholders also makes it difficult to achieve the
needed cooperation and consensus to move forward with security efforts.
As we have noted in past reports, coordination and consensus-building
are critical to successful implementation of security efforts.
Transportation stakeholders can have inconsistent goals or interests,
which can make consensus-building challenging. For example, from a
safety perspective, vehicles that carry hazardous materials should be
required to have placards that identify the contents of a vehicle so
that emergency personnel know how best to respond to an incident.
However, from a security perspective, identifying placards on vehicles
that carry hazardous materials make them a potential target for attack.
Funding Is Key Challenge

    According to transportation security experts and state and local
government and industry representatives we contacted, funding is the
most pressing challenge to securing the Nation's transportation system.
Although some security improvements are inexpensive, such as removing
trash cans from subway platforms, most require substantial funding.
Additionally, given the large number of assets to protect, the sum of
even relatively less expensive investments can be cost prohibitive. For
example, reinforcing shipping containers to make them more blast
resistant is one way to improve security, which would cost about
$15,000 per container. With several million shipping containers in use,
however, this tactic would cost billions of dollars if all of them were
reinforced. The total cost of enhancing the security of the entire
transportation system is unknown; however, given the size of the
system, it could amount to tens of billions of dollars.
    The current economic environment makes this a difficult time for
private industry or state and local governments to make security
investments. According to industry representatives and experts we
contacted, most of the transportation industry operates on a very thin
profit margin, making it difficult for the industry to pay for
additional security measures. The sluggish economy has further weakened
the transportation industry's financial condition by decreasing
ridership and revenues. For example, airlines are in the worst fiscal
crisis in their history, and several have filed for bankruptcy.
Similarly, the motor coach and motor carrier industries and Amtrak
report decreased revenues because of the slow economy. In addition,
nearly every state and local government is facing a large budget
deficit for Fiscal Year 2004. For example, the National Governors
Association estimates that states are facing a total budget shortfall
of $80 billion for Fiscal Year 2004. Given the tight budget
environment, state and local governments and transportation operators
must make difficult trade-offs between transportation security
investments and other needs, such as service expansion and equipment
upgrades. According to the National Association of Counties, many local
governments are planning to defer some maintenance of their
transportation infrastructure to pay for some security enhancements.
    Further exacerbating the problem of funding security improvements
is the additional costs the transportation sector incurs when the
Federal Government elevates the national threat condition. Industry
representatives stated that operators tighten security, such as
increasing security patrols, when the national threat condition is
raised or intelligence information suggests an increased threat against
their mode. However, these representatives stated that these additional
measures drain resources and are not sustainable. For example, Amtrak
estimates that it spends an additional $500,000 per month for police
overtime when the national threat condition is increased.
Transportation industry representatives also noted that employees are
diverted from their regular duties to implement additional security
measures, such as guarding entranceways, in times of increased
security, which hurts productivity.
    The Federal Government has provided additional funding for
transportation security since September 11, but demand has far
outstripped the additional amounts made available. For example,
Congress appropriated a total of $241 million for grants for ports,
motor carriers, and Operation Safe Commerce in 2002.\10\ However, as
table 1 shows, the grant applications TSA has received for these
security grants totaled $1.8 billion--nearly 8 times more than the
amount available. Due to the costs of security enhancements and the
transportation industries' and state and local governments' tight
budget environments, the Federal Government is likely to be viewed as a
source of funding for at least some of these enhancements. However,
given the constraints on the Federal budget as well as competing claims
for Federal assistance, requests for Federal funding for transportation
security enhancements will likely continue to exceed available
resources.
---------------------------------------------------------------------------
    \10\ Operation Safe Commerce focuses on using new technology, such
as container seals, to help shippers ensure the integrity of the cargo
included in containers being sent to the United States.



----------------------------------------------------------------------------------------------------------------



 Table 1.--Comparison of Selected Transportation Security Grant Requests with Federal Funding Available, 2002 to
                                                      2003
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                           Total amount requested in all grant
              Type of grant                     Amount appropriated                    applications
----------------------------------------------------------------------------------------------------------------
Port security grants a                                            $93.3                                     $697
----------------------------------------------------------------------------------------------------------------
Port security grants b                                              105                                      996
----------------------------------------------------------------------------------------------------------------
Intercity bus grants b                                               15                                     45.6
----------------------------------------------------------------------------------------------------------------
Operation Safe Commerce grants b                                     28                                     97.9
----------------------------------------------------------------------------------------------------------------
Total                                                            $241.3                                 $1,836.5
----------------------------------------------------------------------------------------------------------------
Source: TSA.
Note: Both the Department of Defense and Emergency Supplemental Appropriations Act (P.L. No. 107-117) and the
  Supplemental Appropriations Act (P.L. No. 107-206) provided funding for port security grants.
a P.L. No. 107-117, 115 Stat. 2230 (2002).
b P.L. No. 107-206, 116 Stat. 820 (2002).

Balancing Potential Economic Impacts and Security Enhancements Is Also
        Challenging

    Another challenge is balancing the potential economic impacts of
security enhancements with the benefits of such measures. Although
there is broad support for greater security, this task is a difficult
one because the Nation relies heavily on a free and expeditious flow of
goods. Particularly with ``just-in-time'' deliveries, which require a
smooth and expeditious flow through the transportation system, delays
or disruptions in the supply chain could have serious economic impacts.
As the Coast Guard Commandant stated about the flow of goods through
ports, ``even slowing the flow long enough to inspect either all or a
statistically significant random selection of imports would be
economically intolerable.'' \11\
---------------------------------------------------------------------------
    \11\ Meeting the Homeland Security Challenge: A Principled Strategy
for a Balanced and Practical Response (September 2001); and Global
Trade: America's Achilles' Heel (February 2002) by Admiral James M. Loy
and Captain Robert G. Ross, U.S. Coast Guard.
---------------------------------------------------------------------------
    Furthermore, security measures may have economic and competitive
ramifications for individual modes of transportation. For instance, if
the Federal Government imposed a particular security requirement on the
rail industry and not on the motor carrier industry, the rail industry
might incur additional costs and/or lose customers to the motor carrier
industry. Striking the right balance between increasing security and
protecting the economic vitality of the national economy and individual
modes will remain an important and difficult task.
Individual Transportation Modes Also Confront Unique Challenges
    In addition to the overarching challenges that transportation
stakeholders will face in attempting to improve transportation
security, they also face a number of challenges specific to the
aviation, maritime, and land transportation modes. Although aviation
security has received a significant amount of attention and funding
since September 11, more work is needed. In general, transportation
security experts believe that the aviation system is more secure today
than it was prior to September 11. However, aviation experts and TSA
officials noted that significant vulnerabilities remain. For example:

  <bullet> Perimeter security: Terrorists could launch attacks, such as
        launching shoulder-fired missiles, from a location just outside
        an airport's perimeter. Since September 11, airport operators
        have increased their patrols of airport perimeter areas, but
        industry officials state that they do not have enough resources
        to completely protect against these attacks.

  <bullet> Air cargo security: Although TSA has focused much effort and
        funding on ensuring that bombs and other threat items are not
        carried onto planes by passengers or in their luggage,
        vulnerabilities exist in securing the cargo carried aboard
        commercial passenger and all-cargo aircraft. For example,
        employees of shippers and freight forwarders are not
        universally subject to background checks. Theft is also a major
        problem in air cargo shipping, signifying that unauthorized
        personnel may still be gaining access to air cargo shipments.
        Air cargo shipments pass through several hands in going from
        sender to recipient, making it challenging to implement a
        system that provides adequate security for air cargo. According
        to TSA officials, TSA is developing a strategic plan to address
        air cargo security and has undertaken a comprehensive outreach
        process to strengthen security programs across the industry.

  <bullet> General aviation security: Although TSA has taken several
        actions related to general aviation \12\ since September 11,
        this segment of the industry remains potentially more
        vulnerable than commercial aviation. For example, general
        aviation pilots are not screened prior to taking off, and the
        contents of a plane are not examined at any point. According to
        TSA, solutions that can be implemented relatively easily at the
        Nation's commercial airports are not practical at the 19,000
        general aviation airports. It would be very difficult to
        prevent a general aviation pilot intent on committing a
        terrorist attack with his or her aircraft from doing so. The
        vulnerability of the system was illustrated in January 2002,
        when a teenage flight student from Florida crashed his single-
        engine airplane into a Tampa skyscraper. TSA is working with
        the appropriate stakeholders to close potential security gaps
        and to raise the security standards across this diverse segment
        of the aviation industry.
---------------------------------------------------------------------------
    \12\ General aviation includes more than 200,000 corporate and
privately owned aircraft at over 19,000 airports.

    Maritime and land transportation systems have their own unique
security vulnerabilities. For example, maritime and land transportation
systems generally have an open design, meaning the users can access the
system at multiple points. The systems are open by design so that they
are accessible and convenient for users. In contrast, the aviation
system is housed in closed and controlled locations with few entry
points. The openness of the maritime and land transportation systems
can leave them vulnerable because transportation operators cannot
monitor or control who enters or leaves the systems. However, adding
security measures that restrict the flow of passengers or freight
through the systems could have serious consequences for commerce and
the public.
    Individual maritime and land transportation modes also have unique
challenges and vulnerabilities. For example, representatives from the
motor carrier industry noted that the high turnover rate (about 40 to
60 percent) of drivers means that motor carrier operators must be
continually conducting background checks on new drivers, which is
expensive and time consuming. Additionally, as we noted in our report
on rail safety and security,\13\ the temporary storage of hazardous
materials in unsecured or unmonitored rail cars while awaiting delivery
to their ultimate destinations is a potential vulnerability.
Specifically, unmonitored chemical cars could develop undetected leaks
that could threaten the nearby population and environment. In addition,
representatives from the motor coach industry commented that the number
of used motor coaches on the market, coupled with the lack of guidance
or requirements on buying or selling these vehicles, is a serious
vulnerability. In particular, there are approximately 5,000 used motor
coaches on the market; however, there is very little information on who
is selling and buying them, nor is there any consistency among motor
coach operators in whether they remove their logos from the vehicles
before they are sold. These vehicles could be used as weapons or to
transport weapons. Federal Motor Carrier Safety Administration
officials told us they have not issued guidance to the industry on this
potential vulnerability because TSA is responsible for security and
therefore would be responsible for issuing such guidance.
---------------------------------------------------------------------------
    \13\ U.S. General Accounting Office, Rail Safety and Security: Some
Actions Already Taken to Enhance Rail Security, but Risk-based Plan
Needed, GAO-03-435 (Washington, D.C.: Apr. 30, 2003).
---------------------------------------------------------------------------
Transportation Operators and State and Local Governments Have Taken
        Steps to Improve Security
    Since September 11, transportation operators and state and local
governments have been working to strengthen security, according to
associations we contacted. Although security was a priority before
September 11, the terrorist attacks elevated the importance and urgency
of transportation security for transportation operators and state and
local governments. According to representatives from a number of
industry associations we interviewed, transportation operators have
implemented new security measures or increased the frequency or
intensity of existing activities. Some of the most common measures
cited include conducting vulnerability or risk assessments, tightening
access control, intensifying security presence, increasing emergency
drills, developing or revising security plans, and providing additional
training. (Figure 3 is a photograph from an annual emergency drill
conducted by the Washington Metropolitan Area Transit Authority.)
Figure 3: Emergency Drill in Progress
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO.

    As we have previously reported, state and local governments are
critical stakeholders in the Nation's homeland security efforts. This
is equally true in securing the Nation's transportation system. State
and local governments play a critical role, in part, because they own a
significant portion of the transportation infrastructure, such as
airports, transit systems, highways, and ports. For example, state and
local governments own over 90 percent of the total mileage of the
highway system. Even when state and local governments are not the
owners or operators, they nonetheless are directly affected by the
transportation modes that run through their jurisdictions.
Consequently, the responsibility for protecting this infrastructure and
responding to emergencies involving the transportation infrastructure
often falls on state and local governments.
    Security efforts of local and state governments have included
developing counter terrorist plans, participating in training and
security-related research, participating in transportation operators'
emergency drills and table-top exercises, conducting vulnerability
assessments of transportation assets, and participating in emergency
planning sessions with transportation operators. Some state and local
governments have also hired additional law enforcement personnel to
patrol transportation assets. Much of the funding for these efforts has
been covered by the state and local governments, with a bulk of the
expenses going to personnel costs, such as for additional law
enforcement officers and overtime.
Congress and Federal Agencies Have Taken Numerous Actions to Enhance
        Security, but Roles Remain Unclear
    Congress, DOT, TSA, and other Federal agencies have taken numerous
steps to enhance transportation security since September 11. The roles
of the Federal agencies in securing the Nation's transportation system,
however, are in transition. Prior to September 11, DOT had primary
responsibility for the security of the transportation system. In the
wake of September 11, Congress created TSA and gave it responsibility
for the security of all modes of transportation. However, DOT and TSA
have not yet formally defined their roles and responsibilities in
securing all modes of transportation. Furthermore, TSA is moving
forward with plans to enhance transportation security. For example, TSA
plans to issue security standards for all modes. DOT modal
administrations are also continuing their security efforts for
different modes of transportation.
Congress and Federal Agencies Have Acted to Enhance Transportation
        Security
    Congress has acted to enhance the security of the Nation's
transportation system since September 11. In addition to passing the
Aviation and Transportation Security Act (ATSA),\14\ Congress passed a
number of other key pieces of legislation aimed at improving
transportation security. For example, Congress passed the USA PATRIOT
Act of 2001,\15\ which mandates Federal background checks of
individuals operating vehicles carrying hazardous materials; and the
Homeland Security Act,\16\ which created DHS and moved TSA to the new
department.\17\ Congress also provided funding for transportation
security enhancements through various appropriations acts. For example,
the 2002 Supplemental Appropriations Act, in part, provided (1) $738
million for the installation of explosives detection systems in
commercial service airports, (2) $125 million for port security
activities, and (3) $15 million to enhance the security of intercity
bus operations.
---------------------------------------------------------------------------
    \14\ P.L. No. 107-71, 115 Stat. 597 (2001).
    \15\ P.L. No. 107-56, 115 Stat. 272 (2001).
    \16\ P.L. No. 107-296, 116 Stat. 2135 (2002).
    \17\ The U.S. Coast Guard was also transferred to DHS. In the Terms
of Reference Regarding the Respective Roles of the U.S. Coast Guard and
the Transportation Security Administration, the Coast Guard is
designated as the lead DHS agency for maritime security and is directed
to coordinate as appropriate with other agencies. The document further
notes that a supporting memorandum of agreement between the Commandant
of the Coast Guard and the Administrator of the Transportation Security
Administration is being developed.
---------------------------------------------------------------------------
    Federal agencies, notably TSA and DOT, have also taken steps to
enhance transportation security since September 11. In its first year
of existence, TSA worked to establish its organization and focused
primarily on meeting the aviation security deadlines contained in ATSA.
In January 2002, TSA had 13 employees to tackle securing the Nation's
transportation system; 1 year later, TSA had about 65,000 employees.
TSA reports that it met over 30 deadlines during 2002 to improve
aviation security, including two of its most significant deadlines--to
deploy Federal passenger screeners at airports across the Nation by
November 19, 2002; and to screen every piece of checked baggage for
explosives by December 31, 2002.\18\ According to TSA, other completed
TSA activities included recruiting, hiring, training, and deploying
about 56,000 Federal screeners; awarding grants for port security; and
implementing performance management system and strategic planning
activities to create a results-oriented culture.
---------------------------------------------------------------------------
    \18\ The Homeland Security Act, P.L. 107-296 (November 25, 2002)
the legislation that created DHS, amended this deadline to allow some
airports up to an extra year (December 31, 2003) to deploy all of the
necessary explosive detection equipment to enable TSA to screen all
checked baggage. TSA reported that as of December 31, 2002, about 90
percent of all checked baggage were screened with an explosive
detection system or explosives trace detection equipment and the
remaining checked baggage was screened using alternative means as is
allowed under the law.
---------------------------------------------------------------------------
    As TSA worked to establish itself and improve the security of the
aviation system, DOT modal administrations acted to enhance the
security of air, land, and maritime transportation. (See app. I for a
table listing the actions taken by DOT modal administrations since
September 11.) The actions taken by the DOT modal administrations have
varied. For example, FTA launched a multipart initiative for mass
transit agencies that provided grants for emergency drills, offered
free security training, conducted security assessments at 36 transit
agencies, provided technical assistance, and invested in research and
development. The Federal Motor Carrier Safety Administration developed
three courses for motor coach drivers. The responses of the various DOT
modal agencies have varied due to differences in authority and resource
limitations.
    In addition to TSA and DOT modal administrations, other Federal
agencies have also taken actions to improve security. For example, the
Bureau of Customs and Border Protection (CBP), previously known as the
U.S. Customs Service, has launched a number of initiatives aimed at
strengthening the security of the U.S. border.\19\ Some of the specific
security initiatives that CBP has implemented include establishing the
Customs Trade Partnership Against Terrorism (C-TPAT), which is a joint
government business initiative aimed at securing the supply chain of
global trade against terrorist exploitation; and launching the
Container Security Initiative (CSI), which is designed specifically to
secure ocean-going sea containers. In addition, CBP has developed and/
or deployed tools to detect weapons of mass destruction in cargo
containers and vehicles, such as the new mobile gamma ray imaging
devices pictured in figure 4.
---------------------------------------------------------------------------
    \19\ The U.S. Customs Service was transferred from the Department
of Treasury to DHS in the Homeland Security Act of 2002 (P.L. No. 107-
296, 116 Stat. 2135 (2002)) and renamed the Bureau of Customs and
Border Protection.
---------------------------------------------------------------------------
Figure 4: Photograph of Inspection Equipment in Use
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Science Applications International Corporation (SAIC)
<SUP><dbl-dagger></SUP>2003.
TSA Moves Forward as its Role in Transportation Security Evolves
    TSA is moving forward with efforts to secure the entire
transportation system. TSA has adopted a systems approach--that is, a
holistic rather than a modal approach--to securing the transportation
system. In addition, TSA is using risk management principles to guide
its decision-making. TSA is also planning to establish security
standards for all modes of transportation and is launching a number of
new security efforts for the maritime and land transportation modes.
TSA Adopts a Systems Approach and Risk Management Principles

    Using the systems approach, TSA plans to address the security of
the entire transportation system as a whole, rather than focusing on
individual modes of transportation. According to TSA officials, using a
systems approach to security is appropriate for several reasons. First,
the transportation system is intermodal, interdependent, and
international. Given the intermodalism of the system, incidents in one
mode of transportation could affect other modes. Second, it is
important not to drive terrorism from one mode of transportation to
another mode because of perceived lesser security--that is, make a mode
of transportation a more attractive target because another mode is
``hardened'' with additional security measures. Third, it is important
that security measures for one mode of transportation are not overly
stringent or too economically challenging compared with the measures
used for other modes. Fourth, it is important that the attention on one
aspect of transportation security (e.g., cargo, infrastructure, or
passengers) does not leave the other aspects vulnerable.
    TSA has also adopted a risk management approach for its efforts to
enhance the security of the Nation's transportation system. A risk
management approach is a systematic process to analyze threats,
vulnerabilities, and the criticality (or relative importance) of assets
to better support key decisions in order to link resources with
prioritized efforts. (See app. II for a description of the key elements
of a risk management approach.) The highest priorities emerge where the
three elements of risk management overlap. For example, transportation
infrastructure that is determined to be a critical asset, vulnerable to
attack, and a likely target would be most at risk and therefore would
be a higher priority for funding compared with infrastructure that was
only vulnerable to attack. According to TSA officials, risk management
principles will drive all decisions--from standard-setting to funding
priorities to staffing.
    Using risk management principles to guide decision-making is a good
strategy, given the difficult trade-offs TSA will likely have to make
as it moves forward with its security efforts. We have advocated using
a risk management approach to guide Federal programs and responses to
better prepare against terrorism and other threats and to better direct
finite national resources to areas of highest priority. As
representatives from local government and industry associations and
transportation security experts repeatedly noted, the size of the
transportation system precludes equal protection for all assets;
moreover, the risks vary by transportation assets within modes and by
modes. In addition, requests for funding for transportation security
enhancements will likely exceed available resources. Risk management
principles can help TSA determine security priorities and identify
appropriate solutions.
TSA Plans to Issue National Security Standards

    TSA plans to issue national security standards for all modes of
transportation. The Federal Government has historically set security
standards for the aviation sector. For instance, prior to the passage
of ATSA, FAA set security standards that the airlines were required to
follow in several areas including, screening equipment, screener
qualifications, and access control systems. In contrast, prior to the
September 11 attacks, limited statutory authority existed to require
measures to ensure the security of the maritime and land transportation
systems. According to a TSA report, the existing regulatory framework
leaves the maritime and land transportation systems unacceptably
vulnerable to terrorist attack. For example, the rail, transit, and
motor coach transportation systems are subject to no mandatory security
requirements, resulting in little or no screening of passengers,
baggage, or crew. Additionally, seaborne passenger vessel and seaport
terminal operators have inconsistent levels and methods of screening
and are largely free to set their own rules about the hiring and
training of security personnel. Hence, TSA will set standards to ensure
consistency among modes and across the transportation system and to
reduce the transportation system's vulnerability to attacks.\20\
---------------------------------------------------------------------------
    \20\ The Information Analysis and Infrastructure Protection
Directorate within DHS is working with TSA, the Coast Guard, and other
Federal agencies on developing a set of national standards that would
apply to all ports. These efforts are well under way. The Coast Guard
has been developing a set of standards since May 2002 as part of its
efforts to conduct vulnerability assessments for all U.S. ports. The
standards will go into effect on July 1, 2004, as part of the
International Convention for the Safety of Life at Sea (SOLAS)
amendments and the International Ship and Port Facility Security Code
(ISPS) that was adopted by the International Maritime Organization
conference in December 2002. The Coast Guard considers that the
implementation of these standards is best done through mandating
compliance with the SOLAS amendments and the ISPS Code. According to
TSA, because of the Coast Guard's significant role in securing maritime
transportation, TSA will likely play a coordination role in the
maritime arena.
---------------------------------------------------------------------------
According to TSA officials and documents, TSA's standards will be
performance-, risk-, and threat-based and may be mandatory. More
specifically:

  <bullet> Standards will be performance-based. Rather than being
        prescriptive standards, TSA standards will be performance-
        based, which will allow transportation operators to determine
        how best to achieve the desired level of security. TSA
        officials believe that performance-based standards provide for
        operator flexibility, allow operators to use their professional
        judgment in enhancing security, and encourage technology
        advancement.

  <bullet> Standards will be risk-based. Standards will be set for
        areas for which assessments of the threats, vulnerabilities,
        and criticality indicate that an attack would have a national
        impact. A number of factors could be considered in determining
        ``national impact,'' such as fatalities and economic damage.

  <bullet> Standards will be threat-based. The standards will be tied
        to the national threat condition and/or local threats. As the
        threat condition escalates, the standards will require
        transportation operators to implement additional
        countermeasures.

  <bullet> Standards may be mandatory. The standards will be mandatory
        when the risk level is too high or unacceptable. TSA officials
        stated that in these cases, mandatory standards are needed to
        ensure accountability. In addition, according to TSA officials,
        voluntary requirements put security-conscious transportation
        operators that implement security measures at a competitive
        disadvantage--that is, they have spent money that their
        competitors may not have spent. This creates a disincentive for
        transportation operators to implement voluntary requirements.
        TSA officials believe that mandatory standards will reduce this
        problem. In determining whether mandatory standards are needed,
        TSA will review the results of criticality and vulnerability
        assessments, current best practices, and voluntary compliance
        opportunities in conjunction with the private sector and other
        government agencies.

    Although TSA officials expect some level of resistance to the
standards by the transportation industry, they believe that their
approach of using risk-, threat-, and performance-based standards will
increase the acceptance of the standards. For example, performance-
based standards allow for more operator flexibility in implementing the
standards, compared with rigid, prescriptive standards. Moreover, TSA
plans to issue only a limited number of standards--that is, standards
will be issued only when assessments of the threats, vulnerabilities,
and criticality indicate that the level of risk is too high or
unacceptable.
    TSA also expects some level of resistance to the standards from DOT
modal administrations. Although TSA will establish the security
standards, TSA expects that they will be administered and implemented
by existing agencies and organizations. DOT modal administrations may
be reluctant to assume this role because doing so could alter their
relationships with the industry. Historically, the missions of DOT
surface transportation modal administrations have largely focused on
maintaining operations and improving service and safety, not regulating
security. Moreover, the authority to regulate security varies by DOT
modal administration. For example, FTA has limited authority to
regulate and oversee security at transit agencies. In contrast, FRA has
regulatory authority for rail security, and DOT's Office of Pipeline
Safety has responsibility for writing safety and security regulations
for liquefied natural gas storage facilities. In addition, DOT modal
administrations may be reluctant to administer and implement standards
because of resource concerns. FHWA officials commented that given the
current uncertainty about the standards and their impacts, FHWA is
reluctant to commit, in advance, staff or funding to enforce new
security standards.
Gaining Stakeholder Buy-in is Critical for Standards to Work, but
        Stakeholders
        Express Concerns
    Because transportation stakeholders will be involved in
administering, implementing, and/or enforcing TSA standards,
stakeholder buy-in is critical to the success of this initiative.
Compromise and consensus on the part of stakeholders are also
necessary. However, achieving such consensus and compromise may be
difficult, given the conflicts between some stakeholders' goals and
interests.
    Transportation stakeholders we contacted also expressed a number of
concerns about TSA's plan to issue security standards for all modes of
transportation. For example, industry associations expressed concerns
that the standards would come in the form of unfunded mandates--that
is, the Federal Government would not provide funding to implement
mandatory standards. According to the industry and state and local
government associations we spoke to, unfunded mandates create
additional financial burdens for transportation operators, who are
already experiencing financial difficulties. Industry representatives
also expressed concern that TSA has not adequately included the
transportation industry in its development of standards. Many industry
representatives and some DOT officials we met with were unsure of
whether TSA was issuing standards, what the standards would entail, or
the time frames for issuing the standards. The uncertainty about the
pending standards can lead to confusion and/or inaction. For example,
Amtrak officials noted that they are reluctant to spend money to
implement certain security measures because they are worried that TSA
will subsequently issue standards that will require Amtrak to redo its
efforts. Transportation stakeholders also raised other concerns about
TSA's plans to issues standards, including questioning whether TSA has
the necessary expertise to develop appropriate standards and whether
mandatory standards, as opposed to voluntary standards, are prudent.
TSA Is Launching Other Security Initiatives

    TSA is also working on a number of additional security efforts,
such as establishing the Transportation Workers Identification Card
(TWIC) program; developing the next generation of the Computer Assisted
Passenger Pre-Screening System; developing a national transportation
system security plan; and exploring methods to integrate operations and
security, among other things. The TWIC program is intended to improve
access control for the 12 million transportation workers who require
unescorted physical or cyber access to secure areas of the Nation's
transportation modes by establishing a uniform, nationwide standard for
secure identification of transportation workers. Specifically, TWIC
will combine standard background checks and biometrics so that a worker
can be positively matched to his/her credential. Once the program is
fully operational, the TWIC would be the standard credential for
transportation workers and would be accepted by all modes of
transportation. According to TSA, developing a uniform, nationwide
standard for identification will minimize redundant credentialing and
background checks.
DOT Modal Agencies Are Continuing Forward with Their Security Efforts
    As TSA moves forward with new security initiatives, DOT modal
administrations are also continuing their security efforts and, in some
cases, launching new security initiatives. For example, FHWA is
coordinating a series of workshops this year on emergency response and
preparedness for state departments of transportation and other
agencies. FTA also has a number of initiatives currently under way in
the areas of public awareness, research, training, technical
assistance, and intelligence sharing. For example, FTA developed a list
of the top 20 security actions transit agencies should implement and is
currently working with transit agencies to assist them in implementing
these measures.
    FAA is also continuing its efforts to enhance cyber security in the
aviation system. Although the primary responsibility for securing the
aviation system was transferred to TSA, FAA remains responsible for
protecting the Nation's air traffic control system--both the physical
security of its air traffic control facilities and computer systems.
The air traffic control system's computers help the Nation's air
traffic controllers to safely direct and separate traffic--sabotaging
this system could have disastrous consequences. FAA is moving forward
with efforts to increase the physical security of its air traffic
control facilities and ensure that contractors who have access to the
air traffic control system undergo background checks.
TSA's and DOT's Roles and Responsibilities Have Not Been Clearly
        Defined
    The roles and responsibilities of TSA and DOT in transportation
security have yet to be clearly delineated, which creates the potential
for duplicating or conflicting efforts as both entities move forward
with their security efforts. DOT modal administrations were primarily
responsible for the security of the transportation system prior to
September 11. In November 2001, Congress passed ATSA, which created TSA
and gave it primary responsibility for securing all modes of
transportation.\21\ However, during TSA's first year of existence,
TSA's main focus was on aviation security--more specifically, on
meeting ATSA deadlines. While TSA was primarily focusing on aviation
security, DOT modal administrations launched various initiatives to
enhance the security of the maritime and land transportation modes.
With the immediate crisis of meeting many aviation security deadlines
behind it, TSA has been able to focus more on the security of all modes
of transportation.
---------------------------------------------------------------------------
    \21\ P.L. No. 107-71, 115 Stat. 597 (2001).
---------------------------------------------------------------------------
    Legislation has not specifically defined TSA's role and
responsibilities in securing all modes of transportation. In
particular, ATSA does not specify TSA's role and responsibilities in
securing the maritime and land transportation modes in detail as it
does for aviation security. For instance, the act does not set
deadlines for TSA to implement certain transit security requirements.
Instead, the act simply states that TSA is responsible for ensuring
security in all modes of transportation. The act also did not eliminate
the existing statutory responsibilities for DOT modal administrations
to secure the different transportation modes. Moreover, recent
legislation indicates that DOT still has security responsibilities. In
particular, the Homeland Security Act of 2002 states that the Secretary
of Transportation is responsible for the security as well as the safety
of rail and the transport of hazardous materials by all modes.
    To clarify their roles and responsibilities in transportation
security, DOT modal administrations and TSA planned to develop
memorandums of agreement. The purpose of these documents was to define
the roles and responsibilities of the different agencies for
transportation security and address a variety of issues, including
separating safety and security activities, interfacing with the
transportation industry, and establishing funding priorities. TSA and
the DOT modal administrations worked for months to develop the
memorandums of agreement and the draft agreements were presented to
senior DOT and TSA management for review in early spring of this year.
According to DOT's General Counsel, with the exception of the
memorandum of agreement between FAA and TSA, the draft memorandums were
very general and did not provide much clarification. Consequently, DOT
and TSA decided not to sign the memorandums of agreement, except for
the memorandum of agreement between FAA and TSA, which was signed on
February 28, 2003.\22\
---------------------------------------------------------------------------
    \22\ DOT and TSA have signed other memorandums of agreement that
are narrow in scope and address a specific issue. For example, TSA and
DOT signed a memorandum of agreement regarding the processing of civil
rights complaints.
---------------------------------------------------------------------------
    The General Counsel suggested several reasons why the majority of
the draft memorandums of agreement were too general. First, as TSA's
departure date approached--that is, the date that TSA transferred from
DOT to DHS--TSA and DOT modal administration officials may have grown
concerned about formally binding the organizations to specific roles
and responsibilities. Second, the working relationships between TSA and
most of the DOT modal administrations are still very new; as a result,
all of the potential issues, problem areas, or overlap have yet to be
identified. Thus, identifying items to include in the memorandums of
agreement was more difficult.
    Rather than execute memorandums of agreement, the Secretary of
Transportation and the Administrator of TSA exchanged correspondence
that commits each entity to continued coordination and collaboration on
security measures. In the correspondence, the Secretary and
Administrator also agreed to use the memorandum of agreement between
TSA and FAA as a framework for their interactions on security matters
for all other modes. TSA and DOT officials stated that they believe
memorandums of agreement are a good strategy for delineating roles and
responsibilities and said that they would be open to using memorandums
of agreement in the future.
Experts and Associations Identified Future Actions to Advance the
        Security of the Transportation System
    Transportation security experts and representatives of state and
local government and industry associations we contacted generally
believe that the transportation system is more secure today than it was
prior to September 11. Transportation stakeholders have worked hard to
strengthen the security of the system. Nevertheless, transportation
experts, industry representatives, and Federal officials all recommend
that more work be done. Transportation experts and state and local
government and industry representatives identified a number of actions
that, in their view, the Federal Government should take to enhance
security, including clarifying Federal roles and coordinating Federal
efforts, developing a transportation security strategy, funding
security enhancements, investing in research and development, and
providing better intelligence information and related guidance.
Specifically:

  <bullet> Clarify Federal roles and responsibilities. The lack of
        clarity about the roles and responsibilities of Federal
        entities in transportation security creates the potential for
        confusion, duplication, and conflicts. Understanding roles,
        responsibilities, and whom to call is crucial in an emergency.
        However, representatives from several industry associations
        stated that their members were unclear about which agency to
        contact for their various security concerns and which agency
        has oversight for certain issues. Furthermore, they said that
        they do not have contacts within these agencies. As mentioned
        earlier, several industry representatives reported that their
        members are receiving different messages from various Federal
        agencies involved in transportation security, which creates
        confusion and frustration within the industry. According to
        industry representatives and transportation security experts,
        uncertainty about Federal roles and the lack of coordination
        are straining intergovernmental relationships, draining
        resources, and raising the potential for problems in responding
        to terrorism. One industry association told us, for instance,
        that it has been asked by three different Federal agencies to
        participate in three separate studies of the same issue.

  <bullet> Establish a national transportation strategy. A national
        strategy is crucial for helping stakeholders identify
        priorities, leveraging resources, establishing stakeholder
        performance expectations, and creating incentives for
        stakeholders to improve security. Currently, local government
        associations view the absence of performance expectations--
        coupled with limited threat information--as a major obstacle in
        focusing their people and resources on high-priority threats,
        particularly at elevated threat levels. The experts also noted
        that modal strategies--no matter how complete--cannot address
        the complete transportation security problem and will leave
        gaps in preparedness. As mentioned earlier, TSA is in the
        process of developing a national transportation system security
        plan,\23\ which, according to the Deputy Administrator of TSA,
        will provide an overarching framework for the security of all
        modes.
---------------------------------------------------------------------------
    \23\ TSA hopes to have a draft of the national transportation
system security plan prepared by the end of this year.

  <bullet> Provide funding for needed security improvements. Although
        an overall security strategy is a prerequisite to investing
        wisely, providing adequate funding also is essential, according
        to experts we contacted. Setting security goals and strategies
        without adequate funding diminishes stakeholders' commitment
        and willingness to absorb initial security investments and
        long-term operating costs, an expert emphasized. Industry and
        state and local government associations also commented that
        Federal funding should accompany any Federal security
        standards; otherwise, mandatory standards will be considered
        unfunded mandates that the industry and state and local
---------------------------------------------------------------------------
        governments will have to absorb.

  <bullet> Invest in research and development for transportation
        security. According to most transportation security experts and
        associations we contacted, investing in research and
        development is an appropriate role for the Federal Government,
        because the products of research and development endeavors
        would likely benefit the entire transportation system, not just
        individual modes or operators. TSA is actively engaged in
        research and development projects, such as the development of
        the next generation explosive detection systems for baggage,
        hardening of aircraft and cargo/baggage containers, biometrics
        and other access control methods, and human factors initiatives
        to identify methods to improve screener performance, at its
        Transportation Security Laboratory in Atlantic City, New
        Jersey. However, TSA noted that continued adequate funding for
        research and development is paramount in order for TSA to be
        able to meet security demands with up-to-date and reliable
        technology.

  <bullet> Provide timely intelligence information and related
        guidance. Representatives from numerous associations commented
        that the Federal Government needs to provide timely, localized,
        actionable intelligence information. They said that general
        threat warnings are not helpful. Rather, transportation
        operators want more specific intelligence information so that
        they can understand the true nature of a potential threat and
        implement appropriate security measures. Without more localized
        and actionable intelligence, stakeholders said they run the
        risk of wasting resources on unneeded security measures or not
        providing an adequate level of security. Moreover, local
        government officials often are not allowed to receive specific
        intelligence information because they do not have appropriate
        Federal security clearances. Also, there is little Federal
        guidance on how local authorities should respond to a specific
        threat or general threat warnings. For example, San Francisco
        police were stationed at the Golden Gate Bridge to respond to
        the elevated national threat condition. However, without
        information about the nature of the threat to San Francisco's
        large transportation infrastructure or clear Federal
        expectations for a response, it is difficult to judge whether
        actions like this are the most effective use of police
        protection, according to representatives from a local
        government association.
Observations
    Securing the transportation system is fraught with challenges.
Despite these challenges, transportation stakeholders have worked to
strengthen security since September 11. However, more work is needed.
It will take the collective effort of all transportation stakeholders
to meet the continuing challenges and enhance the security of the
transportation system.\24\
---------------------------------------------------------------------------
    \24\ See appendix III for a listing of active GAO engagements
related to transportation security.
---------------------------------------------------------------------------
    During TSA's first year of existence, it met a number of
challenges, including successfully meeting many congressional deadlines
for aviation security. With the immediate crisis of meeting these
deadlines behind it, TSA can now examine the security of the entire
transportation system. As TSA becomes more active in securing the
maritime and land transportation modes, it will become even more
important that the roles of TSA and DOT modal administrations are
clearly defined. Lack of clearly defined roles among the Federal
entities could lead to duplication and confusion. More importantly, it
could hamper the transportation sector's ability to prepare for and
respond to attacks. Therefore, in our report, we recommended that the
Secretary of Homeland Security and the Secretary of Transportation
develop mechanisms, such as a memorandum of agreement, to clearly
define the roles and responsibilities of TSA and DOT in transportation
security and communicate this information to stakeholders.
    This concludes my prepared statement. I would be pleased to respond
to any questions you or other Members of the Committee may have.
                               Appendix I

 Key Actions Taken by DOT Modal Administrations to Secure the Different
            Transportation Modes,  September 2001 to May 2003
------------------------------------------------------------------------
                             DOT modal
        Mode              administration       Examples of actions taken
------------------------------------------------------------------------
All (transport of     Research and Special    <bullet> Established
 hazardous             Programs                regulations for shippers
 materials)            Administration          and transporters of
                       (Office of Hazardous    certain hazardous
                      Materials Safety)        materials to develop and
                                               implement security plans
                                               and to require security
                                               awareness training for
                                               hazmat employees.
                                              <bullet> Developed
                                               hazardous materials
                                               transportation security
                                               awareness training for
                                               law enforcement, the
                                               industry, and the hazmat
                                               community.
                                              <bullet> Published
                                               security advisory, which
                                               identifies measures that
                                               could enhance the
                                               security of the transport
                                               of hazardous materials.
                                              <bullet> Investigated the
                                               security risks associated
                                               with placarding hazardous
                                               materials, including
                                               whether removing placards
                                               from certain shipments
                                               improve shipment
                                               security, and whether
                                               alternative methods for
                                               communicating safety
                                               hazards could be
                                               deployed.
Aviation              Federal Aviation        <bullet> Established rule
                      Administration           for strengthening cockpit
                                               doors on commercial
                                               aircraft.
                                              <bullet> Issued guidance
                                               to flight school
                                               operators for additional
                                               security measures.
                                              <bullet> Assisted
                                               Department of Justice in
                                               increasing background
                                               check requirements for
                                               foreign nationals seeking
                                               pilot certificates.
                                              <bullet> Increased access
                                               restrictions at air
                                               traffic control
                                               facilities.
                                              <bullet> Developed
                                               computer security
                                               strategy.
Highways              Federal Highway         <bullet> Provided
                      Administration           vulnerability assessment
                                               and emergency
                                               preparedness workshops.
                                              <bullet> Developed and
                                               prioritized list of
                                               highway security research
                                               and development projects.
                                              <bullet> Convened blue
                                               ribbon panel on bridge
                                               and tunnel
                                               vulnerabilities.
Maritime              U.S. Coast Guarda       <bullet> Activated and
                                               deployed port security
                                               units to help support
                                               local port security
                                               patrols in high threat
                                               areas.
                                              <bullet> Boarded and
                                               inspected ships to search
                                               for threats and confirmed
                                               the identity of those
                                               aboard.
                                              <bullet> Conducted initial
                                               assessments of the
                                               Nation's ports to
                                               identify vessel types and
                                               facilities that pose a
                                               high risk of being
                                               involved in a
                                               transportation security
                                               incident.
                                              <bullet> Established a new
                                               centralized National
                                               Vessel Movement Center to
                                               track the movement of all
                                               foreign-flagged vessels
                                               entering U.S. ports of
                                               call.
                                              <bullet> Established new
                                               guidelines for developing
                                               security plans and
                                               implementing security
                                               measures for passenger
                                               vessels and passenger
                                               terminals.
                                              <bullet> Used the
                                               pollution and hazardous
                                               materials expertise of
                                               the Coast Guard's
                                               National Strike Force to
                                               prepare for and respond
                                               to bioterrorism and
                                               weapons of mass
                                               destruction.
                      Maritime                <bullet> Increased port
                       Administration          security and terrorism
                                               emphasis at National Port
                                               Readiness Network Port
                                               Readiness Exercises.
                                              <bullet> Provided port
                                               security training and
                                               developed standards and
                                               curriculum to educate and
                                               train maritime security
                                               personnel.
                                              <bullet> Increased access
                                               restrictions and
                                               established new security
                                               procedures for the Ready
                                               Reserve Force.
                                              <bullet> Provided merchant
                                               mariner background checks
                                               for Ready Reserve Force
                                               and sealift vessels in
                                               support of Department of
                                               Defense and Coast Guard
                                               requirements.
                                              <bullet> Provided merchant
                                               mariner force protection
                                               training.
Motor carrier         Federal Motor Carrier   <bullet> Conducted 31,000
                       Safety Administration   on-site security
                                               sensitivity visits for
                                               hazardous materials
                                               carriers; made
                                               recommendations after
                                               visits.
                                              <bullet> Initiated a field
                                               operational test to
                                               evaluate different safety
                                               and security technologies
                                               and procedures, and
                                               identify the most cost-
                                               effective means for
                                               protecting different
                                               types of hazardous cargo
                                               for security purposes.
                                              <bullet> Provided free
                                               training on trucks and
                                               terrorism to law
                                               enforcement officials and
                                               industry representatives.
                                              <bullet> Conducted threat
                                               assessment of the
                                               hazardous materials
                                               industry.
Motor coach           Federal Motor Carrier   <bullet> Developed three
                       Safety Administration   courses for drivers on
                                               security-related
                                               information, including
                                               different threats, how to
                                               deal with packages, and
                                               how to respond in the
                                               case of an emergency.
Pipeline              Research and Special    <bullet> Developed contact
                       Programs                list of operators who own
                       Administration          critical systems.
                       (Office of Pipeline    <bullet> Convened blue
                       Safety)                 ribbon panel with
                                               operators, state
                                               regulators, and unions to
                                               develop a better
                                               understanding of the
                                               pipeline system and
                                               coordinate efforts of the
                                               stakeholders.
                                              <bullet> Worked with TSA
                                               to develop inspection
                                               protocols to use for
                                               pipeline operator
                                               security inspections. The
                                               Office of Pipeline Safety
                                               and TSA have begun the
                                               inspection of major
                                               operators.
                                              <bullet> Created e:mail
                                               network of pipeline
                                               operators and a call-in
                                               telephone number that
                                               pipeline operators can
                                               use to obtain
                                               information.
                                              <bullet> Directed pipeline
                                               operators to identify
                                               critical facilities and
                                               develop security plans
                                               for critical facilities
                                               that address deterrence,
                                               preparedness, and rapid
                                               response and recovery
                                               from attacks.
                                              <bullet> Worked with
                                               industry to develop risk-
                                               based security guidance,
                                               which is tied to national
                                               threat levels and
                                               includes voluntary,
                                               recommended
                                               countermeasures.
Rail                  Federal Railroad        <bullet> Reviewed
                      Administration           Association of American
                                               Railroads' and Amtrak's
                                               security plans.
                                              <bullet> Assisted commuter
                                               railroads with their
                                               security plans.
                                              <bullet> Provided funding
                                               for security assessments
                                               of three commuter
                                               railroads, which were
                                               included in FTA's
                                               assessment efforts.
                                              <bullet> Reached out to
                                               international community
                                               for lessons learned in
                                               rail security.
Transit               Federal Transit         <bullet> Shared threat
                      Administration           information with
                                               railroads and rail labor.
                                              <bullet> Awarded $3.4
                                               million in grants to over
                                               80 transit agencies for
                                               emergency response
                                               drills.
                                              <bullet> Offered free
                                               security training to
                                               transit agencies.
                                              <bullet> Conducted
                                               security assessments at
                                               the 36 largest transit
                                               agencies.
                                              <bullet> Provided
                                               technical assistance to
                                               19, with a goal of 60,
                                               transit agencies on
                                               security and emergency
                                               plans and emergency
                                               response drills.
                                              <bullet> Increased funding
                                               for security research and
                                               development efforts.
------------------------------------------------------------------------
Source: GAO presentation of information provided by DOT modal
  administrations.
a The U.S. Coast Guard was transferred to DHS in the Homeland Security
  Act of 2002 (P.L. No. 107-296, 116 Stat. 2135 (2002)).

                              Appendix II
Elements of a Risk Management Approach
    A risk management approach encompasses three key elements--a threat
assessment, vulnerability assessment, and criticality assessment. In
particular, these three elements provide the following information:

  <bullet> A threat assessment identifies and evaluates potential
        threats on the basis of such factors as capabilities,
        intentions, and past activities. This assessment represents a
        systematic approach to identifying potential threats before
        they materialize. However, even if updated often, a threat
        assessment might not adequately capture some emerging threats.
        The risk management approach, therefore, uses vulnerability and
        critical assessments as additional input to the decision-making
        process.

  <bullet> A vulnerability assessment identifies weaknesses that may be
        exploited by identified threats and suggests options to address
        those weaknesses.

  <bullet> A criticality assessment evaluates and prioritizes assets
        and functions in terms of specific criteria, such as their
        importance to public safety and the economy. The assessment
        provides a basis for identifying which structures or processes
        are relatively more important to protect from attack. Thus, it
        helps managers determine operational requirements and target
        resources to the highest priorities while reducing the
        potential for targeting resources to lower priorities.
                              Appendix III
GAO Active Engagements Related to Transportation Security
TSA Baggage Screening
    Key Questions: (1) What are the status and associated costs of TSA
efforts to acquire, install, and operate explosive detection equipment
(Electronic Trace Detection Technology and Explosive Detection Systems)
to screen all checked baggage by December 31, 2003? (2) What are the
benefit and tradeoffs--to include costs, operations and performance--of
using alternative explosive detection technologies currently available
for baggage screening?
General Aviation Security
    Key Questions: (1) How has security concerns and measures at
changed at general aviation airports since September 11, 2001? (2) What
steps has the Transportation Security Administration taken to improve
general aviation security?
Banner Pilot Waivers
    Key Questions: (1) What are procedures for conducting background
and security checks for pilots of small banner-towing aircraft
requesting waivers to perform stadium overflights? (2) To what extent
were these procedures followed in conducting required background and
security checks since 9/11? (3) How effective were these procedures in
reducing risks to public safety?
U.S. Coast Guard Budget And Mission Performance
    Key Questions: (1) What are the levels of effort for USCG's various
missions? (2) What is USCG's progress in developing a strategic plan
for setting goals for all of its various missions? (3) What is USCG's
mission performance as compared to its performance and strategic plans?
Transportation Security Administration's Computer Assisted Passenger
        Prescreening System II (CAPPS-II)
    Key Questions: (1) How will the CAPPS-II system function and what
data will be needed to make the system operationally effective? (2)
What safeguards will be put in place to protect the traveling public's
privacy? (3) What systems and measures are in place to determine
whether CAPPS-II will result in improved national security? (4) What
impact will CAPPS-II have on the traveling public and airline industry
in terms of costs, delays, risks, and hassle, etc.?
Transportation Security Administration Passengers Screening Program
    Key Questions: (1) What efforts have been taken or planned to
ensure passenger screeners comply with Federal standards and other
criteria, to include efforts to train, equip, and supervise passenger
screeners? (2) What methods does TSA use to test screener performance,
and what have been the results of these tests? (3) How have the results
of tests of TSA passenger screeners compared to the results achieved by
screeners prior to 9/11 and at the 5 pilot program airports? (4) What
actions are TSA taking to remedy performance concerns?
TSA's Use of Sole Source Contracts
    Key Questions: (1) To what extent does TSA follow applicable
acquisition laws and policies, including ensuring adequate competition?
(2) How well does TSA's organizational structure facilitate effective,
efficient procurement? (3) How does TSA ensure that its acquisition
workforce is equipped to award and oversee contracts? (4) How well do
TSA's policies and processes ensure that it receives the supplies and
services it needs on time and at reasonable cost?
TSA's Efforts to Implement Section 106, 136, and 138 of the Aviation
        and
        Transportation Security Act
    Key Questions: (1) What is the status of TSA's efforts to implement
section 106 of the Act requiring improved airport perimeter access
security? (2) What is the status of TSA's efforts to implement section
136 requiring assessment and deployment of commercially available
security practices and technologies? (3) What is the status of TSA's
efforts to implement section 138 requiring background investigations
for TSA and other airport employees?
Implementation of the Maritime Transportation Security Act of 2002
    Key Questions: (1) How effectively is the port vulnerability
assessment process being implemented, and what actions are being taken
to address deficiencies identified? (2) What progress is being made to
develop port, vessel, and facility security plans? (3) Does the CG have
sufficient resources and an action plan to ensure the plans be
completed, reviewed and approved in time to meet statutory deadlines?
(4) What will it cost stakeholders to comply?
Assessment of the Portable Air Defense Missile Threat
    Key Questions: (1) What is the nature and extent of the threat from
MANPADs? (2) How effective are U.S. controls on the use of exported
MANPADs? (3) How do multilateral efforts attempt to stem MANPAD
proliferation? (4) What types of countermeasures are available to
minimize this threat and at what cost?
Federal Aviation Administration Designee Program
    Key Questions: (1) What is the nature, scope, and operational
framework of the designee program? (2) What are the identified
strengths and weaknesses of the program? (3) What is the potential for
FAA's ODA proposal and other stakeholders' alternatives to address the
identified program weaknesses?
Custom Cargo Inspections at Seaports
    Key Questions: (1) How has Customs developed the Automated
Targeting System (ATS) and the new anti-terrorism rules? (2) How does
Customs use ATS to identify containerized cargo as ``high risk'' for
screening and inspection to detect cargo that might contain weapons of
mass destruction (WMD)? (3) To what extent is ATS implemented at
seaports, including impact and challenges involved? (4) What is
Customs' plan for assessing system implementation and performance?
Enhancement Options for Intermodal Freight Transportation
    Key Questions: (1) What are the current and emerging national
challenges to freight mobility and what proposals have been put forth
to address these issues? (2) To what extent do these current and
emerging challenges exist at container ports and surrounding areas and
to what extent do the proposals appear to have applicability to these
locations?
Social Security Administration's Role in Verifying Identities for
        State's Licensing of
        Drivers
    Key Questions: (1) What are states' policies and practices for
verifying the identity of driver's license/ID card applicants and how
might they more effectively use SSNs or other tools to verify identity?
(2) How does SSA assist states in verifying SSNs for driver's license/
ID card applicants and how can SSA improve the verification service it
provides?
United States Coast Guard's National Distress and Response ``Rescue
        21'' System Modernization
    Key Questions: (1) What are the status, plans, and technical and
programmatic risks associated with the National Distress and Response
System (NDRS) Modernization Project? (2) How is the Coast Guard
addressing concerns with the new NDRS, such as communication coverage
gaps and the inability to pinpoint distressed boaters? (3) How will
Coast Guard's new homeland security role affect the NDRS project?
U.S. Border Radiation Detection
    Key Questions: (1) What is the status of Customs' plan to install
radiation detection equipment at U.S. border crossings? (2) What is the
basis for the plan's time frame? (3) What is Customs' technical
capability to implement the plan? (4) How well is Customs coordinating
with other agencies in the area of radiation detection? (5) What are
the results of Customs' evaluations of radiation detection equipment
and how are the evaluations being used?
Airline Assistance Determination of Whether the $5 Billion Provided by
        P.L. 107-42 Was Used to Compensate the Nation's Major Air
        Carriers for Their Losses
        Stemming from the Events of Sept. 11, 2001
    Key Questions: (1) Was the $5 billion used only to compensate major
air carriers for their uninsured losses incurred as a result of the
terrorist attacks? (2) Were carriers reimbursed, per the act, only for
increases in insurance premiums resulting from the attacks?
Effectiveness of the Transportation Security Administration's Research
        and
        Development Program
    Key Questions: (1) What is the budget profile for the Federal
Aviation Administration's and the Transportation Security
Administration's (TSA's) aviation security research and development
(R&D) program? (2) How effective is TSA's strategy for determining
which aviation security technologies to research and develop? (3) To
what extent do stakeholders believe that TSA is researching and
developing the most promising aviation security technologies?
Federal Air Marshals
    Key Questions: (1) How has the FAM program evolved, in terms of
recruiting, training, retention, and operations since the transfer of
program management to TSA? (2) To what extent has TSA implemented the
necessary internal controls to meet the human capital and operational
challenges of the FAM program? (3) To what extent has TSA developed
plans and initiatives to accommodate future FAM program sustainability,
growth and maturation?
                          Related GAO Products
Transportation Security Reports and Testimonies
    Transportation Security: Federal Action Needed to Help Address
Security Challenges, GAO-03-843 (Washington, D.C.: June 30, 2003).

    Transportation Security Research: Coordination Needed in Selecting
and Implementing Infrastructure Vulnerability Assessments, GAO-03-502
(Washington, D.C.: May 1, 2003).

    Rail Safety and Security: Some Actions Already Taken to Enhance
Rail Security, but Risk-based Plan Needed, GAO-03-435 (Washington,
D.C.: April 30, 2003).

    Coast Guard: Challenges during the Transition to the Department of
Homeland Security, GAO-03-594T (Washington, D.C.: April 1, 2003).

    Transportation Security: Post-September 11th Initiatives and Long-
Term Challenges, GAO-03-616T (Washington, D.C.: April 1, 2003).

    Aviation Security: Measures Needed to Improve Security of Pilot
Certification Process, GAO-03-248NI (Washington, D.C.: February 3,
2003). (Not for Public Dissemination)

    Major Management Challenges and Program Risks: Department of
Transportation, GAO-03-108 (Washington, D.C.: January 1, 2003).

    High Risk Series: Protecting Information Systems Supporting the
Federal Government and the Nation's Critical Infrastructure, GAO-03-121
(Washington, D.C.: January 1, 2003).

    Aviation Safety: Undeclared Air Shipments of Dangerous Goods and
DOT's Enforcement Approach, GAO-03-22 (Washington, D.C.: January 10,
2003).

    Aviation Security: Vulnerabilities and Potential Improvements for
the Air Cargo System, GAO-03-344 (Washington, D.C.: December 20, 2002).

    Mass Transit: Federal Action Could Help Transit Agencies Address
Security Challenges, GAO-03-263 (Washington, D.C.: December 13, 2002).

    Aviation Security: Registered Traveler Program Policy and
Implementation Issues, GAO-03-253 (Washington, D.C.: November 22,
2002).

    Computer Security: Progress Made, But Critical Federal Operations
and Assets Remain at Risk, GAO-03-303T (Washington, D.C.: November 19,
2002).

    Container Security: Current Efforts to Detect Nuclear Materials,
New Initiatives, and Challenges, GAO-03-297T (Washington, D.C.:
November 18, 2002).

    Coast Guard: Strategy Needed for Setting and Monitoring Levels of
Effort for All Missions, GAO-03-155 (Washington, D.C.: November 12,
2002).

    Mass Transit: Challenges in Securing Transit Systems, GAO-02-1075T
(Washington, D.C.: September 18, 2002).

    Pipeline Safety and Security: Improved Workforce Planning and
Communication Needed, GAO-02-785 (Washington, D.C.: August 26, 2002).

    Port Security: Nation Faces Formidable Challenges in Making New
Initiatives Successful, GAO-02-993T (Washington, D.C.: August 5, 2002).

    Aviation Security: Transportation Security Administration Faces
Immediate and Long-Term Challenges, GAO-02-971T (Washington, D.C.: July
25, 2002).

    Critical infrastructure Protection: Significant Challenges Need to
Be Addressed, GAO-02-961T (Washington, D.C.: July 24, 2002).

    Combating Terrorism: Preliminary Observations on Weaknesses in
Force Protection for DOD Deployments Through Domestic Seaports, GAO-02-
955TNI (Washington, D.C.: July 23, 2002). (Not for Public
Dissemination)

    Information Concerning the Arming of Commercial Pilots, GA0-02-822R
(Washington, D.C.: June 28, 2002).

    Aviation Security: Deployment and Capabilities of Explosive
Detection Equipment, GAO-02-713C (Washington, D.C.: June 20, 2002).
(Classified)

    Coast Guard: Budget and Management Challenges for 2003 and Beyond,
GAO-02-538T (Washington, D.C.: March 19, 2002).

    Aviation Security: Information on Vulnerabilities in the Nation's
Air Transportation System, GAO-01-1164T (Washington, D.C.: September
26, 2001). (Not for Public Dissemination)

    Aviation Security: Information on the Nation's Air Transportation
System Vulnerabilities, GAO-01-1174T (Washington, D.C.: September 26,
2001). (Not for Public Dissemination)

    Aviation Security: Vulnerabilities in, and Alternatives for,
Preboard Screening Security Operations, GAO-01-1171T (Washington, D.C.:
September 25, 2001).

    Aviation Security: Weaknesses in Airport Security and Options for
Assigning Screening Responsibilities, GAO-01-1165T (Washington, D.C.:
September 21, 2001).

    Aviation Security: Terrorist Acts Illustrate Severe Weaknesses in
Aviation Security, GAO-01-1166T (Washington, D.C.: September 20, 2001).

    Aviation Security: Terrorist Acts Demonstrate Urgent Need to
Improve Security at the Nation's Airports, GAO-01-1162T (Washington,
D.C.: September 20, 2001).
Terrorism and Risk Management
    Homeland Security: Information Sharing Responsibilities,
Challenges, and Key Management Issues, GAO-03-715T (Washington, D.C.:
May 8, 2003).

    Transportation Security Administration: Actions and Plans to Build
a Results-Oriented Culture, GAO-03-190 (Washington, D.C.: January 17,
2003).

    Homeland Security: Management Challenges Facing Federal Leadership,
GAO-03-260 (Washington, D.C.: December 20, 2002).

    Homeland Security: Information Technology Funding and Associated
Management Issues, GAO-03-250 (Washington, D.C.: December 13, 2002).

    Homeland Security: Information Sharing Activities Face Continued
Management Challenges, GAO-02-1122T (Washington, D.C.: October 1,
2002).

    National Preparedness: Technology and Information Sharing
Challenges, GAO-02-1048R (Washington, D.C.: August 30, 2002).

    Homeland Security: Effective Intergovernmental Coordination Is Key
to Success, GAO-02-1013T (Washington, D.C.: August 23, 2002).

    Critical Infrastructure Protection: Federal Efforts Require a More
Coordinated and Comprehensive Approach for Protecting Information
Systems, GAO-02-474 (Washington, D.C.: July 15, 2002).

    Critical Infrastructure Protection: Significant Homeland Security
Challenges Need to Be Addressed, GAO-02-918T (Washington, D.C.: July 9,
2002).

    Homeland Security: Intergovernmental Coordination and Partnership
Will Be Critical to Success, GAO-02-901T (Washington, D.C.: July 3,
2002).

    Homeland Security: New Department Could Improve Coordination but
May Complicate Priority Setting, GAO-02-893T (Washington, D.C.: June
28, 2002).

    National Preparedness: Integrating New and Existing Technology and
Information Sharing into an Effective Homeland Security Strategy, GAO-
02-811T (Washington, D.C.: June 7, 2002).

    Homeland Security: Responsibility and Accountability for Achieving
National Goals, GAO-02-627T (Washington, D.C.: April 11, 2002).

    National Preparedness: Integration of Federal, State, Local, and
Private Sector Efforts is Critical to an Effective National Strategy
for Homeland Security, GAO-02-621T (Washington, D.C.: April 11, 2002).

    Combating Terrorism: Intergovernmental Cooperation in the
Development of a National Strategy to Enhance State and Local
Preparedness, GAO-02-550T (Washington, D.C.: April 2, 2002).

    Combating Terrorism: Enhancing Partnerships Through a National
Preparedness Strategy, GAO-02-549T (Washington, D.C.: March 28, 2002).

    Combating Terrorism: Critical Components of a National Strategy to
Enhance State and Local Preparedness, GAO-02-548T (Washington, D.C.:
March 25, 2002).

    Combating Terrorism: Intergovernmental Partnership in a National
Strategy to Enhance State and Local Preparedness, GAO-02-547T
(Washington, D.C.: March 22, 2002).

    Homeland Security: Progress Made; More Direction and Partnership
Sought, GAO-02-490T (Washington, D.C.: March 12, 2002).

    Combating Terrorism: Key Aspects of a National Strategy to Enhance
State and Local Preparedness, GAO-02-473T (Washington, D.C.: March 1,
2002).

    Homeland Security: Challenges and Strategies in Addressing Short-
and Long-Term National Needs, GAO-02-160T (Washington, D.C.: November
7, 2001).

    Homeland Security: A Risk Management Approach Can Guide
Preparedness Efforts, GAO-02-208T (Washington, D.C.: October 31, 2001).

    Combating Terrorism: Considerations for Investing Resources in
Chemical and Biological Preparedness, GAO-02-162T (Washington, D.C.:
October 17, 2001).

    Information Sharing: Practices That Can Benefit Critical
Infrastructure Protection, GAO-02-24 (Washington, D.C.: October 15,
2001).

    Homeland Security: Key Elements of a Risk Management Approach, GAO-
02-150T (Washington, D.C.: October 12, 2001).

    Chemical and Biological Defense: Improved Risk Assessment and
Inventory Management Are Needed, GAO-01-667 (Washington, D.C.:
September 28, 2001).

    Critical Infrastructure Protection: Significant Challenges in
Safeguarding Government and Privately Controlled Systems from Computer-
Based Attacks, GAO-01-1168T (Washington, D.C.: September 26, 2001).

    Homeland Security: A Framework for Addressing the Nation's Efforts,
GAO-01-1158T (Washington, D.C.: September 21, 2001).

    Combating Terrorism: Selected Challenges and Related
Recommendations, GAO-01-822 (Washington, D.C.: September 20, 2001).

    Senator Lott [presiding]. Mr. Dillingham and Ms. Wrightson,
I believe you're just with Mr. Guerrero for possible questions
later on. Thank you very much for being here.
    [The prepared statements of Ms. Wrightson and Mr.
Dillingham follow:]

 Prepared Statement of Margaret Wrightson, Director, Homeland Security
      and Justice Issues, United States General Accounting Office

Progress Made in Implementing Maritime Transportation Security Act, but
                            Concerns Remain

    Mr. Chairman and Members of the Committee:

    I am pleased to be here today to discuss the implementation of the
Maritime Transportation Security Act (MTSA) of 2002. This sweeping
piece of legislation was enacted just 10 months ago, but it has already
produced major changes in the Nation's approach to maritime security.
At your request, we have begun reviewing the implementation of security
provisions of Title I of MTSA. I am here today to tell you about our
preliminary findings and what agencies within the Department of
Homeland Security (DHS) and other Federal departments are doing to
fulfill their many responsibilities under the act. I also want to
advise you about specific matters that agency officials or others have
brought to our attention thus far and other issues that may require
further oversight. We will be continuing our efforts to more fully
evaluate a number of the issues I will address today, and we plan to
issue a report when this work is complete.
    Our information is based on interviews with agency officials
charged with implementing MTSA's provisions, as well as with officials
and stakeholders from several ports.
    Our preliminary findings are as follows:

  <bullet> Progress has been made in implementing MTSA. MTSA called for
        actions in 46 key areas we identified, such as creating a
        maritime intelligence security system, assessing security
        conditions in port areas, creating and implementing a vessel
        tracking system, and creating identification systems for port
        workers and seafarers. So far, we have obtained information for
        43 of these areas, and agency officials indicate that actions
        are complete or under way in 42 of them. For example, the Coast
        Guard, which had lead responsibility for most of the
        assignments, has six interim rules in place covering major
        areas of responsibility, such as security in and around the
        ports, aboard individual vessels, and at individual facilities.
        All six Coast Guard Maritime Safety and Security Teams included
        in the Fiscal Year 2003 budget are expected to be operational
        by the end of September 2003; these teams are designed to
        provide increased protection against terrorism in and around
        the Nation's harbors. Also, the Transportation Security
        Administration (TSA) is testing new identification cards for
        controlling access to secure transportation facilities,
        including vessels and port facilities. The agency plans to
        start issuing the cards to millions of port workers in 2004.
        The Bureau of Customs and Border Protection (BCBP) and the
        Maritime Administration (MARAD), the two other agencies with
        the largest set of responsibilities under MTSA, also are making
        progress on major projects. Agency officials told us that
        cooperation and coordination on MTSA implementation has been
        strong. Further work will be needed to determine the extent to
        which early progress will be sustained over the course of
        implementation efforts and whether the spirit of cooperation
        translates into efforts at the port level.

  <bullet> These findings not withstanding and bearing in mind our
        caveats as to the preliminary nature of these results, five
        areas have surfaced as potentially requiring further attention.
        (See table 1.)



------------------------------------------------------------------------



        Table 1.--Summary of Areas That Require Further Attention
------------------------------------------------------------------------
           Area                             Description
------------------------------------------------------------------------
Security-related matters
------------------------------------------------------------------------
Vessel identification      A system has been developed and is being
 system                     implemented, but the shore-based
                            infrastructure needed is not present at many
                            U.S. ports. As a result, the system may not
                            be in place at these ports for several
                            years.
------------------------------------------------------------------------
Port security assessments  Assessments being conducted by an outside
                            contractor have been criticized for their
                            scope and quality, and the contractor has
                            attempted to move to the next phase of the
                            work before evaluating essons learned.
------------------------------------------------------------------------
Vessel security plans      Concerns have been raised about the Coast
                            Guard's plan to accept other countries'
                            certification of vessel security plans.
------------------------------------------------------------------------
Operational and efficiency matters
------------------------------------------------------------------------
Maritime intelligence      Coast Guard and Transportation Security
 system                     Administration may be duplicating efforts in
                            collecting intelligence information about
                            vessels and cargoes.
------------------------------------------------------------------------
Grants program             A MTSA-required program of grants for
                            assisting in security preparations is being
                            folded into an existing grants program,
                            affecting the application of MTSA grant
                            requirements.
------------------------------------------------------------------------
Source: GAO.

    Three of these areas, as shown in table 1, primarily have security
implications. For example, MTSA called for development of an automatic
identification system. The Coast Guard developed a system that would
allow port officials and personnel on other vessels to determine the
identity and position of vessels entering or operating within the port.
While the Coast Guard is implementing this system, more than half of
the 25 busiest U.S. ports will not have it for the foreseeable future,
because it requires extensive shore-based equipment and infrastructure
that many ports do not have. The two remaining areas relate primarily
to operational or efficiency matters, such as duplication of effort in
collecting intelligence information. We are continuing to examine all
five areas.
Background
    MTSA was landmark legislation that mandated a quantum leap in
security preparedness for America's maritime ports. Prior to the
terrorist attacks of September 11, 2001, Federal attention at ports
tended to focus on navigation and safety issues, such as dredging
channels and environmental protection. While the terrorist attacks
initially focused the Nation's attention on the vulnerability of its
aviation system, it did not take long for attention to fall on the
Nation's ports as well. Besides being gateways through which dangerous
materials could enter the country, ports represent attractive targets
for other reasons: they are often large and sprawling, accessible by
water and land, close to crowded metropolitan centers, and interwoven
with highways, roads, factories, and businesses. Security is made more
difficult by the many stakeholders, public and private, involved in
port operations. These stakeholders include local, state, and Federal
agencies; multiple law enforcement jurisdictions; transportation and
trade companies; and factories and other businesses.
    Passed in November 2002, MTSA imposed an ambitious schedule of
requirements on a number of Federal agencies. MTSA called for a
comprehensive security framework--one that included planning, personnel
security, and careful monitoring of vessels and cargo. (See table 2 for
examples of key MTSA activities.) MTSA tasked the Secretary of DHS, and
the Secretary in turn has tasked the Coast Guard, with lead
responsibility for the majority of its requirements. Timetables were
often daunting. For example, one of the Coast Guard's responsibilities
was to develop six interim final rules implementing MTSA's operational
provisions in sufficient time to receive public comment and to issue a
final rule by November 25, 2003.



------------------------------------------------------------------------



                Table 2.--Examples of Key MTSA Activities
------------------------------------------------------------------------
     Type of activity                    Specific provision
------------------------------------------------------------------------
Planning
------------------------------------------------------------------------
                           Conduct vessel, facility, and port
                            vulnerability assessments to determine
                            potential risks.
------------------------------------------------------------------------
                           Develop transportation security plans for
                            vessels, facilities, port areas, and the
                            Nation.
------------------------------------------------------------------------
                           Develop security incident response plans for
                            vessels and facilities.
------------------------------------------------------------------------
                           Assess foreign ports for security risk.
------------------------------------------------------------------------
Identification of personnel
------------------------------------------------------------------------
                           Create security cards required of any person
                            seeking to enter a secure area of a vessel
                            or facility; cards would have biometric
                            information (such as fingerprint data) to
                            guard against theft or counterfeiting.
------------------------------------------------------------------------
Tracking of vessels
------------------------------------------------------------------------
                           Install automatic identification systems on
                            numerous categories of vessels.
------------------------------------------------------------------------
                           Authorized to create and implement a long-
                            range vessel tracking system.
------------------------------------------------------------------------
Source: GAO.

    Adding to the difficulty has been the need to implement MTSA
against the backdrop of the most extensive Federal reorganization in
over a half-century. Most of the agencies with MTSA responsibilities
were reorganized into the Department of Homeland Security in March
2003, less than 5 months after MTSA enactment. Among the 22 agencies in
the new department were some relatively new organizations, such as TSA.
Other more longstanding agencies, including the Coast Guard, U.S.
Customs Service, and Immigration and Naturalization Service, were
transferred from a variety of executive departments. This vast
recombination of organizational cultures introduced new chains of
command and reporting responsibilities. MTSA implementation also
involved coordination with other executive agencies, including the
Departments of State, Transportation, and Justice.
Progress Has Been Made in Implementing MTSA
    Since the passage of MTSA in 2002 the responsible agencies--
primarily the Coast Guard, TSA, and BCBP in DHS, along with MARAD in
the Department of Transportation--have made strides in implementing the
act's security provisions. MTSA called for actions in 46 key areas we
identified. Thus far, we have received information from the responsible
agencies on 43 of these areas. Of the 43 areas, work is done in 2
(issuing interim rules and developing training for maritime security
personnel), and under way in 40 others.\1\ These agencies also reported
that cooperation and coordination has been extensive throughout the
course of their activities.
---------------------------------------------------------------------------
    \1\ Work has not yet begun on issuing a report to the Congress
regarding MARAD's expenditure of funds for training--no funds were
expended in Fiscal Year 2003.
---------------------------------------------------------------------------
    A major achievement has been the Coast Guard's publication on July
1, 2003, of six interim rules on the provisions where it had lead
responsibility. The rules set requirements for many of the provisions
delegated to the Coast Guard under MTSA. The rules, which included
sections on national maritime security initiatives, area maritime
security, vessel security, facility security, outer continental shelf
facility security, and automatic identification systems, were published
approximately 8 months after MTSA was enacted. Doing so kept the Coast
Guard on schedule for meeting MTSA's requirement to receive public
comment and issue the final rules by the end of November 2003. The
rules provided a comprehensive description of industry-related maritime
security requirements and the cost-benefit assessments of the entire
set of rules. The Coast Guard plans to publish the final rules before
November 25, 2003, after receiving and acting on comments to the
interim rules.
    Another Coast Guard accomplishment was the establishment of
Maritime Safety and Security Teams called for under MTSA. These teams,
which can be rapidly deployed where needed, are designed to provide
antiterrorism protection for strategic shipping, high-interest vessels,
and critical infrastructure. The Coast Guard has already deployed four
teams--in Seattle and Galveston and near Norfolk and Los Angeles. The
Coast Guard will deploy teams in New York City and near Jacksonville
this year, and six more teams have been requested in the president's
budget in 2004. These are to be located in San Diego, Honolulu, Boston,
San Francisco, New Orleans, and Miami.
    Other agencies in DHS have also made progress in their
implementation of MTSA provisions. Responding to MTSA's requirement for
the development of biometric \2\ transportation security identification
cards that would allow only authorized persons access to secure areas
of vessels or facilities, TSA is currently testing several different
technology credentialing systems on sample cards. The agency will begin
testing prototypes of the entire security card process, including
conducting background checks, collecting biometric information on
workers, verifying cardholders' identities, and issuing cards in early
2004. TSA plans to start issuing about 5 to 6 million new cards per
year in the middle of 2004. Developing all of the policies and programs
to make this system work is still under way and will continue to pose
challenges to continued progress. Another DHS agency, BCBP, was
delegated the responsibility for issuing regulations for electronic
transmission of cargo information to BCBP by October 1, 2003; BCBP
published its proposed rule on July 23, 2003. BCBP was waiting for
comments on the proposed rule, and BCBP officials told us that they
expect to publish the rule on time.
---------------------------------------------------------------------------
    \2\ Biometric refers to technologies that can be used to verify a
person's identity by characteristics such as fingerprints, eye retinas,
and voice.
---------------------------------------------------------------------------
    MARAD has also made progress in its requirements. Among the
provisions for which MARAD is responsible are developing standards and
curricula for the training of maritime security personnel. MARAD
submitted a Report to Congress, dated May 2003, containing the
standards and curriculum called for by MTSA in the form of model course
frameworks for seven categories of maritime security professionals. As
an extension of the MTSA project, MARAD also produced three model
maritime security courses for the International Maritime Organization
(IMO). An IMO validation team has reviewed drafts of these courses,
which found little need for change.
    Agency officials told us that cooperation and coordination on MTSA
implementation has been strong. Coast Guard officials said that they
had developed channels of communication with other relevant agencies,
and they said these other agencies were supportive in implementing
provisions for which they did not have primary responsibility. In the
work we have conducted at ports since the September 11 attacks, we have
noted an increasing level of cooperation and coordination at the port
level. However, ensuring smooth coordination as the many aspects of
MTSA implementation continue is a considerable challenge. Additional
work will be needed to determine the extent to which this spirit of
cooperation continues to be translated into effective actions at the
level where programs must be implemented.
Issues Raised Include Both Security and Operational Concerns
    While progress is being made, our preliminary work has identified
five areas that merit attention and further oversight. Three relate
primarily to security issues: (1) the limited number of ports that will
be covered by the vessel identification system, (2) questions about the
scope and quality of port security assessments, and (3) the Coast
Guard's plans not to individually approve security plans for foreign
vessels. The remaining two relate primarily to operational and
efficiency matters: (1) potential duplication of maritime intelligence
efforts and (2) inconsistency with Port Security Grant Program
requirements.
Vessel Identification System Will Cover a Limited Number of Ports
    The main security-related issue involves the implementation of a
vessel identification system. MTSA called for the development of an
automatic identification system. Coast Guard implementation calls for a
system that would allow port officials and other vessels to determine
the identity and position of vessels entering or operating within the
harbor area. Such a system would provide an ``early warning'' of an
unidentified vessel or a vessel that was in a location where it should
not be. To implement the system effectively, however, requires
considerable land-based equipment and other infrastructure that is not
currently available in many ports. As a result, for the foreseeable
future, the system will be available in less than half of the 25
busiest U.S. ports.
    The identification system, called the Automatic Identification
System (AIS), uses a device aboard a vessel to transmit a unique
identifying signal to a receiver located at the port and to other ships
in the area. This information gives port officials and other vessels
nearly instantaneous information about a vessel's identity, position,
speed, and course. MTSA requires that vessels in certain categories \3\
install tracking equipment between January 1, 2003, and December 31,
2004, with the specific date dependent on the type of vessel and when
it was built.
---------------------------------------------------------------------------
    \3\ All vessels of certain specifications on international voyages;
self-propelled commercial vessels 65 feet or more in length; towing
vessels 26 feet or more in length and more than 600 horsepower; vessels
of 100 gross tons or more carrying one or more passengers for hire; and
passenger vessels certificated to carry 50 or more passengers for hire.
---------------------------------------------------------------------------
    The only ports with the necessary infrastructure to use AIS are
those that have waterways controlled by Vessel Traffic Service (VTS)
systems. Similar to air traffic control systems, VTS uses radar, closed
circuit television, radiophones, and other technology to allow
monitoring and management of vessel traffic from a central shore-based
location. The Coast Guard currently plans to install AIS receiving
equipment at the 10 locations with VTS systems.\4\ More than half of
the 25 busiest ports, such as Philadelphia, Baltimore, Miami,
Charleston, Tampa, and Honolulu, do not have VTS systems; hence, AIS
will be inoperable at these locations for the foreseeable future. When
AIS will be operable at these other ports depends heavily on how soon
the Coast Guard can put an extensive amount of shore-based
infrastructure in place. For the present, the Coast Guard is requiring
AIS equipment only for (1) vessels on international voyages and (2)
vessels navigating waterways under VTS control. Some of these
international ships will be calling on ports that will not have AIS
equipment. In such cases, the transmitters aboard the vessels will be
of no use for the ports, because they will not have equipment to
receive the signals.\5\
---------------------------------------------------------------------------
    \4\ These locations are New York/New Jersey; the mouth of the
Mississippi River; New Orleans; Houston/Galveston; Port Arthur, Texas;
Los Angeles/Long Beach; San Francisco; Seattle/Tacoma; Alaska's Prince
William Sound; and Sault Ste. Marie, Michigan.
    \5\ Under Coast Guard rules, all vessels arriving from foreign
ports must inform a U.S. port, at least 96 hours in advance, of its
intent to enter the harbor. Ports without AIS will still have this
notice; what they will lack is the ability to verify ships' identities
electronically when they arrive, or to quickly identify ships that are
attempting to arrive unidentified.
---------------------------------------------------------------------------
    Cost is a major factor in the full implementation of AIS. Expanding
coverage will require substantial additional investment, both public
and private. The Coast Guard's budget request for Fiscal Year 2004
includes $40 million for shore-based AIS equipment and related
infrastructure--an amount that covers only current VTS areas. According
to a Coast Guard official, wider-reaching national implementation of
AIS would involve installation and training costs ranging from $62
million to $120 million. Also, the cost of installing AIS equipment
aboard individual ships averages about $10,000 per vessel, which is to
be borne by the vessel owner or operator. Some owners and operators,
particularly of domestic vessels, have complained about the cost of
equipping their vessels.
Concerns about Port Security Assessments
    Another security-related issue involves the Coast Guard's efforts
to address MTSA's security planning requirements through a series of
security assessments of individual ports. Security assessments are
intended to be in-depth examinations of security threats,
vulnerabilities, consequences, and conditions throughout a port,
including not just transportation facilities, but also factories and
other installations that pose potential security risks. The Coast Guard
had begun these assessments before MTSA was passed and decided to
continue the process, changing it as needed to meet MTSA planning
requirements, which include developing area security plans based on the
evaluation of specific facilities throughout the port. At the request
of the Subcommittee on Coast Guard and Maritime Transportation, House
Committee on Transportation and Infrastructure, we have been examining
these assessments, which are being conducted by an outside contractor.
Our preliminary work has surfaced several potential concerns, which we
are still in the process of reviewing.
    One concern involves an apparent truncation of the review process
for ensuring that the assessment methodology will deliver what MTSA
requires. When MTSA took effect, the outside contractor already
completed the first 10 of 55 planned assessments. The Coast Guard
directed the contractor to modify the assessment methodology to take
MTSA's planning requirements into account, and it decided that the next
two assessments would be a pilot test of the revised methodology. The
Coast Guard plans to use the pilot test to evaluate lessons learned, so
that additional modifications can be made before any further contracts
are signed.
    Instead of waiting to see what changes might be needed as a result
of the pilot projects, however, the contractor has apparently started
the scoping phase for the next six port assessments. Scoping is a
significant part of the new methodology, and as such, it is a major
determinant in the nature and breadth of the issues to be addressed, as
well as the assessment's cost. The contractor has also reportedly
sought to negotiate and sign contracts to review the next six ports.
Since the pilot projects will not be completed until at least October
2003, it seems premature to reach decisions about the scope of the
assessments and sign contracts for them. The revised methodology needs
to be reviewed so that any needed changes are reflected in the next
contract.
    A second concern that has surfaced involves the scope and quality
of the assessments themselves. As part of our work, we have interviewed
port stakeholders to obtain their views on the process. At one port,
where the assessment has been completed and the report issued,
stakeholders said they had not been given an opportunity to comment on
the report, which contained factual errors and did not include an
assessment of railroads and the local power generating plant. At the
other port, where the assessment was still in process, local Coast
Guard personnel and port stakeholders noted that a survey instrument
referred to the wrong port, asked questions they regarded as not
pertaining to security, and was conducted in ways that raised concerns
about credibility. Many of these stakeholders saw little usefulness in
the assessments, believing that they added little to what the
stakeholders had already learned from conducting their own more
extensive security reviews of individual facilities or installations.
They said the assessments focused on the same systems that had already
been reviewed and would have greater value if they were focused on
matters that had not already been thoroughly studied, such as the
potential for waterborne assault. Coast Guard officials at the two
ports said, however, that in their view the assessments would provide
such benefits as a more comprehensive perspective on port operations
and vulnerabilities and validate their need for additional assets and
people to provide adequate security. Ensuring that the assessments are
of high quality is important not only for their effectiveness as
security instruments, but also because of their cost. For the most
part, assessments have been conducted only at medium-sized ports, and
even there they are costing $1 million or more per assessment.
Coast Guard Not Intending to Individually Approve Security Plans for
        Foreign Vessels
    Concerns have been raised about the proposed approach for meeting
MTSA's requirement that the Secretary of DHS approve vessel security
plans for all vessels operating in U.S. waters. Vessel security plans
include taking such steps as responding to assessed vulnerabilities,
designating security officers, conducting training and drills, and
ensuring that appropriate preventive measures will be taken against
security incidents. To implement this MTSA requirement the Coast Guard
has stated, in general, that it is not the Coast Guard's intent to
individually approve vessel security plans for foreign vessels.
Separate from MTSA, an international agreement requires vessels to
carry on board a vessel security plan that is approved by the vessel's
country of registry--its ``flag'' state--to ensure that an acceptable
security plan is in place. The Coast Guard provides that it will deem a
flag state approval of a vessel security plan to constitute the MTSA-
required Secretary approval of MTSA vessel security plans. However,
MTSA does not mention any role for foreign nations in the Secretary's
required approval of vessel security plans, and some concerns have been
raised about the advisability of allowing flag states--some with a
history of lax regulation--to ensure the security of vessels traveling
to the United States.
    The international requirement for a security plan is contained in
the International Ship and Port Facility Security (ISPS) Code.\6\ Under
this requirement, which was adopted about the same time that MTSA was
enacted and will go into effect on July 1, 2004, the vessel's flag
state is responsible for reviewing and certifying the vessel's security
plan. Prior to this time, the vessels' flag state had already been
responsible for ensuring that its vessels met safety requirements.
Critics of using this approach for MTSA-required security plans have
pointed out that in the past, some flag states had a spotty record of
enforcing safety requirements.
---------------------------------------------------------------------------
    \6\ This code was ratified by the International Maritime
Organization, to which the United States is a party.
---------------------------------------------------------------------------
    Rather than individually approving security plans for vessels
overseen by foreign flag states, the Coast Guard plans an extensive
monitoring effort as part of its oversight of vessels bound for U.S.
waters. However, the Coast Guard's interim rule stated that, as part of
an aggressive port state control program, the Coast Guard would verify
that foreign vessels have an approved, fully implemented security plan,
as well as tracking the performance of owners, operators, flag
administrations, charters, and port facilities. Coast Guard officials
have said that they are working from existing procedures, in that their
security effort is modeled after their safety program. They also said,
however, that they have no contingency plans in case stronger measures
than those called for in their current plans are required.
    The concerns are limited mainly to foreign flag vessels. Vessels
registered in the United States will have their security plans reviewed
and approved by the Coast Guard. It has been reported that the Coast
Guard estimates that review and approval of security plans for domestic
vessels and facilities will require 150 full-time personnel and cost
$70 million as part of its 2004 budget.
Potential Duplication of Maritime Intelligence Efforts
    Turning to issues that are related more to program efficiency and
management than to security concerns, one issue that has arisen
involves potential duplication in the area of maritime intelligence.
MTSA required the Secretary of Homeland Security to implement a system
to collect, integrate, and analyze information on vessels operating on
or bound for U.S. waters. The Secretary of DHS in turn delegated
responsibilities to TSA and the Coast Guard. There appears to be
potential for duplication by TSA and the Coast Guard in these efforts.
    The duplication concerns center on the new Integrated Maritime
Information System (IMIS) required under the Secretary's delegations.
The Secretary of DHS delegated primary responsibility for this system
to TSA, and TSA was appropriated $25 million to develop it. Coast Guard
officials have voiced concerns that TSA's efforts in developing the
overall system are duplicating existing Coast Guard efforts that are
more extensive and better funded. According to these officials, IMIS is
very similar to the Coast Guard's Intelligence Coordination Center
(ICC) Coastwatch program, an effort that has 10 times the amount of
funding appropriated for IMIS, involves 100 more staff members, and has
staff already in place with considerable intelligence analysis
capability. Coast Guard officials questioned whether TSA's smaller
effort could yield information of similar quality.
    Coast Guard officials also expressed concerns about potential
duplication of effort at the port level. TSA's tests of the system
would place TSA personnel at the port level. Coast Guard personnel
noted that these efforts seemed similar to the Coast Guard's Field
Intelligence Support Teams, as well as teams from the legacy agencies,
the Customs Service and the Immigration and Naturalization Service,
that also operate at the port level. Coast Guard officials said that
they saw little sharing of the intelligence at that level.
    While we have not yet had the opportunity to observe the
intelligence arms of TSA and the Coast Guard in action to more fully
evaluate the potential for duplication of effort, it does appear that
some potential duplication exists. From conversations with TSA and
Coast Guard officials, we could discern little difference in a number
of their information and integration efforts. Aside from potential
inefficient use of resources, this possible duplication may also limit
either agency from obtaining a complete intelligence picture and
detecting potential threats.
Differences between Current TSA Grant Program and MTSA Grant
        Requirements
    The final issue involves TSA's implementation of MTSA's grant
program. MTSA required the Secretary of Transportation to establish a
program of grants to ports and other entities to implement area and
facility-specific security plans. Prior to the enactment of MTSA, TSA,
in partnership with MARAD and the Coast Guard, already had begun a port
security grant program in February 2002. This program was originally
intended to fund security assessments and enhanced operational security
at ports and facilities, and two rounds of grants were funded before
MTSA was enacted in November 2002. TSA officials told us that, rather
than creating a new grant program to specifically respond to MTSA, they
are adapting the existing program to meet MTSA requirements. Under this
approach, some time will elapse before all of the grant requirements
specified under MTSA are in place.
    The existing grant program differs from MTSA requirements in
several respects. Most significantly, the existing grant program does
not require cost-sharing, while MTSA does. MTSA grant provisions state
that for projects costing more than $25,000, Federal funds for any
eligible project shall not exceed 75 percent of the total cost. A TSA
official said that, in starting to fold MTSA grants into the existing
program for the third round of grants, TSA was still disbursing monies
from a prior appropriation, and the language of that legislation
limited its ability to make changes that would meet MTSA requirements.
As a result, TSA encouraged cost-sharing but did not require it. While
TSA limited its changes for the first three rounds of grants, in the
future continued deviation from MTSA cost-sharing requirements would
keep Federal dollars from reaching as many projects as possible. By not
requiring a grantee to share in the financial burden, TSA does not take
into account the applicant's ability to participate in the funding. If
applicants have such ability, the result is that available Federal
dollars are not effectively leveraging as many projects as possible.\7\
---------------------------------------------------------------------------
    \7\ MTSA contains provisions for waiving the cost-sharing
requirement if a higher level of Federal funding is required.
---------------------------------------------------------------------------
    There are two additional areas where TSA's current grant program
differs from MTSA provisions. First, the current grant program does not
specifically correspond to the stated purpose of MTSA's grant funding,
which is to implement area and facility-specific security plans. TSA
officials told us that in round three, they would give preference to
regulated facilities and vessels that were already required to have
security assessments and plans in place. As a result, the grants would
likely be for mitigating identified vulnerabilities rather than
developing plans. Second, in the application instructions for the
current program, TSA said that recurring costs for personnel and
operations and maintenance costs were not eligible for funding. MTSA
specifically includes these costs.
    TSA officials said that for later rounds of grants during Fiscal
Year 2004, they would discuss potential changes in the Port Security
Grant Program with the Coast Guard and MARAD. These potential changes
would include requiring that all grant proposals be designed to meet
MTSA port security grant requirements. The officials said, however,
that before making any changes, they would look for specific directions
accompanying currently pending appropriations for Fiscal Year 2004.
    Mr. Chairman, this concludes my prepared statement. I would be
pleased to answer any questions that you or other members of the
Committee may have.
                                 ______

 Prepared Statement of Gerald L. Dillingham, Director, Civil Aviation
            Issues, United States General Accounting Office

      Progress Since September 11, 2001, and the Challenges Ahead

    Mr. Chairman and Members of the Committee:

    In the 2 years since the terrorist attacks of September 11, 2001,
the security of our Nation's civil aviation system has assumed renewed
urgency, and efforts to strengthen aviation security have received a
great deal of congressional attention. On November 19, 2001, the
Congress enacted the Aviation and Transportation Security Act (ATSA),
which created the Transportation Security Administration (TSA) within
the Department of Transportation (DOT) and defined its primary
responsibility as ensuring security in aviation as well as in other
modes of transportation. The act set forth specific improvements to
aviation security for TSA to implement and established deadlines for
completing many of them. The Homeland Security Act, passed on November
25, 2002, transferred TSA to the new Department of Homeland Security,
which assumed overall responsibility for aviation security.
    My testimony today addresses the (1) progress that has been made
since September 11 to strengthen aviation security, (2) potential
vulnerabilities that remain, and (3) longer-term management and
organizational challenges to sustaining enhanced aviation security. The
testimony is based on our prior work, our review of recent literature,
and discussions with aviation industry representatives and TSA.
    In summary:

    Since September 2001, TSA has made considerable progress in meeting
congressional mandates related to aviation security, thereby increasing
aviation security. For example, by the end of December 2002, the agency
had hired and deployed a workforce of about 65,000, including passenger
and baggage screeners and Federal air marshals, and it was using
explosives detection equipment to screen about 90 percent of all
checked baggage. In addition, TSA has initiated several programs and
research and development efforts that focus on the use of technology
and information to advance security. For example, the agency is
developing the Transportation Workers Identification Card program to
provide a nationwide standard credential for airport workers that is
issued after a background check has been completed and biometric
indicators have been incorporated so that each worker can be positively
matched to his or her credential. TSA is also developing the next-
generation Computer Assisted Passenger Prescreening System (CAPPS II),
which would use national security and commercial databases to assess
the risk posed by passengers and identify some passengers for
additional screening before they board their flights. These uses of
technology and information--particularly CAPPS II--have raised some
concerns about privacy rights that will need to be addressed as these
programs move toward implementation.
    Although TSA has focused much effort and funding on ensuring that
bombs and other threat items are not carried onto planes by passengers
or in their luggage, vulnerabilities remain in areas such as air cargo
security, general aviation security, and airport perimeter security.
For example, air cargo is vulnerable because very little of the
estimated 12.5 million tons transported each year on all-cargo and
passenger planes is physically screened for explosives. As a result, a
potential security risk is the introduction of explosive and incendiary
devices in cargo placed aboard aircraft. We have recommended in prior
work that TSA use a risk management approach to prioritize actions and
funding as it works with industry to determine the next steps in
strengthening air cargo security, and industry stakeholders have
suggested the application of such an approach to general aviation
security.
    TSA faces longer-term management and organizational challenges to
sustaining enhanced aviation security that include: (1) developing and
implementing a comprehensive risk management approach, (2) paying for
increased aviation security needs and controlling costs, (3)
establishing effective coordination among the many public and private
entities involved in aviation security, (4) strategically managing its
workforce and ensuring appropriate staffing levels, and (5) building a
results-oriented culture as it shifts its aviation security and other
functions to the Department of Homeland Security. We have issued
reports and made recommendations that address many of these challenges,
and some actions are under way. In addition, we have studies in
progress on some of these issues.
Background
    Before September 2001, we and others had demonstrated significant,
long-standing vulnerabilities in aviation security, some of which are
depicted in figure 1. These included weaknesses in screening passengers
and baggage, controlling access to secure areas at airports, and
protecting air traffic control computer systems and facilities. To
address these and other weaknesses, ATSA created the Transportation
Security Administration and established security requirements for the
new agency with mandated deadlines.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO.
Civil Aviation Was Vulnerable before September 11, 2001
    Before September 2001, screeners, who were then hired by the
airlines, often failed to detect threat objects located on passengers
or in their carry-on luggage. Principal causes of screeners'
performance problems were rapid turnover and insufficient training. As
we previously reported, turnover rates exceeded 100 percent a year at
most large airports, leaving few skilled and experienced screeners,
primarily because of low wages, limited benefits, and repetitive,
monotonous work.\1\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Aviation Security: Long-
Standing Problems Impair Airport Screeners' Performance, GAO/RCED-00-75
(Washington, D.C.: June 28, 2000) and U.S. General Accounting Office,
Aviation Security: Terrorist Acts Illustrate Severe Weaknesses in
Aviation Security, GAO-01-1166T (Washington, D.C.: Sept. 20, 2001).
---------------------------------------------------------------------------
    In addition, before September 2001, controls for limiting access to
secure areas of airports, including aircraft, did not always work as
intended. As we reported in May 2000, our special agents used
fictitious law enforcement badges and credentials to gain access to
secure areas, bypass security checkpoints at two airports, and walk
unescorted to aircraft departure gates.\2\ The agents, who had been
issued tickets and boarding passes, could have carried weapons,
explosives, or other dangerous objects onto aircraft. DOT's Inspector
General also documented numerous problems with airport access controls,
and in one series of tests, nearly 7 out of every 10 attempts by the
Inspector General's staff to gain access to secure areas were
successful. Upon entering the secure areas, the Inspector General's
staff boarded aircraft 117 times. The Inspector General further
reported that the majority of the aircraft boardings would not have
occurred if employees had taken the prescribed steps, such as making
sure doors closed behind them.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Security: Breaches at Federal
Agencies and Airports, GAO-OSI-0010 (Washington, D.C.: May 25, 2000).
---------------------------------------------------------------------------
    Our reviews also found that the security of the air traffic control
computer systems and of the facilities that house them had not been
ensured.\3\ The vulnerabilities we identified, such as not ensuring
that contractors who had access to the air traffic control computer
systems had undergone background checks, made the air traffic control
system susceptible to intrusion and malicious attacks. The air traffic
control computer systems provide information to air traffic controllers
and aircraft flight crews to help ensure the safe and expeditious
movement of aircraft. Failure to protect these systems and their
facilities could cause a nationwide disruption of air traffic or even
collisions and loss of life.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Aviation Security: Weak
Computer Security Practices Jeopardize Flight Safety, GAO/AIMD-98-155
(Washington, D.C.: May 18, 1998); Computer Security: FAA Needs to
Improve Controls over Use of Foreign Nationals to Remediate and Review
Software, GAO/AIMD-00-55 (Washington, D.C.: Dec. 23, 1999); Computer
Security: FAA Is Addressing Personnel Weaknesses, but Further Action Is
Required, GAO/AIMD-00-169 (Washington, D.C.: May 31, 2000); FAA
Computer Security: Concerns Remain Due to Personnel and Other
Continuing Weaknesses, GAO/AIMD-00-252 (Washington, D.C.: Aug. 16,
2000); and FAA Computer Security: Recommendations to Address Continuing
Weaknesses, GAO-01-171 (Washington, D.C.: Dec. 6, 2000).
---------------------------------------------------------------------------
    Over the years, we made numerous recommendations to the Federal
Aviation Administration (FAA), which, until ATSA's enactment, was
responsible for aviation security. These recommendations were designed
to improve screeners' performance, strengthen airport access controls,
and better protect air traffic control computer systems and facilities.
As of September 2001, FAA had implemented some of these recommendations
and was addressing others, but its progress was often slow. In
addition, many initiatives were not linked to specific deadlines,
making it difficult to monitor and oversee their implementation.
Legislation Transferred Most Aviation Security Responsibilities to TSA
    ATSA defined TSA's primary responsibility as ensuring security in
all modes of transportation. The Act also shifted security-screening
responsibilities from the airlines to TSA and established a series of
requirements to strengthen aviation security, many of them with
mandated implementation deadlines. For example, the act required the
deployment of Federal screeners at 429 commercial airports across the
Nation by November 19, 2002, and the use of explosives detection
technology at these airports to screen every piece of checked baggage
for explosives not later than December 31, 2002. However, the Homeland
Security Act subsequently allowed TSA to grant waivers of up to 1 year
to airports that would not be able to meet the December deadline.
    Some aviation security responsibilities remained with FAA. For
example, FAA is responsible for the security of its air traffic control
and other computer systems and of its air traffic control facilities.
FAA also administers the Airport Improvement Program (AIP) trust fund,
which is used to fund capital improvements to airports, including some
security enhancements, such as terminal modifications to accommodate
explosives detection equipment.
Since September 2001, Multiple Initiatives Have Increased Aviation
        Security
    Over the past 2 years, TSA and FAA have taken major steps to
increase aviation security. TSA has implemented congressional mandates
and explored options for increasing the use of technology and
information to control access to secure areas of airports and to
improve passenger screening. FAA has focused its efforts on enhancing
the security of the Nation's air traffic control systems and
facilities. In ongoing work, we are examining some of these efforts in
more detail (see app. IV).
TSA Met Many Aviation Security Mandates but Encountered Some
        Difficulties
    In its first year, TSA worked to establish its organization and
focused primarily on meeting the aviation security deadlines set forth
in ATSA, accomplishing a large number of tasks under a very ambitious
schedule. In January 2002, TSA had 13 employees--1 year later, the
agency had about 65,000 employees. TSA reported that it met over 30
deadlines during 2002 to improve aviation security. (See app. I for the
status of mandates in ATSA.) For example, according to TSA, it:

  <bullet> met the November 2002 deadline to deploy Federal passenger
        screeners at airports across the Nation by hiring, training,
        and deploying over 40,000 individuals to screen passengers at
        429 commercial airports (see fig. 2);

  <bullet> hired and deployed more than 20,000 individuals to screen
        all checked baggage;

  <bullet> has been using explosives detection systems or explosives
        trace detection equipment to screen about 90 percent of all
        checked baggage as of December 31, 2002;\4\
---------------------------------------------------------------------------
    \4\ Explosives detection machines are used to screen baggage for
explosives and work by using CAT scan X-ray technology to take
fundamental measurements of materials in bags to recognize
characteristic signatures of threat explosives. Explosives trace
detection systems (trace detection machines) are used to screen baggage
for explosives, and work by detecting vapors and residues of
explosives.

  <bullet> has been using alternative means such as canine teams, hand
        searches, and passenger-bag matching to screen the remaining
---------------------------------------------------------------------------
        checked baggage;

  <bullet> confiscated more than 4.8 million prohibited items
        (including firearms, knives, and incendiary or flammable
        objects) from passengers; and

  <bullet> has made substantial progress in expanding the Federal Air
        Marshal Service.

    In addition, according to FAA, U.S. and foreign airlines met the
April 2003 deadline to harden cockpit doors on aircraft flying in the
United States.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: FAA.

    Not unexpectedly, TSA experienced some difficulties in meeting
these deadlines and achieving these goals. For example, operational and
management control problems, cited later in this testimony, emerged
with the rapid expansion of the Federal Air Marshal Service, and TSA's
deployment of some explosives detection systems was delayed. As a
result, TSA had to grant waivers of up to a year (until Dec. 31, 2003)
to a few airports, authorizing them to use alternative means to screen
all checked baggage. Recently, airport representatives with whom we
spoke expressed concern that not all of these airports would meet the
new December 2003 deadline established in their waivers because,
according to the airport representatives, there has not been enough
time to produce, install, and integrate all of the systems required to
meet the deadline.
TSA Is Making Greater Use of Technology and Information to Enhance
        Aviation
        Security
    To strengthen control over access to secure areas of airports and
other transportation facilities, TSA is pursuing initiatives that make
greater use of technology and information. For example, the agency is
investigating the establishment of a Transportation Workers
Identification Card (TWIC) program. TWIC is intended to establish a
uniform, nationwide standard for the secure identification of 12
million workers who require unescorted physical or cyber access to
secure areas at airports and other transportation facilities.
Specifically, TWIC will combine standard background checks and
biometrics so that a worker can be positively matched to his or her
credential. Once the program is fully operational, the TWIC card will
be the standard credential for airport workers and will be accepted by
all modes of transportation. According to TSA, developing a uniform,
nationwide standard for identification will minimize redundant
credentialing and background checks. Currently, each airport is
required, as part of its security program, to issue credentials to
workers who need access to secure, nonpublic areas, such as baggage
loading areas.\5\ Airport representatives have told us that they think
a number of operational issues need to be resolved for the TWIC card to
be feasible. For example, the TWIC card would have to be compatible
with the many types of card readers used at airports around the
country, or new card readers would have to be installed. At large
airports, this could entail replacing hundreds of card readers, and
airport representatives have expressed concerns about how this effort
would be funded. In April 2003, TSA awarded a contract to test and
evaluate various technologies at three pilot sites.
---------------------------------------------------------------------------
    \5\ Under 49 C.F.R. sec. 1542.101, all qualified airports are
required to have a TSA-approved security program that includes
procedures to control movement within the secured area, including
identification media required under sec. 1542.201(b)(3).
---------------------------------------------------------------------------
    In addition, TSA has continued to develop the next-generation
Computer Assisted Passenger Prescreening System (CAPPS II)--an
automated passenger screening system that takes personal information,
such as a passenger's name, date of birth, home address, and home
telephone number, to confirm the passenger's identity and assess a risk
level. The identifying information will be run against national
security information and commercial databases, and a ``risk'' score
will be assigned to the passenger. The risk score will determine any
further screening that the passenger will undergo before boarding. TSA
expects to implement CAPPS II throughout the United States by the fall
of 2004. However, TSA's plans have raised concerns about travelers'
privacy rights. It has been suggested, for example, that TSA is
violating privacy laws by not explaining how the risk assessment data
will be scored and used and how a TSA decision can be appealed. These
concerns about the system will need to be addressed as it moves toward
implementation. In ongoing work, we are examining CAPPS II, including
how it will function, what safeguards will be put in place to protect
the traveling public's privacy, and how the system will affect the
traveling public in terms of costs, delays, and risks.
    Additionally, TSA has begun to develop initiatives that could
enable it to use its passenger screening resources more efficiently.
For example, TSA has requested funding for Fiscal Year 2004 to begin
developing a registered traveler program that would prescreen low-risk
travelers. Under a registered traveler program, those who voluntarily
apply to participate in the program and successfully pass background
checks would receive a unique identifier or card that would enable them
to be screened more quickly and would promote greater focus on those
passengers who require more extensive screening at airport security
checkpoints. In prior work, we identified key policy and implementation
issues that would need to be resolved before a registered traveler
program could be implemented. Such issues include the (1) criteria that
should be established to determine eligibility to apply for the
program, (2) kinds of background checks that should be used to certify
applicants' eligibility to enroll in the program and the entity who
should perform these checks, (3) security-screening procedures that
registered travelers should undergo and the differences between these
procedures and those for unregistered travelers, and (4) concerns that
the traveling public or others may have about equity, privacy, and
liability.\6\
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Aviation Security: Registered
Traveler Program Policy and Implementation Issues, GAO-03-253
(Washington, D.C.: Nov. 22, 2002).
---------------------------------------------------------------------------
FAA Is Strengthening Air Traffic Control Security
    Since September 2001, FAA has continued to strengthen the security
of the Nation's air traffic control computer systems and facilities in
response to 39 recommendations we made between May 1998 and December
2000. For example, FAA has established an information systems security
management structure under its Chief Information Officer, whose office
has developed an information systems security strategy, security
architecture (that is, an overall blueprint), security policies and
directives, and a security awareness training campaign. This office has
also managed FAA's incident response center and implemented a
certification and accreditation process to ensure that vulnerabilities
in current and future air traffic control systems are identified and
weaknesses addressed. Nevertheless, the office faces continued
challenges in increasing its intrusion detection capabilities,
obtaining accreditation for systems that are already operational, and
managing information systems security throughout the agency. In
addition, according to senior security officials, FAA has completed
assessments of the physical security of its staffed facilities, but it
has not yet accredited all of these air traffic control facilities as
secure in compliance with its own policy. Finally, FAA has worked
aggressively over the past 2 years to complete background
investigations of numerous contractor employees. However, ensuring that
all new contractors are assessed to determine which employees require
background checks, and that those checks are completed in a timely
manner, will be a continuing challenge for the agency.
Potential Vulnerabilities Remain in Several Aviation Sectors
    Although TSA has focused much effort and funding on ensuring that
bombs and other threat items are not carried onto commercial aircraft
by passengers or in their luggage, vulnerabilities remain, according to
aviation experts, TSA officials, and others. In particular, these
vulnerabilities affect air cargo, general aviation, and airport
perimeter security. For information on legislative proposals that would
address these potential vulnerabilities and other aviation security
issues, see appendix II.
Air Cargo Security
    As we and DOT's Inspector General have reported, vulnerabilities
exist in securing the cargo carried aboard commercial passenger and
all-cargo aircraft. TSA has reported that an estimated 12.5 million
tons of cargo are transported each year--9.7 million tons on all-cargo
planes and 2.8 million tons on passenger planes. Some potential
security risks associated with air cargo include the introduction of
undetected explosive and incendiary devices in cargo placed aboard
aircraft; the shipment of undeclared or undetected hazardous materials
aboard aircraft; and aircraft hijackings and sabotage by individuals
with access to cargo aircraft.\7\ To address some of the risks
associated with air cargo, ATSA requires that all cargo carried aboard
commercial passenger aircraft be screened and that TSA have a system in
place as soon as practicable to screen, inspect, or otherwise ensure
the security of cargo on all-cargo aircraft. In August 2003, the
Congressional Research Service reported that less than 5 percent of
cargo placed on passenger airplanes is physically screened. TSA's
primary approach to ensuring air cargo security and safety and to
complying with the cargo-screening requirement in the act is the
``known shipper'' program--which allows shippers that have established
business histories with air carriers or freight forwarders \8\ to ship
cargo on planes. However, we and DOT's Inspector General have
identified weaknesses in the known shipper program and in TSA's
procedures for approving freight forwarders.\9\
---------------------------------------------------------------------------
    \7\ For example, on November 15, 1979, an explosive device
contained in a parcel shipped by U.S. mail exploded aboard an American
Airlines flight; on April 7, 1994, a Federal Express employee attempted
to hijack a company plane and crash it into the company's headquarters.
We reported on the security risks associated with dangerous goods in
Aviation Security: Vulnerability of Commercial Aviation to Attacks by
Terrorists Using Dangerous Goods, GAO-03-30C (Washington, D.C.: Dec. 3,
2002).
    \8\ Freight forwarders consolidate shipments and deliver them to
air carriers and cargo facilities of passenger and all-cargo air
carriers.
    \9\ U.S. General Accounting Office, Aviation Security:
Vulnerabilities and Potential Improvements for the Air Cargo System,
GAO-03-344 (Washington, D.C.: Dec. 20, 2002).
---------------------------------------------------------------------------
    Since September 2001, TSA has taken a number of actions to enhance
cargo security, such as implementing a database of known shippers in
October 2002. The database is the first phase in developing a cargo-
profiling system similar to the Computer-Assisted Passenger
Prescreening System. However, in December 2002, we reported that
additional operational and technological measures, such as checking the
identity of individuals making cargo deliveries, have the potential to
improve air cargo security in the near term.\10\ We further reported
that TSA lacks a comprehensive plan with long-term goals and
performance targets for cargo security, time frames for completing
security improvements, and risk-based criteria for prioritizing actions
to achieve those goals. Accordingly, we recommended that TSA develop a
comprehensive plan for air cargo security that incorporates a risk
management approach, includes a list of security priorities, and sets
deadlines for completing actions. TSA agreed with this recommendation
and expects to develop such a plan by the fall of 2003. It will be
important that this plan include a timetable for implementation and
that TSA expeditiously reduce the vulnerabilities in this area.
---------------------------------------------------------------------------
    \10\ GAO-03-344.
---------------------------------------------------------------------------
General Aviation Security
    Since September 2001, TSA has taken limited action to improve
general aviation security, leaving it far more open and potentially
vulnerable than commercial aviation.\11\ General aviation is vulnerable
because general aviation pilots are not screened before takeoff and the
contents of general aviation planes are not screened at any point.
General aviation includes more than 200,000 privately owned airplanes,
which are located in every state at more than 19,000 airports. Over 550
of these airports also provide commercial service. In the last 5 years,
about 70 aircraft have been stolen from general aviation airports,
indicating a potential weakness that could be exploited by terrorists.
Moreover, it was reported that the September 11 hijackers researched
the use of crop dusters to spread biological or chemical agents.
General aviation's vulnerability was revealed in January 2002, when a
Florida teenage flight student crashed a single-engine Cessna airplane
into a Tampa skyscraper.
---------------------------------------------------------------------------
    \11\ For example, TSA issued a rule requiring that certain aircraft
operators using aircraft with a maximum takeoff weight of 12,500 pounds
or more carry out security measures, including conducting criminal
history records checks on their flight crew members and restricting
access to the flight deck. This rule went into effect in April 2003.
---------------------------------------------------------------------------
    FAA has since issued a notice with voluntary guidance for flight
schools and businesses that provide services for aircraft and pilots at
general aviation airports. The suggestions include using different keys
to gain access to an aircraft and start the ignition, not giving
students access to aircraft keys, ensuring positive identification of
flight students, and training employees and pilots to report suspicious
activities. However, because the guidance is voluntary, it is unknown
how many general aviation airports have implemented these measures.
    We reported in June 2003 that TSA was working with industry
stakeholders as part of TSA's Aviation Security Advisory Council to
close potential security gaps in general aviation.\12\ According to our
recent discussions with industry representatives, however, the
stakeholders have not been able to reach a consensus on the actions
needed to improve security in general aviation. General aviation
industry representatives, such as the Aircraft Owners and Pilots
Association and General Aviation Manufacturers Association, have
opposed any restrictions on operating general aviation aircraft and
believe that small planes do not pose a significant risk to the
country. Nonetheless, some industry representatives indicated that the
application of a risk management approach would be helpful in
determining the next steps in improving general aviation security. (We
discuss risk management in more detail later in this testimony.) To
identify these next steps, TSA chartered a working group on general
aviation within the existing Aviation Security Advisory Committee, and
this working group is scheduled to report to the full committee in the
fall of 2003. We have ongoing work that is examining general aviation
security in further detail.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office, Transportation Security:
Federal Action Needed to Help Address Security Challenges, GAO-03-843
(Washington, D.C.: June 30, 2003).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Aircraft Owners and Pilots Association.
Airport Perimeter Security
    Airport perimeters present a potential vulnerability by providing a
route for individuals to gain unauthorized access to aircraft and
secure areas of airports (see fig. 4). For example, in August 2003, the
national media reported that three boaters wandered the tarmac at
Kennedy International Airport after their boat became beached near a
runway. In addition, terrorists could launch an attack using a
shoulder-fired missile from the perimeter of an airport, as well as
from locations just outside the perimeter. For example, in separate
incidents in the late 1970s, guerrillas with shoulder-fired missiles
shot down two Air Rhodesia planes. More recently, the national media
have reported that since September 2001, al Qaeda has twice tried to
down planes outside the United States with shoulder-fired missiles.\13\
---------------------------------------------------------------------------
    \13\ The Department of Homeland Security is assessing proposals
from eight contractors for technology to protect commercial aircraft
from shoulder-fired missile attack.
---------------------------------------------------------------------------
    We reported in June 2003 that airport operators have increased
their patrols of airport perimeters since September 2001, but industry
officials stated that they do not have enough resources to completely
protect against missile attacks.\14\ A number of technologies could be
used to secure and monitor airport perimeters, including barriers,
motion sensors, and closed-circuit television. Airport representatives
have cautioned that as security enhancements are made to airport
perimeters, it will be important for TSA to coordinate with FAA and the
airport operators to ensure that any enhancements do not pose safety
risks for aircraft. We have separate ongoing work examining the status
of efforts to improve airport perimeter security and assessing the
nature and extent of the threat from shoulder-fired missiles.
---------------------------------------------------------------------------
    \14\ GAO-03-843.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO.
Aviation Security Poses Longer-Term Management and Organizational
        Challenges
    TSA's efforts to strengthen and sustain aviation security face
several longer-term challenges in the areas of risk management,
funding, coordination, strategic human capital management, and building
a results-oriented organization.
Risk Management
    As aviation security is viewed in the larger context of
transportation and homeland security, it will be important to set
strategic priorities so that national resources can be directed to the
greatest needs. Although TSA initially focused on increasing aviation
security, it has more recently begun to address security in the other
transportation modes. However, the size and diversity of the national
transportation system make it difficult to adequately secure, and TSA
and the Congress are faced with demands for additional Federal funding
for transportation security that far exceed the additional amounts made
available. We have advocated the use of a risk management approach to
guide Federal programs and responses to better prepare for and
withstand terrorist threats, and we have recommended that TSA use this
approach to strengthen security in aviation as well as in other
transportation modes.\15\ A risk management approach is a systematic
process to analyze threats, vulnerabilities, and the criticality (or
relative importance) of assets to better support key decisions linking
resources with prioritized efforts for results. Comprehensive risk-
based assessments support effective planning and resource allocation.
Figure 5 describes this approach.
---------------------------------------------------------------------------
    \15\ U.S. General Accounting Office, Homeland Security: A Risk
Management Approach Can Guide Preparedness Efforts, GAO-02-208T
(Washington, D.C.: Oct. 31, 2001); and GAO-03-344.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: GAO.

    TSA agreed with our recommendation and has adopted a risk
management approach in attempting to enhance security across all
transportation modes. TSA's Office of Threat Assessment and Risk
Management is developing two assessment tools that will help assess
criticality, threats, and vulnerabilities. The first tool, which
assesses criticality, will arrive at a criticality score for a facility
or transportation asset by incorporating factors such as the number of
fatalities that could occur during an attack and the economic and
sociopolitical importance of the facility or asset. This score will
enable TSA, in conjunction with transportation stakeholders, to rank
facilities and assets within each mode and thus focus resources on
those that are deemed most important. TSA is working with another
Department of Homeland Security office--the Information Analysis and
Infrastructure Protection Directorate--to ensure that the criticality
tool will be consistent with the Department's overall approach for
managing critical infrastructure.
    The second tool--the Transportation Risk Assessment and
Vulnerability Evaluation tool (TRAVEL)--will assess threats and analyze
vulnerabilities for all transportation modes. The tool produces a
relative risk score for potential attacks against a transportation
asset or facility. In addition, TRAVEL will include a cost-benefit
component that compares the cost of implementing a given countermeasure
with the reduction in relative risk due to that countermeasure. We
reported in June 2003 that TSA plans to use this tool to gather
comparable threat and vulnerability information across all
transportation modes. It is important for TSA to complete the
development of the two tools and use them to prepare action plans for
specific modes, such as aviation, and for transportation security
generally.
Funding
    Two key funding and accountability challenges will be (1) paying
for increased aviation security and (2) ensuring that these costs are
controlled. The costs associated with the equipment and personnel
needed to screen passengers and their baggage alone are huge. The
administration requested $4.2 billion for aviation security for Fiscal
Year 2004, which included about $1.8 billion for passenger screening
and $944 million for baggage screening.\16\ ATSA created a passenger
security fee to pay for the costs of aviation security, but the fee has
not generated enough money to do so. DOT's Inspector General reported
that the security fees are estimated to generate only about $1.7
billion in Fiscal Year 2004.\17\
---------------------------------------------------------------------------
    \16\ The House agreed to $3.7 billion in funding for TSA and the
Senate approved $4.5 billion.
    \17\ TSA suspended the security fees from June 1 to September 30,
2003, as mandated by the Emergency Wartime Supplemental Appropriations
Act of 2003.
---------------------------------------------------------------------------
    A major funding issue is paying for the purchase and installation
of the remaining explosives detection systems for the airports that
received waivers, as well as for the reinstallation of the systems that
were placed in airport lobbies last year and now need to be integrated
into airport baggage-handling systems. Integrating the equipment with
the baggage-handling systems is expected to be costly because it will
require major facility modifications. For example, modifications needed
to integrate the equipment at Boston's Logan International Airport are
estimated to cost $146 million. Estimates for Dallas/Fort Worth
International Airport are $193 million. DOT's Inspector General has
reported that the cost of integrating the equipment nationwide could be
as high as $3 billion.
    A key question is how to pay for these installation costs. Funds
from FAA's AIP grants and passenger facility charges are eligible
sources for funding this work.\18\ In Fiscal Year 2002, AIP grant funds
totaling $561 million were used for terminal modifications to enhance
security. However, using these funds for security reduced the funding
available for other airport development projects, such as projects to
bring airports up to Federal design standards and reconstruction
projects. In February 2003, we identified letters of intent \19\ as a
funding option that has been successfully used to leverage private
sources of funding.\20\ TSA has since signed letters of intent with
three airports--Boston Logan, Dallas-Fort Worth, and Seattle-Tacoma
International Airports. Under the agreements, TSA will pay 75 percent
of the cost of integrating the explosives detection equipment into the
baggage-handling systems. The payments will stretch out over 3 to 4
years. Airport representatives said that about 30 more airports have
requested similar agreements. The slow pace of TSA's approval process
has raised concerns about delays in reinstalling and integrating
explosives detection equipment with baggage-handling systems--delays
that will require more labor-intensive and less efficient baggage
screening by other approved means.
---------------------------------------------------------------------------
    \18\ With FAA's approval, commercial airports may charge boarding
passengers a fee of up to $4.50 per trip segment to raise funds for
airport capital development.
    \19\ A letter of intent represents a nonbinding commitment from an
agency to provide multiyear funding to an entity beyond the current
authorization period. Thus, that letter allows an airport to proceed
with a project without waiting for future Federal funds because the
airport and investors know that allowable costs are likely to be
reimbursed.
    \20\ U.S. General Accounting Office, Airport Finance: Past Funding
Levels May Not Be Sufficient to Cover Airports' Planned Capital
Development, GAO-03-497T (Washington, D.C.: Feb. 25, 2003).
---------------------------------------------------------------------------
    To provide financial assistance to airports for security-related
capital investments, such as the installation of explosives detection
equipment, proposed aviation reauthorization legislation \21\ would
establish an aviation security capital fund that would authorize $2
billion over the next 4 years. The funding would be made available to
airports in letters of intent, and large-and medium-hub airports would
be expected to provide a match of 10 percent of a project's costs. A 5
percent match would be required for all other airports. This
legislation would provide a dedicated source of funding for security-
related capital investments and could minimize the need to use AIP
funds for security.
---------------------------------------------------------------------------
    \21\ The proposed Vision 100--Century of Aviation Reauthorization--
Act, H.R. 2115.
---------------------------------------------------------------------------
    An additional funding issue is how to ensure continued investment
in transportation research and development. For Fiscal Year 2003, TSA
was appropriated about $110 million for research and development, of
which $75 million was designated for the next-generation explosives
detection systems. However, TSA has proposed to reprogram $61.2 million
of these funds to be used for other purposes, leaving about $12.7
million to be spent on research and development this year. This
proposed reprogramming could limit TSA's ability to sustain and
strengthen aviation security by continuing to invest in research and
development for more effective equipment to screen passengers, their
carry-on and checked baggage, and cargo. In ongoing work, we are
examining the nature and scope of research and development work by TSA
and the Department of Homeland Security, including their strategy for
accelerating the development of transportation security technologies.
    By reprogramming funds and making acknowledged use of certain funds
for purposes other than those intended, TSA has raised congressional
concerns about accountability. According to TSA, it has proposed to
reprogram a total of $849.3 million during Fiscal Year 2003, including
the $61.2 million that would be cut from research and development and
$104 million that would be taken from the Federal air marshal program
and used for unintended purposes. Because of these congressional
concerns, we were asked to investigate TSA's process for reprogramming
funds for the air marshal program and to assess the implications of the
proposed funding reductions in areas such as the numbers of hours flown
and flights taken. We have ongoing work to address these issues. To
ensure appropriate oversight and accountability, it is important that
TSA maintain clear and transparent communication with the Congress and
industry stakeholders about the use of its funds.
    In July 2002, we reported that long-term attention to cost and
accountability controls for acquisition and related business processes
will be critical for TSA, both to ensure its success and to maintain
its integrity and accountability.\22\ According to DOT's Inspector
General, although TSA has made progress in addressing certain cost-
related issues, it has not established an infrastructure that provides
effective controls to monitor contractors' costs and performance.\23\
For example, in February 2003, the Inspector General reported that
TSA's $1 billion hiring effort cost more than most people expected and
that TSA's contract with NCS Pearson to recruit, assess, and hire the
screener workforce contained no safeguards to prevent cost increases.
The Inspector General found that TSA provided limited oversight for the
management of the contract expenses and, in one case, between $6
million and $9 million of the $18 million paid to a subcontractor
appeared to be a result of wasteful and abusive spending practices.\24\
As the Inspector General recommended, TSA has since hired the Defense
Contract Audit Agency to audit its major contracts. To ensure control
over TSA contracts, the Inspector General has further recommended that
the Congress set aside a specific amount of TSA's contracting budget
for overseeing contractors' performance with respect to cost, schedule,
and quality.\25\
---------------------------------------------------------------------------
    \22\ U.S. General Accounting Office, Aviation Security:
Transportation Security Administration Faces Immediate and Long-Term
Challenges, GAO-02-971T (Washington, D.C.: July 25, 2002).
    \23\ Aviation Security Costs, Transportation Security
Administration, statement of the Honorable Kenneth M. Mead, Inspector
General, U.S. Department of Transportation, before the Committee on
Commerce, Science, and Transportation, Subcommittee on Aviation, U.S.
Senate, Feb. 5, 2003 (CC-2003-066).
    \24\ DOT Inspector General, CC-2003-066.
    \25\ Office of Inspector General, DOT, Report on Oversight of
Security Screener Contracts, TSA, FI-2003-025 (Washington, D.C.: Feb.
28, 2003).
---------------------------------------------------------------------------
Coordination
    Sustaining the aviation security advancements of the past 2 years
also depends on TSA's ability to form effective partnerships with
federal, state, and local agencies and with the aviation community.
Effective, well-coordinated partnerships at the local level require
identifying roles and responsibilities; developing effective,
collaborative relationships with local and regional airports and
emergency management and law enforcement agencies; agreeing on
performance-based standards that describe desired outcomes; and sharing
intelligence information. The lynchpin in TSA's efforts to coordinate
with airports and local law enforcement and emergency response agencies
is, according to the agency, the 158 Federal security directors and
staff that TSA has deployed nationwide. The security directors'
responsibilities include ensuring that standardized security procedures
are implemented at the Nation's airports; working with state and local
law enforcement personnel, when appropriate, to ensure airport and
passenger security; and communicating threat information to airport
operators and others. Airport representatives, however, have indicated
that the relationships between Federal security directors and airport
operators are still evolving and that better communication is needed at
some airports.
    Key to improving the coordination between TSA and local partners is
establishing clearly defined roles. In some cases, concerns have arisen
about conflicts between the roles of TSA, as the manager of security
functions at airports, and of airport officials, as the managers of
other airport operations. Industry representatives viewed such
conflicts as leading to confusion in areas such as communicating with
local entities. According to airport representatives, for example, TSA
has developed guidance or rules for airports without involving them,
and time-consuming changes have then had to be made to accommodate
operational factors. The representatives maintain that it would be more
efficient and effective to consider such operational factors earlier in
the process. Ultimately, inadequate coordination and unclear roles
result in inefficient uses of limited resources.
    TSA also has to ensure that the terrorist and threat information
gathered and maintained by law enforcement and other agencies--
including the Federal Bureau of Investigation, the Immigration and
Naturalization Service, the Central Intelligence Agency, and the
Department of State--is quickly and efficiently communicated among
Federal agencies and to state and local authorities, as needed.
Disseminating such information is important to allow those who are
involved in protecting the Nation's aviation system to address
potential threats rather than simply react to known threats.
    In aviation security, timely information sharing among agencies has
been hampered by the agencies' reluctance to share sensitive
information and by outdated, incompatible computer systems. As we found
in reviewing 12 watch lists maintained by nine Federal agencies,
information was being shared among some of them but not among others.
Moreover, even when sharing was occurring, costly and overly complex
measures had to be taken to facilitate it.\26\ To promote better
integration and sharing of terrorist and criminal watch lists, we have
recommended that the Department of Homeland Security, in collaboration
with the other departments and agencies that have and use watch lists,
lead an effort to consolidate and standardize the Federal Government's
watch list structures and policies.\27\
---------------------------------------------------------------------------
    \26\ GAO-03-322.
    \27\ U.S. General Accounting Office, Information Technology:
Terrorist Watch Lists Should Be Consolidated to Promote Better
Integration and Sharing, GAO-03-322 (Washington, D.C.: Apr. 15, 2003).
---------------------------------------------------------------------------
    In addition, as we found earlier this year, representatives of
numerous state and local governments and transportation industry
associations indicated that the general threat warnings received by
government agencies are not helpful. Rather, they said, transportation
operators, including airport operators, want more specific intelligence
information so that they can understand the true nature of a potential
threat and implement appropriate security measures.\28\
---------------------------------------------------------------------------
    \28\ GAO-03-843.
---------------------------------------------------------------------------
Strategic Human Capital Management
    As it organizes itself to protect the Nation's transportation
system, TSA faces the challenge of strategically managing its workforce
of more than 60,000 people, most of whom are deployed at airports or on
aircraft to detect weapons and explosives and to prevent them from
being taken aboard and used on aircraft. Additionally, over the next
several years, TSA faces the challenge of ``right-sizing'' this
workforce as efficiency is improved with new security-enhancing
technologies, processes, and procedures. For example, as explosives
detection systems are integrated with baggage-handling systems, the use
of more labor-intensive screening methods, such as trace detection
techniques and manual searches of baggage, can be reduced. Other
planned security enhancements, such as CAPPS II and the registered
traveler program, also have the potential to make screening more
efficient.
    To assist agencies in managing their human capital more
strategically, we have developed a model that identifies cornerstones
and related critical success factors that agencies should apply and
steps they can take.\29\ Our model is designed to help agency leaders
effectively lead and manage their people and integrate human capital
considerations into daily decision-making and the program results they
seek to achieve.
---------------------------------------------------------------------------
    \29\ U.S. General Accounting Office, A Model of Strategic Human
Capital Management, GAO-02-373SP (Washington, D.C.: March 2002).
---------------------------------------------------------------------------
    In January 2003, we reported that TSA was addressing some critical
human capital success factors by hiring personnel, using a wide range
of tools available for hiring, and beginning to link individual
performance to organizational goals.\30\ However, concerns remain about
the size and training of that workforce, the adequacy of the initial
background checks for screeners, and TSA's progress in setting up a
performance management system. As noted earlier in this testimony, TSA
now plans to reduce its screener workforce by 6,000 by September 30,
2003, and it has proposed cutting the workforce by an additional 3,000
in Fiscal Year 2004. This planned reduction has raised concerns about
passenger delays at airports and has led TSA to begin hiring part-time
screeners to make more flexible and efficient use of its workforce. In
addition, TSA used an abbreviated background check process to hire and
deploy enough screeners to meet ATSA's screening deadlines in 2002.
After obtaining additional background information, TSA terminated the
employment of some of these screeners. TSA reported 1,208 terminations
as of May 31, 2003, that it ascribed to a variety of reasons, including
criminal offenses and failures to pass alcohol and drug tests.
Furthermore, the national media have reported allegations of
operational and management control problems that emerged with the
expansion of the Federal Air Marshal Service, including inadequate
background checks and training, uneven scheduling, and inadequate
policies and procedures. In ongoing work, we are examining the
effectiveness of TSA's efforts to train, equip, and supervise passenger
screeners, and we are assessing the effects of expansion on the Federal
Air Marshal Service. In addition, we reported in January 2003 that TSA
had taken the initial steps in establishing a performance management
system linked to organizational goals. Such a system will be critical
for TSA to motivate and manage staff, ensure the quality of screeners'
performance, and, ultimately, restore public confidence in air travel.
---------------------------------------------------------------------------
    \30\ U.S. General Accounting Office, Transportation Security
Administration: Actions and Plans to Build a Results-Oriented Culture,
GAO-03-190 (Washington, D.C.: Jan. 13, 2003).
---------------------------------------------------------------------------
Building a Results-Oriented Organization
    For TSA to sustain enhanced aviation security over the long term,
it will be important for the agency to continue to build a results-
oriented culture within the new Department of Homeland Security. To
help Federal agencies successfully transform their cultures, as well as
the new Department of Homeland Security merge its various components
into a unified department, we identified key practices that have
consistently been found at the center of successful mergers,
acquisitions, and transformations.\31\ These key practices, together
with implementation strategies such as establishing a coherent mission
and integrated strategic goals to guide the transformation, can help
agencies become more results oriented, customer focused, and
collaborative. (See app. III.) These practices are particularly
important for the Department of Homeland Security, whose implementation
and transformation we have designated as high risk.\32\
---------------------------------------------------------------------------
    \31\ U.S. General Accounting Office, Results-Oriented Cultures:
Implementation Steps to Assist Mergers and Organizational
Transformations, GAO-03-669 (Washington, D.C.: July 2, 2003).
    \32\ U.S. General Accounting Office, Major Management Challenges
and Program Risks: Department of Homeland Security, GAO-03-102
(Washington, D.C.: Jan. 1, 2003).
---------------------------------------------------------------------------
    The Congress required TSA to adopt a results-oriented strategic
planning and reporting framework and, specifically, to provide an
action plan with goals and milestones to outline how acceptable levels
of performance for aviation security would be achieved. In prior work,
we reported that TSA has taken the first steps in performance planning
and reporting by defining its mission, vision, and values and that this
practice would continue to be important when TSA moved into the
Department of Homeland Security.\33\ Therefore, we recommended that TSA
take the next steps to implement results-oriented practices. These
steps included establishing performance goals and measures for all
modes of transportation as part of a strategic planning process that
involves stakeholders, defining more clearly the roles and
responsibilities of its various offices in collaborating and
communicating with stakeholders; and formalizing the roles and
responsibilities of governmental entities for transportation security.
Table 1 shows selected ATSA requirements, TSA's actions and plans, and
the next steps we recommended. TSA agreed with our recommendations.
---------------------------------------------------------------------------
    \33\ GAO-03-190.



------------------------------------------------------------------------



  Table 1.--Requirements, Actions and Plans, and Recommended Next Steps
                     for Results-Oriented Practices
------------------------------------------------------------------------
   ATSA requirements      TSA actions and plans          Next steps
------------------------------------------------------------------------
    Leadership commitment to creating a high-performing organization
------------------------------------------------------------------------
<bullet> Requires       <bullet> Stated            <bullet> Establish a
 performance agreement   leadership commitment to   performance
 between the Secretary   creating a results-        agreement for the
 of DOT and the Under    oriented culture in its    Under Secretary of
 Secretary of            180-day action plan.       Transportation for
 Transportation for     <bullet> Expressed plans    Security that
 Security and between    to use the Baldrige        articulates how
 the Under Secretary     performance excellence     bonuses will be tied
 and TSA executives.     criteria as a management   to performance.
                         tool to promote quality   <bullet> Add
                         and performance.           expectations in
                        <bullet> Established        performance
                         standardized performance   agreements for top
                         agreements for TSA         leadership to foster
                         executives.                the culture of a
                                                    high-performing
                                                    organization.
------------------------------------------------------------------------
   Strategic planning to establish results-oriented goals and measures
------------------------------------------------------------------------
<bullet> Requires a 5-  <bullet> Articulated       <bullet> Establish
 year performance plan   vision, mission, values,   security performance
 and annual              strategic goal, and        goals and measures
 performance report      performance goals and      for all modes of
 consistent with the     measures.                  transportation as
 principles of the      <bullet> Developed          part of a strategic
 Government              automated system to        planning process
 Performance and         collect performance data   that involves
 Results Act.            to demonstrate progress    stakeholders.
                         in meeting goals.         <bullet> Apply
                        <bullet> Aligned aviation   practices that have
                         security performance       been shown to
                         goals and measures with    provide useful
                         DOT goals.                 information in
                        <bullet> Reported it        agency performance
                         submitted first annual     plans.
                         performance report.
------------------------------------------------------------------------
      Performance management to promote accountability for results
------------------------------------------------------------------------
<bullet> Requires a     <bullet> Established an    <bullet> Build on the
 performance             interim performance        current performance
 management system.      management system.         agreements to
<bullet> Requires       <bullet> Created            achieve additional
 performance             standardized performance   benefits.
 agreements for all      agreements for groups of  <bullet> Ensure the
 employees that          employees that include     permanent
 include                 organizational and         performance
 organizational and      individual goals and       management system
 individual goals.       standards of               makes meaningful
                         performance.               distinctions in
                                                    performance.
                                                   <bullet> Involve
                                                    employees in
                                                    developing its
                                                    permanent
                                                    performance
                                                    management system.
------------------------------------------------------------------------
      Collaboration and communication to achieve national outcomes
------------------------------------------------------------------------
<bullet> Requires TSA   <bullet> Established       <bullet> Define more
 to work within and      Offices of Security        clearly the
 outside the             Regulation and Policy,     collaboration and
 government to           Communications and         communication roles
 accomplish its          Public Information, Law    and responsibilities
 mission.                Enforcement and Security   of TSA's various
<bullet> Establishes a   Liaison, and Legislative   offices.
 Transportation          Affairs to collaborate    <bullet> Formalize
 Security Oversight      and communicate with       roles and
 Board to facilitate     stakeholders.              responsibilities
 collaboration and      <bullet> Convened the       among governmental
 communication.          Oversight Board, which     entities for
                         has met twice.             transportation
                        <bullet> Stated plans to    security.
                         use memorandums of
                         understanding and
                         memorandums of agreement
                         to formalize roles and
                         responsibilities of TSA
                         and other agencies in
                         transportation security.
------------------------------------------------------------------------
    Public reporting and customer service to build citizen confidence
------------------------------------------------------------------------
<bullet> Requires a     <bullet> Submitted 180-    <bullet> Fill the
 180-day action plan     day action plan and both   ombudsman position
 and two progress        progress reports within    to facilitate
 reports within 6        established time frames.   responsiveness of
 months of enactment.   <bullet> Maintains a        TSA to the public.
                         Website to provide        <bullet> Continue to
                         information to the         develop and
                         public.                    implement
                        <bullet> Created            mechanisms, such as
                         ombudsman position to      the CSI, to gauge
                         serve customers.           customer
                        <bullet> Developed          satisfaction and
                         measures to track          improve customer
                         customer satisfaction.     service.
                        <bullet> Reviewed and
                         eliminated security
                         procedures that do not
                         enhance security or
                         customer service.
                        <bullet> Stated plans to
                         develop a customer
                         satisfaction index to
                         analyze customer
                         opinions to improve
                         performance.
------------------------------------------------------------------------
Source: GAO.

Concluding Observations
    After spending billions of dollars over the past 2 years on people,
policies, and procedures to improve aviation security, we have much
more security now than we had before September 2001, but it has not
been determined how much more secure we are. The vast number of guns,
knives, and other potential threat items that screeners have
confiscated suggests that security is working, but it also suggests
that improved public awareness of prohibited items could help focus
resources where they are most needed and reduce delays and
inconvenience to the public. Faced with vast and competing demands for
security resources, TSA should continue its efforts to identify
technologies, such as CAPPS II, that will leverage its resources and
potentially improve its capabilities. Improving the efficiency and
effectiveness of aviation security will also require risk assessments
and plans that help maintain a balance between security and customer
service.
    Mr. Chairman, this concludes my statement. I would be pleased to
answer any questions that you or other members of the Committee may
have.
   Appendix I: Selected Deadlines in the Aviation and Transportation
                     Security Act and Their Status

------------------------------------------------------------------------
     Deadline                   Provisionsa                  Status
------------------------------------------------------------------------
Nov. 19, 2001       Require new background checks for   Completed
                     those who have access to secure
                     areas of the airport.
------------------------------------------------------------------------
                    Institute a 45-day waiting period   Completed
                     for aliens seeking flight
                     training for planes of 12,500
                     pounds or more.
------------------------------------------------------------------------
Dec. 19, 2001       Establish qualifications for        Completed
                     Federal screeners.
                    Report to the Congress on           Completed
                     improving general aviation
                     security.
------------------------------------------------------------------------
Jan. 18, 2002       Screen all checked baggage in U.S.  Completed
                     airports using explosives
                     detection systems, passenger-bag
                     matching, manual searches, canine
                     units, or other approved means.
                    The Federal Aviation                Guidance issued
                     Administration (FAA) is to
                     develop guidance for air carriers
                     to use in developing programs to
                     train flight and cabin crews to
                     resist threats (within 60 days
                     after FAA issues the guidance,
                     each airline is to develop a
                     training program and submit it to
                     FAA; within 30 days of receiving
                     a program, FAA is to approve it
                     or require revisions; within 180
                     days of receiving FAA's approval,
                     the airline is to complete the
                     training of all flight and cabin
                     crews).
                    Develop a plan to train Federal     Completed
                     screeners.
                    Foreign and domestic carriers are   Completed
                     to provide electronic passenger
                     and crew manifests to Customs for
                     flights from foreign countries to
                     the United States.
                    Begin collecting the passenger      Completed
                     security fee.
------------------------------------------------------------------------
Feb. 17, 2002       The Under Secretary is to assume    Completed
                     civil aviation security functions
                     from FAA.
                    Implement an aviation security      Completed
                     program for charter carriers.
                    Begin awarding grants for security- Completed
                     related research and development.
                    The National Institute of Justice   Completed
                     is to report to the Secretary on
                     less-than-lethal weapons for
                     flight crew members.
------------------------------------------------------------------------
May 18, 2002        Report to the Congress on the       Report submitted
                     deployment of baggage screening
                     equipment.
                    <bullet> Report to the Congress on  Report submitted
                     progress in evaluating and taking
                     the following optional actions:
                    <bullet> Require 911 capability     <bullet> Complet
                     for onboard passenger telephones.   ed
                    <bullet> Establish uniform IDs for  <bullet> Ongoing
                     law enforcement personnel
                     carrying weapons on planes or in
                     secure areas.
                    <bullet> Establish requirements     <bullet> Ongoing
                     for trusted traveler programs.
                    <bullet> Develop alternative        <bullet> Complet
                     security procedures to avoid        ed
                     damage to medical products.
                    <bullet> Provide for the use of     <bullet> Ongoing
                     secure communications
                     technologies to inform airport
                     security forces about passengers
                     who are identified on security
                     databases.
                    <bullet> Require pilot licenses to  <bullet> Ongoing
                     include a photograph and
                     biometric identifiers.
                    <bullet> Use voice stress           <bullet> Ongoing
                     analysis, biometric, or other
                     technologies to prevent high-risk
                     passengers from boarding.
                    <bullet> Provide for the use of     <bullet> Ongoing
                     instant communications technology
                     between planes and ground.
------------------------------------------------------------------------
Nov. 19, 2002       Deploy Federal screeners, security  Completed
                     managers, and law enforcement
                     officers to screen passengers and
                     property.
                    Report to the Congress on           Report submitted
                     screening for small aircraft with
                     60 or fewer seats.
                    Establish pilot program to          Completed
                     contract with private screening
                     companies (program to last until
                     Nov. 19, 2004).
------------------------------------------------------------------------
Dec. 31, 2002       Screen all checked baggage by       Ongoing
                     explosives detection systems.
------------------------------------------------------------------------
No deadline         Carriers are to transfer screening  Completed
                     property to TSA.
                    FAA is to issue an order            Completed
                     prohibiting access to the flight
                     deck, requiring strengthened
                     cabin doors, requiring that cabin
                     doors remain locked, and
                     prohibiting possession of a key
                     for all but the flight deck crew.
                    Improve perimeter screening of all  Ongoing
                     individuals, goods, property, and
                     vehicles.
                    Screen all cargo on passenger       Ongoing
                     flights and cargo-only flights.
                    Establish procedures for notifying  Completed
                     FAA, state and local law
                     enforcement officers, and airport
                     security of known threats.
                    Establish procedures for airlines   Ongoing
                     to identify passengers who pose a
                     potential security threat.
                    FAA is to develop and implement     Ongoing
                     methods for using cabin video
                     monitors, continuously operating
                     transponders, and notifying
                     flight deck crew of a hijacking.
                    Require flight training schools to  Completed
                     conduct security awareness
                     programs for employees.
                    Work with airport operators to      Ongoing
                     strengthen access control points
                     and consider deploying technology
                     to improve security access.
                    Provide operational testing for     Ongoing
                     screeners.
                    Assess dual-use items that seem     Ongoing
                     harmless but could be dangerous
                     and inform screening personnel.
                    Establish a system for measuring    Ongoing
                     staff performance.
                    Establish management                Ongoing
                     accountability for meeting
                     performance goals.
                    Periodically review threats to      Ongoing
                     civil aviation, including
                     chemical and biological weapons.
------------------------------------------------------------------------
Source: TSA.
a Except where otherwise indicated, the Transportation Security
  Administration (TSA) is responsible for implementing the provisions.

            Appendix II: Bills Related to Aviation Security
    H.R. 2144--Aviation Security Technical Corrections and Improvements
Act--Many of the important provisions of this bill have been
incorporated into the Conference Report version of the FAA
Reauthorization Act, H.R. 2115.
    S. 1409--Rebuild America Act of 2003--Establishes a new grant
program in the Department of Homeland Security (DHS) for airport
security improvements, including projects to replace baggage conveyer
systems and projects to reconfigure terminal baggage areas as needed to
install explosives detection systems. The Under Secretary for Border
and Transportation Security is authorized to issue letters of intent to
airports for these types of projects. One billion dollars is authorized
for this program.
    H.R. 2555--House and Senate versions of the Department of Homeland
Security Appropriations Act for 2004 House version--Makes Fiscal Year
2004 appropriations of $3.679 billion for the Transportation Security
Administration (TSA) to provide civil aviation security services
(aviation security, Federal air marshals, maritime and land security,
intelligence, research and development, and administration):

  <bullet> $1.673 billion for passenger screening activities,

  <bullet> $1.285 billion for baggage screening activities,

  <bullet> $721 million for airport support and enforcement presence,

  <bullet> $235 million for physical modifications of airports to
        provide for the installation of checked baggage explosives
        detection systems, and

  <bullet> $100 million for the procurement of the explosives detection
        systems.

    Continues to cap the number of screeners at 45,000 full-time
equivalent positions.
    Prohibits the use of funds authorized in this Act to pursue or
adopt regulations requiring airport sponsors to provide, without cost
to TSA, building construction, maintenance, utilities and expenses, or
space for services relating to aviation security (excluding space for
necessary checkpoints).
    Senate Version of H.R. 2555--Makes Fiscal Year 2004 appropriations
of $4.524 billion for TSA to provide civil aviation security services:

  <bullet> $3.185 billion for screening activities,

  <bullet> $1.339 billion for airport support and enforcement presence,

  <bullet> $309 million for physical modifications of airports to
        provide for the installation of checked baggage explosives
        detection systems, and

  <bullet> $151 million for the procurement of the explosives detection
        systems.

    Prohibits the use of funds authorized in this Act to pursue or
adopt regulations requiring airport sponsors to provide, without cost
to TSA, building construction, maintenance, utilities and expenses, or
space for services relating to aviation security (excluding space for
necessary checkpoints).
    Prohibits the use of funds authorized in this Act for the Computer
Assisted Passenger Prescreening System (CAPPS II) until GAO has
reported to the Committees on Appropriations that certain requirements
have been met, including (1) the existence of a system of due process
by which passengers considered to pose a threat may appeal their delay
or prohibition from boarding a flight; (2) that the underlying error
rate of databases will not produce a large number of false positives
that will result in a significant number of passengers being treated
mistakenly or security resources being diverted; (3) that TSA has
stressed-tested and demonstrated the efficacy and predictive accuracy
of all search tools in CAPPS II; and (4) that the Secretary has
established an internal oversight board to monitor the manner in which
CAPPS II is being developed and prepared.
    Requires a report from the Secretary of Homeland Security on
actions taken to develop countermeasures for commercial aircraft
against shoulder-fired missile systems and vulnerability assessments of
this threat for larger airports.
    H.R. 2115--Flight 100--Century of Aviation Reauthorization Act--
Conference Report version--Gives FAA the authority to take a
certificate action if it is notified by DHS that the holder of the
certificate presents a security threat.
    Gives the Secretary of Transportation the authority to make grants
to general aviation entities (including airports, operators, and
manufacturers) to reimburse them for security costs incurred and
revenues lost because of restrictions imposed by the Federal Government
in response to the events of September 11. The bill authorizes $100
million for these grants.
    Authorizes DHS to reimburse air carriers and airports for all
security screening activities they are still performing, such as for
providing catering services and checking documents at security
checkpoints and for providing the space and facilities used to perform
screening functions to the extent funds are available.
    Requires air carriers to carry out a training program for flight
and cabin crews to prepare for possible threat conditions. TSA is
required to establish minimum standards for this training within 1 year
of the Act's passage.
    Requires DHS to report in 6 months on the effectiveness of aviation
security, specifically including the air marshal program; hardening of
cockpit doors; and security screening of passengers, checked baggage,
and cargo.
    Establishes within DHS a grant program to airport sponsors for (1)
projects to replace baggage conveyer systems related to aviation
security; (2) projects to reconfigure terminal baggage areas as needed
to install explosives detection systems; and (3) projects to enable the
Under Secretary for Border and Transportation Security to deploy
explosives detection systems behind the ticket counter, in the baggage
sorting area, or in line with the baggage handling system. Requires
$250 million annually from the existing aviation security fee that is
paid by airline passengers to be deposited in an Aviation Security
Capital Fund and made available to finance this grant program.
    Requires TSA to certify that civil liberty and privacy issues have
been addressed before implementing CAPPS II and requires GAO to assess
TSA's compliance 3 months after TSA makes the required certification.
    Allows cargo pilots to carry guns under the same program for pilots
of passenger airlines. Permits an off-duty pilot to transport the gun
in a lockbox in the passenger cabin rather than in the baggage hold.
Also provides that both passenger and cargo pilots should be treated
equitably in their access to training.
    Requires security audits of all foreign repair stations within 18
months after TSA issues rules governing the audits. The rules must be
issued within 240 days of enactment.
    Requires background checks on aliens seeking flight training in
aircraft regardless of the size of the aircraft. For all training on
small aircraft, includes a notification requirement but no waiting
period. For training on larger aircraft, adopts an expedited procedure
if the applicant already has training, a license, or a background
check, and adopts a 30-day waiting period for first-time training on
large aircraft. Makes TSA responsible for the background check.
Requires TSA to issue an interim final rule in 60 days to implement
this section. This section takes effect when that rule becomes
effective.
    S.236--Background Checks for Foreign Flight School Applicants--
Amends Federal aviation law to require a background check of alien
flight school applicants without regard to the maximum certificated
weight of the aircraft for which they seek training. (Currently, a
background check is required for flight crews operating aircraft with a
maximum certificated takeoff weight of 12,500 pounds or more.)
    S. 165--Air Cargo Security Act--House companion bill (H.R. 1103)--
Amends Federal aviation law to require the screening of cargo that is
to be transported in passenger aircraft operated by domestic and
foreign air carriers in interstate air transportation. Directs TSA to
develop a strategic plan to carry out such screening. Requires the
establishment of systems that (1) provide for the regular inspection of
shipping facilities for cargo shipments; (2) provide an industrywide
pilot program database of known shippers of cargo; (3) train persons
that handle air cargo to ensure that such cargo is properly handled and
safeguarded from security breaches; and (4) require air carriers
operating all-cargo aircraft to have an approved plan for the security
of their air operations area, the cargo placed aboard the aircraft, and
persons having access to their aircraft on the ground or in flight.
    H.R. 1366--Aviation Industry Stabilization Act--Requires the Under
Secretary for Border and Transportation Security, after all cockpit
doors are strengthened, to consider and report to the Congress on
whether it is necessary to require Federal air marshals to be seated in
the first class cabin of an aircraft with strengthened cockpit doors.
    Requires the Under Secretary to (1) undertake action necessary to
improve the screening of mail so that it can be carried on passenger
flights and (2) reimburse air carriers for certain screening and
related activities, as well as the cost of fortifying cockpit doors,
and for any financial losses attributed to the loss of air traffic
resulting from the use of force against Iraq in calendar year 2003.
    Establishes an air cargo security working group composed of various
groups to develop recommendations on the enhancement of the current
known shipper program.
    H. R. 115--Aviation Biometric Badge Act--Amends Federal aviation
law to direct TSA to require by regulation that each security screener
(or employee who has unescorted access, or may permit other individuals
to have unescorted access, to an aircraft or a secured area of the
airport) be issued a biometric security badge that identifies a person
by fingerprint or retinal recognition.
    H. R. 1049--Arming Cargo Pilots Against Terrorism Act--Senate
companion bill (S. 516)--Expresses the sense of Congress that a flight
deck crew member of a cargo aircraft should be armed with a firearm to
defend such aircraft against attacks by terrorists that could use the
aircraft as a weapon of mass destruction or for other terrorist
purposes. Amends Federal transportation law to authorize the training
and arming of flight deck crew members (pilots) of all-cargo air
transportation flights to prevent acts of criminal violence or air
piracy.
    H.R. 765--(No title)--Legislation to arm cargo pilots--Amends
Federal aviation law to allow cargo pilots (not just air passenger
pilots) to participate in the Federal flight deck officer program.
    H.R. 580--Commercial Airline Missile Defense Act--Senate companion
bill--S. 311--Directs the Secretary of Transportation to issue
regulations that require all turbojet aircraft of air carriers to be
equipped with a missile defense system. Requires the Secretary to
purchase such defense systems and make them available to all air
carriers. Sets forth certain interim security measures to be taken
before the deployment of such defense systems.
 Appendix III: Key Practices and Implementation Steps for Mergers and
                     Organizational Transformations

------------------------------------------------------------------------
          Practice                       Implementation step
------------------------------------------------------------------------
Ensure top leadership        <bullet> Define and articulate a succinct
 drives the transformation.   and compelling reason for change.
                             <bullet> Balance continued delivery of
                              services with merger and transformation
                              activities.
------------------------------------------------------------------------
Establish a coherent         <bullet> Adopt leading practices for
 mission and integrated       results-oriented strategic planning and
 strategic goals to guide     reporting.
 the transformation.
------------------------------------------------------------------------
Focus on a key set of        <bullet> Embed core values in every aspect
 principles and priorities    of the organization to reinforce the new
 at the outset of the         culture.
 transformation.
------------------------------------------------------------------------
Set implementation goals     <bullet> Make public implementation goals
 and a time line to build     and a time line.
 momentum and show progress  <bullet> Seek and monitor employee
 from day one.                attitudes and take appropriate follow-up
                              actions.
                             <bullet> Identify cultural features of
                              merging organizations to increase
                              understanding of former work environments.
                             <bullet> Attract and retain key talent.
                             <bullet> Establish an organizationwide
                              knowledge and skills inventory to exchange
                              knowledge among merging organizations.
------------------------------------------------------------------------
Dedicate an implementation   <bullet> Establish networks to support the
 team to manage the           implementation team.
 transformation process.     <bullet> Select high-performing team
                              members.
------------------------------------------------------------------------
Use the performance          <bullet> Adopt leading practices to
 management system to         implement effective performance management
 define responsibility and    systems with adequate safeguards.
 ensure accountability for
 change.
------------------------------------------------------------------------
Establish a communication    <bullet> Communicate early and often to
 strategy to create shared    build trust.
 expectations and report     <bullet> Ensure consistency of message.
 related progress.           <bullet> Encourage two-way communication.
                             <bullet> Provide information to meet
                              specific needs of employees.
------------------------------------------------------------------------
Involve employees to obtain  <bullet> Use employee teams.
 their ideas and gain their  <bullet> Involve employees in planning and
 ownership for the            sharing performance information.
 transformation.             <bullet> Incorporate employee feedback into
                              new policies and procedures.
                             <bullet> Delegate authority to appropriate
                              organizational levels.
------------------------------------------------------------------------
Build a world-class          <bullet> Adopt leading practices to build a
 organization.                world-class organization.
------------------------------------------------------------------------
Source: GAO.

    Appendix IV: GAO Active Engagements Related to Aviation Security
Transportation Security Research and Development Programs at DHS
        and TSA
    Key Questions: (1) What were the strategy and organizational
structure for transportation security research and development (R&D)
prior to 9/11 and what is the current strategy and structure? (2) How
do DHS and TSA select their transportation security R&D projects and
what projects are in their portfolios? (3) What are DHS's and TSA's
goals and strategies for accelerating the development of transportation
security technologies? (4) What are the nature and scope of
coordination of R&D efforts between DHS and TSA, as well as with other
public and private sector research organizations?
Federal Air Marshal Service
    Key Questions: (1) How has the Federal air marshal program evolved,
in terms of recruiting, training, retention, and operations since its
management was transferred to TSA? (2) To what extent has TSA
implemented the internal controls needed to meet the program's
operational and management control challenges? (3) To what extent has
TSA developed plans and initiatives to sustain the program and
accommodate its future growth and maturation?
TSA Baggage Screening
    Key Questions: (1) What are the status and associated costs of
TSA's efforts to acquire, install, and operate explosives detection
equipment (electronic trace detection technology and explosives
detection systems) to screen all checked baggage by December 31, 2003?
(2) What are the benefits and trade-offs--to include costs, operations,
and performance--of using alternative explosives detection technologies
currently available for baggage screening?
Reprogramming of Air Marshal Program Funds
    Key Questions: (1) Describe the internal preparation, review, and
approval process for DHS's reprogrammings and, specifically, the
process for the May 15 and July 25 reprogramming requests for the air
marshal program. (2) Determine whether an impoundment or deferral
notice should have been sent to the Congress and any other associated
legal issues. (3) Identify the implications, for both the air marshal
program and other programs, of the pending reprogramming request.
General Aviation Security
    Key Questions: (1) How have security concerns and measures changed
at general aviation airports since September 11, 2001? (2) What steps
has TSA taken to improve general aviation security?
Background Checks for Banner-Towing Aircraft
    Key Questions: (1) What are the procedures for conducting
background and security checks for pilots of small banner-towing
aircraft requesting waivers to perform stadium overflights? (2) To what
extent have these procedures been followed in conducting required
background and security checks since September 11, 2001? (3) How
effective have these procedures been in reducing risks to public
safety?
TSA's Computer Assisted Passenger Prescreening System II (CAPPS II)
    Key Questions: (1) How will the CAPPS II system function and what
data will be needed to make the system operationally effective? (2)
What safeguards will be put in place to protect the traveling public's
privacy? (3) What systems and measures are in place to determine
whether CAPPS II will result in improved national security? (4) What
impact will CAPPS II have on the traveling public and on the airline
industry in terms of costs, delays, risks, inconvenience, and other
factors?
TSA Passengers Screening Program
    Key Questions: (1) What efforts have been taken or planned to
ensure that passenger screeners comply with Federal standards and other
criteria, including efforts to train, equip, and supervise passenger
screeners? (2) What methods does TSA use to test screeners'
performance, and what have been the results of these tests? (3) How
have the results of tests of TSA passenger screeners compared with the
results achieved by screeners before September 11, 2001, and at five
pilot program airports? (4) What actions is TSA taking to remedy
performance concerns?
TSA's Efforts to Implement Sections 106, 136, and 138 of the Aviation
        and Transportation Security Act
    Key Questions: What is the status of TSA's efforts to implement (1)
section 106 of the act requiring improved airport perimeter access
security, (2) section 136 requiring the assessment and deployment of
commercially available security practices and technologies, and (3)
section 138 requiring background investigations for TSA and other
airport employees?
Assessment of the Portable Air Defense Missile Threat
    Key Questions: (1) What are the nature and extent of the threat
from man-portable air defense systems (MANPAD)? (2) How effective are
U.S. controls on the use of exported MANPADs? (3) How do multilateral
efforts attempt to stem MANPAD proliferation? (4) What types of
countermeasures are available to minimize this threat and at what cost?
Airline Assistance Determination of Whether the $5 Billion Provided by
        P.L. 107-42 Was Used to Compensate the Nation's Major Air
        Carriers for Their Losses Stemming from the Events of Sept. 11,
        2001
    Key Questions: (1) Was the $5 billion used only to compensate major
air carriers for their uninsured losses incurred as a result of the
terrorist attacks? (2) Were carriers reimbursed, per the act, only for
increases in insurance premiums resulting from the attacks?
TSA's Use of Sole-Source Contracts
    Key Questions: (1) To what extent does TSA follow applicable
acquisition laws and policies, including those for ensuring adequate
competition? (2) How well does TSA's organizational structure
facilitate effective, efficient procurement? (3) How does TSA ensure
that its acquisition workforce is equipped to award and oversee
contracts? (4) How well do TSA's policies and processes ensure that TSA
receives the supplies and services it needs on time and at reasonable
cost?
                          Related GAO Products
Aviation Security
    Transportation Security: Federal Action Needed to Help Address
Security Challenges. GAO-03-843. Washington, D.C.: June 30, 2003.

    Transportation Security: Post-September 11th Initiatives and Long-
Term Challenges. GAO-03-616T. Washington, D.C.: April 1, 2003.

    Aviation Security: Measures Needed to Improve Security of Pilot
Certification Process. GAO-03-248NI. Washington, D.C.: February 3,
2003. (NOT FOR PUBLIC DISSEMINATION)

    Aviation Security: Vulnerabilities and Potential Improvements for
the Air Cargo System. GAO-03-286NI. Washington, D.C.: December 20,
2002. (NOT FOR PUBLIC DISSEMINATION)

    Aviation Security: Vulnerabilities and Potential Improvements for
the Air Cargo System. GAO-03-344. Washington, D.C.: December 20, 2002.

    Aviation Security: Vulnerability of Commercial Aviation to Attacks
by Terrorists Using Dangerous Goods. GAO-03-30C. Washington, D.C.:
December 3, 2002.

    Aviation Security: Registered Traveler Program Policy and
Implementation Issues. GAO-03-253. Washington, D.C.: November 22, 2002.

    Aviation Security: Transportation Security Administration Faces
Immediate and Long-Term Challenges. GAO-02-971T. Washington, D.C.: July
25, 2002.

    Aviation Security: Information Concerning the Arming of Commercial
Pilots. GAO-02-822R. Washington, D.C.: June 28, 2002.

    Aviation Security: Deployment and Capabilities of Explosive
Detection Equipment. GAO-02-713C. Washington, D.C.: June 20, 2002.
(CLASSIFIED)

    Aviation Security: Information on Vulnerabilities in the Nation's
Air Transportation System. GAO-01-1164T. Washington, D.C.: September
26, 2001. (NOT FOR PUBLIC DISSEMINATION)

    Aviation Security: Information on the Nation's Air Transportation
System Vulnerabilities. GAO-01-1174T. Washington, D.C.: September 26,
2001. (NOT FOR PUBLIC DISSEMINATION)

    Aviation Security: Vulnerabilities in, and Alternatives for,
Preboard Screening Security Operations. GAO-01-1171T. Washington, D.C.:
September 25, 2001.

    Aviation Security: Weaknesses in Airport Security and Options for
Assigning Screening Responsibilities. GAO-01-1165T. Washington, D.C.:
September 21, 2001.

    Aviation Security: Terrorist Acts Demonstrate Urgent Need to
Improve Security at the Nation's Airports. GAO-01-1162T. Washington,
D.C.: September 20, 2001.

    Aviation Security: Terrorist Acts Illustrate Severe Weaknesses in
Aviation Security. GAO-01-1166T. Washington, D.C.: September 20, 2001.

    Responses of Federal Agencies and Airports We Surveyed about Access
Security Improvements. GAO-01-1069R. Washington, D.C.: August 31, 2001.

    Responses of Federal Agencies and Airports We Surveyed about Access
Security Improvements. GAO-01-1068R. Washington, D.C.: August 31, 2001.
(RESTRICTED)

    FAA Computer Security: Recommendations to Address Continuing
Weaknesses. GAO-01-171. Washington, D.C.: December 6, 2000.

    Aviation Security: Additional Controls Needed to Address Weaknesses
in Carriage of Weapons Regulations. GAO/RCED-00-181. Washington, D.C.:
September 29, 2000.

    FAA Computer Security: Actions Needed to Address Critical
Weaknesses That Jeopardize Aviation Operations. GAO/T-AIMD-00-330.
Washington, D.C.: September 27, 2000.

    FAA Computer Security: Concerns Remain Due to Personnel and Other
Continuing Weaknesses. GAO/AIMD-00-252. Washington, D.C.: August 16,
2000.

    Aviation Security: Long-Standing Problems Impair Airport Screeners'
Performance. GAO/RCED-00-75. Washington, D.C.: June 28, 2000.

    Aviation Security: Screeners Continue to Have Serious Problems
Detecting Dangerous Objects. GAO/RCED-00-159. Washington, D.C.: June
22, 2000. (NOT FOR PUBLIC DISSEMINATION)

    Computer Security: FAA Is Addressing Personnel Weaknesses, but
Further Action Is Required. GAO/AIMD-00-169. Washington, D.C.: May 31,
2000.

    Security: Breaches at Federal Agencies and Airports. GAO-OSI-00-10.
Washington, D.C.: May 25, 2000.

    Aviation Security: Screener Performance in Detecting Dangerous
Objects during FAA Testing Is Not Adequate. GAO/T-RCED-00-143.
Washington, D.C.: April 6, 2000. (NOT FOR PUBLIC DISSEMINATION)

    Combating Terrorism: How Five Foreign Countries Are Organized to
Combat Terrorism. GAO/NSIAD-00-85. Washington, D.C.: April 7, 2000.

    Aviation Security: Vulnerabilities Still Exist in the Aviation
Security System. GAO/T-RCED/AIMD-00-142. Washington, D.C.: April 6,
2000.

    U.S. Customs Service: Better Targeting of Airline Passengers for
Personal Searches Could Produce Better Results. GAO/GGD-00-38.
Washington, D.C.: March 17, 2000.

    Aviation Security: Screeners Not Adequately Detecting Threat
Objects during FAA Testing. GAO/T-RCED-00-124. Washington, D.C.: March
16, 2000. (NOT FOR PUBLIC DISSEMINATION)

    Aviation Security: Slow Progress in Addressing Long-Standing
Screener Performance Problems. GAO/T-RCED-00-125. Washington, D.C.:
March 16, 2000.

    Computer Security: FAA Needs to Improve Controls Over Use of
Foreign Nationals to Remediate and Review Software. GAO/AIMD-00-55.
Washington, D.C.: December 23, 1999.

    Aviation Security: FAA's Actions to Study Responsibilities and
Funding for Airport Security and to Certify Screening Companies. GAO/
RCED-199-53. Washington, D.C.: February 24, 1999.

    Aviation Security: FAA's Deployments of Equipment to Detect Traces
of Explosives. GAO/RCED-99-32R. Washington, D.C.: November 13, 1998.

    Air Traffic Control: Weak Computer Security Practices Jeopardize
Flight Safety. GAO/AIMD-98-155. Washington, D.C.: May 18, 1998.

    Aviation Security: Progress Being Made, but Long-Term Attention Is
Needed. GAO/T-RCED-98-190. Washington, D.C.: May 14, 1998.

    Air Traffic Control: Weak Computer Security Practices Jeopardize
Flight Safety. GAO/AIMD-98-60. Washington, D.C.: April 29, 1998.
(LIMITED OFFICIAL USE -DO NOT DISSEMINATE)

    Aviation Security: Implementation of Recommendations Is Under Way,
but Completion Will Take Several Years. GAO/RCED-98-102. Washington,
D.C.: April 24, 1998.

    Combating Terrorism: Observations on Crosscutting Issues. T-NSIAD-
98-164. Washington, D.C.: April 23, 1998.

    Aviation Safety: Weaknesses in Inspection and Enforcement Limit FAA
in Identifying and Responding to Risks. GAO/RCED-98-6. Washington,
D.C.: February 27, 1998.

    Aviation Security: FAA's Procurement of Explosives Detection
Devices. GAO/RCED-97-111R. Washington, D.C.: May 1, 1997.

    Aviation Security: Commercially Available Advanced Explosives
Detection Devices. GAO/RCED-97-ll9R. Washington, D.C.: April 24, 1997.

    Aviation Safety and Security: Challenges to Implementing the
Recommendations of the White House Commission on Aviation Safety and
Security. GAO/T-RCED-97-90. Washington, D.C.: March 5, 1997.

    Aviation Security: Technology's Role in Addressing Vulnerabilities.
GAO/T-RCED/NSIAD-96-262. Washington, D.C.: September 19, 1996.

    Aviation Security: Oversight of Initiatives Will Be Needed. C-GAO/
T-RCED/NSIAD-96-20. Washington, D.C.: September 17, 1996. (CLASSIFIED)

    Aviation Security: Urgent Issues Need to Be Addressed. GAO/T-RCED/
NSIAD-96-251. Washington, D.C.: September 11, 1996.

    Aviation Security: Immediate Action Needed to Improve Security.
GAO/T-RCED/NSIAD-96-237. Washington, D.C.: August 1, 1996.

    Aviation Security: FAA Can Help Ensure That Airports' Access
Control Systems Are Cost Effective. GAO/RCED-95-25. Washington, D.C.:
March 1, 1995.

    Aviation Security: Development of New Security Technology Has Not
Met Expectations. GAO/RCED-94-142. Washington, D.C.: May 19, 1994.

    Aviation Security: Additional Actions Needed to Meet Domestic and
International Challenges. GAO/RCED-94-38. Washington, D.C.: January 27,
1994.
Other
    Homeland Security: Information Sharing Responsibilities,
Challenges, and Key Management Issues. GAO-03-715T. Washington, D.C.:
May 3, 2003.

    Information Technology: Terrorist Watch Lists Should Be
Consolidated to Promote Better Integration and Sharing. GAO-03-322.
Washington, D.C.: April 15, 2003.

    Combating Terrorism: Observations on National Strategies Related to
Terrorism. GAO-03-519T. Washington, D.C.: March 3, 2003.

    Transportation Security Administration: Actions and Plans to Build
a Results-Oriented Culture. GAO-03-190. Washington, D.C.: January 17,
2003.

    Major Management Challenges and Program Risks: Department of
Homeland Security. GAO-03-102. Washington, D.C.: January 1, 2003.

    Major Management Challenges and Program Risks: Department of
Transportation. GAO-03-108. Washington, D.C.: January 2003.

    National Preparedness: Integration of Federal, State, Local, and
Private Sector Efforts Is Critical to an Effective National Strategy
for Homeland Security. GAO-02-621T. Washington, D.C.: April 11, 2002.

    Homeland Security: Progress Made, More Direction and Partnership
Sought. GAO-02-490T. Washington, D.C.: March 12, 2002.

    A Model of Human Capital Management. GAO-02-373SP. Washington,
D.C.: March 2002.

    Senator Lott. Under the early bird rule, Senator Hollings,
you'll get the first shot at questions.
    Senator Hollings. Thank you, Mr. Chairman.
    Most advisedly, I got here before we even had a Department
of Transportation, and the country is very, very fortunate in
having the team that we do have at the table here testifying
this morning. This is the best working group I've ever seen on
the transportation needs of the country.
    Having said that, let me get right to the money part,
because, Admiral Collins, again on Sunday, and then now in the
morning [Washington Post] paper, business section, you have the
Coast Guard doing an outstanding job--there's no question about
it--but shortchanged on money. You see, you can come up and ask
for $87 billion for some other place, over in Iraq, but you
can't ask for the money here, because OMB has got you fellows
all lockjawed. This is your one chance to get it. That's our
problem here. And the military has a bad habit of saluting and
going forward, rather than, by God, raising the question. If
Secretary Powell had not saluted and raised some questions and
stuck with them, we wouldn't be in that quagmire.
    But, having said that, Admiral Collins, where do you get,
now, the automated identification system? I find that the oil
tankers and the cruise ships have transponders, I guess. We
don't have the towers up yet, do we?
    Admiral Collins. No, Senator, we do not. The
infrastructure--that particular infrastructure is not in place.
The two approaches to that, a short-term approach, is to embed
AIS in all our vessel traffic service systems, the existing
infrastructure there, and that's unfolding and will be
completed through and into 2005. The longer-term effort is to
build an infrastructure around our entire coast that can take
those signals.
    Senator Hollings. Well, we've taken care of overall needs
there. You had a $7.2 billion needs projection. And how much of
that have you received and how much do you need?
    Admiral Collins. The figures on $1.5 and over $7 billion of
the cost estimates associated with the implementation of the
Maritime Transportation Security Act, and those would--that
would be the costs, the estimated costs, that the private
sector would bear in implementing the terms and conditions of
that act. It would be $1.5 billion the first year, and over $7
billion over 10 years. That would be all the efforts they would
need to conduct assessment, develop plans, structure exercises,
and make associated investments in their infrastructure
relative to security needs. So that's the----
    Senator Hollings. Has the Committee approved all you need?
You've got all you need?
    Admiral Collins. We think that the support of the budget
2004 budget, the President's budget, would be a great benefit
to the United States Coast Guard and maritime security. We have
over a 10 percent----
    Senator Hollings. I know it's going to be a great benefit.
Do you have all you need?
    Admiral Collins. I guess you could say you'd never had all
you----
    Senator Hollings. Well, what----
    Admiral Collins.--would desire. But I think that's a very
significant--between the 2003 and the 2004 budget, we've
realized a 30-percent increase in the budget, going to the
United States Coast Guard--that's a significant increase, and
we'll----
    Senator Hollings. Admiral, most advisedly, I know it's an
increase, but I've been listening for years on end that you're
underfunded, and you have been underfunded. Senator Lott,
Senator Stevens, and myself are on the Appropriations Committee
have to steal from 050 from the Defense Department to
supplement you. And I can't ever get the testimony from you,
other than, ``Oh, it's a wonderful thing, and it's happy, and
it's going to be a big help.''
    Anyway, let me move then to--since my time is limited
here--Admiral Loy. Again, you're doing a magnificent job, you
and Commissioner Bonner, working as a team. You say we have
forged working partnerships. But the integrated system of
maritime intelligence. Now Customs has pulled out, Coast Guard
has opened up two new centers, and TSA is planning one of its
own. I speak, again, from experience. Forty-nine years ago, I
served on the Hoover Commission investigating Alan Dulles and
J. Edgar Hoover and the intelligence activities. They didn't
talk to each other. Tenet and Mueller now do talk to each
other. But within your own department you all are going off on
all directions, and you get that little lady from the National
Security Agency hollering, ``They didn't have anything
specific. They didn't have anything specific,'' like the
terrorist's going to call up on the phone and tell you they're
going to hit the tower. You know what I mean?
    [Laughter.]
    Admiral Loy. Yes, sir.
    Senator Hollings. You've got to have these things
coordinated and the dots joined, and you all are going in all
different directions rather than forge working partnerships.
How is it that Customs has pulled out, the Coast Guard has
opened two new centers, and the TSA, you've got planning one
intelligence entity of your own?
    Admiral Loy. Sir, what we have in place is what we
inherited from the FAA, in terms of an intelligence----
    Senator Hollings. But you're supposed to clean it up----
    Admiral Loy. Yes, sir. I'm working hard----
    Senator Hollings.--and you all are supposed to work
together.
    Admiral Loy. I'm working hard to--doing that. There are a
variety of requirements that Tom has, for example, at Coast
Guard, with respect to counter-narcotics or fisheries
enforcement that are not appropriate for an integrated center
that's focused principally on the rest of maritime security.
The Judge has things that he and I have in common, about cargo,
for example, or passenger concerns, that perhaps aren't the
responsibility of Tom.
    My concern here is that the functional purpose of maritime
security be dealt with, intelligencewise, in the manner you and
I have talked about many times, and I think that's not a
bricks-and-mortar kind of notion; it's a collaborative
coordination kind of notion. And, at the moment, with a brand
new department, with an organization being stood up known as
TTIC, with lots of other things in the intelligence world going
on, that sorting process has just not come to closure as to
whether or not, for example, as the appropriation called for,
that $25 million would come to TSA to build an intelligence
cell----
    Senator Hollings. But as Mr. Guerrero just pointed out, you
need a working agreement. You get on top of that, and rather
than going all off and starting new intelligence endeavors,
hither, thither, and yon, get all together one, because that
was one of the big misgivings by the Congress itself, that
Homeland Security did not include, of course, the intelligence
efforts of the CIA and the FBI.
    Admiral Loy. Yes, sir.
    Senator Hollings. And now if you all are going all
different directions, the same thing that happened on 9/11 can
happen again, even though you all knew about it.
    Admiral Loy. Yes, sir. And I think the greatest opportunity
for doing exactly that, Senator Hollings, is--now that Under
Secretary Libutti is in his chair, he's responsible for that
intelligence analysis and information-sharing piece of the new
department, that will allow us all to centralize one place
where we deal with what we're dealing with in the maritime----
    Senator Hollings. Thank you, Mr. Chairman.
    Senator Lott. Thank you, Senator Hollings, for your
interest and involvement in this area for many, many years and
for your always interesting, entertaining questions and
comments.
    Let me see here. Admiral Collins, in the past you have
experimented with the aerostat balloon radars and other systems
to provide your cutters with large area radar picture surface
targets. You know, if that can be used at a reasonable cost,
wouldn't it be worthwhile to pursue that kind of technology?
    Admiral Collins. Clearly, we're, Senator, looking at ways
to enhance what we--as I referred to, maritime domain
awareness, and that's a visibility of what's happening in the
maritime, and it's--there are a variety of systems and
subsystems that are part of that--that can be and should be
part of that architecture. For instance, vessel traffic systems
in the radar NTVs and so forth are part of that system. Our
integrated Deepwater system, which building out a fleet of
cutters in UAVs is part of that, that's a subsystem of this
larger awareness thing where we've done some development and
demonstration of a high-frequency surface-wave radar in the
Florida Keys to get a picture of moving traffic. And we have a
demonstration project that I know that Senator Stevens is very,
very interested in, and it's using UAVs in Alaska. So we're
approaching this in a multifaceted way, looking at various
sensor options that will give us the visibility that we need.
    And I know that the United States Navy, NORTHCOM, and
others are very, very interested in that national surveillance
architecture, and that's what we really need. I don't think
there's any one silver bullet, but we need a national maritime
surveillance architecture. We don't have that now. And we're
going to work very, very hard to create that picture.
    I have just set up a program office within Coast Guard
headquarters, which we call the Maritime Domain Awareness
Program Office, to develop specifically that overarching
architecture where all these systems would plug in and give us
the integrated picture that we need.
    Senator Lott. All right. You mentioned the Deepwater
Project. How is that coming? I mean, I know you've made some
preliminary decisions, and you've got some companies that are
working toward, you know, producing all this additional
equipment you need----
    Admiral Collins. Yes, sir.
    Senator Lott.--cutters and everything. And it has been, you
know, budgeted by the Administration, but each year, we've had
to move it up, and you're already beginning to fall behind.
    Admiral Collins. Yes, sir. We----
    Senator Lott. We need to try to make up some ground this
year. Would you give us a specific report on that?
    Admiral Collins. Yes, sir. Of course, we awarded that
contract last June, I think, a very, very positive or--in a
strategic partnership with--Northrop Grumman and Lockheed
Martin are the joint-venture folks orchestrating that, the
integrators. A lot of progress in the ship-design task order
for initial engineering and development of the two Casa
aircraft that are a part of that program, and more to follow--
110 patrol boats going into Lockport and Bollinger Shipyards to
get stretched into 123 vessels and some improvements in the
C4ISRs, a lot of movement, a lot of very, very good progress.
    One of the issues, of course, is the capital cash flow
associated with this project and how--and we are, as you noted,
a little behind the initial design that said that to get to a
20- to 25-year program, which is the long program, that you'd
need, at minimum, $500 million a year in 1998 dollars to meet
that timeline. At the present clip, we're about--and I think
there are verified by GAO as a number--we're $202 million
behind that timeline through 2004, and I know both the House
and the Senate have increased the President's request for
Deepwater in recognition of that hole in the road, so to speak,
that we have.
    Senator Lott. All right. We'll keep pushing that to try to
be helpful, but I do think that the success of this program
will depend, to a large degree, on how closely you manage it
and stay on top of it now. And so I hope you will continue to
do that.
    Admiral Loy, I mentioned, in my opening statement, you
know, my concern about AIP funds going for security costs. And,
obviously, the Committee and Congress has indicated a desire
not for that to continue. Would you like to comment on that? If
you're not going to get AIP funds, are you, you know, getting
what you do need for airport security from other accounts?
    Admiral Loy. Sir, to get back to the Senator's number that
he used in his opening statement, I think you used a $5 billion
estimate that may have come out of the GAO reports, as well as
other places. Yes, sir.
    First of all, with respect to AIP, it was an enormously
valuable jumpstart kind of notion that in the interest of the
airports and all of us across the country sharing in the burden
of jumpstarting aviation security, AIP funds in 2002 and 2003
were used in the fashion you described. We have no intention of
continuing to depend on AIP money, which is there for another
purpose, and we understand that to be the case. The greatest
boost that allows us to not go there any longer, Senator Lott
is the recognition by the Congress and by the Administration
that letters of intent, the same kind of tool used in the AIP
structure, can be used literally out of our own appropriation
to fund some of these challenges that continue to exist across
the country.
    Senator Hollings' number of $5 billion, I would offer that
comes probably more from the airport directors and their
summation than from what I'd call a bit more objective read.
The DOT IG's read in that regard is somewhere between $2
billion and $3 billion to deal with the cleanup process, if you
will. We, as an organization, when we installed this EDS
equipment across the country, left a bit of a wake behind us in
a number of different places. This estimate is between $2
billionand $3 billion to go and clean that up. So far, we have
issued, as you know, sir, six letters of intent to major
airports in the country--adds up to about $670 million over the
course of the next four or five budget cycles. But the good
thing is there--it's not all capital up front; it's a
reimbursable kind of a process, like AIP.
    Senator Lott. Well, now, let me--I guess this is a
statement more than a question, but I would hope that you would
apply common sense in the things that you direct the airports
to do. Some of the things I have been made familiar with that
you've requested or ordered don't make common sense, like
reinforce that entrance wall of a small remote airport. I mean,
a terrorist couldn't find the place, let alone blow the wall
up. And also be careful about taking over local law enforcement
stuff. When you tell an airport that you've got to do more
about security in the parking area that's away from the
terminal, if I were the local people, I'd tell you, ``OK, you
pay for it, because we're not going to do what you dictate to
us. We don't think it makes common sense.'' I just hope we
would use some common sense and practicalities, and remember
that these people, local people, have to come up with these
costs from somewhere and--tell you no, unless you can justify
it or come up with the money.
    And I do think, in a lot of areas, you've gobbled up a lot
of space that really is not necessary. You know, maybe you
needed it at the beginning, but you need to go back and
evaluate that. Those airports have other uses for that space.
    I don't know how many pilots you've really trained, but I
understand it's only about a hundred. A year ago, I urged you
to use some of the same people that train our Special Forces,
our Delta Force, our--oh, the guys--well, the Special Forces,
let's leave it there. You didn't--that's done in the private
sector. You said, ``Oh, no, we'll do it.'' It hasn't worked
very well. I would urge you to go back and let the same people
that trained the SEALs and the Special Forces, you know, train
these pilots. It, you know, would take about 2 weeks, maybe.
And you've trained about a--I don't know, maybe a hundred in a
year.
    One final point. On the ports and security ports, the size
of the port is not as important as the threat, what's coming
into that port. If you just do it on the basis of size, I mean,
you just come to the biggest port right on down. But if you
have a port, for instance, that's got--right close to the mouth
of the channel, national security components, Coast Guard
cutters, oil refineries, that would be a more dangerous port
than one that might be bigger located in another area. So be
careful not to neglect some of the medium- or smaller-sized
ports that have a higher risk prospect.
    Admiral Loy. Sir, if I could comment just once--on one or
two of those notions.
    The last one, I could not agree with you more. The approach
is to weigh very carefully, together with the Coast Guard and
all the other players that are a part of those decisions, is
this an out-load port, is this an economically important port,
is this a port that deals precisely with taking the opportunity
to think through the kind of things that you're mentioning.
    And I think you're going, sir, toward the ultimate notion
of port security grants and being able to make sure that we're
not just exclusively giving them out to the largest ports,
based on the thinking pattern that you just described. That's
precisely the kind of weighted algorithm, if you will, that
we're using to make those decisions.
    As it relates to FFDO, sir, the Federal Flight Deck Officer
Program, we will probably have about 500 trained by the end of
this month. We have used every nickel that was provided to us
in that program to do that training this year. We have $25
million in the President's request and, I think, surviving in
both the Senate and the House mark for next year, which will
train every volunteer that has identified themselves as being
interested in the program. So the Federal Flight Deck Officer
Program is on track. It is a high-quality program that we can
all be proud of.
    Senator Lott. Thank you very much.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    I think it's fair to say that we've got a very
distinguished group of leaders here, and we appreciate the
difficulty of the task that you've taken. But I also commend
you on your policy to swallow hard and go forward, because
there are all kinds of questions raised about whether or not we
sacrifice something out of Customs in order to take care of
security, and what does that mean by way of tax collections,
cargo inspections, et cetera. And I'll try to ask my questions
quickly so we can get quick answers and I don't run too much--I
know the red lights permit continuing conversation, but----
    Something Senator Lott just said struck me, and he comes
from a port state or a coastal state, as I do, and that is the
high-threat areas. Now, what better evidence do we need of a
high threat than the attack on the Trade Centers? What better
example do we need of a high-threat area than to look at the
volume of traffic that goes through the Port of New York/New
Jersey? What better example do we need of a high-threat area
when you have all of these airplanes coming into three major
airports plus a couple of relatively smaller ones? So I think
when we talk about delineating dollars for the right places, we
have to look at the New York/New Jersey area. And I'll tell
you, on the formula for distribution that we've got, we are
really left out in the pasture, and it's not fair and it's not
sensible not to go ahead and reexamine the allocation of the
funds for security.
    Admiral Loy and Admiral Collins, we're all friends of the
Coast Guard. I very much appreciated what you did. And Senator
Hollings is a fan of the Coast Guard, as well. And we always
wondered--because we served in Appropriations together in my
former life here, and you were always getting new tasks, always
getting new assignments, whether it was pollution control or
illegal immigrants or manifests or navigation aids, you name
it, and we kept on reducing the size of the budget, and I never
could quite understand how you did it, Admiral Loy, in your
day, and now Admiral Collins. And I see things as small as
rubber boats, inflatables, with a couple of Coast Guard's
people going up and down the Hudson River helping to keep our
ports safe.
    So I would--you know, I don't want you to come here and
crow about what you don't have. You've taken it with a semi-
smile, Admiral Collins, but I'd like to sneak in there and find
out what you really think about your budget.
    [Laughter.]
    Senator Lautenberg. But I want to ask, Admiral Loy,
Commissioner Bonner, my colleagues introduced legislation to
protect aircraft against SAM attacks, but it would take a few
years to upgrade all the airliners with proper anti-SAM
technology. What do we do now, beside worry? And I don't ever
mean to trivialize your efforts. What, realistically, can we do
to protect the perimeters of our airports?
    Admiral Loy. Let me take a first stab at it, sir. First of
all, we have instituted a pretty aggressive assessment program
for all of the major airports. We're done with the category-X
airports, well through the inventory of category-1 airports,
and have focused, as well, on those 17 airports, that are
foreign, from which most high-profile aircraft are coming to
the United States. So the notion of those places where U.S.
carriers are operating most of the time carrying heavy loads of
people from place to place, the assessment effort is what I'd
call one of the three legs of this stool of attack on the
MANPADS issue on the shoulder-fired weapons issue. And that is
about tactical countermeasures. What kind of things can we do
in a tactical countermeasures sense to do a better job than has
been done in the past?
    In the wake of those assessments, an engagement effort with
the local Federal Security director and his team or her team,
with local law enforcement, with state law enforcement, has
been engaged at each one of those major airports, with the view
that we would be identifying logical places where such a
missile could be launched, and dealing as constructively as we
can with either perimeter security associated with it, with
lighting, with fencing, with cameras, with roving patrols, or
whatever might be appropriate that that local team takes on.
That's one piece.
    The second piece is about nonproliferation. In other words,
in the same vein that we have been concerned about
international nonproliferation of any kind of a weapons system,
we want to be as aggressive with respect to that in MANPADS as
we can possibly be. That is, we've all heard numbers of how
many hundreds of thousands of these things are actually in
inventory around the world. Inducing the international
community to hold onto that inventory, to identify where each
and every one of them is, and deal with manufacturing and
distribution things that are under the control of major
government forces, whether it's buyback programs, whether it's
destruction programs. That second----
    Senator Lautenberg. Admiral Loy, I hate to interrupt, but I
must, only because if we tell the public-at-large that we're
going to inventory the four or five hundred thousand of these
things, et cetera, et cetera, it's not really comforting. And
I'm not criticizing you. The magnitude of the problem that
we're dealing with here is something almost beyond
comprehension, because if we look at the SAM program and then,
taking Mr. Guerrero's report from GAO where he says according
to TSA solutions that can be implemented relatively easily at
the Nation's commercial airports are not practical at 19,000
general aviation airports. And I use a lot of the general
aviation.
    Now, it would be awful if one of our airplanes or another
nation's airplanes was struck by a missile, but somebody can
get into a single-engine plane, and if they carry enough
explosive in that airplane to go down to one of our nuclear
plants and decide that suicide is the way for them to go, we
are practically helpless to guard against that. The one thing
that I would hope is, maybe a system can be introduced at these
general aviation airports that says you can't even takeoff--
provided there's a manager there; a lot of these places don't
have a manager, rely on the pilot to light the runway lights,
but if there is a manager there--is to demand that any flight
that takes off has some kind of a log that they have to fill,
or be introduced to a human being, at least you know who's
getting out there. It's a very complicated----
    Admiral Loy. That's exactly the direction we're going with
respect to the GA community, sir, with respect to background
investigations on players that are always at the airport, local
knowledge of who's getting in that airplane, tie-downs required
when--you know, just so that any terrorist can't go and find
that aircraft, get in it, and take it where he wants to go.
    To close the MANPADS thing, sir, the most important leg is
the technical countermeasures piece, which is what Ms. Boxer's
bill is about, which is what your concern is about. That is
probably, in my estimation, clearly one of the most important
projects being undertaken by the combination of DOD and DHS to
come to closure on what we're going to do with technical
countermeasures.
    Mr. Bonner. Can I just add one thing, Senator, just very
briefly?
    Senator Lautenberg. Sure.
    Mr. Bonner. There's no one solution, but another thing you
want to do here is to prevent those terrorists that might get
that general aviation airplane or the terrorist who might bring
a terrorist weapon into the United States, like a SAM-7 or a
MANPAD, and you want to do everything we can to be able to
identify and detect that when it's being brought into the
country. And we have systems, we've increased our staffing to
do that, and we use a targeted system to identify both the
high-risk people and the high-risk shipments into the country.
So it's just another layer of things that we're doing to
prevent a MANPAD attack.
    Senator Lautenberg. Mr. Chairman, I'll conclude, because
the red light is on, and usually in traffic that means speed
up.
    [Laughter.]
    Senator Lautenberg. What I would like to ask here is, the
Department----
    Well, you see it--don't get in the crossroad too early----
    [Laughter.]
    Senator Lautenberg. The Department of Homeland Security has
proposed, even as we labor to make this program ever more
effective, cutting the port security grant program by $105
million. In the interest of security, I have to raise the
question about why, at the three major airports--that's Newark,
JFK, and La Guardia--they reduced the Federal complement of law
enforcement personnel from 64 to 19. I mean, that's kind of
going backward. Why are the--did the Air Marshal Program wind
up as a target for cuts, and suddenly there was a reverse field
here that said, ``Now, wait a second. We're going to take other
people from other departments and train them as air marshals.''
Is there no price to the other departments when we grab people
from one and put them in another, when we train them to be air
marshals, when, in fact, they're Customs people, or otherwise?
    Admiral Loy. Shall I take a shot at that, sir?
    Senator Lautenberg. Please, somebody.
    Admiral Loy. Sure. The shift of the Federal Air Marshal
Program from TSA to BICE, the law enforcement gathered
functional centralization effort that both Under Secretary
Hutchinson and Secretary Ridge have decided to do, was a move
that takes advantage of a number of things and I don't believe
disadvantages TSA at the other end of the day, in terms of
becoming, if you will, a demanding customer of BICE services
about Federal air marshals, when heretofore we've been able to
schedule them on our own.
    I'll let the Judge or anyone else answer the question about
surge capability, which is, in fact, what the Secretary has in
mind. He is so concerned, as we all are, about the path of
aviation-related intelligence things going by, that he wanted
surge capability to be available to him if we felt that we
needed more air marshals for whatever the short period of time
might be. He feels that the relocation to the BICE bureau
offers a chance for cross-training among Federal law
enforcement officers that could potentially provide that surge,
and, further, to get the Federal air marshals out of the
absolute uniqueness of only going to the air and back on a
daily basis, and offer career-path adjustments and
opportunities for them elsewhere inside the BICE location.
    So that's the thinking pattern behind why we sent the
Federal air marshals to the BICE bureau.
    Senator Lott. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE,
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I want to thank all
of you for being here today.
    Beginning with you, Admiral Loy, I know our director in
Portland, Maine, testified during a Senate Governmental Affairs
hearing recently that there is little or no coordination
between the Federal Government and that his department comes to
protecting the Port of Portland. In fact, he said, ``We find
ourselves in the unique position of acting as mediators between
various rulemaking bodies. On my desk, I have a plethora of
paper designed to help me secure the port. These rules cover
everything from the height of fences to the height of lettering
on badges. They're issued by agencies without regard or
knowledge of what other agencies are regulating.''
    I understand we're obviously in a transitional phase here,
but what can we do to have a better order and system involved
among all the agencies with respect to the types of rules and
regulations that are imposed on, in this case, in port
directors and transportation directors? Because that is an
issue and has been problematic, I know, in the past. But I
think it is important to have some kind of consistency, some
kind of organization where they can respond to, you know, one
agency----
    Admiral Loy. Absolutely.
    Senator Snowe.--one individual.
    Admiral Loy. Absolutely. The notion of what kind of cross-
modal oversight and responsibilities should be borne by a
single agency in the Federal establishment, if you will, is
part and parcel behind what TSA is supposed to be all about.
That was the congressional intent, that was why the President
signed the bill, and that's why we exist. So to the degree we
can take and fill in the blanks on that Rubik's cube chart that
I showed before, that is the intended purpose for all of that.
    On the other hand, as it relates to a port I think it's
quite clear that the Coast Guard is the lead Federal agency
with respect to that kind of oversight. The captain of the port
is the fellow, locally, that should represent, if you will, the
aggregate interest of Federal requirements for that particular
port across the country. The harbor safety committees, or
whatever functional entity serves as a harbor safety committee
in each and every port, usually has the captain of the port
sitting at the head of the table able to make good consensus
judgments from all the players that are there.
    I'd be happy, by the way, to engage this particular
gentleman or lady with respect to those issues you described
and see what we can do to work that out.
    Senator Snowe. Right. He was recommending--and it would be
interesting hearing from you, Admiral Collins, as well, about--
he's proposing a representative of some of the critical non-
Federal agencies in each port to have top security clearance so
they can respond to the threats, as well.
    Admiral Loy. Sure.
    Senator Snowe. Because who currently is aware of the types
of threats that might exist in the ports and can receive that
information? Is there anybody who's designated? Is it the port
director? Who receives that information? I gather it's given
from you, Admiral Collins.
    Admiral Collins. Right. The port under MTSA, of course, the
captain of the port, as Admiral Loy has indicated, is
designated as the Federal Maritime Security Coordinator in the
port and is the clearinghouse for that kind of information. And
it's true, and I have great hopes and expectations for the port
security committees that are required to be established under
MTSA, chaired by each captain of the port, that they become
that kind of clearinghouse, with very diverse representation
from the port members, that decide those kind of things and
become a clearinghouse of information in and through the port.
    So I think, as we implement MTSA and the rulemaking, I
think we're going to see some real positive coordination.
There's going to be an overarching area security plan for the
port, individual facility plans that each facility will do,
vessel plans, and all integrated and reviewed at that port
security committee, and that port security committee being the
funnel for that information, up and down.
    Incidentally, all those port security committees are, even
though the bulk of the rule goes into effect 1 July of next
summer, most of those port security committees around the
country have been established, membership is being determined,
and meetings are happening. So I think that--again, no one
silver bullet to information exchange, but I think that is
going to be a very, very positive development for information
sharing.
    Senator Snowe. And when is----
    Admiral Loy. On that, Senator Snowe, if I may----
    Senator Snowe. Yes.
    Admiral Loy.--ma'am. You asked about classification. I
think that's a legitimate issue. In the aviation environment,
each of the airlines has a security director, properly cleared,
that we can engage, as necessary, in passing information of a
classified nature when we have it and when it's appropriate to
be passed. That needs to be part of the scene at the port, as
well. And MTSA notionalizes that in the construct Tom just
described there should be a number of players with adequate
clearances that can accept classified information and take care
of the port in that regard.
    Senator Snowe. I appreciate that.
    How would you grade the port security threat now, in terms
of the fact that we have taken sufficient or insufficient
mitigating steps at this point?
    Admiral Loy. I think each of us probably has an answer to
that, but first let me--I would say we are significantly better
off than we were on the occasion of 9/11/01. The description of
CSI and CTPAT, the kind programs that Judge Bonner has
mentioned here with respect to pushing our borders out, that's
a concept the three of us have bought into----
    Senator Snowe. Right.
    Admiral Loy.--100 percent. The notions Tom was just
describing on MTSA and how that's going to play out in the
port, this is all a sort of step function on the way to where
we want to be. We're certainly not there yet, but we're an
awful lot better off than we were, with a good game plan in
place to get where we need to be.
    Senator Snowe. I'm certainly--I know that Customs, Mr.
Bonner, for example, has initiated their container security
initiative in assigning 20 inspectors to foreign ports, but
that seems like a very minuscule number considering the number
of foreign ports that exist, and also requires the acquiescence
and the approval of host countries to allow our inspectors on
their docks to inspect the containers before they are loaded
on, which obviously would be preferable, rather than waiting
until those ships are coming to the United States.
    Mr. Bonner. Well, we're at 16 foreign ports right now, so
we have it operational. And the number is probably closer to
about a hundred U.S. Customs and Border Protection personnel
that are stationed overseas that are working with our host
nation counterparts for the container security initiative.
    It's important to realize what they're doing. They're
principally--you know, they are principally over there to do
the targeting and work with the host nation to identify
particularly the high-risk containers for terrorism security
issues. And then our host nation actually, in each and every
instance, has agreed to go forward and do the security check of
those containers, which is both for radiation detection and
running them through large-scale X-ray type scanning machines
to make sure that those containers do not pose a risk to U.S.
seaports.
    So we have implemented it. The surprising thing, Senator
Snowe--and I don't know that it's so surprising--but the
reality is that we started off targeting or identifying the 20
largest foreign seaports, in terms of the shipments of
containers to the United States. We have agreements from the
countries that represent 19 of those 20 to implement the
container security initiative. And, as I said, we've actually
now have expanded the number of agreements, and we--it's not
just something we're talking about; it's something that we've
actually implemented now in 16 foreign ports, and we're
expanding. We'll have it up and operated in over 20 of the top
foreign ports.
    That's important, because just the top 20 foreign ports
alone represent almost--over two thirds, almost 70 percent, of
every cargo container that's shipped to the United States--and
there's 7 million a year--originate from or are trans-shipped
through just those 20 ports. So we've made great progress.
    Now, the reason why is that those other countries are
willing to do this because they recognize it's in their own
interest to protect, essentially, the trade lanes between
Rotterdam and U.S. ports, or from Singapore and U.S. ports, or
for Yokohama, Hong Kong, Bremerhaven, and those places. They
recognize it's in their interest to protect these shipping
lanes. It also provides us with a protection for what is the
primary system of global trade, which is containerized shipping
to U.S. seaports.
    So it's working very well, and there's a tremendous
acceptance of this by other nations of the world, so far.
    Senator Snowe. And just one other issue, and I appreciate
it.
    Admiral Loy, pre-clearance at Canadian airports, is that
something that you intend to address? That does concern me. Of
the seven airports in Canada that have pre-clearance, and in
Vancouver, they even have an in-transit pre-clearance, so that
other--so that people can bypass Canadian Customs.
    Admiral Loy. We pre-clear, actually----
    Senator Snowe. You do the pre-clearances.
    Admiral Loy.--Senator Snowe. It's actually Customs and
Border Protection, which is now both Customs and Immigration
Inspectors.
    We have a pre-clearance for both Customs and Immigration
purposes at all of the seven largest international airports in
Canada, so we actually do pre-clear there--actually in several
other countries, as well. And that gives us an opportunity to
identify people that pose a potential threat to the United
States, identify them there, deny admissibility or take other
appropriate law enforcement action with respect to those
interviews--individuals. We have, right now--it's maybe 150,
160--no, it's probably--actually, with Customs and Immigration,
probably closer to about 300 U.S. Customs and Border Protection
Inspectors at the Canadian airports that pre-clear, both pre-
screen and pre-clear, for Customs and Immigration purposes, at
those airports.
    Senator Snowe. Well, given the recent report that came out
regarding the huge gaps in the security systems in Canada, it
raises those issues as to whether or not it's sufficient enough
to ensure that anybody who poses a risk to our security enters
the country--doesn't enter the country.
    Admiral Loy. Well, I know, but we have a chance in Canada
actually to stop them----
    Senator Snowe. OK.
    Admiral Loy.--in Canada, rather than waiting for them to
actually get on an airplane headed for the U.S., which actually
gives us----
    Senator Snowe. They're all screened.
    Admiral Loy. They are all screened.
    Senator Snowe. OK.
    Admiral Loy. Each and every person is. And we also have
advance information, so we're also doing some risk analysis
with respect to people. But everybody is screened, and we have
the right to question and to carry out searches of their
luggage, both carry-on and checked luggage, before they leave--
before they get on planes from Canada for the U.S.
    Senator Snowe. Thank you.
    Senator Lott. Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX,
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Let me thank the panel members. Every one
of you are distinguished public servants. We've worked with you
for a number of years.
    Admiral Loy, you mentioned something early in your
testimony about the weakest link and trying to find it. If I
were looking for the weakest link in our security system in
transportation, I'd look to the maritime ports, and I think I'd
find it there.
    The Administration has requested $87 billion for
Afghanistan and for Iraq, partially for security purposes in
that country. The Administration has requested zero for grants
to the ports. And yet the legislation that we have passed have
required the ports to do innumerable activities that are going
to cost money. And I think that that is a huge hole that we
have created, and a burden on the local ports. Aviation, I
think, is in fairly good shape. We've got Federal officials
running around all of the airports, and we've got screeners,
we've got Federal officials. We don't have that type of system
in the ports. There's a great deal that needs to be done. And,
for the life of me, I cannot understand the justification for
not a dollar, not a dime, being requested for new grants for
the maritime ports. And every single one of them--and you've
met with them, and Admiral Collins has, and we all have--
there's a huge need. And to come before the Congress and say
zero dollars for grants to maritime ports is unacceptable. I
think it is unconscionable as a matter of priorities,
considering what we're doing in other parts of the world, which
many of us will try and support.
    But there's a great need here in this country. And I'm all
for improving port security in Iraq, but I'm also for securing
the Port of New Orleans and the Port of Los Angeles and the
Port of New York. And we're not doing enough domestically in
that area.
    Can I have a comment from anybody about that, in terms of
priorities?
    Admiral Loy. Senator Breaux, yours is a voice that is very
carefully listened to. I will carry that message back to the
boss, as it relates to the request on the part of budgets as
they are coming forward to the Congress. I will also recognize
that over the course of the last two budget cycles, the
Congress has recognized port security grants and bus grants and
highway grants and other such things as being enormously
important.
    I think, sir, we're in this classic place we've been often
in our country, where a tragedy happened, and it was
immediately followed by a relatively emotional piece of
legislation, or multiple pieces of legislation, and then 8
months later the sticker shock set in, in terms of sorting out
what was needed to be done and what was the resource base
necessary to do that. And in the case of TSA, of course, we
didn't even have a base by which to make--you know, from which
to make marginal adjustments. We literally had to create that.
    That discussion is still, I think, going on and often
takes--as it did, for example, when OPA 90 happened, in the
aftermath of the Exxon Valdez hitting the rocks in Prince
William Sound--it took us 10 years to sort out the regulatory
regimes that were necessary to deal with that.
    Senator Breaux. Well, the sticker shock apparently has not
set in on Iraq.
    Admiral Loy. Sir.
    Senator Breaux. You've also requested on the Automatic
Identification System, which we all felt was a good idea before
9/11, to know where these ships are coming from, who they are,
what their cargo is. And we all agreed, even before 9/11, this
is the right thing to do. We'd like to know where the ships are
coming from, with greater detail of what's in the cargo, who's
manning the ships, et cetera, why they're sitting out there. An
Automatic Identification System would help us in that.
    And, Admiral Collins, you talked about how the towers
aren't there, and I note that the budget request is a million
dollars. One million dollars, for the entire country for the
Automatic Identification System, AIS. That is not going to get
it done. That's not going to get you started, in a real
significant way, in putting into play a system for the maritime
ports to allow us to know where the ships are coming from. We
know where the airplanes are coming from. We know where they're
going. We track them constantly. But we're not doing that to
the ships, and we're not going to have enough money for the
ports to do what we are requiring them to do.
    So if I was looking at the weakest link, it wouldn't be at
the airports. If I was a terrorist, I certainly wouldn't want
to try something that dealt with aviation, because of all the
security we have on the ground, around the airports, on the
airplanes, with marshals. We do not have anything comparable in
the maritime ports of this country. It is a huge problem. And
if it's a huge problem, I don't see the wherewithal,
financially, to address it. It's a huge vacuum. I mean, I don't
know how better to say it, and I don't know what we can do
about it. I mean, Congress is going to have to come in and say,
``Look, get some priorities here.'' $87 billion for Iraq is
probably going to get adopted. But zero for ports? It's not a
good balance.
    Mr. Guerrero. Senator Breaux, if I could put the needs in
perspective, in our testimony, and also in our report, we have
a table that shows, for selected grants, including grants for
ports, the amounts that have been requested exceeded the
amounts available by a factor of eight to one.
    Senator Breaux. Well, I----
    Mr. Guerrero. So the demand is very, very----
    Senator Breaux.--understand that. But if you have zero--I
mean, there's nothing out there. I mean, the Coast Guard has
estimated, as I understand it, that the ports would require
$1.1 billion in security investments if we're talking about
them implementing it--1.1 billion is what this gentleman says
is going to be needed for the ports of this country to address
their security needs, from a Federal standpoint. And we have
requested--you have requested, the government has requested,
zero.
    So we can talk about how the requests greatly exceed the
amount of money that is there, but when the Coast Guard says
$1.1 billion is needed for security to the ports, and we
request zero, there's a huge disconnect. There's a huge
disconnect between what the Coast Guard is saying is needed for
the maritime ports and what is being requested by others who
make the request. Now, we can say that there is--if you let the
ports make the request, you add it all up, it's going to be a
gazillion dollars. But when the Coast Guard tell me it's 1.1,
and the Administration says zero, that's the huge disconnect.
    Mr. Guerrero. Senator, I think I was trying to agree with
the point you were making, that there is that huge disconnect,
and I think the data shows that.
    Senator Breaux. Well, I mean, that--and I'm not beating on
you guys, because you are the people we work with the closest.
I mean, you understand the problem. But, I mean, there's only
so much money, unless you don't worry about the deficit at all,
which is $500 billion, and just keep adding to it. But for us
to add another $87 billion for Afghanistan and Iraq for
security, et cetera, and for rebuilding them, and to say we're
going to allocate zero to the ports, when our own Coast Guard
says it's a $1.1 billion requirement, there's something missing
somewhere. There's a huge disconnect, in terms of priorities.
    And I thank you for your diligence.
    Senator Lott. Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    Mr. Chairman, this is not a happy hearing. I think the
people sitting here are good public servants. But this is not a
happy hearing, because, to say it directly, we are under-
funding homeland defense. And you can sugarcoat it, and you can
do everything you want, but that's the truth. And just as the
President came to the microphone, finally, and said, ``We need
tens of billions of dollars for Iraq,'' someone has to come to
the microphone and say what we need to keep our country safe,
because September 11 changed everything, and this was the first
attack of this nature in the continental United States.
    Now, Senator Breaux did it today with port security. He
basically said the emperor has no clothes. We're asking for all
this money, more money to protect the ports in Iraq, than has
been asked to protect us.
    Now, I'm not going to ask you your questions on whether you
agree or disagree with the budget. You're dealing with what the
Administration has told you you've got. So I'm not going to put
you in that situation. I mean, this is something that happens
under Democratic and Republican administrations. The people who
are fighting for their areas, you know, sometimes lose the
fight around the table.
    But we've got to be honest with the American people. We are
vulnerable. Have we made some progress? Yes. Can we make more?
Yes. Should we? Yes. And it is a question of priorities.
    You know, when I go home, and I ask the people in my state,
who have earned millions of dollars, if they need a tax cut or
they would prefer it if their homeland was safe, let me tell
you, to the person, they say, ``Oh, you've got to be kidding.
I've got enough. I've got enough plasma TVs to last a lifetime.
I've got enough homes. I've got enough yachts. I've got enough
airplanes.'' And, let me tell you, a lot of those people live
in my state. Good, successful people. They don't want more
money in their pocket. They want more money in your pocket. And
port security is clearly necessary.
    I just did a tour of the ports in California during this
month, Mr. Chairman. It was really fascinating. All the way
from the top of my state, Crescent City, down to Long Beach, in
this particular tour. I've been to San Diego. I've been to
every other port. And I have to say, it's all the same; they're
worried. They're doing their best, but they're very worried.
    And I want to show you what the FBI told us about the
threat of shoulder-fired missiles. And they told us this in
April--May 2002. Show it so that Senator Lott can see it.
``Given al Qaeda's demonstrated objective to target the U.S.
airline industry, its access to U.S. and Russian-made MANPAD
systems, and recent apparent targeting of U.S.-led military
forces in Saudi Arabia, law enforcement agencies in the U.S.
should remain alert to the potential use of MANPADS against
U.S. aircraft.'' That is a direct warning to us.
    Now, since that time, there have been attempts to shoot
down an Israeli commercial airliner and several of our military
planes--most recently, the other day, a C-17 aircraft made in
my state, an incredible, incredible plane. Now, there but for
the grace of God, those attempts were not successful.
    Honest to God, I am begging you that you need to do all you
can so we are not back in here after we have seen a plane
brought down, or perhaps hit in some way, the airline industry
on its back, and people saying, ``You know what? It isn't worth
it. I'll do a conference call. I'll drive to grandma's house.''
    It is unbelievable to me the pace at which we are moving.
Now, we have companies telling us if they were able to move
forward, they could begin installation within a few months. And
I know, Admiral, that you care about this. And there is--I have
spoken to Secretary Ridge, and he cares about this. But we are
fooling ourselves. If we don't put the money behind it, nothing
will happen. We saw what this great country could do.
    We saw what we did in World War II with the ``greatest
generation.'' We saw this great generation of military men and
women, what they did here, how we moved mountains to get them
over there and how we won the military victory really quickly.
Lots of other problems that we didn't plan for, as well.
    But this is staring in our face, this FBI warning, and I am
just so concerned that we are not treating this in the right
way. I've been around here long enough--ten years in the House,
ten years in the Senate. I served on the Military Committee in
the House and also the Government Operations Committee, where
we oversaw the FAA. I know bureaucratic talk from real talk,
``We're examining, we're surveying, we're looking.'' This is an
emergency circumstance.
    $87 billion for Iraq and Afghanistan, a lot of that for
rebuilding, a lot of that for protecting airports and ports.
We're going to debate it, we're going to discuss it. The
military will get what they need.
    But I have to tell you, our people are vulnerable. And my
message to you gentlemen, since--well, there is a woman here--
ladies and gentlemen, is I don't--I want you to fight harder
around the table. This is our country. Even if you have to take
a little heat from some other folks over at OMB, who cares? Who
cares? Their job is to cut budgets. Your job is to protect the
country. And I'm worried, and I'm concerned. How we cannot sit
here after the GAO report and say, ``We aren't doing enough for
our ports, Senators. And I'm going to take a risk, and I'm
going to tell the President this, because if he really hears
this from me, he will act.'' That's what I want to hear. I
don't expect to hear.
    But I hope you'll just take back my concern, as Admiral Loy
said he would do that, because I don't have the questions.
You're doing everything you can do within, you know, your
parameters. Air marshals, arming the pilots, too slow. Too
slow. You don't have enough air marshals. Let the pilots defend
the aircraft, for God sakes. Only a couple of hundred? I agree
with Senator Lott on that. This is something we can work
together in a bipartisan way. Get the pilots trained. Most of
them fought in the military. Don't tie their hands when you
don't have enough air marshals. And all this moving Customs
agents and all that. Frankly, I think that's just moving--it's
like a shell game; it's not real.
    Anyhow, you can tell my concern and my frustration, my
fears. I want them to be allayed. I'm looking to you to do
that, and I hope that we can work together to make more
progress than we're making.
    Thank you.
    Senator Lott. Thank you, Senator Boxer.
    And thank the panel for your time and testimony. We'll look
forward to working with you in the future.
    The Committee stands adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    Thank you Mr. Chairman for calling this important hearing on
transportation security. As you know, Thursday will mark the two-year
anniversary of the horrible terrorist attacks of 2001. I see no better
time to look into the progress of our national safety than today.
    In 2002 we created the Department of Homeland Security by moving 22
agencies dispersed over 100 different government organizations. I
believe the intention and consensus of this Committee was to
consolidate those 22 agencies to provide a unified homeland security
structure capable of responding to current and future threats. I will
be interested to hear from the panel today whether that intention has/
or will be accomplished anytime soon.
    In my state of Montana we have a northern border with Canada that
spans 630 miles which is equivalent to the distance from Chicago the
Washington, D.C. and much of that border is rural. I will be interested
to hear what progress has been made in northern border security. In the
past, massive resources have been stationed along the U.S. southern
border with Mexico and the northern border has been left vulnerable.
    I look forward to testimony from Admiral Loy. Admiral Loy I commend
you for the service you are paying your country but like many of my
colleagues, I have been contacted by countless constituents regarding
TSA over the last two years and much of the response has not been
positive. For example, agriculture in my state is worried about the May
interim final rule regarding hazmat background checks, which are
scheduled to take effect in November. Rural businesses that provide
petroleum and fertilizer are concerned these background checks will add
another cost to their bottom line which is already troubled. I would
like to hear the panels view on these broad rule making and I am
curious to whether rural circumstances are considered before final
rules are put out.
    Finally, I am very concerned about the future of the Federal Flight
Deck Officers Program. TSA seems to have a lack of enthusiasm for this
program and its implementation. Myself, and many of my colleagues on
this committee and in the entire body worked very hard to pass that
program and to this point I have been less than enthusiastic about
TSA's lackluster performance in implementing the program. I look
forward to testimony on that program.
    Mr. Chairman, again thank you for scheduling this important hearing
and I look forward to the testimony.
                                 ______

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Over the last two years, the Congress has passed numerous bills and
appropriated billions of dollars to protect our Nation's transportation
system. Today we have the opportunity to review and assess the actions
taken and discuss what additional tools and resources are needed to
achieve our Nation's transportation security goals.
    Being from an island state, air and ocean transportation are
critical for the movement of people and goods where nearly 99 percent
of all travelers arrive by air and 95 percent of all goods arrive by
ship. Any disruption in these lifelines will jeopardize our island
economy as well as threaten the health and well being of our residents
and visitors.
    Securing our Nation's immense, complex, and interwoven
transportation system has been, and will continue to be, one of our
greatest challenges. The United States has 5,525 miles of border with
Canada and 1,989 miles of border with Mexico. Our maritime border
includes 95,000 miles of shoreline, more than 360 maritime ports, and
3.4 million square miles of exclusive economic zone, 1.5 million square
miles of which are in the Western Pacific.
    In between our borders and coastlines are approximately 5,000
public use airports, including 430 commercial airports, 317 intermodal
official ports of entry, 3.9 million miles of roads, 100,000 miles of
rail, 2.2 million miles of pipelines, 500 train stations, and almost
600,000 bridges.
    The challenges common to ensuring the safety of our Nation's
diverse modes of transportation include:

  <bullet> Coordinating numerous stakeholders, including federal, state
        and local governments and private businesses;

  <bullet> Coordinating an intelligence system in order to effectively
        collect and analyze information;

  <bullet> Developing and implementing the right technology to meet
        security needs;

  <bullet> Adequately funding transportation security programs; and

  <bullet> Ensuring safety of the transportation system without
        sacrificing efficiency.

    I look forward to hearing from the distinguished witnesses on these
important issues. I am most interested in hearing your thoughts on
which programs are working, which are not working, and what additional
resources you need to fulfill your missions.
                                 ______

      Response to Written Questions Submitted to Jeffrey N. Shane
    Question 1. It is my understanding that prior to TSA's transfer to
the Department of Homeland Security, DOT and TSA intended to sign a
series of MOAs (Memoranda of Agreement) to clarify their roles and
responsibilities. Why were the MOAs not signed and what is their
current status? As you have read, MOAs are one of GAO's top
recommendations.
    Answer. TSA was created here at the Department of Transportation,
and as such, we retain very close ties with TSA and its leadership. In
fact, these relationships have helped us to develop close links
throughout the new department, and we continue working closely with our
former colleagues, supporting them every step of the way as they defend
our Nation's homeland.
    As noted in my written testimony, we have taken numerous actions to
ensure that this close working relationship continues into the future
as well. Just prior to TSA's transition to DHS, the Federal Aviation
Administration and TSA signed a memorandum of agreement specifying the
roles and responsibilities that each agency would play in overseeing
the safety and security of our aviation system. Given the unique
challenges we face in aviation security, the heavy emphasis in the
Aviation and Transportation Security Act on specific deadlines for
improving aviation security, and the FAA's continuing responsibilities
for managing the air traffic control system, we believed that it was
important to have a written agreement between DOT and DHS in this area.
    Extensive, regularized lines of communication have been and are
being established with emphasis on coordination. At present, we are
working together effectively in areas where our responsibilities
intersect. As our relationship continues to develop, and we gain
additional experience, we intend to focus on identifying areas of
common concern and determine the most effective means for formalizing
our relationship. As a result of our communication and coordination
over the past year--which includes a regular meeting with senior TSA
staff on a bi-weekly basis to discuss current issues and ensure full
cooperation between TSA and our modal administrations on security
issues--we have begun to identify areas of DOT/DHS interaction that
could benefit from formalization in written documents. When areas of
recurring interaction between the two Departments have been
sufficiently identified, we will work with DHS to pursue one or more
additional memoranda of agreement to clarify the roles and
responsibilities of the two Departments in those areas.

    Question 2. What is DOT's role in transportation security?
    Answer. Since the transfer of TSA to DHS, we have found that we
continue to have a role in transportation security. Our statutory
mission of providing for a safe, efficient and economically viable
transportation system is inextricably linked to the security mission of
DHS. The Department also provides a critical link to transportation
stakeholders based on decades of experience working closely with those
involved in various parts of the transportation system. This means that
we must work hard to integrate smart and efficient security measures
and ensure that they are developed with sufficient stakeholder input--
to fail to do so can be dangerous or economically unsustainable.
Additionally, in accordance with the Homeland Security Policy
Directive, issued on December 17, 2003, the Department continues to
collaborate with DHS on all matters relating to transportation security
and transportation infrastructure protection.
    To accomplish this, our Office of Intelligence and Security and
Office of Emergency Transportation, in conjunction with each of the
Operating Administrations, the Homeland Security Council and DHS
components including TSA, FEMA and CBP and provides five primary
services:

  <bullet> Policy: Ensure transportation security policy complements
        safety, mobility and economic viability.

  <bullet> System Design: Incorporate security policy decisions in the
        design of transportation systems and infrastructure (i.e.,
        bridges, tunnels, and transit systems).

  <bullet> Intelligence and Information: Analyze and provide important
        security and economic intelligence to DOT customers, including
        DHS, offices negotiating international treaties, operating
        administrations, and to industry stakeholders, to the extent
        authorized by law.

  <bullet> Operations:

    --Monitor the real-time status of the transportation system. This
            historically proves valuable during emergencies, including
            the August blackout, Hurricanes (most recently Isabel),
            earthquakes and hazmat incidents.

    --Provide emergency transportation services in support of the ``all
            hazard'' National Response Plan, which now expands our
            response and recovery functions to include terrorist
            attacks with our more traditional scope of accidents and
            natural disasters. This role, formerly under the Federal
            Response Plan, is one for which we are especially well
            suited and experienced.

  <bullet> Readiness: In support of the new Homeland Security
        Presidential Directive on Preparedness, coordinate DOT's role
        in readiness and response exercises. We continue to be primary
        participants in exercises, including TOPOFF 2, Forward
        Challenge, Crimson Shield, Scarlet Cloud, and others. Virtually
        every safety or security-related exercise directly involves
        management of the transportation system.

    Question 3. What share of DOT's work do you believe is security-
related? Have the modal agencies shifted resources toward security-
related initiatives since September 11, 2001?
    Answer. In addition to the creation of TSA, each DOT modal
administration aggressively pursued security initiatives in response to
our post 9-11 realities. Since its creation on March 1, 2003, DHS has
assumed primary responsibility for transportation security programs and
initiatives. However, because of the complexity of the system and
considerable expertise, DOT has played a direct supporting role in
DHS's major transportation-related security initiatives. Resource
expenditures by DOT on transportation security, including those cited
below, are now coordinated with DHS and are consistent with DOT's
ongoing responsibilities for the safety, mobility, and economic
viability of the National Transportation System.
    With that said, it is very difficult to quantify, in percentage
terms, what share of DOT's work is security related. Some of the work
cited below is directly related to DOT's ongoing role in transportation
security, such as the Office of Intelligence and Security's continued
support of national and homeland security policy development, and those
critical infrastructure programs involving joint DOT/DHS legal
responsibilities such as hazardous materials. The difficulty lies in
quantifying the many efforts that benefit both security and safety or
efficiency (dual use), or where we are attempting to build security
into transportation rather than adding it as an expensive overlay, such
as the Federal Transit Administration's regional security and response
forums or Federal Motor Carrier Safety Administration's truck security
prototypes.
    The national strategies (National Strategy for Homeland Security
and the National Strategy for the Protection of Critical
Infrastructures and Key Assets) designated DHS as the lead for
transportation critical infrastructure issues. DOT retains lead roles,
however, in other critical areas:

  <bullet> DOT and DHS share responsibility for hazardous materials
        transportation security per the Homeland Security Act of 2002.
        Much of the Research and Special Programs Administration's work
        revolves around the safe and secure movement of hazardous
        materials, including the Nation's pipeline infrastructure
        (800,000 surface shipments; 2.1 million miles of pipelines).
        The two agencies are working cooperatively on a number of
        fronts to address hazardous materials transportation security
        issues.

  <bullet> DOT remains responsible for significant portions of our own
        internal (DOT owned and operated) infrastructure. This includes
        the physical and cyber security of the National Airspace
        System, consisting of about 1,000 staffed and 10,000 un-staffed
        facilities. The Infrastructure Protection Program for this
        system will cost $300 million. GPS augmentation sites critical
        to transportation applications, U.S. portions of the St.
        Lawrence Seaway, and vessels of the Ready Reserve Force are
        some other examples of critical DOT owned/managed
        infrastructure.

    DOT Operating Administrations remain essential partners and
contributors with DHS in nearly every transportation security program.
A few examples of DOT contributions include:

  <bullet> The Federal Aviation Administration operates the National
        Airspace System and, as the safety regulator of the aviation
        industry, works closely with DHS and TSA to ensure security of
        the airspace and industry through daily operations, policy and
        rulemaking.

  <bullet> The Federal Railroad Administration currently employs about
        457 inspectors that integrate safety and security in their
        track, operations and emergency plan inspections. In a joint
        effort with the Federal Transit Administration, TSA and DHS,
        FRA assisted both passenger and commuter rail systems with the
        development of System Security Plans. FRA inspectors assist DHS
        (U.S. Customs and Border Protection) with joint border crossing
        inspections using the Vehicle Cargo Inspection System.

  <bullet> The Federal Highway Administration continues to work with
        DOD's Transportation Command to ensure adequate planning is
        conducted for strategic movement of military cargoes between
        military installations and port facilities.

  <bullet> The Federal Motor Carrier Safety Administration is assisting
        TSA in implementing Section 1012 of the USA PATRIOT Act by
        developing security risk review procedures for all persons
        seeking issuance or renewal of hazardous materials endorsements
        of commercial driver's licenses.

  <bullet> FTA and TSA have closely coordinated efforts to enhance
        transit system security. TSA is focusing on developing threat
        and vulnerability processes, standards for plans, and exploring
        advanced technologies. FTA is developing training forums to
        promote emergency preparedness and best practices, security
        design information, and facilitating chem-bio detection
        technologies for the unique transit environment.

  <bullet> RSPA is working closely with TSA and pipeline operators to
        develop an understanding of pipeline security issues, share
        best practices, improve coordination among diverse
        stakeholders; plan for preparedness, response and recovery; and
        verify that significant major operators have acceptable
        security plans and programs. In consultation with DHS, they are
        conducting an assessment of hazardous materials transportation
        vulnerabilities and issued security regulations.

  <bullet> The Maritime Administration provides strategic sealift
        capacity to support deployment of U.S. military forces for
        national security objectives through management of the Ready
        Reserve Force. During Operation Iraqi Freedom, MARAD
        coordinated the mobilization of 135 ships and over 5,000
        crewmembers.

  <bullet> DOT co-chairs with DHS the Asian Pacific Economic
        Cooperation Transportation Security Experts Group as well as
        Operation Safe Commerce, a program that funds the testing of
        industry solutions to the need for increased security in the
        international movement of intermodal containers.

    Question 4. Last January I asked TSA and FRA to review Amtrak's
security plan. Unfortunately, the plan on which you provided comments
turned out not to be Amtrak's official plan. Have you had the
opportunity to review Amtrak's official plan, submitted April 10, 2003
and do you have any recommendations for the Committee?
    Answer. The Federal Railroad Administration directly provides the
oversight and funding conduit for Amtrak's appropriated funds. The FRA
routinely conducts validation reviews of Amtrak's financial activities
and budget requests. The FRA reviewed both Amtrak's system security
plan and the April 2003 security plan modifications for capital
improvements. The FRA, in conjunction with TSA and Amtrak management
and security officials, found the security plan satisfactory and the
security-related capital improvements to be appropriate.

    Question 5. What is the greatest security challenge facing your
agencies and what actions are being taken to address the challenge?
    Answer. The effective integration of security, as a cornerstone of
transportation--alongside safety, mobility and economic viability--is
our biggest challenge. America's ability to sustain smart security
precautions and measures over the long term will depend entirely on how
effectively and efficiently they are integrated into transportation
system policy, design (i.e., hardened bridges, multi-use databases,
etc.) and operations. Security, without appropriate consideration for
costs and efficiency will not be effective. Only smart and efficient
security measures that balance security with safety, mobility and sound
economics will endure. In this way, our economy will grow and our
people and goods move safely and securely.
    DOT is actively pursuing this integration on several fronts. We
have learned that, while much of transportation security resides in
DHS; the integration of security into a system as complex as
transportation requires a significant and ongoing coordination and
cooperation between DHS and DOT. The Secretary of DOT has designated
the Deputy Secretary as his primary liaison with DHS. The Deputy
Secretary, with assistance from DOT's Office of Intelligence and
Security, will work to maintain constant communication and information
exchange with TSA. The Office of Intelligence and Security also leads a
security working group, with participation from each DOT operating
administration, along with TSA's participation, to address specific
security issues. Within DOT, that office is also working with each
operating administration to ensure that there is an adequate network to
accommodate the expeditious flow of security related information
throughout the Department.
    I highlighted some of the specific actions we have taken, in
cooperation with DHS, during my testimony before the Committee. For
example, the Maritime Administration has worked closely with the Coast
Guard and TSA to evaluate security at our Nation's ports. These
evaluations enabled TSA to disseminate two rounds of port security
grants, facilitating $262 million in security upgrades as a result. The
Federal Transit Administration has shared its expertise by conducting
$30 million in vulnerability assessments and security training of
transit operators across the country. Additionally, the Research and
Special Programs Administration has worked closely with TSA to ensure
that the transportation of hazardous materials fulfills both safety and
security requirements.
    Finally, I personally have served as a co-chairman of the Executive
Steering Committee that oversees the Operation Safe Commerce (OSC)
program. Fifty-eight million dollars in OSC grants have been awarded by
DHS to the three participating load center ports--Los Angeles/Long
Beach, Seattle/Tacoma, and New York/New Jersey--and these grants will
serve as an essential test bed for new technologies designed to provide
greater security for freight containers as they move on intermodal
journeys through global commerce.

    Question 6. Do your agencies have sufficient authority to ensure
transportation security? What action do you believe Congress needs to
take to assist in your efforts to improve transportation security?
    Answer. We believe that, in general, the Department possesses the
authority it needs to carry out our statutory responsibilities. Where
we see the need for additional authority or for clarification of
existing authority we will develop appropriate legislation on behalf of
the Administration, as in the Administration's railroad safety
reauthorization proposal, which was submitted to Congress in July 2003.
Recognizing that, in some situations safety and security issues are
woven together, we value the emphasis that Congress, in sections 1710
and 1711 of the Homeland Security Act, placed on the joint nature of
DOT's security responsibilities with DHS for rail transportation of all
cargoes, and for hazardous material transportation by all modes. This
statutory authority gives us a clear basis on which to work even more
closely with DHS on these two areas. Of course, the Federal Railroad
Administration coordinates closely with the Department of Homeland
Security wherever its exercise of safety authority would have security
implications.
    There are two areas in which we need the continued support of
Congress in order to succeed in our mission.

  <bullet> We seek your continued support for the resources necessary
        to sustain our links and important services to DHS and TSA.
        This comes in three key areas:

    (1)  It is critical for DOT to have the appropriate resources--
            staff and budget--to assist in the development of
            transportation-related security policy, system design,
            intelligence and information and readiness. This will
            enable DOT to be an effective partner with DHS as both
            Departments deal with the integration of transportation
            security measures into the transportation system while
            maintaining safety, mobility and economic viability.

    (2)  DOT must maintain the emergency transportation capabilities
            for response to all hazards, ranging from terrorist attacks
            to natural disasters like hurricanes and earthquakes. This
            unique capability has been developed and honed within DOT
            and demonstrated effectively, most recently during
            Hurricane Isabel.

    (3)  We need to have appropriate resources to plan and participate
            in readiness exercises like Topoff 2, Determined Promise,
            Forward Challenge, and others. Although the new Homeland
            Security Presidential Directive on Preparedness will
            improve coordination and effectiveness of exercises and
            other pre-incident activities, it will require increased
            DOT involvement to succeed.

    Within DOT, the three functions discussed above are primarily
accomplished through the Office of Intelligence and Security, and the
Research and Special Program Administration's Office of Emergency
Transportation. Together these small staffs provide valuable support in
security policy, system design, intelligence, emergency preparedness,
readiness and response operations.
    If need arises, we will seek your support in legislation that
clarifies DOT's role in security policy decision making, and in the
emergency transportation services provided to DHS.
                                 ______

  Response to Written Questions Submitted to Admiral Thomas H. Collins
MTSA Compliance Costs and Port Security Grants
    Question 1. I understand the Coast Guard estimates the private
sector costs for compliance with the requirements of the Maritime
Transportation Security At to be $4.4 billion, with annual costs of
$500 million. Since the September 11 attacks, Congress has provided a
total of $348 million for port security grants. While the
Administration's Fiscal Year 2004 budget requests $38 million for the
    Department's Directorate of border and Transportation Security for
grants, subsidies, and contributions and $51 million for the
Department's Directorate of information Analysis and Infrastructure
Protection for the same purpose, it is unclear what these requests are
for. Additionally, it is unclear whether or not these line items will
fund the maritime and port security grants to be awarded in accordance
with the Maritime Transportation Security Act. Is this $4.4 billion
figure accurate? If so, what is it based on? How much is the
Administration requesting for maritime and port security grants for
Fiscal Year 2004? Which agencies or directorates will be managing these
funds? While I understand the Coast Guard will not directly administer
these funds, what role does the Coast Guard play in awarding these
grants? Can you explain how the awarding of these grants will be
coordinated with Port Security Assessments being identified by the
Coast Guard as part of your ongoing assessments? In light of this $4.4
billion backlog, do you think the Administration's request is adequate
to address these vulnerabilities?
    Answer. The $4.4 billion figure contained within this question is
not accurate. As part of the rulemaking process, the Coast Guard
conducted an assessment of the cost to industry of implementing the
SOLAS Amendments, the ISPS Code and Section 102 of the MTSA. The final
rules published October 22, 2003 estimates the MTSA implementation
costs to industry to be $1.5 billion. Following implementation, the
annual cost is approximately $884 million for a total of $7.331 billion
over the next 10 years.
    In the DHS FY 04 budget, $125 million was appropriated for port
security grants. The Transportation Security Administration (TSA)
manages the grant funds and administers the grant process in
cooperation with the Maritime Administration (MARAD) and the Coast
Guard. Coast Guard Captains of the Port and MARAD Region Directors
provide the first level of review and prioritization within the grant
requests. A National Level Selection Board consisting of the
Undersecretary of TSA, the Commandant of the Coast Guard, and the
Administrator of MARAD, or their representatives, constitutes the final
grant approval body.
    A prerequisite for submitting physical and operational security
enhancement proposals is the completion of a security assessment, the
findings of which are incorporated into determining the grant selection
criteria in partnership with TSA and MARAD. The required assessment
does not have to be a Coast Guard Port Security Assessment, but the
Coast Guard does make PSA findings available to applicants and port
security committees for use in developing grant proposals. However, a
port that has not received a PSA is not be penalized during the grant
evaluation process.
    While clearly there is a governmental role in providing port
security, vessel and facility owners and operators have a shared
responsibility to provide port security measures. The requirements
contained on the final rule are intentionally performance based to
allow innovative and cost-effective solutions by industry to improve
security with minimum capital outlay and burden on legitimate use of
the maritime transportation system. In light of this and the numerous
additional initiatives that have been undertaken by the Federal
Government to improve maritime security, the Coast Guard believes the
Administration's request is adequate.
MTSA Facility Security Rules
    Question 2. On July 1 of this year, the Coast Guard proposed seven
rules implementing requirements of the Maritime Security Act. Doing all
seven at once is ambitious, but I want to commend you and your staff
for pushing forward with this very important work. One of the proposed
rules would establish requirements for facility security. I understand
several of the requirements have caused some concern within the
maritime industry. Specifically, facility owner and operators would be
required to establish ``waterborne security patrols'' for ``examination
of piers, wharves, and similar structures . . . for the presence of
dangerous substances and devices underwater.'' While I agree this is an
important part of facility security, it is my belief that security in
U.S. waters is inherently a government function that must be performed
by a law enforcement officer. Can you explain the Coast Guard's view on
this issue?
    Another Proposal within the rule regarding facility security would
require the facility to have the capability to ``be able to check cargo
entering the facility for dangerous substances and devices at the rate
specified in the approved Facility Security plan (FSP). I may be a bit
confused, but I was under the belief that the Bureau of Customs and
Border Protection was responsible for screening inbound and outbound
cargo and had in fact received considerable increases in appropriations
to increase these capabilities. Is this correct, and if so, why are we
requiring this of facility operators?
    Answer. On July 1 of this year, the Coast Guard published six
temporary interim rules to promulgate maritime security requirements
mandated by the Maritime Transportation Security Act of 2002. The Coast
Guard believes owners and operators have the authority to implement the
identified security measures. The final regulations published on
October 22, 2003 do not require owners or operators to undertake law
enforcement action, but rather to implement security measures
consistent with their longstanding responsibility to ensure the
security of their vessels and facilities as specifically prescribed by
33 CFR 6.16-3 and 33 CFR 6.19-1. It is also important to note that the
security measures identified only relate to MARSEC Level 3
implementation and do not include Coast Guard and/or other Federal
Government maritime security efforts.
    We recognize that screening for dangerous substances and devices is
a complex and technically difficult task to implement. In the final
rules published on October 22, 2003, we have clarified that cargo
checks should be focused on the cargo arriving at or on the facility or
vessel to detect evidence of tampering or to prevent cargo that is not
meant for carriage from being accepted and stored at the facility
without the knowing consent of the facility owner or operator.
Sharing the Infrastructure Burden of AIS
    Question 3. GAO has pointed out that implementation of the
Automatic Identification System (AIS) could require substantial Federal
infrastructure investment in new Vessel Traffic Service systems for
U.S. cities to receive and process important security information
transmitted from vessels. Installation and training costs for this
infrastructure could cost more than $100 million. To reduce the
budgetary burden on the Federal Government, has the Coast Guard and DHS
considered partnering with local entities to provide the VTS service
and share in its costs-such as in the case at the Los Angeles/Long
Beach VTS?
    Answer. The Coast Guard has completed many Ports and Waterways
Safety Assessments to specifically determine the need for VTS systems
in other ports. A VTS system is not needed in every port to use the AIS
information for security purposes.
    In non-VTS ports, implementation of AIS receive/transmit capability
will be accomplished through cooperative arrangements with Federal,
State and local stakeholders on integrated command center projects such
as the Joint Harbor Operations Centers in Hampton Roads, Virginia and
San Diego, CA, as well as through the Rescue 21 and the Integrated
Deepwater System projects. The Coast Guard is continuing to partner
with local entities and is also leveraging efforts already underway in
other areas. For example, the Coast Guard is receiving AIS information
from the St. Lawrence Seaway Development Corp, the Department of
Justice SEAHAWK Project in Charleston, SC, and the Joint Maritime
Operations Center (JMOC) in Seattle, WA. The DOJ SEAHAWK project is an
inter-agency effort to establish a port security command center and
will include AIS capability integrated with other sensor information. A
similar approach is being pursued for the JMOC.
Review of Pilot Port Security Assessment Reports
    Question 4. Given the importance of and expense involved with the
Port Security Assessments (PSA), do you plan to enter into another
contract with Northrop for additional PSAs before a thorough evaluation
of the pilot assessments are completed and a new methodology is
devised? How long will the Coast Guard's evaluation of the pilot
projects take and do you plan to get any independent viewpoints
(outside of DHS) on the process before finalizing it and awarding
additional contracts for these PSAs?
    Answer. No additional work will be contracted with Northrop Grumman
Mission Systems until we have evaluated the pilot port reports
(Huntington & Tampa) and determined that the quality of their work
warrants awarding of future work in support of the PSA program.
    The Coast Guard decided to test the revised PSA assessment
methodology (version 2) on the ports of Tampa, FL and Huntington, WV to
ensure that the report added value to the Captains Of The Port (COTP)
and their Area Maritime Security Committee in drafting Area Maritime
Security Plans. The draft pilot reports were delivered to the Coast
Guard on 20 October 2003, and the final reports were delivered on 19
November. During our review of the draft reports for these two pilot
ports, we identified areas that need further modification. These
modifications are a result of the lessons learned though the pilot
process, changes in the maritime security environment as a result of
the publication of the MTSA of 2002 Final Rules, and the development of
industry self-assessment methodologies. DHS has also provided guidance
that impacts what areas/facilities we are to focus on during our PSAs,
and many stakeholders have completed their own assessments. In order to
accommodate these changes and provide a more dynamic report, the PSA
program is moving onto a PSA version 3 (V3).
    The draft pilot reports have been supplied to the respective Coast
Guard COTPs, as well as the pertinent port stakeholders in each pilot
port, for comment. To the extent that they are applicable, comments
from these primary users of the PSA report will be incorporated into
the development of the V3 assessment methodology. Additionally, before
the Coast Guard fields teams to conduct V3 PSA, the PSA staff will
present the intended approach to a sampling of COTPs and Coast Guard
Area/District staffs. Comments and observations from the GAO will also
be incorporated into this revised methodology, which should be fielded
with the support of multiple contractors sometime in early 2004.
PSA Program Duplication of Assessments
    Question 5. What is the Coast Guard doing to avoid duplication of
security assessments done by port stakeholders?
    Answer. The Coast Guard Port Security Assessment program has
changed to reflect the availability of vulnerability assessments by
marine facilities and other entities. The new focus of the program is
providing the Federal Maritime Security Coordinator and Area Maritime
Security Committee with a terrorist evaluation of the waterway and
navigation system in the ports. The program is also providing a
database tool that integrates the available assessments and response
capabilities from all sources and displays the information in a
layered, geospatial format to assist in security planning. This
evolution of the program avoids duplication of effort and provides
additional critical information for each port to improve their
countermeasure development and incident response capabilities.
Lead Agency on Maritime Security
    Question 6. Which agency within DHS is the lead agency on maritime
security? Which agency do you believe is best equipped to take the lead
role in maritime security?
    Answer. The Coast Guard is the lead Federal agency for maritime
security. However, the Coast Guard will continue to work closely with
its DHS partners from the Information Analysis, and Infrastructure
Protection (IADP) Directorate and the Boarder and Transportation
Security (BTS) Directorate (which includes the Transportation Security
Administration (TSA) and the Bureau of Customs and Border Protection
(CBP)) which each have important roles to play in maritime security.
Lead Agency on Cargo Security
    Question 7. Which agency within DHS is the lead agency on cargo
security? Which agency do you believe is best equipped to take the lead
role in cargo security?
    Answer. The Border and Transportation Security Directorate's (BTS')
Customs and Border Protection (CBP) is the lead agency on cargo
security.
    As the single unified border agency of the United States, CBP is
best equipped to protect America and the American people as lead agency
for cargo security in order to facilitate the flow of legitimate trade
and travel.
International Efforts to Improve Transportation Security
    Question 8. What efforts are underway internationally to improve
transportation security?
    Answer. The answer provided below focuses on international
``maritime'' security.
    The Coast Guard actively participates in several international
forums such as the International Maritime Organization (IMO),
International Labor Organization (ILO), the G-8, and the Asia Pacific
Economic Cooperation (APEC) to develop international security standards
and encourage harmonization of maritime security.
    Based on IMO guidelines, the Coast Guard conducts security audits
of foreign port passenger terminals as required by the Omnibus
Diplomatic Security and Antiterrorism Act of 1986. Audit findings are
provided to Department of State and to the host government via the
local American Embassy/Consulate.
    To assess the effectiveness of antiterrorism measures maintained in
foreign ports as required by the MTSA, the Coast Guard is developing a
Foreign Port Security Audit Program. This effort began in FY 2003 with
a foreign port assessment team in the Latin American/Caribbean region
that was organized and funded by DOD. Southern Command (SOUTHCOM) and
led by MARAD and included the Coast Guard and Customs and Boarder
Protection (BCBP) personnel. MARAD was assigned the responsibility of
field assessment team chief, development of a comprehensive cargo
security assessment tool, field methodology, and production of
Assessment Team reports to SOUTHCOM for subsequent use by the involved
U.S. embassies. Beginning in FY 2005 the Coast Guard will assume the
lead for these assessments as mandated by the Maritime Transportation
Security Act (MTSA) of 2002, Section 109. Using the International
Maritime Organization International Ship and Port Facility Security
(ISPS) Code and the ILO Code of Practices for Port Security (currently
under development to assist countries in the development of port
security plans) as a baseline, the Coast Guard will audit foreign
countries' compliance with these international standards. The Coast
Guard will work with other elements of the Department of Homeland
Security as well as other agencies (DOS, DOD, MARAD, and Treasury) to
prioritize countries and to carry out the audits. The audit will
include physical visits to a sample of ports in each country to verify
country compliance. This process will start after the implementation
date of the ISPS Code on July 1, 2004 and result in the audits of
approximately 30-40 countries annually. If the audit findings indicate
that adequate antiterrorism measures are not maintained, the MTSA
requires the Coast Guard to notify the country and in conjunction with
Department of State develop a port security training program for
foreign officials as may be required. During FY 2003, two courses were
conducted under the Inter-American Port Security Training Program
(IAPSTP), which is funded by the Organization of American States (OAS)
and organized, managed, and executed by the U.S. Maritime
Administration (MARAD) for the OAS. The IAPSTP was developed in
cooperation with the OAS Inter-American Committee on Ports to provide
port security training courses for port authority police and security
personnel from OAS member countries of Central and South America, and
the Caribbean. By November 2003, a total of 550 personnel had received
IAPSTP training since its commencement in 1998. The four courses
conducted each year account for 200 personnel trained. MARAD and OAS
funds to conduct assitional courses in 2004.
    Each year the Coast Guard provides assistance to approximately 60
countries worldwide. This assistance has been in the form of sales of
new and excess materiel (e.g., ships, patrol boats, etc.), resident
training, exportable training, and temporary maritime advisors to host
nation navies or coast guards. Through provision of Coast Guard
expertise in ship handling, maritime law enforcement, boarding officer
and team member training, port security vulnerability assessment and
professional development for maritime officer and enlisted corps, host
nation navies and coast guards become force multipliers in the global
war on terrorism.
International Aviation Security Initiatives
    The Department of Homeland Security actively promotes the
strengthening of international standards and recommended practices for
aviation security through the International Civil Aviation Organization
(ICAO) and G-8 consultations, as well as within the framework of a
formal and continuing dialogue with the European Union, the European
Civil Aviation Conference, Asia Pacific Economic Cooperation, and other
regional entities.
    In October 2001, a meeting of the International Civil Aviation
Organization (ICAO) Aviation Security Panel was held to consider
changes in international aviation security standards in light of 9/11.
The Aviation Security Panel holds responsibility for promulgating
international security standards and includes as a member the U.S.
Government represented by TSA's Director of International Affairs. TSA
proposed, and the Panel accepted, changes to amendment 10 of Annex 17
(the document that sets forth international aviation security
standards) that elevates several recommendations to the level of
standards and provides language for the new standards.
    Ministers and other high-level officials from 154 countries and 24
international organizations met in February 2002 to endorse the
creation of a mandatory aviation security audit program, drawing upon
the expertise of the Aviation Security Panel, the TSA's Foreign Airport
Assessment Program, and other existing, viable programs. The mandatory
audits are intended to determine a State's compliance with
international standards by observing measures at airports and assessing
the State's capabilities to sustain those measures.
    As a demonstration of U.S. support, the TSA committed and provided
U.S. $1 million as an initial injection of funds to the Aviation
Security Mechanism specifically for the development of the security
audit program. ICAO now has a roster of certified auditors totaling 70
aviation security experts, representing 39 States from across all ICAO
regions. 20 audits are expected to be completed by the end of 2003, and
40 audits each year thereafter. ICAO's goals are to complete a total of
60 audits by the end of 2004 and to audit all 188 ICAO contracting
States within five years.
    TSA also influences the work of ICAO and the setting of
international standards by developing and supporting initiatives within
the framework of the Group of Eight (Canada, Germany, France, Japan,
Italy, U.S., Russia, and U.K.). The most recent initiative, which was
agreed upon at the G-8 Summit in June 2003, called for the continued
support for the implementation of the ICAO Security Audit Program by
all ICAO Member States. Agreement was also reached to implement
national measures to combat the threat to civil aviation from the
illegal use of surface-to-air missile systems by terrorists, to reduce
their proliferation and strengthen control of stockpiles by G-8 and
other states and to promote the application of Wassenaar Arrangement
principles to MANPADS export controls. Most of the work on MANPAD
within the G-8 has been focused on proliferation; the area of
developing and implementing appropriate countermeasures has not been
addressed. In light of this, the U.S. has recommended to the G-8 in a
recent meeting of the Roma/Lyon group that G-8 countries establish a
working group to develop and agree upon a methodology to be used by G-8
countries in assessing an airport's vulnerability to the threat of
MANPADS.
                                 ______

        Response to Written Question Submitted to Peter Guerrero
    Question. Given GAO's extensive body of work on security issues,
what do you believe are the top three challenges the Nation faces in
securing the Nation's transportation system?
    Answer. Transportation stakeholders face numerous challenges in
securing the Nation's transportation system. Three significant
challenges include: determining the appropriate level of security for
all modes of transportation; coordinating among the various
stakeholders and funding security improvements. First, the size of the
transportation system makes it difficult to adequately secure. For
example, the transportation system includes about 3.9 million miles of
roads, over 100,000 miles of rail, almost 600,000 bridges, over 300
ports, 2.2 million miles of pipeline, 500 train stations, and over
5,000 public-use airports. The size of the system simultaneously
provides a substantial number of potential targets for terrorists and
makes it difficult to secure. Second, the number of stakeholders--
including over 20 Federal entities, state and local governments, and
hundreds of thousands of private businesses--can lead to coordination,
communication, and consensus-building challenges. For example,
representatives from several state and local government and industry
associations told us that their members are receiving different
messages from the various Federal agencies involved in transportation
security. Finally, funding security improvements to our transportation
system is challenging. The sluggish economy has weakened the
transportation industry's financial condition by decreasing ridership
and revenues. While the Federal Government has provided additional
funding for transportation security since September 11, demand has far
outstripped the additional amounts made available. A risk-based
approach will be needed to target available funds to the most pressing
needs.
                                 ______

 Response to Written Question Submitted by Hon. Ernest F. Hollings to
                          Admiral James M. Loy
    Question. I understand that on July 28, 2003, you denied a petition
submitted by Midway Airlines on May 31, 2002 for an adjustment to the
Aviation Security Infrastructure Fee due in accordance with the
Aviation Transportation Security Act.
    When Congress approved the ATSA, we included language requiring
airlines to pay to TSA a fee to cover its cost of providing increased
civil aviation security services. We capped the amount you could
collect as the amount the carrier paid for airline security in 2000.
    During the hearing, we talked about the funding crises you are
facing at TSA. I did not originally support the remittance of the fee
for many reasons, but ultimately agreed to the remittance.
    Apparently, with the denial by TSA of the petition, Midway will be
required to pay TSA for the time period. Congress gave all carriers a
``fee holiday'' as part of the Emergency Wartime Supplemental
Appropriations Act on April 16, 2003, that provided reimbursement to
airlines for security costs that they paid to TSA. Had Midway paid the
full amount due, it would have been fully reimbursed for these fees.
However, because it paid only a percentage of the fee TSA claims it
owes, it received only a percentage in return, leaving the balance
outstanding. Now, after passage of this reimbursement provision, TSA
demands that Midway pay the remaining balance.
    If Midway does repay the remaining balance, would Midway be
entitled to receive reimbursement for that amount under the
Appropriations Act? If so, does TSA have monies left under the
Appropriations Act to repay Midway?
    If no monies are available to repay Midway, wouldn't that result in
Midway being the only airline in the Nation that must pay the security
infrastructure fee without reimbursement.
    Please provide an explanation for what appears to be a unique
situation.
    Answer. The Emergency Wartime Supplemental Appropriations Act of
2003, (P.L. 108-11) provided TSA $2.3 billion to compensate U.S. air
carriers for their expenses and any revenue forgone that related to
aviation security. Rather than providing a reimbursement of TSA
security fees, Congress provided this additional funding and
specifically stated in the Act that U.S. air carriers would be
compensated based on the ratio of security fees paid to TSA by each
U.S. carrier compared to the total fees paid to TSA by all U.S. air
carriers.
    The statutory language of the Act stipulated only the security fees
remitted to TSA by the date of enactment, April 16, 2003, were to be
considered in determining distribution of the relief funds. Therefore,
the amount of unremitted fees could not be taken into account in
calculating the relief. Based on the statutory formula and the amount
remitted by Midway Airlines to TSA by April 16, 2003, TSA issued a
payment to the carrier of nearly $1.4 million.
    The Act also required TSA to distribute the funding within 30 days
of the enactment of the Act. Accordingly, TSA obligated or disbursed
the funding within that time-frame based on the required formula and,
therefore, does not have any relief funds remaining. As noted above,
since Midway did not fully pay the fees by April 16, 2003, as
specifically required by the Act, it is not entitled to additional
compensation.
    Although the Act suspended collection of the fees for 4 months as
discussed below, it did not provide for cancellation of debts from
unremitted security fees due before the suspension. TSA does not have
the authority under the Debt Collection Improvement Act of 1996 to
waive this indebtedness under these circumstances. Thus, the fees owed
by Midway Airlines are still owed to the United States.
    Midway Airlines is not unique in not receiving relief from its un-
remitted security fee debt. TSA is collecting past-due fees from other
carriers, which like Midway, had failed to follow the law and
regulations and timely pay their fees. Based on the specific language
of the Act, and as described above, TSA has denied all such requests
for relief.
    The Act did provide a separate relief measure to domestic and
foreign air carriers by suspending both the passenger and air carrier
security fees (``fee holiday'') for all air carriers from June 1, 2003,
through September 30, 2003. In addition to the nearly $1.4 million in
direct relief, this separate measure provided Midway Airlines
additional relief of approximately $612,000 in suspended fees.
    Finally, TSA responded to concerns about assessing the security fee
at the carrier's year 2000 screening costs since a number of the
carriers, including Midway Airlines, now operate at a significantly
reduced level compared to year 2000. Although the Aviation and
Transportation Security Act (ATSA) authorizes TSA to charge the
security fee up to each air carriers' year 2000 screening costs, it
also grants TSA the authority to adjust the fee based on market share
beginning in Fiscal Year 2005. TSA is working to ensure that a new air
carrier fee structure, based on market share or another appropriate
measure, is implemented as close as possible to October 1, 2004. TSA
has already issued a notice in the Federal Register (68 FR 62613)
requesting industry proposals on the methodology to be used in
assessing future security fees.
                                 ______

           Written Questions Submitted by Hon. Ron Wyden to
                          Admiral James M. Loy
    On August 1, 2003, the Transportation Security Administration's
(TSA) published a Federal Register Notice (68 Fed. Reg. 45265)
concerning its plans to develop and implement a new version of the
Computer Assisted Passenger Prescreening System, commonly known as
``CAPPS II.'' I believe that this Notice was a positive first step in
explaining to the public TSA's plans for CAPPS II, and in providing
information needed to assess the program's potential impact on privacy.
However, the Notice also left me with a number of questions as to how
CAPPS II would operate. I believe that the answers to these questions
are crucial to understanding the nature and implications of the system
TSA is proposing. My questions fall into six main areas.

    Question 1. What goes on in the ``Risk Assessment'' Portion of the
Process
    According to the explanation contained in the August 1 Federal
Register Notice, CAPPS II will involve two main steps. The first step
is authentication, in which the system will compare PNR data with data
contained in commercial databases ``for the sole purpose of
authenticating passenger identity.'' The result will be a numeric score
showing the confidence level that the identity the passenger provided
is accurate.
    The second step is the risk assessment. This is an area where I
believe the explanations to date have been insufficient, making
clarification essential.

    Question 1a. The Federal Register Notice states that ``[t]he risk
assessment function is conducted internally within the U.S.
government.'' Does this mean that, for purposes of the risk assessment,
CAPPS II will not in any way query or otherwise make use of commercial
databases?

    Question lb. If the risk assessment process does not involve making
additional queries of commercial databases, then what information does
it rely on? At a minimum, it appears that the risk assessment will
involve checking to see if the passenger is on any Federal list of
known or suspected terrorists, or persons with outstanding arrest
warrants for violent crimes. But are there additional sources of
information, inside or outside government, that the risk assessment
will use? Or does the risk assessment simply produce a ``yes or no''
answer as to whether the passenger is already on a government list of
persons considered dangerous?

    Question 1c. Checking against existing government watch lists seems
like a straightforward way of determining whether a passenger is
already known as a terrorist or suspected terrorist. But according to
the Federal Register Notice, the risk assessment process will do more
than that it will determine the likelihood that the passenger has
``identifiable links'' to known terrorists or terrorist organizations.
How can the risk assessment process ferret out such links, if the
information it relies on consists of existing government watch lists?
Is it envisioned that the government will compile lists of all persons
who have any link with a known terrorist or terrorist organization?
Wouldn't this be an exceedingly broad list?

    Question 1d. For example, suppose that a passenger once shared an
apartment or college dorm room with a person who is now on a U.S. list
of known terrorists. Would the risk assessment capture this link? If
so, how? Would the risk assessment process check commercial databases,
which may contain records of the passenger's past addresses? Or is it
envisioned that this passenger would already be on a government watch
list, based on this solely on this possibly innocent link?

    Question 1e. The Federal Register Notice says that CAPPS II will
generate a ``risk score'' for each traveling passenger. Is this ``risk
score'' the product solely of the risk assessment process, or does it
does it take into account the results of the authentication step as
well? If the latter, does it factor in any data or information from the
authentication process other than the numeric authentication score?

    Question 1f. Suppose a passenger is not on a government watch list
of known or suspected terrorists. Could the CAPPS II system nonetheless
produce a high enough ``risk score'' to bar the passenger from flying?

    Question 2. Process for Detecting and Correcting Mistakes
    The Federal Register Notice states that a passenger will be able to
request access to the PNR data CAPPS II contains on him/her, and to
request the modification of that data if the passenger believes it is
inaccurate. However, the Notice goes on to observe that because CAPPS
II will not retain data on passengers for any significant time, in most
cases there will be nothing for the passenger to obtain or correct.

    Question 2a. This suggests that, while a procedure for accessing
and requesting modifications to records may be important in other
contexts, this approach really isn't very useful for addressing
mistakes that may occur under CAPPS II. Does TSA agree that CAPPS II is
going to require other types of redress procedures?

    Question 2b. For example, if the system repeatedly flags a
particular individual as suspicious, what options will that individual
have to rectify the problem? Suppose the problem stems from inaccurate
information in a commercial database, which results in a low
authentication score for that individual. In such a case, accessing
records held by the CAPPS II system would be useless. How will the
system deal with mistakes of this kind?

    Question 2c. What is the justification for exempting CAPPS II from
the Privacy Act's data access and correction requirements?

    Question 3. Accuracy of the ``Identity Authentication'' Part of the
Process
    The Federal Register Notice states that ``[o]ne of TSA's primary
purposes in creating this new system is to avoid the kind of
miscommunication and improper identification that has, on occasion,
occurred under the systems currently in use. During the test period,
TSA hopes to confirm that the use of the CAPPS II program will
significantly reduce improper identification.''
    However, a recent Associated Press article (``Feds Don't Track
Airline Watchlist Mishaps,'' by David Kravets, July 23, 2003) reported
that TSA does not keep information on the number of people who are
misidentified and wrongly delayed or barred from flights under the
current system.

    Question 3a. Does TSA have any systematic way of tracking how often
the current system makes mistakes?

    Question 3b. If not, how will TSA determine whether and to what
extent CAPPS II will reduce the number of cases of mistaken identity?

    Question 3c. To what extent will TSA make public the results of its
testing on the accuracy of the identity authentication process? Will
the public be permitted to see the numbers behind any claimed decrease
in misidentification--and to evaluate the rate at which mistakes still
occur under the new system?

    Question 4. Financial and Health Data
    The Federal Register Notice states that the CAPPS II system ``will
not use measures of creditworthiness, such as FICO scores, and
individual health records.'' However, this statement appears in the
explanatory ``Supplementary Information'' section of the Notice. In
what appears to be the official portion of the Notice the part headed
``DHS/TSA 010''--there is no reference to such a limitation.

    Question 4a. What is the legal effect of the statement in the
``Supplementary Information'' section that CAPPS II will not use
individual financial and health information?

    Question 4b. Why is there no comparable statement in the body of
the official Privacy Notice itself?

    Question 4c. The Notice makes the CAPPS II system ``exempt from
publishing the categories of sources of records.'' Why is TSA claiming
this exemption? As a legal matter, wouldn't this permit TSA, a year or
two down the road, to reverse its decision to refrain from using
individual financial and medical data--and to start using such data
without telling the public? How can the public rely on any current TSA
description of what information the CAPPS II system will or will not
use, if TSA is reserving the right to expand or modify the information
it uses without any public notice or scrutiny?

    Question 5. Procedures for Future Changes to CAPPS II
    As noted above, the Notice makes CAPPS II ``exempt from publishing
the categories of sources of records.'' It also gives the CAPPS II
system a security classification of ``classified, sensitive.''
    Given this classified status and the exemptions from the Privacy
Act, could TSA modify significant aspects of the CAPPS II program
without disclosing the changes to the public? To what extent would TSA
have the ability, from a legal perspective, to depart from the CAPPS II
system description set forth in the Notice? Could a future TSA elect to
make changes regarding the scope or operational characteristics of the
CAPPS II system--and do so secretly, without a formal and public
regulatory process? How easily could the various representations and
assurances made in the Notice be withdrawn?

    Question 6. Intended Future Link to Immigration Data
    The Federal Register Notice states that ``[i]t is . . . anticipated
that CAPPS II will be linked with the U.S. Visitor and Immigrant Status
Indicator Technology (US-VISIT) program at such time as both programs
become fully operational, in order that processes at both border and
airport points of entry and exit are consistent.''

    Question 6a. If the sole mission of the CAPPS II system is to
determine whether a passenger may pose a risk to aviation security, why
does the system need to be linked with immigration data? Is it
anticipated that CAPPS II may eventually be used not only for
safeguarding aviation security, but also for enforcing immigration law
for example, for apprehending illegal aliens or visitors who have
overstayed their visas?

    Question 6b. What are the specific ``processes at both border and
airport points of entry and exit'' to which the Notice refers? What are
the specific types of potential inconsistencies that TSA hopes to avoid
by linking the CAPPS II and US-VISIT systems? Please provide some
concrete examples of problems that could arise if the two systems were
not linked.
                                 ______

      Written Questions Submitted by Hon. Frank R. Lautenberg to
Admiral James M. Loy, Hon. Robert C. Bonner, Peter Guerrero, Jeffrey N.
                  Shane and Admiral Thomas H. Collins

    Question for Admiral Loy and Commissioner Bonner. The Department of
Homeland Security (DHS) has proposed cutting the port security grant
program by $105 million. Does the Administration still propose this
cut?

    Question for Admiral Loy and Mr. Guerrero. I am concerned that DHS
and the Transportation Security Administration (TSA) are dealing with
our nation's pressing life and death security needs by playing shell
games with critical resources. Last week, Secretary Ridge announced
that 5,000 new air marshals would be trained, but that these
individuals would come from the existing ranks of custom and
immigrations agents. During high-threat periods, this cross-training
plan might enhance air security but will come at the expense of border
and ground security. Under the Administration's plan to utilize current
immigrations and customs employees to double as air marshals, how will
DHS ensure that, during high-threat periods, there are adequate
personnel to function both in air marshal roles and at the border as
customs/immigrations agents?

    Are any new air marshals currently being trained?

    Question for Admiral Loy and Mr. Guerrero. Similarly, DHS has
recently tried to divert $30 million from the Operation Safe Commerce
pilot program intended to identify and implement the systemic port
security initiation in order to cover a budget shortfall in airport
security. Do you believe Federal port security programs are adequately
funded?

    Question For Undersecretary Shane. Recently, the Columbia Accident
Investigation Board (CAIB) reported its findings on the shuttle
accident on February 1. That Board found an intricate link between the
poor safety culture, poor communication structure, and high level of
outsourcing, or use of contractors, in the program. If the
Administration truly believes that the safety and security of the
American people is a top priority, why does it continue to press for
outsourcing of our air traffic control system? Other countries have
tried privatizing their air traffic control systems, and the results
have been disastrous. What lessons do you feel we can learn from this
CAIB report and from other countries with respect to the U.S. air
traffic control system?

    Question for Admiral Collins. The Maritime Transportation Security
Act of2002 requires DHS to conduct vulnerability assessments of the
nation's 55 largest seaports. At the current rate that they are being
conducted, these assessments will not be completed for another five
years. What is being done to expedite the completion of these
vulnerability assessments?

    Question For Admiral Collins, Admiral Loy, And Commissioner Bonner.
The President has said that the transfer of weapons of mass destruction
into the hands of terrorists is the gravest danger facing U.S. and
global security. Please update me on DHS's efforts to improve the
security of our ports by deploying detectors that can identify
dangerous radioactive material hidden in containers on vessels. Also,
please update me on DHS efforts to designate secure shipping lanes that
meet an objective standard of security for origin-to-destination
shipping.

    Question for Admiral Loy. When does TSA plan to issue standards for
security training of cabin flight crew members?
                                 ______

Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
              Gerald L. Dillingham and Margaret Wrightson
    Question 1. I am concerned that DHS and the Transportation Security
Administration (TSA) are dealing with our Nation's pressing life and
death security needs by playing shell games with critical resources.
Last week, Secretary Ridge announced that 5,000 new air marshals would
be trained, but that these individuals would come from the existing
ranks of custom and immigration agents. During high-threat periods,
this cross-training plan might enhance air security but will come at
the expense of border and ground security. Under the Administration's
plan to utilize current immigration and customs employees to double as
air marshals, how will DHS ensure that, during high-threat periods,
there are adequate personnel both in air marshal roles and at the
border as customs/immigration agents?
    Mr. Dillingham's Answer. DHS's plan does not explicitly address the
adequacy of the current immigration, customs, and air marshal
workforces to address concurrent high threats to border, ground, and
aviation security. Rather, the plan provides for temporarily enhancing
the air marshal workforce to respond to high threats to aviation.
Specifically, according to Secretary Ridge, cross-training immigration
and customs officers in air marshal tactics would give DHS greater
flexibility to adjust its law enforcement resources according to
varying threats and provide a surge capacity during periods of high
threats to aviation. The immigration and customs officers would not be
used as air marshals during every high-threat period; they would be
used as such only when there was a high risk to aviation.
    DHS's cross-training plan could have some benefits, but, as we
recently reported, it also poses training and administrative
challenges.\1\ According to the Secretary, the cross-training for
immigration and customs agents and Federal air marshals will be
centralized. Centralization could eventually produce some cost
efficiencies. However, cross-training will expand the roles and
responsibilities of all three law-enforcement workforces, and a needs
assessment will have to be conducted to identify each workforce's
additional training requirements. Cross-training requirements and
curriculums will also have to be established and approved. In addition,
each affected workforce's organization will have to coordinate the new
training requirements with its other mission requirements as it
schedules its officers for cross-training. Finally, planned changes in
the roles and responsibilities of the Federal law enforcement officers
could have implications for their performance evaluations and
compensation. Currently, the three law enforcement workforces are under
different pay systems and are compensated at different rates. DHS has
efforts under way to deal with these issues.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Aviation Security: Federal Air
Marshal Service Is Addressing Challenges of Its Expanded Mission and
Workforce, but Additional Actions Needed, GAO-04-242 (Washington, D.C.:
Nov. 19, 2003).

    Question 2. Are any new air marshals currently being trained?
    Mr. Dillingham's Answer. New air marshals are currently being hired
and provided basic training at the rate of about one class per month, a
rate sufficient to offset attrition and maintain the current number of
air marshals. According to the Federal Air Marshals Service, there is
no surge in hiring or training forecasted because the goal for hiring
air marshals set by the Secretary of Transportation after September 11,
2001, was met in July 2002, as planned.
    In addition to the required basic training, the Service instituted
a 4-week advanced training course for air marshals in October 2002. All
air marshals hired from October 2001 through July 2002 were required to
complete the course by January 2004. Air marshals hired after August
2002 attend this advanced training course after completing their basic
training. In August 2003, the Service reported that proposed cutbacks
in its training funds would require it to extend the January 2004 date
to mid-2004. According to DHS, the Service's transfer to Immigration
and Customs Enforcement (ICE) will not adversely affect either the
funding for air marshals' training or the schedule for newly hired air
marshals to complete the 4-week training course, since a total of
$626.4 million is being transferred from TSA to ICE. However, it is not
clear how much of the funding will be allocated for training. Given the
importance of training to ensure that air marshals are prepared to
carry out their mission, we believe that maintaining adequate funding
for training should remain a priority.

    Question 3. DHS has recently tried to divert $30 million from the
Operation Safe Commerce pilot program intended to identify and
implement the systemic port security initiation in order to cover a
budget shortfall in airport security. Do you believe Federal port
security programs are adequately funded?
    Ms. Wrightson's Answer. Effective maritime security requires the
ability to put preventive systems, controls, and infrastructure in
place. According to transportation security experts and state and local
government and industry representatives we contacted, funding is the
most pressing challenge to accomplishing this task. While some security
improvements are inexpensive, most require substantial funding.
Additionally, given the large number of assets to protect, the sum of
even relatively less expensive investments can be cost prohibitive.
According to Coast Guard estimates, the cost of implementing the new
International Maritime Organization security code and the security
provisions in MTSA will be approximately $1.5 billion for the first
year and $7.4 billion over the succeeding decade. These are substantial
sums, but it is not clear at this point how the costs will be paid, as
the following examples illustrate.
    Funding difficulties can be seen in the implementation of TSA's
Transportation Worker Identification Card (TWIC). Although no national
estimates of the cost are currently available, they are likely to be
substantial. According to a TSA official, nationwide the agency expects
to issue five to six million identification cards a year from mid-2004
to the end of 2007. In our work at Los Angeles, port authority
officials expressed concern as to how much it may cost to implement
this card and all the steps and equipment associated with it, such as
the installation of card readers throughout the port, the issuance of
cards to port personnel, and adding staff to operate and maintain the
system. A study for the ports of Los Angeles and Long Beach estimates
that it will cost at least $40 million to perform the necessary start-
up tasks. Because of these significant costs, maritime stakeholders are
concerned about who will ultimately end up paying for the TWIC. One
port authority official indicated that the cost may be passed on to
workers as a cost of their employment.
    Another example of funding difficulties can be seen at the Federal
level, where a MTSA requirement for a vessel identification system is
being phased in over time partly because of funding limitations. This
identification system, called the Automated Identification System
(AIS), uses a device aboard a vessel to transmit a unique identifying
signal to a receiver located at the port and to other ships in the
area. This information gives port officials and other vessels nearly
instantaneous information about a vessel's identity, position, speed,
and course. Such a system would provide an ``early warning'' of an
unidentified vessel or a vessel that was in a location where it should
not be. MTSA requires that vessels in certain categories \2\ install
tracking equipment between January 1, 2003, and December 31, 2004, with
the specific date dependent on the type of vessel and when it was
built. Effectively implementing the system requires considerable land-
based equipment and other infrastructure that is not currently
available in many ports. As a result, for the foreseeable future, the
system will be available in less than half of the 25 busiest U.S.
ports.\3\
---------------------------------------------------------------------------
    \2\ All vessels of certain specifications on international voyages;
self-propelled commercial vessels 65 feet or more in length; towing
vessels 26 feet or more in length and more than 600 horsepower; vessels
of 100 gross tons or more carrying one or more passengers for hire; and
passenger vessels certificated to carry 50 or more passengers for hire.
    \3\ In addition to Los Angeles/Long Beach, the other ports that
currently have this system are New York/New Jersey; the mouth of the
Mississippi River; New Orleans; Houston/Galveston; Port Arthur, Texas;
San Francisco; Seattle/Tacoma; Alaska's Prince William Sound; and Sault
Ste. Marie, Michigan.
---------------------------------------------------------------------------
    Installing AIS at the remaining ports depends in part on when
funding will be available. The only ports with the necessary
infrastructure to use AIS are those that have waterways controlled by
Vessel Traffic Service (VTS) systems.\4\ Expanding coverage will
require substantial additional investment, both public and private. The
Coast Guard's budget request for Fiscal Year 2004 includes $40 million
for shore-based AIS equipment and related infrastructure--an amount
that covers only current VTS areas. According to a Coast Guard
official, wider-reaching national implementation of AIS would involve
installation and training costs ranging from $62 million to $120
million. Also, the cost of installing AIS equipment aboard individual
ships averages about $10,000 per vessel, which is to be borne by the
vessel owner or operator. Some owners and operators, particularly of
domestic vessels, have complained about the cost of equipping their
vessels.
---------------------------------------------------------------------------
    \4\ Similar to air traffic control systems, VTS uses radar, closed
circuit television, radiophones, and other technology to allow
monitoring and management of vessel traffic from a central shore-based
location.
---------------------------------------------------------------------------
    As I suggested in my testimony, where the money will come from to
meet these funding needs is not clear. One theme we have heard from
maritime stakeholders is that the current economic environment makes
this a difficult time for the private industry or state and local
governments to make security investments. According to industry
representatives and experts we contacted, most of the transportation
industry operates on a very thin profit margin, making it difficult to
pay for additional security measures. In addition, nearly every state
and local government is facing a large budget deficit for Fiscal Year
2004. For example, the National Governors Association estimates that
states are facing a total budget shortfall of $80 billion this upcoming
year. Given the tight budget environment, state and local governments
and transportation operators must make difficult tradeoffs between
transportation security investments and other needs, such as service
expansion and equipment upgrades. According to the National Association
of Counties, many local governments are planning to defer some
maintenance of their transportation infrastructure to pay for some
security enhancements. At the same time however, the Federal Government
faces its own challenges in finding considerable additional funding.
Due to the costs of security enhancements and the transportation
industries' and state and local governments' tight budget environments,
the Federal Government is likely to be viewed as a source of funding
for at least some of these enhancements. While Federal monies have been
made available, requests for Federal funding for transportation
security enhancements will likely continue to exceed available
resources given the constraints on the Federal budget as well as
competing claims for Federal assistance.
                                 ______

    Response to Written Questions Submitted to Gerald L. Dillingham
    Question 1. I am interested in whether we have enough screeners in
place to facilitate the efficient AND secure movement of passengers
through the airport security systems. I understand that TSA has
recently reduced its screener workforce by 6,000. Could you tell us if
the airports and representatives of airports with whom you recently
spoke had any thing to say about the situation at airports with regard
to whether they had an adequate screening workforce? In GAO's opinion,
what would be the right number of screeners at an airport?
    Answer. According to airport representatives, their needs are not
being matched with the number of available screeners. Some airports
maintain they have too many screeners, while other airports say they do
not have enough screeners. Airport representatives argue that across-
the-board reductions do not necessarily take into account operational
issues at airports, such as peaks and valleys throughout the course of
the day or week. In addition, seasonal demands, such as summer vacation
travel, and demands at airports in certain localities, such as Florida
and Nevada, need to be considered.
    We do not know the ``right'' number of screeners, but that number
should be based on the operational needs of airports and assume the use
of part-time screeners. In addition, the number of screeners needed at
individual airports can be expected to change as explosives detection
systems (EDS) are integrated with airport baggage-handling systems and
used instead of explosives trace detection equipment to screen checked
baggage. Because EDS require fewer screeners than trace equipment, less
manpower will be needed as more EDS are placed in service.

    Question 2. What is the short list of actions that you believe must
still be taken in the area of aviation security and TSA?
    Answer. We believe the following actions still need to be taken in
the area of aviation security:

  <bullet> Further develop a strategic plan and continue implementation
        of a risk-based management approach: As aviation security is
        viewed in the larger context of transportation and homeland
        security, and new potential threats emerge daily, TSA needs
        adequate tools to ensure that its efforts are appropriately
        focused, strategically sound, and achieving expected results.
        As we have recommended, it will be important for TSA to set
        priorities using a risk-based approach so that its resources
        can be focused and directed to those aviation security
        enhancements most in need of implementation. TSA is currently
        developing the National Transportation System Security Plan,
        which is designed to be a comprehensive security strategy for
        the transportation system.

  <bullet> Share and use intelligence information: No technology can
        outperform the use and sharing of intelligence information. It
        is important to identify and handle terrorists and threats
        before they come into the country.

  <bullet> Address funding issues: Securing aviation and other critical
        infrastructure is turning out to be much more costly than
        originally thought, and the Congress is faced with demands for
        additional Federal funding for transportation security that far
        exceed the funds that might be available through the
        traditional processes. Funding approaches may include (1)
        better management of available resources and improved
        accountability systems--including general cost accounting
        systems and contract management and improved communications
        with Congress and aviation stakeholders on changing funding
        needs--and (2) the use of innovative financing options, such as
        letters of intent and an aviation security capital fund.

  <bullet> Accelerate the development and use of security technologies:
        When faced with vast and competing demands for security
        resources, it will be important for TSA to continue its efforts
        to identify technologies, such as next-generation passenger and
        baggage screening technologies that will leverage its resources
        and potentially improve its capabilities.

  <bullet> Improve coordination and communication between TSA and
        airports/local law enforcement: The development of effective,
        collaborative relationships between airports, local emergency
        management agencies, and law enforcement is important to
        coordination and communication. Key to improving coordination
        between TSA and airports is establishing clearly defined roles
        for airport operators and Federal security directors, who are
        responsible for ensuring that standardized security procedures
        are implemented at the Nation's airports.

    Question 3. In your testimony, you describe the challenge of
coordination and communications among different aviation stakeholders.
I'm concerned about this, especially in regards to intelligence
sharing. I'm concerned about the level of intelligence that is being
shared among Federal agencies, which was an identified weakness in our
security prior to 9/11. You note in your testimony that GAO has
examined the status of terrorist watch lists. What were your key
findings in this area with regard to the development of an integrated
database of CIA, FBI, DOD and other government agencies with potential
terrorist connections?
    Answer. In reviewing 12 watch lists maintained by nine Federal
agencies, we found that information was being shared among some of them
but not among others.\1\ Moreover, even when sharing was occurring,
costly and overly complex measures had to be taken to facilitate it. To
promote better integration and sharing of terrorist and criminal watch
lists, we recommended that the Department of Homeland Security, in
collaboration with other departments and agencies that have and use
watch lists, lead an effort to consolidate and standardize the Federal
Government's watch list structures and policies. We recommended that
this collaborative effort include:
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Information Technology:
Terrorist Watch Lists Should Be Consolidated to Promote Better
Integration and Sharing, GAO-03-322 (Washington, D.C.: Apr. 15, 2003).

  <bullet> updating the watch-list information that we reported on to
        develop an architectural understanding of the Nation's current
---------------------------------------------------------------------------
        watch-list environment;

  <bullet> defining the requirements of the future consolidated (or
        ``target'') watch list's architectural environment, including
        requirements that address any agency-unique needs that can be
        justified;

  <bullet> basing the target architecture on the achievement of the
        mission goals and objectives contained in the President's
        homeland security strategy and on congressional direction, as
        well as on opportunities to leverage state and local government
        and private sector information sources;

  <bullet> developing a near-term strategy for implementing the target
        architecture that provides for the integration of existing
        watch lists, as well as a longer-term strategy that provides
        for migrating to a more consolidated and standardized set of
        watch lists;

  <bullet> ensuring that these strategies provide for defining and
        adopting more standardized policies and procedures for watch-
        list sharing and addressing any legal issues affecting, and
        cultural barriers to, greater watch-list sharing; and

  <bullet> developing and implementing the strategies within the
        context of the ongoing efforts of each of the collaborating
        departments and agencies.

    In addition, as we reported earlier this year,\2\ representatives
of numerous state and local governments and transportation industry
associations indicated that the general threat warnings received by
government agencies are not helpful. Rather, they said, transportation
operators, including airport operators, want more specific intelligence
information so that they can understand the true nature of a potential
threat and implement appropriate security measures. In our recent
interviews with airport representatives, they stated that intelligence
information generated at the local level can differ from intelligence
information that is received from the Federal level. Airport
representatives are concerned because there is currently no system to
reconcile these differences in intelligence information. In addition,
airport operators said that it is difficult to assess what is
``actionable intelligence.''
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Transportation Security:
Federal Action Needed to Help Address Security Challenges, GAO-03-843
(Washington, D.C.: June 30, 2003).

    Question 4. I have heard various opinions about the vulnerability
associated with general aviation. On one hand, I have heard it argued
that it is a vulnerability because terrorists could use these types of
aircraft to deliver a dirty bomb or spread a chemical or biological
agent. On the other hand I have heard that the GA community has
significantly enhanced GA security since 9/11. What does GAO see as the
nature and scope of potential vulnerabilities for general aviation?
    Answer. General aviation is vulnerable because general aviation
pilots and passengers are not screened before takeoff and the contents
of general aviation planes are not screened at any point. General
aviation includes more than 200,000 privately owned airplanes, which
are located in every state at more than 19,000 airports. More than 550
of these airports also provide commercial service. In the last 5 years,
about 70 aircraft have been stolen from general aviation airports,
indicating a potential weakness that could be exploited by terrorists.
This vulnerability was demonstrated in January 2002, when a teenage
flight student stole and crashed a single-engine airplane into a
skyscraper in Tampa, Florida. Moreover, general aviation aircraft could
be used in other types of terrorist acts. It was reported that the
September 11 hijackers researched the use of crop dusters to spread
biological or chemical agents.
    Since September 11, 2001, the general aviation community, in
concert with TSA, has taken several steps to increase security. These
steps include the development and publication of plans like General
Aviation Security Best Practices by the New York State Department of
Transportation. Most steps have been voluntary, and no mechanism is in
place to ensure that these actions are effective or being implemented.

    Question 5. Your testimony states that advancements such as CAPPS
II and a trusted traveler program could make screening more efficient.
How? Are these programs key to improvements in the screening process?
What are the hurdles that need to be overcome to move these programs
further along?
    Answer. TSA initiatives, such as the next-generation Computer-
Assisted Passenger Prescreening System (CAPPS II) and registered
traveler program, can improve security by ``making the haystack
smaller'' when looking for the needle (i.e., the terrorists). CAPPS II
would use national security and commercial databases to identify
passengers who could pose risks for additional screening. Under a
registered traveler program, those who voluntarily apply to participate
in the program and successfully pass background checks would receive a
unique identifier or card that would enable them to be screened more
quickly. These initiatives have the potential to be important aspects
of the screening process by enabling TSA to focus its limited resources
where they will have the greatest impact.
    TSA faces a number of challenges that could impede its ability to
begin implementing CAPPS II in the fall of 2004, as called for in its
current plans. Among the most significant are the following:

  <bullet> concerns about travelers' privacy rights and the safeguards
        established to protect passenger data;

  <bullet> the accuracy of the databases being used by the CAPPS II
        system and whether inaccuracies could generate a high number of
        false positives and erroneously prevent passengers from
        boarding their flights or delay passengers;

  <bullet> the length of time that TSA will retain data;

  <bullet> the availability of a redress process through which
        passengers could get erroneous information corrected;

  <bullet> concerns that identify theft, in which someone steals
        relevant data and impersonates another individual to obtain
        that person's low-risk score, may not be detected and thereby
        negate the security benefits of the system; and

  <bullet> obtaining the international cooperation needed for CAPPS II
        to be fully effective, since some countries consider the
        passenger information required by CAPPS II as a potential
        violation of their privacy laws.

    In a previous report,\3\ we identified key policy and
implementation issues that would need to be resolved before a
registered traveler program could be implemented. Such issues include:
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Aviation Security: Registered
Traveler Program Policy and Implementation Issues, GAO-03-253
(Washington, D.C.: Nov. 22, 2002).

  <bullet> the criteria that should be established to determine
---------------------------------------------------------------------------
        eligibility to apply for the program;

  <bullet> the kinds of background checks that should be used to
        certify applicants' eligibility to enroll in the program and
        the entity who should perform these checks;

  <bullet> the security-screening procedures that registered travelers
        should undergo and the differences between these procedures and
        those for unregistered travelers; and

  <bullet> concerns that the traveling public or others may have about
        equity, privacy, and liability.

    Question 6. Your testimony states that Federal Security Directors
are the lynchpin of TSA's efforts to coordinate with airports and local
law enforcement, but you also allude to some coordination problems out
in the field. What's going on, and what can we do to make things
better?
    Answer. According to aviation stakeholders, cooperation between
airport operators and Federal security directors (FSD) has been
improving, but the level of coordination varies across airports. Our
recent discussions with airport representatives indicated that
cooperation and coordination often depend on good working
relationships, based in large part on a clear understanding of
respective roles and responsibilities, between individual airport
operators and FSDs. While some relationships have been successful,
others are not working well, according to airport representatives. For
example, one FSD directed an airport to implement TSA guidance that
contradicted the airport's security plan, which TSA had approved. This
situation was confusing for the airport operator. One potential fix is
additional training to ensure that all FSDs are uniformly implementing
TSA policies.

    Question 7. GAO has done a significant number of studies and
analyses related to human capital issues across the Federal Government
as well as looking at TSA in particular. Now that the agency and its
staff are in place, we are moving more into the area of sustainability
and institutionalizing a high-performance organization. What does GAO
think are the challenges for TSA as it moves into its next phase of
development and what do you think of TSA's efforts to date to meet
those challenges?
    Answer. TSA faces the challenge of strategically managing its
workforce of more than 60,000 people to ensure that this new and
relatively inexperienced workforce expands its skills and becomes a
world-class security workforce. This effort will entail the
establishment of a screener performance management system so TSA will
know where to concentrate its training efforts. Additionally, over the
next several years, TSA faces the challenge of ``right-sizing'' this
workforce as efficiency is improved with new security-enhancing
technologies, processes, and procedures. For example, as explosives
detection systems are integrated with baggage-handling systems, the use
of more labor-intensive screening methods, such as trace detection
techniques and manual searches of baggage, can be reduced. Other
planned security enhancements, such as CAPPS II and the registered
traveler program, also have the potential to make screening more
efficient.
    In January 2003, we reported \4\ that TSA was addressing some
critical human capital success factors by hiring personnel, using a
wide range of tools available for hiring, and beginning to link
individual performance to organizational goals. However, concerns
remain about the size and training of the screener workforce, the
adequacy of the initial background checks for screeners, and TSA's
progress in setting up a performance management system. The next steps
are for TSA to clearly define the roles and responsibilities of its
various offices, provide training for supervisors and managers to
ensure that they are capable supervisors, and continue workforce
planning efforts to have the right number and mix of staff. As a step
in that direction, TSA is currently developing a human capital
strategy, which it expects to be completed by the end of this year.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, Transportation Security
Administration: Actions and Plans to Build a Results-Oriented Culture,
GAO-03-190 (Washington, D.C.: Jan. 13, 2003).

    Question 8. In your testimony before our aviation subcommittee in
April of this year, you told us that in FY 2002 over half a billion
dollars of AIP money had been used for aviation security and had
resulted in some airport capacity projects going unfunded. Your
testimony today again raises the issue of how we can fund needed
security projects and maintain and expand the system's capacity. In
your testimony, you state that one of the key challenges in aviation
security is paying for it. This concerns me, as AIP money is supposed
to go towards other airport development projects. How can we adequately
fund aviation security without such a great reliance on AIP money?
    Answer. As we previously reported to this committee,\5\
consideration should be given to establishing a dedicated and
predictable source of funds for aviation security. Proposed aviation
reauthorization legislation would establish an aviation security
capital fund that would authorize $2 billion over the next 4 years.
This funding would be made available to airports in letters of intent,
and airports would be expected to provide a match of either 5 or 10
percent of a project's costs. This proposed capital fund could minimize
the need to use AIP funds for security projects. We also identified
letters of intent as a funding option that has been successfully used
to leverage private sources of funding. TSA has since signed letters of
intent covering seven airports--Boston Logan, Dallas/Fort Worth,
Denver, Los Angeles, McCarran (Las Vegas), Ontario (California), and
Seattle/Tacoma. Airport representatives said that about 30 more
airports have requested similar agreements.
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Airport Finance: Past Funding
Levels May Not Be Sufficient to Cover Airports' Planned Capital
Development, GAO-03-497T (Washington, D.C.: Feb. 25, 2003).

    Question 9. I see from your testimony today that you solicited the
aviation security concerns and issues of some of the principal
stakeholders in the aviation community including representatives of the
airports, airlines and the general aviation community. Could you share
with us some of what you heard about their key concerns and issues?
    Answer. Key issues raised by aviation stakeholders include the
following:

  <bullet> Coordination--During our discussions, stakeholders noted
        that coordination at the local level depends, in large part, on
        the relationship between the Federal security director and the
        airport operator. Some stakeholders also said that TSA does not
        work with them early in the decision-making process and only
        informs them of decisions after the decisions have been made.
        According to the stakeholders, this lack of coordination leads
        to confusion and resentment, along with policies that are
        difficult to enforce operationally, because the policies have
        been created without any input from the airport operators. In
        addition, this process can be costly. For example, TSA may
        decide on a policy without receiving any input from
        stakeholders and then have to change the policy because the
        airports find the policy unworkable.

  <bullet> Funding--Stakeholders noted funding as a major issue.
        Airports are concerned about the high price of terminal
        modifications for explosives detection systems and other
        security improvements. In addition, airlines are concerned that
        the addition of passenger security fees may lead to fewer
        people flying, at a time when the industry is experiencing
        economic hardship.

  <bullet> Hassle Factor--Stakeholders are concerned about the ``hassle
        factor,'' or the perception of it. For example, stakeholders
        told us that long lines at security checkpoints discourage the
        public from flying and reduce the number of ``short haul''
        trips and business travelers, thereby reducing the airlines'
        income.

  <bullet> General Aviation--Industry representatives are concerned
        that information about general aviation security and its
        vulnerabilities is not based on intelligence data or accurate
        information. For example, representatives said that although
        there are a number of general aviation aircraft located near
        nuclear power plants, a small general aviation plane could not
        damage a plant. Stakeholders from the general aviation
        community told us that they would like to see a risk-based plan
        that addresses general aviation security, including an
        evaluation of the threats, vulnerabilities, and criticalities
        of general aviation.

    Question 10. The expansion of the Federal Air Marshal Service is
one of the enhancements that were initiated after the attacks of 9/11.
Since that time, I have seen several stories in the national media that
could lead one to believe that the service is in total disarray and
raise some serious questions as to whether the service can adequately
fulfill its mission. I see from your testimony that you have a study of
the Federal Air Marshal Service underway. Could you tell the Committee
what issues you are focusing on in your study and when you expect to
have a report? Will you be looking at the effect of moving the FAMs out
of the TSA?
    Answer. We are examining the past, present, and future of the
Federal Air Marshal Service (the Service). The study examines how the
Service has evolved since its post-9/11 expansion, including the extent
to which TSA has developed plans and initiatives to sustain the program
and accommodate its future growth and maturation. We are also looking
at the challenges the Service faces as it moves from the Department of
Transportation to the Department of Homeland Security and from TSA to
the Bureau of Immigration and Customs Enforcement, as well as the
effects of these challenges on its overall sustainability and status as
an integral part of the aviation security system. Within this
framework, we are examining whether any activity, including background
checks and training, compromised aviation security and the Service's
ability to carry out its mission. In addition, we are looking at the
adequacy of efforts to rectify any problems that surfaced. We expect to
issue our report on this work at the end of November.
                                 ______

    Response to Written Questions Submitted by Hon. John McCain to
                           Margaret Wrightson
    Question 1. In your written statement, you identify 5 issues that
bear watching. Could you briefly describe the ones you see as most
important and how they impact port security? What future oversight or
actions would you see as needed in these areas to ensure that MTSA is
effectively implemented and achieves the results Congress intended?
    Answer. The issues we identified, while separate and distinct,
share two common themes related to solving them and ensuring that MTSA
is implemented effectively. Given the limited resources that are
available relative to the needs that exist, attention to both of these
matters is important.

  <bullet> Need for cost-conscious project design and management.
        Several important considerations need to be kept in mind.
        First, DHS and the Coast Guard should avoid putting money into
        duplicative efforts unless there is a compelling business case
        for doing so. Intelligence is one area where we already have
        identified the potential for duplication; the Port Security
        Assessment program (discussed further under question 2 below)
        certainly represents another. Second, DHS cannot afford to
        subsidize activities and improvements that could be readily
        supported by other means. Making sure that TSA enforces
        matching requirements for future port security grants is one
        example of how to avoid such subsidies. Third, where new
        security processes and technologies are being put into place,
        it is worth considering whether there might be innovative
        approaches for sharing costs or operations. For example, to
        implement MTSA's automatic identification system (AIS)
        requirement for a system that identifies and tracks vessels
        entering key ports, expensive new infrastructure will be needed
        at a number of ports. One model worth considering is the one
        already in place at the ports of Los Angeles and Long Beach,
        where the cost for both the infrastructure and ongoing
        operations of a vessel traffic service system was shared
        between the Coast Guard and local and state sources.

  <bullet> Use of risk management in decisionmaking. Risk management is
        important for decisionmaking because of the difficult trade-
        offs the government will likely have to make as it moves
        forward with its security efforts. Ports will always be at risk
        to some degree, but the risk can be reduced. Since spending is
        already constrained by budget limitations, it is important to
        spend as wisely as possible for efforts to reduce the risk to
        ports. Under a risk management approach, for example, decisions
        would be based both on the nature of the threat, the
        vulnerability of an asset at a port, and the criticality (that
        is, the relative importance) of the asset. Infrastructure that
        is both critical and highly vulnerable would be a high priority
        for funding. By comparison, infrastructure that is vulnerable
        to attack but not as critical, or infrastructure that is very
        critical but already well protected, would be lower in
        priority. The importance of such an approach merits continued
        congressional attention to whether the cognizant agencies are
        using it adequately and appropriately.

    Finally, at this early stage of the process, it is difficult to be
certain that the key issues have surfaced. Partly for this reason, a
number of GAO engagements, requested by this Committee and others in
Congress, are still ongoing. Further oversight may be needed in the
future--for example, after the June 30, 2004, implementation deadline
for security plans and the December 31, 2004, deadline for AIS. Other
programs with longer-term implementation schedules, such as the
Transportation Worker Identification Credential (TWIC), may require
additional regular oversight.

    Question 2. You note in your written statement that GAO has
concerns about the Port Security Assessments now under way at the Coast
Guard. What do you think the Coast Guard needs to do to fix this
problem?
    Answer. The Coast Guard and its contractor should take several
actions to improve the Port Security Assessment program. First, to
incorporate knowledge gained from the pilot assessments in Huntington
and Tampa, the Coast Guard should not start any additional port
security assessments until the two pilots have been completed. Second,
rather than comprehensively reassess facilities for which security
assessments have previously been completed, the Coast Guard should
review these assessments, identify gaps, and supplement them as needed.
In this regard, the Coast Guard should give leading roles to its Port
Security Assessment Team and its Captains of the Port in deciding what
facilities or infrastructure need to be assessed, because these
officials have the necessary expertise and experience to decide which
work will add the most value to what is already known about security at
the port. Third, to reduce the burden on port stakeholders and
encourage their participation, the Coast Guard and its contractor
should be more careful about limiting information requests to security-
related matters. Third, Such actions would reduce the burden on
stakeholders and save money and time. Finally, to ensure the quality
and accuracy of the final assessment report, the Coast Guard should
incorporate a quality review into the report drafting process. This
action provides an opportunity for stakeholders to review the draft for
accuracy. We are in discussions with the Coast Guard on these matters,
and they have indicated they are in the process of making changes to
correct the problems.

    Question 3. It's troubling to read in your statement that two years
after September 11 we will not have AIS coverage in 25 of the busiest
ports in America. What is the problem here, and what will it take to
solve it?
    Answer. The main problem is one of insufficient infrastructure at
about half of the 25 ports, and solving it will take both money and
time. AIS is a shipboard device that transmits identity and location
information via radio broadcast as frequently as every two seconds,
both ship-to-ship and ship-to-shore. This allows persons both on shore
and aboard each ship to identify vessels and track their position.
According to the Coast Guard, only 10 ports with Vessel Traffic Service
(VTS) systems will have the infrastructure in place to implement AIS by
December 31, 2004; ports without existing VTS service will require
additional time and investment to develop the necessary infrastructure.
[This additional infrastructure includes transmission towers, control
rooms, and equipment for receiving and transmitting radio signals. The
cost of this infrastructure will likely run into the millions of
dollars at each port.] Expanding coverage will also require the
installation of AIS technology on substantially more vessels and hence
additional private investment. Additionally, legal questions pertaining
to licensing of radio frequencies needed to operate AIS in some areas
may need to be resolved.
    The absence of AIS at a port does not mean that the port is
unprotected. All ports, including those that will not have AIS
implemented by December 31, 2004, are protected by several layers of
defense. For example, vessels coming into U.S. ports must provide 96-
hour advance notice of arrival, sensitive facilities in ports are
surrounded by security zones that preclude intrusion by unauthorized
vessels, and the U.S. Coast Guard and other security organizations
patrol waterways in the ports. Local port control by harbormasters can
also monitor vessels traffic in and out of ports.

    Question 4. Which agency within DHS is the lead agency on maritime
security? Which agency do you believe is best equipped to take the lead
role in maritime security?
    Answer. The Coast Guard is currently the lead agency for maritime
homeland security, while the Navy has primary responsibility for
maritime homeland defense. The Coast Guard has historically performed
the maritime homeland security role, and it--more than any other agency
within DHS--has the resources, expertise, and legal authority to
continue in this capacity. While our work in this area is ongoing, we
have not identified other organizations or entities better situated to
take the lead role in accomplishing the mission of maritime homeland
security. However, the Coast Guard needs to keep two main
considerations in mind as it exercises this responsibility:

  <bullet> Need to balance this role with other missions. It is clear
        that the Coast Guard is facing daunting challenges to fulfill
        these new responsibilities while also meeting its other
        missions. As we testified last spring, there were two missions
        in which the Coast Guard's level of effort (as measured by
        resource hours spent using cutters, boats and aircraft) were
        significantly below historical levels. These were drug
        interdiction (down by about two-thirds between the first
        quarter of 1998 and the first quarter of 2003) and fisheries
        enforcement (down about one-third for the same period). The
        Coast Guard's alignment of missions has been an area of much
        congressional concern, and the Coast Guard has been tasked with
        developing a strategy that outlines how it sees its resources--
        cutters, boats, aircraft, and personnel--being distributed
        across all of its various missions, as well as a time-frame for
        achieving the desired balance among missions. The Coast Guard
        is currently working on this plan but has not yet completed it.

  <bullet> Need for coordination across all of DHS. Although the Coast
        Guard has lead responsibility for maritime security, it cannot
        or should not go it alone in isolation from other DHS
        Directorates or offices. As we have testified, for an effective
        maritime security strategy to be developed and implemented, it
        is critical that the Coast Guard and the other agencies folded
        into DHS deal effectively with a myriad of organizational,
        human capital, process, technology, and environmental
        challenges. Because we recognize the difficulty of this
        enterprise while also working to maintain readiness, we have
        designated the implementation and transformation of DHS--
        including those aspects pertaining to the Coast Guard--as a
        high-risk area.

                                  <all>
</pre></body></html>
